<html>
<title> - DISTRICT OF COLUMBIA APPROPRIATIONS FOR FISCAL YEAR 2004</title>
<body><pre>[Senate Hearing 108-304]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-304

        DISTRICT OF COLUMBIA APPROPRIATIONS FOR FISCAL YEAR 2004

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   on

                           H.R. 2765/S. 1583

  AN ACT MAKING APPROPRIATIONS FOR THE GOVERNMENT OF THE DISTRICT OF 
 COLUMBIA AND OTHER ACTIVITIES CHARGEABLE IN WHOLE OR IN PART AGAINST 
THE REVENUES OF SAID DISTRICT FOR THE FISCAL YEAR ENDING SEPTEMBER 30, 
                      2004, AND FOR OTHER PURPOSES

                               __________

                          District of Columbia
                      District of Columbia Courts
                           Foster Care System
                       Nondepartmental Witnesses

                               __________

         Printed for the use of the Committee on Appropriations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                               __________

85-917              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
SAM BROWNBACK, Kansas                MARY L. LANDRIEU, Louisiana
                    James W. Morhard, Staff Director
                 Lisa Sutherland, Deputy Staff Director
              Terence E. Sauvain, Minority Staff Director
                                 ------                                

                Subcommittee on the District of Columbia

                      MIKE DeWINE, Ohio, Chairman
SAM BROWNBACK, Kansas                MARY L. LANDRIEU, Louisiana
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
TED STEVENS, Alaska (ex officio)     ROBERT C. BYRD, West Virginia (ex 
                                         officio)
                           Professional Staff

                             Mary Dietrich
                        Kate Eltrich (Minority)


                            C O N T E N T S

                              ----------                              

                       Wednesday, March 12, 2003

                                                                   Page
District of Columbia:
    Courts.......................................................     1
    Superior Court...............................................    13
    Court Services and Offender Supervision Agency...............    27
    Public Defender Services.....................................    32

                        Wednesday, April 2, 2003

Foster Care System...............................................    53

                       Wednesday, April 30, 2003

District of Columbia: Courts.....................................   133

                        Wednesday, May 14, 2003

Nondepartmental Witnesses........................................   153

                        Wednesday, June 11, 2003

District of Columbia.............................................   209

 
        DISTRICT OF COLUMBIA APPROPRIATIONS FOR FISCAL YEAR 2004

                              ----------                              


                       WEDNESDAY, MARCH 12, 2003

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:35 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Mike DeWine (chairman) presiding.
    Present: Senators DeWine and Landrieu.

                          DISTRICT OF COLUMBIA

                                 Courts

STATEMENT OF ANNICE M. WAGNER, CHIEF JUDGE, DISTRICT OF 
            COLUMBIA COURT OF APPEALS, CHAIRMAN OF THE 
            JOINT COMMITTEE ON JUDICIAL ADMINISTRATION
ACCOMPANIED BY ANNE WICKS, EXECUTIVE OFFICER FOR THE D.C. COURTS


                opening statement of senator mike dewine


    Senator DeWine. Good morning. The hearing will come to 
order.
    Today I am convening the first fiscal year 2004 budget 
hearing for the District of Columbia. Just 3 weeks ago, the 
President signed the fiscal year 2003 omnibus appropriations 
bill into law. That bill contained, of course, the fiscal year 
2003 District of Columbia appropriations bill along with the 
other ten remaining appropriations bills.
    Senator Stevens deserves high praise for completing these 
bills after taking the Chairman's gavel on January 15. He has 
recently expressed his desire and his intent to complete Senate 
action on all 13 appropriations bills by the August recess.
    With that charge, we are forging ahead in this subcommittee 
to review the fiscal year 2004 budget submissions of each 
Federal agency, as well as Mayor Williams' budget priorities. I 
want to take this opportunity to commend Senator Landrieu, who 
will be joining us in just a moment, our subcommittee's Ranking 
Member and the former chairman of this subcommittee, for her 
past leadership as the Chairman of the committee, and to 
recognize her very hard work to make life better for the 
residents of the District of Columbia.
    Over the years, Senator Landrieu and I have worked together 
to do many things on this subcommittee, but particularly to try 
to protect the interests of children in this city. And I am 
sure that we will continue to reach across the aisle in that 
endeavor. It is a real pleasure to work with Senator Landrieu. 
We have operated this subcommittee on a bipartisan basis. She 
did that when she was the Chairman; and I intend to continue to 
do that during the time that I am chairman.
    Today, as we begin our fiscal year 2004 hearings, I would 
like to share some Federal funding priorities that I currently 
see for our Nation's Capital. First, I intend to ensure that 
the requirements of the Family Court Act, which Senator 
Landrieu and I sponsored, continue to be aggressively pursued. 
In fiscal year 2002 and fiscal year 2003, we appropriated a 
total of $48 million to support the Family Court. Today we are 
anxious to hear how the Court has used its fiscal year 2002 
funds and how it is planning to use its recently appropriated 
fiscal year 2003 funds.
    Having focused for the past 2 years on the Family Court, 
this year we intend to turn our attention to an agency with 
which the Family Court frequently interacts, the Child and 
Family Services Agency. This is the agency, of course, that is 
responsible for helping children in the District obtain 
permanent homes. We plan to hold a series of hearings over the 
next few months to determine the status of the foster care 
system in the city and to explore ways to improve adoption 
opportunities for youngsters in this system.
    And let me just say that we have a series of hearings that 
are planned. We will take whatever time that is necessary 
during the next several years to fully understand and explore 
what is going on in this system. This will be the No. 1 
priority of the subcommittee for the next 2 years. And we will 
take the time, and we will put the energy into it, whatever is 
necessary.
    In addition to pursuing the Family Court's objectives and 
improving the foster care system, I want to ensure that efforts 
to construct the biodecontamination and quarantine facilities 
at Children's Hospital and Washington Hospital Center continue 
to proceed. In last year's budget, Senator Landrieu and I 
prioritized this and set aside money to work in this area.
    In the event of a biological, chemical, or high-yield 
explosive attack, these two hospitals will provide critical 
care to children and adults living in and visiting our Nation's 
Capital. They must be equipped to deal with the consequences of 
terrorist attacks. We provide resources to begin this activity. 
We provided resources to begin this activity in fiscal year 
2003. And we must make sure that we continue this work.
    We also would like to build on the $50 million fiscal year 
2003 Federal investment in the city's combined sewer overflow 
project. This multi-year project will revamp a system that was 
constructed at the end of the 19th Century, and which overflows 
50 to 60 times every year, dumping raw sewage into the 
Anacostia River. Given the demands the Federal Government 
places on this system, we clearly have a responsibility to 
contribute to its much-needed renovations. If we can share the 
cost of this project with the city, we would shorten the 
completion time from 40 to 15 years.
    By cleaning up the river, we would expedite the city's 
proposed waterfront development initiative. This development 
would ultimately provide recreational and commercial 
opportunities for D.C. residents and visitors.
    Clearly, there are many worthy activities which will place 
demands on the always limited resources in the D.C. 
appropriations bill. So today we will begin to discuss those 
funding needs by listening to testimony from the District of 
Columbia Courts and the Court Services and Offender Supervision 
Agency. Under the Capital Revitalization and Self-Government 
Improvement Act of 1997, of course, the Federal Government is 
required to finance the District of Columbia Courts and CSOSA.
    As I mentioned earlier today, I want to hear how the Family 
Court has used its fiscal 2002 funds and how it is planning to 
use its recently appropriated fiscal year 2003 funds. And as we 
discussed, these have been two very top priorities for both 
Senator Landrieu and myself.
    We would also like to learn what progress the Court is 
making in meeting its objectives of: (1) implementing one 
family, one judge; (2) hiring experienced and qualified 
judicial officers; (3) providing training for judges and all 
staff; (4) ensuring accountability of attorneys, judges, and 
staff; (5) providing better technology to cases; (6) initiating 
alternate dispute resolution; and (7) providing better 
facilities to provide a safe, family-friendly environment.
    The Courts have requested $193 million for fiscal year 
2004. This is $32 million more than fiscal 2003 enacted levels 
and $30 million more than President Bush's budget request. I 
would like to hear from our witnesses how the Courts plan to 
use these additional resources and how this increase will 
contribute to the success of the Family Court, as well as the 
operations of the Superior Court and the Court of Appeals.
    We are particularly interested to learn how the Courts' 
facilities plan will be implemented and the time line, the time 
line for completion of these important Capital projects. These 
Capital projects will play a key role in providing a safe, 
family-friendly environment, as required by the Family Courts 
Act.
    The Court Services and Offender Supervision Agency has 
requested $166.5 million for fiscal year 2004, which is an 
increase of $11 million over fiscal year 2003 enacted level and 
the same as the President's budget request. Again, we would 
like to hear how these additional resources will be used to 
further the agencies' mission and goals.
    Witnesses will be limited to 5 minutes for their oral 
remarks. Copies of your written statements will be placed in 
the record in their entirety.
    Let me now turn to the Ranking Member of the committee, a 
person who I have enjoyed serving with and the former chairman 
of this committee, Senator Landrieu.
    Senator Landrieu.


                 STATEMENT OF SENATOR MARY L. LANDRIEU


    Senator Landrieu. Thank you, Mr. Chairman. I am looking 
forward to working with you and starting out this year. And I 
welcome our witnesses this morning from our Federal agencies, 
particular the D.C. Courts, the Court Services and Offender 
Supervision Agency. You all represent the core of the 
District's appropriations bill and the center of our attention 
this morning.
    As you all know, the subcommittee and the whole Congress 
exercises a distinct function given the unique position of the 
District, not being a State and having a special designation as 
a district. We take that responsibility very seriously. And 
even with our limited resources, we are going to do our very 
best in that regard.
    I would just like to take a moment, Mr. Chairman, if I 
could, to briefly review some of the accomplishments of last 
year and then talk about one or two specific areas of promise 
that I see in the year ahead.
    First of all, I think the Chairman and I worked very well 
together to help the District to secure emergency preparedness 
funding in this very difficult time. Every study we have shown 
and both of our experiences on other committees, particularly 
my experience as the former chair of the Emerging Threats 
Subcommittee of Armed Services, leads me to believe that the 
District is, unfortunately, the No. 1 target in the United 
States for terrorism. The District of Columbia and New York 
continue, unfortunately, to hold that designation. And so this 
committee takes very seriously our responsibility in terms of 
continuing to try to support the District in its defenses 
against terrorism and standing up its emergency preparedness.
    Strengthening public schools and working with the District 
to promote more school choice through charters is something I 
believe that we made a major step and accomplishment in last 
year, particularly with the Chairman's help supporting our 
children and families and standing up this Family Court, as we 
now engage to see where we stand in that effort. That was truly 
an accomplishment, one we are proud of and one we look forward 
to continuing to work on as we strengthen the child welfare 
system in the District as it experiences great challenges, as 
does almost every major city, and in many communities in the 
United States.
    I also think, as the Chairman just mentioned, of our 
efforts, as much as we can be supportive, of revitalizing 
neighborhoods, particularly the Anacostia region with the 
revitalization of the river. And it is going to take a strong 
Federal commitment to help the District in that endeavor. But 
as the Chairman outlined, the economic benefits to this region 
are pretty substantial and quite exciting.
    So I am happy to be working in those four areas. I want to 
say publicly that I share the Mayor's goal of trying to 
increase this city's population. I would imagine that every 
mayor in the country would like to achieve the same, to have 
every city growing in its population, as opposed to decreasing. 
And I share his view that one of the keys to growth of a city 
is the strength and dynamic nature of a school system. And I 
look forward to working with him through this committee, 
perhaps, Mr. Chairman, piloting some real creative 
opportunities to encourage middle-class families to stay in the 
District. We can use the schools as a real centerpiece to 
neighborhood revitalization and economic development, as I 
think is appropriate and, along those lines, continuing to 
strive for excellence in all of our schools, and really want to 
commend the school board for their work in beginning their 
attempts at reforming special education.
    I mentioned our support of the Family Court. That 
commitment remains strong. And I would just like to say, 
though, on a more pointed note that I was concerned about--and 
I think the Chairman shares this concern--about the difference 
in the originally requested amount for the Courts and then the 
amount that we are considering today. The request for Capital 
construction was two-thirds less funding from the first 
documents that we saw until the hearing today.
    I think that in order for us to continue to build 
confidence in the Congress about the Courts' ability to go 
through this reform plan, to stand up these new buildings, that 
we have to be very careful.
    I am committed to working with you, as I have in the past 
as the Chairman of this committee, to ensure that every child 
in the District has access to justice before the court, and 
families are strengthened, not made more fragile by the system. 
I am committed to addressing the resources and management 
issues of the Family Court, so that we can continue to build 
confidence in our reform efforts.


                           PREPARED STATEMENT


    So with that, Mr. Chairman, I will submit the rest of my 
remarks for the record and thank you for conducting this 
hearing and I think that we have made quite a few 
accomplishments in the areas that I outlined and look forward 
to a very promising year to come.
    Thank you.
    [The statement follows:]

             Prepared Statement of Senator Mary L. Landrieu

    I would like to welcome the witness from our Federal agencies, the 
D.C. Courts and the Court Services and Offender Supervision Agency 
(CSOSA). You are really the core of the D.C. Appropriations bill and 
the center of our attention. This Subcommittee exercises the ``State'' 
oversight function for the District, similar to how other cities and 
States interact.
    The D.C. Appropriations bill, under my chairmanship last year and 
continuing with Mr. DeWine, has charted a course to support targeted 
investments in the District. Congress is partnering with the District 
by enhancing security and emergency preparedness; strengthening schools 
and education standards; supporting Family Court and child welfare; 
revitalizing neighborhoods. These three areas support the D.C. Mayor 
Anthony Williams' goal to increase the population of the city by 
100,000 people in the next 10 years. People want good schools and 
dynamic, safe neighborhoods.

             ENHANCING SECURITY AND EMERGENCY PREPAREDNESS

    In fiscal year 2002 and fiscal year 2003 the Federal Government 
committed over $250 million to equipping and training D.C. first 
responders, creating a first-rate emergency response plan, and 
effective evacuation plan. Last year, Senator DeWine initiated an 
effort to preparing area hospitals to respond to bioterrorism, and I 
look forward to continuing this year.

             STRENGTHENING SCHOOLS AND EDUCATION STANDARDS

    The first accomplishment from fiscal year 2003, and most important 
in my mind, is the Federal investment in strengthening successful 
charter schools in the District and supporting school choice ($17 
million). The District is now increasing access to critical financing 
to help create great facilities. Now we must look to reforming 
management of schools and providing more technical assistance for 
facilities and best practices.
    This year I would like to explore with Chairman DeWine a 
partnership with the District to create ``community building charter 
schools''. These schools would be a model for educational advancements 
and really be a community center for the neighborhood.
supporting the family court in the district and reforming child welfare
    I am proud that this Committee ensured that the District received 
sufficient funding for the new Family Court. In fiscal year 2002 $23.3 
million was appropriated and fiscal year 2003 followed up with $29.6 
million for new staff and capital improvements. I do have some 
questions as to how the Courts have implemented the Family Court Act 
with these funds, but it is clear Congress has vigorously supported 
this new court.
    This year, I understand Chairman DeWine is interested in working on 
child welfare. I support this endeavor and believe we can use the 
District as a model for reforming the broken systems in so many other 
States (e.g. California, New Jersey). Recently, I was discussing how 
States are adhering to the Adoption and Safe Families Act (ASFA), and 
the District of Columbia was mentioned as a model for an excellent 
plan. Now, we must work on implementation and adequate resources.

                    REVITALIZATION OF NEIGHBORHOODS

    In fiscal year 2003 we invested in clean-up of the Anacostia River 
and development of parks and recreation ($55 million). The development 
of the waterfront spurs economic development and revitalizes 
neighborhoods, like SW Waterfront and former D.C. General Hospital 
campus. I will continue to make a priority of cleaning the river, 
creating beautiful parks and recreation opportunities, and revitalizing 
communities.
    In this hearing we will discuss the budget requests of the D.C. 
Courts and CSOSA. I am very concerned about the Courts' ability to 
budget and manage its resources. The Courts originally requested $293.2 
million for fiscal year 2004; then 2 days before the hearing, the 
Courts and GSA determined that two-thirds less funding than originally 
requested for Capital Construction would be necessary. The Courts' 
revised request reduced the Capital Construction request from $145.6 
million to $46.9 million. The total revised request is $194.5 million. 
The Senate has fought for additional funding for the Courts, especially 
to improve facilities. I am concerned that the Courts do not know what 
they need and don't know how to support the request. This approach is 
not helpful.
    I am committed to working hand-in-hand with the Courts and the City 
to ensure that every child currently in the system benefits from Family 
Court Reform and does not suffer the fate of too many children that 
have been failed. Committed to addressing resource and management 
issues of the Family Court and ensure funding is expended well.
    The mission of the Court Services and Offender Supervision Agency 
is varied, but the purpose is to ensure public safety while also 
helping District residents re-enter their community. CSOSA supervises 
approximately 15,900 offenders, 8,000 defendants at any given time. I 
commend CSOSA for reducing caseloads from over 100, before the 
Revitalization Act, to current levels of 56 cases under general 
supervision. Additionally, I encourage the investment to reduce 
caseloads further to 50 cases per officer in fiscal year 2004. I am 
also interested in the specific steps the agency is taking to 
minimizing recidivism, such as the drug treatment options and the 
Faith-based Initiative.
    I am particularly happy to see that the Public Defender Service is 
continuing your rigorous training program for court-appointed 
attorneys. I look forward to hearing about representation your agency 
provides to juveniles with disabilities in the delinquency system. We 
would appreciate your views on how the special education system serves 
delinquent juveniles.
    I appreciate your attendance today and look forward to your 
testimony. Thank you.

    Senator DeWine. Senator Landrieu, thank you very much.
    Let me introduce very briefly our first panel. Judge Wagner 
is the Chief Judge of the District of Columbia Court of Appeals 
and Chair of the Joint Committee on Judicial Administration. 
Accompanying Chief Judge Wagner for questions is Ms. Anne 
Wicks, Executive Officer of the D.C. Courts. We welcome both of 
you today. Thank you very much.
    The Honorable Rufus King is the Chief Judge of the Superior 
Court of the District of Columbia. Accompanying Chief Judge 
King for questions today is the Honorable Lee Satterfield, 
presiding judge of the Family Court of the Superior Court of 
the District of Columbia. We welcome both of you.
    We have received your written testimony. We would ask you 
just to summarize. And we would ask both of you to confine your 
opening statement to 5 minutes and just summarize what you 
think is the most important thing for us to know. As I have 
said, we do have your written statement, and we will take that 
into consideration. And then we will go to questions.
    Thank you very much.
    Judge Wagner.

                     STATEMENT OF ANNICE M. WAGNER

    Judge Wagner. Good morning, Mr. Chairman, Senator Landrieu. 
I want to first of all thank you for allowing us the 
opportunity to discuss the fiscal year 2004 budget request of 
the District of Columbia Courts. I am appearing as Chair of the 
Joint Committee on Judicial Administration which submits the 
budget and is responsible for that by statute.
    Of course, I can only highlight what it is that we want to 
do. But I think a backdrop is important. Unquestionably, we 
live in a new environment facing new challenges to our Nation, 
our Nation's Capital, and our court system. But whatever 
challenges we face, the fair and effective administration of 
justice remains crucial to our way of life in America.
    The District of Columbia Courts are committed to meeting 
these new challenges. We have been steadfast in our mission, 
which is to administer justice fairly, promptly, and 
effectively. At the same time, we have been enhancing our 
security systems and emergency preparedness activities in order 
to protect all people who come in our courts and to ensure 
continuity of operations in a challenging environment.
    We are undergoing significant changes to meet the 
challenges of new technologies and working to provide the 
Courts of the jurisdiction with a sound infrastructure. The 
Courts are committed to continued fiscal prudence and sound 
fiscal management. Through our strategic goals, the Courts do 
strive to provide fair, swift, and accessible justice, enhance 
public safety, and ensure public trust and confidence in our 
justice system.
    I wish to mention that we do appreciate the support that 
this subcommittee has given us, which makes possible the 
achievements of our goals for this community.
    To support our mission and strategic goals in fiscal year 
2004, the D.C. Courts submitted a request for $293 million for 
Court operations and Capital improvements. I hasten to add that 
we have alerted you that there may be a need to revise the 
Capital improvements request because of new developments with 
the General Services Administration.
    The original amount of our capital budget included the 
estimated full project costs, because we were originally 
informed by our partners, GSA, that full funding was required 
at the beginning of the projects. It is our understanding that 
this has been altered, the acquisition approach has been 
altered, thereby changing the cash flow requirements for the 
next fiscal year.
    It was only this past Monday that we were informed that we 
may no longer require full construction funding in fiscal year 
2004. Therefore, it is important for the Courts to have an 
opportunity to confer with GSA officials and determine the 
impact of these changes on the cost and the schedule of these 
projects in order to provide this subcommittee with the best 
information available. It would be helpful if you would permit 
us a very brief period to do that and then to get back to you 
on this particular aspect of our budget request.
    To build on past accomplishments and to support essential 
services to the public in the Nation's Capital, investment in 
technology, security, infrastructure, and strategic management 
are essential priorities in 2004. Only by investing in these 
critical areas will we be in a position to ensure that 
information technology is capable of meeting today's demands 
and that the type of security necessary to protect our citizens 
and our institution are in place and that our facilities are 
safe, healthy, and reasonably up to date.
    The D.C. Courts operate within four separate buildings in 
Judiciary Square. Maintenance and modernization to these 
buildings is quite costly. And the Courts' capital budget has 
not been adequate to meet these needs in the past. Fundamental 
costs to bring these facilities up to par have been quantified 
in a recently completed building evaluation report prepared for 
the Courts by the General Services Administration. The capital 
budget request would include funds to meet these needs.
    The capital budget request does reflect the significant 
research, analysis, and planning incorporated in the D.C. 
Courts' first-ever master plan for the D.C. Courts' facilities. 
In the master plan process, GSA analyzed the Courts' current 
and future space needs, particularly in light of the 
significantly increased space needs of the Family Court.
    The key element for meeting the Courts' space needs is the 
restoration of the Old Courthouse to house the D.C. Court of 
Appeals, which would move out of the Moultrie Building, thereby 
making additional space available in the Moultrie Courthouse 
for the Superior Court to accommodate the Family Court and 
other operations.
    I will only mention, and I will not even develop it, but 
just to say that in addition to our master space plan, on which 
we are prepared to answer questions, I should mention that our 
funding is directed toward enhancing public safety, investing 
in information technology, and investing in accurate and 
complete trial records. And you have the exact amounts that we 
are requesting for this. In addition, we have requested funding 
for attorneys who provide legal services to the indigents to 
increase their hourly rate to $90.

                           PREPARED STATEMENT

    I will conclude now, Mr. Chairman and Senator Landrieu. We 
have long enjoyed, at the District of Columbia Courts, a 
national reputation for excellence. We are proud of the Courts' 
record of administering justice fairly, accessibly, and in a 
cost-efficient manner. Adequate funding for the Courts' 
critical priorities in 2004 is essential if we are to continue 
to provide high-quality service to the community in the future.
    We do look forward to working with you throughout the 
appropriations process. And thank you for this opportunity to 
appear before you today. We will be prepared to answer your 
questions on the items that you mentioned.
    [The statement follows:]

                 Prepared Statement of Annice M. Wagner

    Mister Chairman, Senator Landrieu, thank you for this opportunity 
to discuss the fiscal year 2004 budget request of the District of 
Columbia Courts. I am Annice Wagner, and I am appearing in my capacity 
as the Chair of the Joint Committee on Judicial Administration in the 
District of Columbia and Chief Judge of the District of Columbia Court 
of Appeals. As you know, the Joint Committee is the policy-making body 
for the District of Columbia Courts. By statute, its responsibilities 
include, among others, general personnel policies, accounts and 
auditing, procurement and disbursement, management of information 
systems and reports and submission of the annual budget request to the 
President and Congress for our court system. We are a two-tier system 
comprised of the D.C. Court of Appeals, our court of last resort, and 
the Superior Court of the District of Columbia, a trial court of 
general jurisdiction, which includes our Family Court. Administrative 
support functions for our Courts is provided by what has come to be 
known as the Court System.
    On behalf of the D.C. Courts, the Joint Committee has submitted a 
detailed request for the budgetary resources essential to the 
administration of justice in fiscal year 2004. My remarks this morning 
will summarize the request and highlight our most critical priorities. 
With me this morning are Chief Judge Rufus King III, the chief judge of 
our trial court and a member of the Joint Committee, and Ms. Anne 
Wicks, the Executive Officer for the Courts and Secretary to the Joint 
Committee. We are prepared to answer questions concerning the budget 
request for the courts, along with Judge Lee Satterfield, the presiding 
judge of our new Family Court.

                              INTRODUCTION

    Unquestionably, we live in a new environment, facing new challenges 
to our Nation, our Nation's capital and our court system. Whatever 
challenges we face, the fair and effective administration of justice 
remains crucial to our way of life. The District of Columbia Courts are 
committed to meeting these new challenges. We have been steadfast in 
our mission, which is to administer justice fairly, promptly, and 
effectively. At the same time, we have been enhancing our security 
systems and emergency preparedness activities in order to protect all 
of the people who come to our courts and to ensure continuity of 
operations in a challenging environment. We are undergoing significant 
changes to meet the challenges of new technologies and working to 
provide for the courts of this jurisdiction a sound infrastructure. The 
Courts are committed to continued fiscal prudence and sound fiscal 
management. Through our strategic goals, the Courts strive to provide 
fair, swift, and accessible justice; enhance public safety; and ensure 
public trust and confidence in the justice system. We appreciate the 
support that this Subcommittee has given us that makes possible the 
achievement of these goals for this community.
    To support our mission and strategic goals in fiscal year 2004, the 
D.C. Courts submitted a request of $293 million for court operations 
and capital improvements. In addition, the Courts request $44,701,000 
for the Defender Services account. The operating budget request 
includes: $9,271,000 for the Court of Appeals; $85,800,000 for the 
Superior Court; and $52,520,760 for the Court System. Our original 
submission for capital improvements was in the amount of $145,621,000. 
This amount included the estimated full project costs because we had 
been advised by the General Services Administration (GSA), our partner 
for capital projects, that full funding was required at the beginning 
of the projects. It is our understanding that the GSA has altered its 
construction acquisition approach, thereby changing the cash flow 
requirements for the next fiscal year. It was only this past Monday 
that we were informed that GSA may no longer require full construction 
funding in fiscal year 2004. Therefore, it important for the Courts to 
confer with GSA officials and determine the impact of these changes on 
the cost and schedule of these projects in order to provide the 
Subcommittee with the best information available. It would be helpful 
if you would permit us a brief period for that purpose.
    The demands on the D.C. Courts require additional resources in 
fiscal year 2004. To build on past accomplishments and to support 
essential services to the public in the nation's capital, investment in 
technology, security, infrastructure, and strategic management are 
essential priorities. Only by investing in these critical areas will 
the Courts be in a position to ensure that information technology is 
capable of meeting today's demands; that the type of security necessary 
to protect our citizens and our institution are in place; and that our 
facilities are in a safe and healthy condition and reasonably up-to-
date. Focus on these capital areas is particularly critical now to meet 
each of these needs and to ensure that the quality of justice is not 
compromised.
    The Courts' fiscal year 2004 request is a fiscally responsible 
budget that continues to build on our achievements. We are particularly 
proud of our progress with a number of initiatives. These include:
  --Implementation of the District of Columbia Family Court Act of 
        fiscal year 2001 (enacted in January 2002). To date, the Courts 
        have developed a detailed implementation plan, hired nine new 
        magistrate judges, initiated space improvements, and 
        transferred the cases of more than 3,000 children to Family 
        Court judges committed to achieving permanent family 
        placements;
  --Initiation of the Integrated Justice Information System (IJIS) 
        project, a major capital investment, which will ensure 
        coordinated and efficient case processing and enhance court 
        operations. The IJIS project received a favorable GAO review 
        which included several useful recommendations currently being 
        implemented by the Courts;
  --Increased access to justice through community-based initiatives, 
        including the Criminal Division's Community Court and the 
        Domestic Violence Unit's satellite intake office in Southeast 
        Washington. I believe Chief Judge King will be providing more 
        information on these very important court community efforts.
  --Development of the first Master Plan for D.C. Courts Facilities, 
        which outlines the Courts' space requirements and provides a 
        blueprint for optimal space utilization, both short-term and 
        long-term;
  --Recognition of sound fiscal management practices, by receiving from 
        an independent audit firm, an ``unqualified'' opinion for the 
        third year in a row in accordance with OMB Circular No. A-133 
        (Audits of States, Local Governments and Non-Profit 
        Organizations);
  --Continued enhancements to the Courts' management of the Defender 
        Services account, through expeditious processing of payments to 
        attorneys representing indigent defendants, major revision of 
        the Courts' plan for the provision of indigent defense, and 
        assumption of responsibility for issuing payment vouchers to 
        CJA attorneys from the Public Defender Service to enable 
        accurate estimation of the Courts' future fiscal obligations;
  --Conclusion of an independent study of staffing levels by Booz, 
        Allen and Hamilton that provides data to facilitate the most 
        effective deployment of limited staff as well as a software 
        tool to assist in the determination of necessary staffing 
        levels; and
  --Expansion of court-wide strategic planning, business process re-
        engineering, and implementation of key aspects of the 
        Government Performance and Results Act (GPRA) to ensure that 
        the Courts address critical priorities and issues in a 
        strategic manner to achieve specific and measurable results.

              CRITICAL FISCAL YEAR 2004 BUDGET PRIORITIES

    To permit the Courts to continue to meet the needs of the community 
and the demands confronting the District's judicial branch, adequate 
resources are essential. The most critical issue facing the D.C. Courts 
is sufficient capital funding to address the Courts' critical space 
shortage and deteriorating infrastructure. Unless addressed, the 
functional capability of the Courts will decline and the quality of 
justice in the District of Columbia will be compromised. The Courts' 
fiscal year 2004 request addresses these requirements by:
    Investing in Infrastructure.--The D.C. Courts operate within four 
separate buildings in Judiciary Square. Maintenance and modernization 
to buildings of this age are quite costly, and the Courts' capital 
budget has not been adequate to meet these needs. Fundamental costs to 
bring these facilities up to par have been quantified in a recently 
completed Building Evaluation Report prepared for the Courts by GSA. 
The capital budget request of the Courts includes funds to meet these 
needs.
    The Courts' capital budget also reflects the significant research, 
analysis, and planning incorporated in the D.C. Courts' first-ever 
Master Plan for D.C. Courts' Facilities. In the master plan process, 
GSA analyzed the Courts' current and future space needs, particularly 
in light of the significantly increased space needs of the Family 
Court. A key element to meeting the Courts' space needs is the 
restoration of the Old Courthouse to house the D.C. Court of Appeals, 
thereby making additional space available in the Moultrie Courthouse 
for the Superior Court to accommodate the Family Court and other court 
operations.
    The restoration of the Old Courthouse is projected to total $84 
million. The centerpiece of the historic Judiciary Square area, the Old 
Courthouse is one of the oldest buildings in the District of Columbia. 
Inside the Old Courthouse, Daniel Webster and Francis Scott Key 
practiced law, and John Surratt was tried for his part in the 
assassination of President Abraham Lincoln. The architectural and 
historical significance of the Old Courthouse, built from 1821 to 1881, 
led to its listing on the National Register of Historic Places and its 
designation as an official project of Save America's Treasures. The 
structure is uninhabitable in its current condition and requires 
extensive work to meet health and safety building codes. Restoring this 
historic landmark will meet the urgent space needs of the Courts and 
preserve its rich history for future generations.
    The Courts' capital budget also includes a total of $52.3 million 
for the Moultrie Courthouse Expansion, additions planned for the south 
side (C Street) and Indiana Avenue entrance of the courthouse. The C 
Street addition will complete the facilities for the Family Court, 
providing a separate courthouse entrance for the Family Court, child 
protection mediation space, increased Child Care Center space, and safe 
and comfortable family-friendly waiting areas. The addition also will 
permit the consolidation of Family Court related operations, to include 
the Social Services Division (the District's juvenile probation 
operation) and District government social service agencies that provide 
needed services to families and children in crisis. A portion of the 
addition will meet critical space needs for Superior Court operations.
    Enhancing Public Security.--The main courthouse, the Moultrie 
Building, is one of the busiest in this city. It is reported that as 
many as 10,000 people come into this building daily. In order to 
address issues affecting the security of these thousands of individuals 
in the aftermath of September 11, 2001, the Courts request $1,025,413 
to finance additional operational security measures, and $6,500,000 in 
capital funding to finance facility security improvements.
    Investing in Information Technology (IT).--To achieve the Courts' 
goal of a case management system that provides accurate, reliable case 
data across every operating area and of making available appropriate 
data to the judiciary, the District's child welfare and criminal 
justice communities and the public, the Courts request $4,163,347 in 
operating funds in fiscal year 2004 for IT infrastructure enhancements 
and operational upgrades and implementation of the disciplined 
processes GAO recommends for the IJIS project. In addition, the Courts' 
capital budget request includes an additional $11 million to continue 
implementation of IJIS courtwide.
    Expanding Strategic Planning and Management.--To support long-range 
strategic planning and targeted organizational performance measurement 
and assessment at the Courts, $615,000 is requested for an Office of 
Strategic Management. This request would enable the Courts to build on 
the current strategic planning effort by coordinating enterprise-wide 
projects and enhancing the performance measurement capability of the 
Courts. The funds would finance performance management software, 
training of personnel, and staff to collect and analyze performance 
data, prepare reports, and perform strategic planning, and coordination 
function.
    Investing in Human Resources.--To help the Courts attract, develop, 
and retain highly qualified employees and address the projected 
retirement of a large proportion of our most experienced personnel (25 
percent of the Courts' workforce, and 50 percent of those in top 
management positions, are eligible to retire within the next 5 years), 
$675,000 is requested for succession planning, leadership development, 
and additional employee benefits.
    Serving the Self-Represented.--To enhance equal access to justice 
for the more than 50,000 litigants without lawyers who come to the 
courthouse each year, $1,212,000 is requested for staff and space to 
establish a self-representation service center. This initiative would 
use best practices and build on plans for informational kiosks, funded 
in fiscal year 2003, and very limited pro bono services currently 
available.
    Investing in Accurate and Complete Trial Records.--The Courts' 
fiscal year 2004 request includes $1,624,000 to improve the production 
of the record of court proceedings. Accurate and complete court records 
are critical to ensure a fair trial and to preserve a record essential 
for appeal to the highest level. The request includes $880,000 to 
enhance the Courts' digital recording capabilities in the Courts' 80+ 
courtrooms and $744,000 for 12 additional court reporters.
    Strengthening Defender Services.--In recent years, the Courts have 
devoted particular attention to improving the financial management and 
reforming the administration of the Defender Services accounts. For 
example, the Courts significantly revised the Criminal Justice Act 
(CJA) Plan for representation of indigent defendants and issued 
Administrative Orders to ensure that CJA claims are accompanied by 
adequate documentation and that highly qualified attorneys participate 
in the program. The Courts have assumed from the Public Defender 
Service responsibility for issuing vouchers to attorneys. This will 
enable the Courts to estimate more accurately program obligations and 
project budgetary requirements. The Courts request $88,000 in the 
fiscal year 2004 operating budget to build on these initiatives and 
exert greater management control over Defender Services.
    In the Defender Services account, the Courts have requested 
additional funds to increase the hourly rate for attorneys who provide 
legal services to the indigent. The first rate increase for attorneys 
in nearly 10 years, to $65/hour, was implemented in March 2002. In 
fiscal year 2004 the Courts request an increase from $65 to $90 an 
hour, to keep pace with the rate paid court-appointed attorneys at the 
Federal courthouse across the street from the D.C. Courts.
    Slightly over $16 million of the fiscal year 2003 enacted level for 
Defender Services was financed from the account's unobligated balance. 
Accordingly, the Courts request restoration of the base appropriations, 
as well as additional funding to finance the attorney compensation 
increase in fiscal year 2004.

                    APPROPRIATIONS LANGUAGE CHANGES

    In the fiscal year 2004 budget submission, the Courts request two 
language provisions to enhance their ability to serve the public in the 
Nation's Capital. First, the Courts request limited authority to 
transfer funds among our four appropriations to enhance financial 
management of the Federal Payment appropriation. This language is 
similar to the provision in the D.C. Appropriations Act, 2002, Sec. 
109(b) authorizing the District government to transfer local funds. 
Second, the request includes language to permit the Courts to appoint 
and compensate counsel in adoption cases to protect the rights of 
parents and children, to facilitate a careful examination of factors 
designed to ascertain the best interests of the child, and to ensure 
the finality and permanency of the adoption.

                               CONCLUSION

    Mister Chairman, Senators, the District of Columbia Courts have 
long enjoyed a national reputation for excellence. We are proud of the 
Courts' record of administering justice in a fair, accessible, and 
cost-efficient manner. Adequate funding for the Courts' fiscal year 
2004 priorities is critical to our success, both in the next year and 
as we implement plans to continue to provide high quality service to 
the community in the future. We look forward to working with you 
throughout the appropriations process, and thank you for the 
opportunity to discuss the fiscal year 2004 budget request of the 
Courts.
    Chief Judge King, Judge Satterfield, Anne Wicks, and I would be 
pleased to address any questions.

    Senator DeWine. Thank you. We will hold our questions until 
Judge King has a chance to give his statement.
    Judge King.

                          D.C. Superior Court

STATEMENT OF RUFUS KING, III, CHIEF JUDGE, SUPERIOR 
            COURT OF THE DISTRICT OF COLUMBIA
ACCOMPANIED BY LEE SATTERFIELD, PRESIDING JUDGE, FAMILY COURT OF THE 
            DISTRICT OF COLUMBIA

    Judge King. Thank you. Good morning, Chairman DeWine and 
Senator Landrieu. I appreciate the opportunity to join Chief 
Judge Wagner in presenting the D.C. Courts' 2004 budget request 
to the subcommittee and to review some of the Courts' 
accomplishments in the last year. At the outset, let me thank 
both of you and the subcommittee as a whole for your generosity 
with your time, your consideration, and the necessary funding 
for a number of shared objectives. It is a pleasure to have 
such a positive working relationship with the committee.
    I want to underscore all that Chief Judge Wagner said about 
the Courts' needs, especially regarding capital. To function 
effectively, and especially to implement the Family Court Act 
in a manner both timely and consistent with its highest 
purposes, the Court needs to have adequate facilities and a 
level of information technology that supports its efforts.
    I will review just very briefly a couple of things the 
Court has done. And then I will be happy to answer questions.
    On October 30, the Superior Court officially opened the 
first satellite Domestic Violence Intake Center in the Nation. 
This center allows domestic violence victims to seek protection 
in their own neighborhood without saddling us with the 
crippling cost of operating a duplicate court, by use of video 
technology. We can video transmit the appearance to the 
courthouse where the judge can act on the petition for a 
temporary protective order.
    Having reviewed with Court officials the very promising 
community courts in Manhattan and in Red Hook, New York, we 
have opened two such courts in the Superior Court, the first 
for minor misdemeanors and traffic cases. It takes all of those 
cases and seeks to resolve them at a first court appearance, 
reducing drastically the need for indigent defense funds for 
additional court resources and police overtime due to excessive 
court appearances.
    The other community court is one that is based in the Sixth 
Police District in Anacostia. It serves to address all of the 
misdemeanors arising in that jurisdiction with some very few 
exceptions. The Court has partnered with the D.C. Department of 
Employment Services, the Pretrial Services Agency, and others 
to fashion remedies which, again, address the causes, the 
underlying issues and causes, that bring people before a 
criminal court. That project, which is operating now on a pilot 
basis, is showing early promise of being very successful.
    In the Family Court, the Court has hired all of the new 
magistrate judges that were specified in the act. We have 
sought appointment of the three additional judges. They are now 
pending before the Senate. Judge Satterfield, working with 
Court officials and stakeholders, has overseen the transfer of 
more than 3,000 neglect and abuse cases back to judges within 
that court. He has established new rules, procedures, and 
attorney practice standards, which I signed into effect several 
weeks ago. He set up attorney panels for abuse and neglect 
cases, so that that bar will now be regulated and reviewed more 
carefully, held numerous training sessions for judges and 
magistrate judges, and a cross-training for judges, attorneys, 
social workers, and others involved in the Family Court 
operations.
    We have opened the Mayor's Services Liaison Center to 
increase coordination of services to children and families and 
make them more readily available. We have trained new judges 
and will continue to train new judges. And we have met all 
deadlines for reporting to Congress which are required under 
the act.
    We have begun implementing a policy of one family, one 
judge. A Family Court judge handling a neglect or abuse case of 
one family member also handles all cases involving that family 
relating to abuse, neglect, custody, guardianship, termination 
of parental rights, civil/domestic violence, post-adjudication 
juvenile cases, and adoption cases filed after June 2002. All 
other family matters involving that family will be heard by the 
same judge or team at the conclusion of the second phase of 
implementation, which is now in progress.
    The conversion to an integrated justice information system 
has advanced on schedule. We now are working with a contractor 
with the first segment set to go live in the Family Court in 
July of this year. That system will be compatible with all of 
the other city agencies, so that we can operate effectively 
with them. I have with me today Mr. Ken Foor, our IT director, 
in case there are any questions that go beyond my competence.

                           PREPARED STATEMENT

    The Family Court Act presents the Court with a rare 
opportunity to bring about better results for children and 
families in the District of Columbia, an opportunity that we at 
the Court enthusiastically welcome.
    Mr. Chairman, Senator Landrieu, thank you both for the 
opportunity to testify here today. We will be happy to answer 
questions.
    [The statement follows:]

                 Prepared Statement of Rufus King, III

    Good afternoon Chairman DeWine and Senator Landrieu. I appreciate 
the opportunity to join Chief Judge Wagner in presenting the D.C. 
Courts' 2004 budget request to the subcommittee and to review some of 
the Superior Court's accomplishments over the past year. At the outset, 
let me thank the subcommittee as a whole, and especially the Chairman 
and the Ranking Member, for their support of the Courts, our employees, 
and those we serve. You have been generous with your time, your 
consideration and the necessary funding for a number of shared 
objectives. It is a pleasure to have such a positive working 
relationship.
    I want to underscore all that Chief Judge Wagner said about the 
Courts' needs, especially regarding capital. To function effectively, 
and especially to implement the Family Court Act in a manner consistent 
with its highest purposes, the court needs to have adequate facilities 
and a level of information technology that supports its efforts.
    I would like to review some of the accomplishments of the Superior 
Court over the past year. We established a first-of-its-kind satellite 
domestic violence intake center; set up a community court to handle all 
minor misdemeanor and traffic cases; established a pilot community 
court for the Sixth Police District to address a broader range of 
crimes in a more holistic manner; and moved ahead aggressively to 
implement the Family Court Act. There is still a lot to be done in all 
these areas, but we have made great strides in making the Superior 
Court a more open, responsive, effective organization.

                    DOMESTIC VIOLENCE INTAKE CENTER

    On October 30, the Superior Court officially opened the first 
satellite Domestic Violence Intake Center in the Nation, in partnership 
with police, prosecutors, defense attorneys and victim advocates. The 
Center allows domestic violence victims to petition for a Temporary 
Protection Order (TPO) via web-camera to a judge in the courthouse; the 
judge then issues the TPO by fax. The Center is located in Southeast, 
where more than 60 percent of those alleging domestic violence reside. 
Victims are thus able to take the initial step towards protecting 
themselves--obtaining a TPO--in a location that is close and 
convenient. We hope that by encouraging more victims to come forward 
more quickly it will help prevent further violence.

        COMMUNITY COURT FOR MINOR MISDEMEANORS AND TRAFFIC CASES

    One of the goals of the Court's Criminal Division has been to 
address certain types of cases more comprehensively with less focus on 
processing of cases. Along with other court leaders, I visited and was 
impressed with New York's Manhattan and Red Hook Community courts. 
There and elsewhere across the country courts have modified criminal 
proceedings to see that services were provided, that community service 
was done in an effort to see the community ``paid back'' for the damage 
done to it, and to engage the court in an effort to reduce recidivist 
behavior. Criminal Division Presiding Judge Noel Kramer spearheaded 
this effort, working with prosecutors, police, defense attorneys, 
service providers, and the Downtown Business Improvement District. 
Together these groups established a courtroom in which defendants 
charged with ``quality of life crimes,'' such as panhandling or 
possessing an open container of alcohol, are given very real diversion 
opportunities on the first day--alcohol education, for instance--and 
possibly some community service, in exchange for which their case is 
dropped. This approach has sharply reduced the need for police 
appearances in the courtroom, more efficiently used indigent defense 
resources, and resulted in many fewer continuances of cases. The 
result: in our first year we saw a drop in the number of abscondances 
(no shows at court hearings, which lead to bench warrants) of over 50 
percent in traffic cases and nearly 45 percent in minor misdemeanors.

                         THE 6D COMMUNITY COURT

    In addition to her work with the D.C./Traffic Community Court, 
Judge Noel Kramer has also established on a pilot basis a community 
court. In consultation with the Metropolitan Police Department, and the 
U.S. Attorney's Office, the Court established a community court where 
Judge Kramer hears all phases--from arraignment to disposition--of all 
misdemeanors arising in the Sixth Police District. Judge Kramer and I 
as well other court officials have been to numerous crime-prevention 
and neighborhood meetings in the community to learn more about the 
concerns residents have, get ideas for how best to address the crime 
problems, and make them aware of what the court is doing. Judge Kramer 
has partnered with the D.C. Department of Employment Services, the 
PreTrial Services Agency and others to fashion diversion opportunities 
that provide an accused with alternatives to a life of crime and drugs. 
So far her work has received much praise--from all those involved in 
the criminal justice system and from the residents of 6D.

                      FAMILY COURT IMPLEMENTATION

    Judge Satterfield has led the Family Court through significant 
changes and overcome some significant obstacles in implementing the 
Family Court Act of 2001. The Family Court has overseen the transfer of 
more than 3,000 neglect and abuse cases back to judges within that 
court; establish new rules, procedures, and attorney practice 
standards; set up attorney panels for abuse and neglect cases; held 
numerous training sessions for judges and magistrate judges and a 
cross-training for judges, attorneys, social workers and others; 
received input from relevant stakeholders; opened the Mayor's Liaison 
Center to increase coordination of services to children and families; 
trained new judges; and met all deadlines in reporting to Congress as 
required by the Act.
    We have transferred substantially all the neglect and abuse cases 
that were in review status with judges outside the Family Court to 
judicial teams in the Family Court. All other cases will be transferred 
in time to meet the Act's guidelines. We have begun implementing a 
policy of ``one family/one judge''. Phase I is fully implemented, so 
that the Family Court judge handling a neglect case of one family 
member also handles all cases involving that family relating to abuse, 
neglect, custody, guardianship, termination of parental rights, civil 
domestic violence, post-adjudication juvenile cases, and adoption cases 
later than June 2002. The next phase will be to consolidate all other 
Family Court cases involving a family before that same judge, including 
divorce, mental health, pre-adjudication juvenile, and paternity and 
child support before the neglect judge or judicial team.
    The Family Court Act presents the Court with a rare opportunity to 
bring about better results for children and families in the District of 
Columbia. We at the court welcome this opportunity and are doing our 
best to implement the Act according to its letter and its spirit.
    Mr. Chairman, Senator Landrieu, thank you both for the opportunity 
to testify before you today. I am joined by my colleague Judge Lee 
Satterfield and we would both be pleased to answer any questions you 
may have.

                          CAPITAL EXPENDITURE

    Senator DeWine. Judge King, thank you very much.
    Judge Wagner, your news about the capital expenditure in 
the request is certainly disturbing. That is quite a shock. The 
progress in regard to the Family Court has always been 
predicated on several things, and one has been the capital 
restructuring and additional space. And we have always been 
told that, and everyone has always understood that. And now you 
are telling us that there is going to be apparently a major 
delay in that. So I am quite shocked by this, frankly, and 
very, very deeply disappointed. Maybe you can clarify what is 
going on. I am not sure that I fully understand what in the 
world is going on here.
    Judge Wagner. Senator, there is----
    Senator DeWine. This is like a bomb that was just dropped. 
I mean, do we have to bring in GSA and you and have a hearing 
together?
    Judge Wagner. Senator, first of all, let me say that there 
are two plans. One is an interim plan, which is essential 
because the major construction projects are multi-year 
projects. Secondly, the interim plan is on schedule. I think 
that Chief Judge King has photographs of the space as it is 
planned on an interim basis; and so that the Family Court is 
separate, as you had envisioned it.
    Long term, we had to go through a master plan phasing 
schedule. We are, as you know, working with a partner, which is 
the General Services Administration, which does these Federal 
buildings. That master plan phasing schedule is subject to a 
number of things that have to be done, including, I guess, the 
procurement processes to secure, first of all, the design, 
negotiate the award, plan a construction schedule, go through 
your National Capital Planning Commission.
    Now on Monday, it was just this past Monday that we learned 
that the approach to securing funding for the project might be 
different. That is, that you would not have to secure all of 
the funds in advance in order to go forward with alerting the 
public that you are interested in procuring services. And we 
were told that they would first want to get the design.
    But neither Judge King nor I have had an opportunity to sit 
down and talk with the officials at GSA to get a better 
understanding of how this will impact the long-term plan, 
which, by its very nature, is necessarily long term, because it 
does involve moving parts of our court which presently exist to 
other buildings on a temporary basis or on a long-term basis 
while they work on the various buildings in Judiciary Square.
    Chief Judge King might like to add something.
    Senator DeWine. Judge.
    Judge King. Two things: One, we are not going to delay 
implementation of the family bill. What will be determined by 
the outcome of our discussions with GSA and ultimately this 
committee is whether we do it in the facilities that I think 
all of us had in mind, or whether we are going to be operating 
in borrowed courtrooms and even temporary space somewhere that 
we have to do it. We will keep on schedule in implementing the 
substantive provisions of the act.
    That being said, we do have a longer-term plan. And if it 
would be of interest to you, I could step to the drawings and 
show you some things, just to show you how we plan to try to 
move the project along. That is at your pleasure. If not, I 
would be happy to just----
    Senator DeWine. Senator Landrieu said she would like to see 
that. That would be fine.
    Judge King. I would be happy to do that.
    Senator DeWine. Now let me just tell everyone, as far as 
our total time, we have a lot of ground to cover. We need to be 
out of this room by 10 minutes after 11:00. So we have 1 hour 
and 5 minutes.
    Judge King. I will take that as an indication to spend at 
least 45 seconds.
    Let me first--you are all, no doubt, by this time, familiar 
with the general map of the justice campus. You have it right 
there. If I might approach, that might----
    Senator DeWine. That will be fine.
    Judge King. I do not know if that is ever done. That is the 
way we do it in court.
    Senator DeWine. That will be fine.
    Judge King. I would ask to approach.
    Senator Landrieu. Approach the bench.
    Senator DeWine. Keep in mind you have an audience out there 
who might like to see some things as well though.
    Judge King. I will make it--if I can show you on your map 
there. The current facilities are in the Moultrie Building. 
Perhaps you could maybe even track it there. We are moving part 
of our operations, the landlord-tenant and small claims 
operation, to Building B. That is underway now. They are now 
doing the demolition there and beginning the construction. I 
think that will be occupied by October of this year.
    When that is done, the space that is vacated in the 
Moultrie Building will then be used to add three additional 
courtrooms and four hearing rooms to round out what we need in 
the Family Court. Although we do not have any detailed designs 
at this point, the architects have given us a sort of 
suggestion of the type of building we might look for for that. 
Again, at the end of the long corridor on the JM level in the 
Moultrie Building will be an entrance way, sort of a pavilion 
and an information center, which you can see across here, where 
all the clerks who would address any issue in Family Court will 
be located. So there will be one place that people come to do 
that. This is another view from that clerk station, looking 
back across to the one we just saw here.
    I will put these up on the outside over here.
    This is another here which shows the children's wing there, 
which will provide a children-friendly area, a whole host of 
things. And then over on the other side here will be the 
referral center where people can go for a referral for 
services.
    Farther along, the additions in space to the Moultrie 
Building that you heard about in Judge Wagner's testimony, this 
is a--again, it may not look exactly like this, because this is 
not a published diagram. They have not designed it this way. 
This is a quick computer mock-up of how it might look, the kind 
of things they are talking about doing with the building.
    So those are in the interim--the schedule is to have the 
construction on the Moultrie levels done and occupy them by 
October of 2004. And that will allow us to begin operating. The 
final construction of this, which will bring all of the 
functions back together, it is going to take a little longer. 
It is estimated at 2005 or early 2006.
    We are now operating in courtrooms outside the facility. As 
it is now, we have to operate in courtrooms in different 
buildings in order to----
    Senator DeWine. Well, I wonder if we could get back to--and 
I appreciate that, Judge. I wonder if we could get back, 
though, to the 2004 capital request, and what does this new 
information do to your capital request? It is my understanding 
that this is going to push it back; this new information is 
going to push back your construction date. And it is going to 
change, dramatically change, your numbers.
    Judge Wagner. Mr. Chairman, what I am informed is that the 
change that was mentioned on Monday will change the dollars, 
when the dollars are needed. It does not actually change the 
construction schedule. This is what I am informed. But again, 
neither of us have had an opportunity to sit down with the GSA 
officials. And that is what we would like you to give us an 
opportunity to do.
    The second thing I want to make sure that is clear is that, 
as Chief Judge King said, the Family Court construction is 
fully on schedule. And major renovation on the JM level will be 
completed by the fall of 2004. So if we get an opportunity to 
sit with GSA, we are going to provide you with a full and 
complete presentation on the impact that the change in the 
funding stream----
    Senator DeWine. Okay. Well, I am hearing two things. I am 
hearing one thing is that you need to get back to us, which is 
fine. And we need that, you know, sooner rather than later, 
because we need the dollar figures as far as what your request 
is.
    Judge Wagner. Exactly.
    Senator DeWine. But I am also hearing from Judge King that 
this will change your plan with the Family Court. I thought I 
heard Judge King say that we will stay on the same schedule 
with the Family Court. Basically, we will move in a different 
direction. We will fulfill the obligation of the Family Court. 
Instead of doing it the way we wanted to do it with basically a 
more permanent long-term plan, we are going to go in another 
direction.
    Now is that not what I heard, Judge King?
    Judge King. No. If I gave that impression, I perhaps 
misspoke. We will keep schedule by doing temporary arrangements 
that will allow us to continue to move. We do not plan to 
change the ultimate direction.
    Senator DeWine. Well, but temporary arrangements always 
cost money.
    Judge King. That is exactly true.
    Senator DeWine. That is always a waste of money.
    Judge King. That is exactly true.
    Senator DeWine. And we do not have--you do not have the 
money to waste is the problem.
    Judge King. That we have, of course, no control over. The 
two sources of----
    Senator DeWine. Well, maybe we do.
    Judge King. The two sources of difficulty that we see is: 
If we delay the access to funds, it can have--it can lead to 
two sources of delay. First, the--putting out the bids for the 
actual construction has to be done when it is known that there 
is money available. Otherwise you cannot really work the 
market, as I am told. And you cannot really--you cannot have a 
solid bidding process.
    The other thing is that a lump sum that seems unpalatable 
now is going to get worse if, by not putting funds into the 
project this year, you wait until next year when other parts 
come due. So it is sort of like if you have a gas bill due 
today and you do not pay it and you wait until next month, now 
you have two gas bills to pay. And it is just a bigger lump.
    So we are watchful about those processes. But what I wanted 
to assure you is that we will do the best we can however this 
funding issue is resolved. We will keep the schedule to operate 
the Court. Obviously, I would like to have all the money on 
schedule and be able to do exactly what----
    Senator DeWine. Well, I am going to turn this over to 
Senator Landrieu at this point. It seems to me that, out of 
necessity, we are going to have to have another hearing on the 
capital issues.
    So, Senator Landrieu.
    Senator Landrieu. Okay. Thank you, Mr. Chairman.
    There seems to be some confusion, and maybe it is 
warranted. But let me just review what was my understanding. 
And maybe there was a different view by the Chairman or maybe 
by the panel. But I thought that we were in the beginning of 
engaging on a master construction plan, one that would use the 
current building that everyone is in for the Family Court and 
move some of the judges to the Old Courthouse, the other judges 
to that building because it is empty, and it is a beautiful 
building and most certainly worthy of being preserved. But it 
takes a long time. And so we were always going to have some 
sort of temporary transition time.
    The problem is that there were some dollar figures 
associated with that, and they have seemed to change. And there 
is some confusion. And maybe that is because the GSA decided 
recently that not all the money was necessary up front, which 
actually, Mr. Chairman, is good news, if we can spread it out 
over several years instead of having to come up with such a 
large chunk in the beginning.
    Now I had expressed a year ago the concern that I did not 
think that the Chairman and I, after putting so much effort 
with you and with your help and your full cooperation and your 
great skill, having to reform the Family Court, we did not want 
it to basically be the last to come on line. We wanted to make 
sure that the reforms that we had helped to implement would go 
into effect as soon as possible, whether in temporary quarters 
or whether in the current quarters while construction was 
ongoing. In other words, we did not want the Family Court to be 
last on the totem pole.
    Am I hearing that what I have outlined is still pretty much 
the direction that we are going in, right, or has that changed? 
Because if that has changed, then I am as confused as the 
Chairman is.
    Judge Wagner. Well, I think that that is the direction we 
are going in. And secondly, the interim plan is designed to 
mesh with the long-term plan and minimize waste. On the time 
schedule for the overall, the long-term plan, the Moultrie 
Court expansion would be the first--well, would be nearly the 
first online in terms of the permanent planning. There is a 
chart over there; and I am not sure if you can see it.
    Senator Landrieu. We have it. We have it here.
    Judge Wagner. But we----
    Senator Landrieu [continuing]. And it indicates that the 
modernization of the Old Courthouse with the garage would be 
first and then the interim building plan for the Moultrie you 
said, maybe then the traffic piece will be completed, then the 
Moultrie Building comes on. And it will be maybe substantially 
completed by 2007.
    Judge Wagner. Yes.
    Senator Landrieu. Now, of course, we would all like to see 
that pushed up, if possible. But I understand the complications 
of dealing with permitting and sites and designs and selection 
of architect.
    Judge Wagner. That is correct.
    Senator Landrieu. It just takes a very long time. But while 
that is all going on, I think what Senator DeWine and I are 
saying is: Let us make sure the reforms of the operations of 
the Court, the cases, the intensive case management is 
happening in whatever space Judge Satterfield has available. 
And I think we would like to help you, you know, along that 
route, realizing it's complicated. The final point I want to 
make on this is: if that is our understanding, then I think 
that nothing substantially has changed, except the good news 
that we do not need all the money up front, and we can spread 
it out, which I think is very, very good.
    But the other point is--and I realize that the designs that 
you showed us are not final. But I will express this once more 
publicly, how important I think it is for this Family Court to 
take the opportunity that is not quite afforded to other Family 
Courts, whether it is in Cleveland, Ohio, or New Orleans, 
Louisiana, where we are both familiar with this current state 
of our Family Courts; but to take the opportunities of the 
advantage that is just inherent in being the Family Court of 
the District, to become a real showplace for the Nation. Why? 
Because almost every lawyer in the country comes to the 
District once a year. Why? Because almost every judge in the 
country comes here. Almost every judge comes here, for various 
reasons.
    Almost all the case workers come here, either for 
conferences or on the course of their career several times. I 
would like this Family Court, and I think the Chairman shares 
this view, to be a real showcase of what a state-of-the-art 
Family Court should look like.
    Now the pictures shown to me, and I do not mean to micro-
manage this, but I want it, in my vision, to be a place where, 
first of all, families feel welcomed, and families feel safe, 
and families do not feel intimidated; to think about the 
customers that we are serving.
    I do not think it necessarily should look like a college 
campus or a Supreme Court or a cold vision. I think it should 
be as warm and as inviting and as unintimidating and as 
empowering to the families that enter it as possible. That is 
all I am going to say about it. I am going to leave it up to 
the professionals to do it.
    But since we are the ones supporting the funding for it, I 
think that, having talked to some of the judges around the 
country and some of the caseworkers, et cetera, they would want 
me to express how strongly they feel about a place where 
children do not feel intimidated and where they get the 
immediate idea that ``The Government is on our side to try to 
make the best decisions for this child.'' And that is what I 
would like the architecture to communicate.
    I am finished.
    Senator DeWine. Let me just say this, because I want GSA to 
clarify exactly what they are going to do and what they are 
going to require and what they are not going to require, 
because I am not aware that GSA has changed their policy in 
regard to having all the money up front. They have not told me 
that. They have not told my staff that. Now maybe that is a 
change in plans and change in policy.
    But what they have told us is that they have to have all 
the money up in 2005. So we will see. They told me that, God 
bless them. And that would be good. But we will move on.
    Judge King. It does not change--and I think we should be 
very clear, it does not change our goal or our plan to 
implement the bill in the best way we know how and----
    Senator DeWine. Yes. Well, it makes it a lot easier for us 
if we do not have to have all the money in 1 year, I can tell 
you that.
    Judge King. Right. Of course. And I would say that----
    Senator DeWine. But we will find out.
    Judge King [continuing]. What Senator Landrieu just said, 
as well as any of us could say it, is what the goal is, what we 
consider the goal to be. For example, we have initiated 
discussions with the school system to set up a program for 
kids' art to be available to the courthouse so that we can 
decorate the family areas with art from the D.C. schools. But 
we are going to be looking at all those kinds of details to 
make it feel family-friendly.
    Senator DeWine. Okay. Another hearing, capital.

                           CHILDREN ADOPTIONS

    Let me move to another area. Lashawn v. Williams requires 
that legal activity to free a child for adoption should be 
initiated within 30 days after the child's permanency goal has 
been determined to be adoption. However, in the September 2002 
monitor's report on the progress of the District's Child and 
Family Services Agency, the performance standard of legal 
activity to free children for adoption not only was not met, 
but the percentage of children who did receive timely 
initiation of legal activity decreased from 65 percent in May 
2001 to 59 percent in May 2002. Let me ask you what you think 
is the source of this shortcoming.
    And let me also ask, as judges, you are in the position to 
hold child welfare workers in contempt for not doing their job. 
Let me ask what your plans are to ensure these children can be 
offered up for adoption in a timely manner. Where are we?
    Judge Satterfield. I think I can answer that.
    Senator DeWine. Sure.
    Judge Satterfield. Let me answer that question for you 
regarding the adoptions. Part of the slowdown in adoptions last 
year was due to the wonderful tax credit that is going to be 
provided to families this year. At the end of last year, we had 
a number of parties who wanted us to slow the process down so 
that they can benefit from an adoption agreed issue and the tax 
credit that will be provided.
    Senator DeWine. Now how are we doing this year then?
    Judge Satterfield. Well, I think we are going to be on 
target to meet what we have met in the past. I am going to 
have--I do not have the exact numbers from what we have done 
from January to March. I can get that for you. But I know that 
the slowdown from last year was partly due to that. I only say 
partly because there are other problems that exist in that 
process, some of which you are trying to address in the Family 
Court Act with the ICPC, Interstate Compact Act, always 
presents a problem.
    A lot of our cases are children who are placed with 
families in Prince George's County, Maryland. And we have 
substantial problems sometimes getting that process and getting 
those approvals. We have instances where the city is going to 
provide adoption subsidies to families, but the determination 
as to whether they are in ICPC status is based on the financial 
ability of the family to take care of the child absent the 
adoption subsidy that was going to be provided. And that slows 
those cases down.
    We are working with the agencies so they can better locate 
parents who are missing, so that we can move the process along 
in their diligent search. And then the FBI clearances--and I 
understand why the FBI is quite busy now--have presented a 
problem with a slowdown. And that is what the agency is trying 
to work on, to get better access to the FBI clearances and 
faster access. All those contribute to that.
    Senator DeWine. I understand all that. But your first 
reason I am not sure is valid, because the question is not how 
many adoptions. The question was whether legal activity to free 
a child for adoption should be initiated within 30 days after 
the child's permanency goal has been determined. That is not 
something that the parent does, the prospective parent, is it?
    Judge Satterfield. Well, no.
    Senator DeWine. The agency does that.
    Judge Satterfield. Well, to initiate the adoption 
proceeding has to be done by the petitioner, the lawyer. The 
judges require that they go forth with the adoption once the 
goal of adoption has been made in the case. And then they 
monitor that process to make sure that that is carried out by 
having frequent hearings to make sure that is done.
    Senator DeWine. Well, I am not going to play lawyer with 
you, but I am not satisfied with the answer. But all right.
    Senator Landrieu. Can I just follow up?
    Senator DeWine. Go ahead.
    Senator Landrieu. Let me just add something that might 
clarify it, because Senator DeWine will remember because he was 
such a strong supporter of what we tried to fix in Congress 
which was the unintentional, but serious, consequence of 
passing an adoption tax credit that basically was available for 
infant adoptions, but not for special needs adoptions.
    And for 2 years in Congress, we struggled to make it clear 
that our intention was to provide the $10,000 tax credit for 
special needs. And we worked very hard, I must say, in the 
Senate in a bipartisan way. But that effort was stopped in the 
House.
    So I share your pain, because I can most certainly 
understand a family on the verge of adoption needing and being 
entitled to the credit that we intended them to get. But 
because of our--I would not say it was a mistake. It was 
unfortunately intentional on the part of some members of 
Congress to not have those go into effect at the same time. It 
put a--it caused that situation to exist.
    Luckily since January of this year, it is finished because 
they are all--now there are tax credits for all adoptions, not 
just for infant adoptions, but for special needs adoptions, 
domestic, and international. So that problem should be erased.
    The other problem I want to share your pain with--and, 
Senator DeWine, some of this is the Court and under their 
control, but some of it is the way the Federal law is, which I 
think needs to be changed and actually, I am working on a bill 
right now to change these laws, because the subsidies in the 
funding are not following the decisions of the Court as 
streamlined as is necessary. The Federal funding structures are 
really inhibiting the faster placement of children through 
adoption. And it would take me a long time to actually explain 
that. But just trust me, because I have studied it enough.
    So part of it is our problem, and let me just admit that. 
And then part of it, I think, is, you know, lack of resources 
and perhaps some management, some management issues. But I will 
say for the record that I am hoping to lead an effort--and I 
know that the Senator will be supportive--of trying to get 
these funding streams basically lined up. So if a judge makes a 
decision--and I will just finalize this: If a judge says in 
this country, ``Reunification is what we want for this child,'' 
the funding follows that decision.
    If the judge says temporary foster care, the money follows 
that. If the judge says adoption is the permanency plan, then 
the Federal funding follows it. But we are a long way from 
getting to that point to where we are today. It is going to 
take some time, but we are working on it.
    Senator DeWine. Let me just say that Senator Landrieu is 
absolutely right. There is a lot that we have to do. I do not 
want to belabor the point, Mr. Satterfield. But all I was 
saying, and it is a minor point, all I am saying is, the 
initiation to release a child to be eligible for adoption is a 
different thing from the filing of the adoption procedure. That 
is all I am saying. That is a responsibility of the Court. It 
is not the responsibility of the parent. It is the action to 
make the child eligible for adoption.
    Judge Satterfield. Can I respond? As I understand your 
question, you are talking about the filing not of adoptions, 
but of terminations.
    Senator DeWine. That is correct. And your answer to me was, 
``We did not do that because the parents did not want us to 
move ahead because they wanted to get this tax credit.'' And I 
am saying that is your responsibility to make the child 
eligible for adoption. And that is not a correct answer.
    Judge Satterfield. I did not understand your question, and 
I am sorry for that. But as I understand, your question now is: 
What are you doing in terms of filing a termination----
    Senator DeWine. Why did you not file it?
    Judge Satterfield [continuing]. Of parental rights----
    Senator DeWine. Right.
    Judge Satterfield [continuing]. In order to do that? I 
thought we were talking--so I did not understand the question. 
That is why I gave the answer to a question I thought you 
asked, but obviously you did not.
    Senator DeWine. Okay. Okay.
    Judge Satterfield. But in terms of terminating parental 
rights, there has been an increase in the Court in the filings 
of terminations of parental rights, because the Government 
agency, the Office of Corporation Counsel, now recognizes that 
it is their responsibility to do that in those cases that 
warrant it, and they are filing those cases. We have 
consolidated those cases with a neglect judge handling the 
case. We expect that number to go up. And we are addressing 
that number.
    We are monitoring the Office of Corporation Counsel to make 
sure that they file those motions. And we are doing that in our 
review hearings with them.
    Senator DeWine. So the figures that I cited, of course, are 
old figures in the sense that they were up to May of 2002.
    Judge Satterfield. Well, I think you cited some----
    Senator DeWine. What you are telling me is the figures are 
better now.
    Judge Satterfield. Well, they are going to be better 
because they were not filing any of those motions in the past, 
and now they are starting to file those motions. Part of the 
reason they did not file those motions is that it was more 
efficient for us to do the terminations through the filing of 
the adoption case, because it avoided certain appellate 
circumstances and the delay in appeals. But now they are 
complying with the statutory mandate and filing those motions a 
lot more quickly than they used to, because they were not being 
filed by the office at all.
    Senator DeWine. Okay.
    Anything else you want to get into?
    Senator Landrieu. I think I will pass on the questions. I 
have gotten explanations for what I was concerned about. Well, 
maybe just one. I wanted to go back, because I know we are 
short on time.

                           DOMESTIC VIOLENCE

    Judge King, you said something about a new intake system 
for domestic violence. Would you take a minute to elaborate on 
that? Because I think it is a very important issue. And so many 
of our jurisdictions around the country are really making some 
great strides in terms of reaching out to victims of domestic 
violence and realizing that it itself is a core of many of the 
problems, in terms of fragile families and child self-esteem. 
And of course, the abuse experienced directly by the victim in 
most instances, in 99 percent of the cases, is the woman.
    So could you just give me a one minute explanation of 
exactly what you are talking about, to make it easier for the 
victims to show that they are truly victimized, give the courts 
expedited either video or testimony so that either restraining 
orders can be issued or action taken against the abuser?
    Judge King. Yes, I would be happy to. Just very quickly, we 
are in our sixth year of operating the domestic violence unit, 
which, when it was organized, was a model in the Nation with 
two or three others. It brings all of the cases that are 
related to a domestic violence issue in before one judge and in 
one branch of the Court.
    What we found at the time, was that it reduced the number 
of places that a victim had to go to tell her story, usually 
hers, from 19 down to 1. So we made a major accomplishment in 
simplifying that process. We have advocates and advisors 
available to them at an intake center at the courthouse.
    What we found was that a large number of the victims and 
those complaining of domestic violence were in Anacostia, which 
meant that they have to take a bus and a cab, and it is 
expensive and difficult. And they have to make childcare 
arrangements and so on. So we opened a satellite unit, which 
has some of the staff. It gets prohibitively expensive unless 
you are in New York, where you have a million people everywhere 
you look. But we have some of the staff there to handle the 
intake, to do some of the advising, to give them a sense of 
what they can and what they need to do.
    And also, we have a teleconferencing set up so that they 
can go to a studio in--it is actually located in the Greater 
Southeast Hospital facility. They go to a studio there, go on 
the television. A judge sitting at the courthouse can confer 
with them just as we are doing now, just with a camera, and can 
sign a temporary restraining order and fax it back to them. So 
they can go to their neighborhood location, pick up the order 
and leave and get it served.
    We have even had the good fortune of having that turn out 
to be a convenient place for police officers to get warrants 
signed. So they are piggy-backing on the domestic violence 
operation, which means that there is, without any expense to 
anybody, there is pretty good security supplied there, because 
police officers are coming and going to get warrants signed.
    Senator Landrieu. Well, let me just briefly commend you for 
that. I just think it is just an extraordinary step, and will 
do what I can. And I know that our committee will support your 
efforts, because it is a very serious epidemic in this society. 
And it is not just limited to certain neighborhoods. It is 
throughout the city.
    And as you noted, resources are limited. We could not do 
this everywhere. But I just cannot tell you how much I 
appreciate that and look forward to learning more about it so 
that we can support it.
    It is one of the goals of my public career to get the legal 
system in this country to support the victim and not the abuser 
from the moment that it starts to the moment that it ends. And 
whether it is helping the victim, you know, to stay in the 
home, to protect the children, and have the abuser suffer the 
consequences of abuse--and too often, our legal system and our 
court system puts the burden on the one who is abused, which 
makes no sense whatsoever. The burden should be on the abuser.
    So I will look forward to working with you. And also, 
counseling the abusers for those who can be rehabilitated. Not 
in every case are we successful, but we should, of course, try 
to reach out to the abusers as well appropriately.
    Thank you.
    Senator DeWine. Well, we thank you all very much. And we 
look forward to continuing to work with you, particularly in 
regard to the Family Court. And we will try to have a hearing 
sometime that is convenient for you all, sometime within the 
next 2 weeks, where we can bring GSA in and bring you in and 
see where we are.
    Thank you very much.

             Court Services and Offender Supervision Agency

STATEMENT OF PAUL A. QUANDER, JR., DIRECTOR
    Senator DeWine. Let me invite our second panel to come up. 
And as you are coming up, I will introduce the second panel.
    The Honorable Paul Quander is the Director of the Court 
Services and Offender Supervision Agency. Mr. Ronald Sullivan 
is the Director of the Public Defender Service for the District 
of Columbia.
    We welcome both of our witnesses and thank them for joining 
us here today. We have received their written testimony. We 
would invite them both to summarize their testimony and spend 
maybe about 5 minutes each, if you could. And we will start 
with whoever wants to start and invite you to go ahead. And 
then we will have the opportunity to have some questions. You 
can flip a coin or whatever.
    Mr. Quander. We just did.
    Senator DeWine. All right. Very good.
    Mr. Quander. Good morning, Mr. Chairman, Senator Landrieu.
    Senator DeWine. I am not sure that is on. Push the button, 
and if it lights up, it is on.
    Mr. Quander. All right. We will try it again. It is on now.
    Senator DeWine. All right. Very good.
    Mr. Quander. Good morning, Chairman DeWine. And good 
morning, Senator Landrieu. I am Paul Quander, the Director of 
the Court Services and Offender Supervision Agency. Thank you 
for the opportunity to appear before you today in support of 
the fiscal year 2004 budget request of the Court Services and 
Offender Supervision Agency for the District of Columbia, or 
CSOSA.
    As you know, CSOSA includes the Pretrial Services Agency, 
PSA, which provides supervision for pretrial defendants. The 
Community Supervision Program supervises convicted offenders on 
probation, parole, or supervised release. Our fiscal year 2004 
request reflects our desire to continue implementing the 
initiatives we have previously presented to you. We strive to 
allocate resources strategically and effectively so that we can 
achieve the greatest possible benefit to public safety.
    At any given time, CSP supervises approximately 15,000 
offenders. PSA supervises or monitors approximately 8,000 
defendants. With both populations, our highest priority must be 
to close the revolving door that leads too many people through 
repeated incarcerations and periods of supervision. Through 
accountability, intermediate sanctions, treatment, education, 
and employment, we are striving to increase the percentages 
more every year by reducing re-arrest and recidivism among our 
population. In the 6 years since CSOSA's establishment as 
trustee and the 3 years since certification as an independent 
Federal agency, we have achieved a number of significant 
milestones. With fiscal year 2003 and fiscal year 2004 
resources, we expect to meet our target caseload of 50 general 
supervision offenders per community supervision officer. We 
have opened 6 field units to locate our offices in areas of the 
city with high concentrations of offenders, including our 
newest office at 25 K Street, Northwest.
    Since fiscal year 2000, we have increased by 116 percent 
the number of offenders drug-tested every month. We have placed 
over 3,500 defendants and offenders in contract treatment in 
fiscal year 2002. Our multi-denominational faith community 
partnership embraces more than 25 member institutions. And our 
volunteer mentor program has matched more than 80 returning 
offenders with individuals who are committed to helping them 
stay out of prison.
    Our fiscal year 2004 CSOSA requests direct budget authority 
of $166,525,000 and 1,357 full-time equivalent positions. Of 
this amount, $103,904,000 is for community supervision 
programs. $34,411,000 is for the Pretrial Services Agency. And 
$25,210,000 is for the Public Defender Service. The District of 
Columbia Public Defender Service transmits it budget request 
with CSOSA's.
    CSOSA's fiscal year 2004 budget request represents an 8 
percent increase over fiscal year 2003 funding. Most of that 
increase is attributable to adjustments to base that will 
enable the Community Supervision Program to fully fund 
community supervision officer positions to be filled in fiscal 
year 2003. These positions are essential to achieving our 
target caseload ratio. The Community Supervision Program 
increase also includes funding to implement our Reentry and 
Sanctions Center Program, which is based on our current 
Assessment and Orientation Center, or AOC.
    In fiscal year 2002, CSOSA received $13 million and an 
authorization for 89 positions to expand the AOC located at 
Karrick Hall on the grounds of D.C. General Hospital. In 
September 2002, CSOSA signed a 10-year lease with the District 
of Columbia for the continued use of Karrick Hall. The planning 
work is completed, but renovation has been delayed pending 
approvals required by the District Government.
    The Assessment and Orientation Center provides a 
residential placement for high-risk defendants and offenders 
with extensive criminal histories and severe substance 
problems. Among offenders who complete the program, re-arrest 
decreased by 74 percent in the year following completion. Since 
its inception, almost 900 defendants and offenders have 
benefitted from this program. This program is targeted directly 
at the 30 percent of our population who are most likely to 
recidivate. And so we believe it is essential to achieving our 
public safety mission. We request $3,104,000 to expand the 
Assessment and Orientation Center to a full-fledged reentry and 
sanctions center bringing one additional unit online for a 
total of 39 beds.

                           PREPARED STATEMENT

    The Pretrial Services Agency also has one new initiative 
focusing on enhanced supervision. Since the D.C. Department of 
Corrections closed their Community Corrections Center Number 4, 
additional defendants are being released to the community and 
are being monitored by Pretrial Services officers. The impacts 
of this have been considerable. To mitigate the stress this has 
placed on the Pretrial Services general supervision staff, the 
Pretrial Services Agency requests $224,000 to provide vendor 
management of the agency's electronic monitoring program.
    Thank you again for the opportunity to appear before you 
today. And I will be happy to answer any questions that you may 
have at the appropriate time.
    Senator DeWine. Thank you very much.
    [The statement follows:]

               Prepared Statement of Paul A. Quander, Jr.

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to appear before you today in support of the fiscal year 
2004 budget request of the Court Services and Offender Supervision 
Agency for the District of Columbia, or CSOSA. As you know, CSOSA 
includes the Pretrial Services Agency (PSA), which provides supervision 
for pretrial defendants. Convicted offenders released into the 
community on probation, parole, or supervised release are supervised by 
the Community Supervision Program (CSP).
    Today marks my first appearance before you as CSOSA's appointed 
Director. In my first 6 months with the Agency, I have come to 
appreciate both the complexity of what we are trying to accomplish and 
the level of support we have received from Congress as we build our 
capabilities. We greatly appreciate the increased resources we have 
received since the Revitalization Act was passed in 1997. Our fiscal 
year 2004 request reflects our desire to continue using those resources 
effectively and strategically to fully implement the initiatives we 
have previously presented to you.
    At any given time, CSP supervises approximately 15,000 offenders; 
PSA supervises or monitors approximately 8,000 defendants. To CSOSA, 
these individuals present the dual challenges of community corrections: 
reducing risk to public safety while, at the same time, helping 
thousands of our city's residents to turn their lives around through 
drug treatment, educational services, and job placement. We believe 
these challenges complement each other; we strive not only to hold 
offenders and defendants accountable for their actions, but to provide 
opportunities that assist them in developing a different, more 
successful way of life.
    While more than 85 percent of arrests in the District of Columbia 
did not involve offenders under our supervision, our highest priority 
must be to close the ``revolving door'' that leads too many people 
through repeated incarcerations and periods of supervision. To achieve 
that priority, CSOSA allocates resources to four strategic objectives, 
or Critical Success Factors: Risk and Needs Assessment, Close 
Supervision, Treatment and Support Services, and Partnerships. Slightly 
less than one quarter of our budget is allocated to Risk and Needs 
Assessment, about one quarter to Treatment activities, and half to our 
front line Close Supervision activities. Partnership activities receive 
5 percent of funding. We believe that success in these four areas will 
enable us to achieve our mission of public safety and service to 
criminal justice decision makers.
    In the 6 years since CSOSA's establishment as a trusteeship, and 
the 3 years since certification as an independent Federal agency, we 
have achieved significant progress toward realizing these objectives. 
Our milestone achievements include the following:
  --Both the Community Supervision Program and the Pretrial Services 
        Agency have implemented automated case management systems that 
        will greatly improve data quality and officer effectiveness.
  --We have implemented comprehensive risk assessment for offenders and 
        are now expanding our case planning protocol to include uniform 
        needs assessment.
  --With fiscal year 2003 and fiscal year 2004 resources, we expect to 
        meet our target caseload of 50 general supervision offenders 
        per officer.
  --We have opened six field units to locate our officers in areas of 
        the city with high concentrations of offenders, including our 
        newest office at 25 K Street. A seventh field location at 800 
        North Capitol Street will come on line in the next few months.
  --Since fiscal year 2000, we have increased by 116 percent the number 
        of offenders drug tested every month.
  --We have placed over 3,500 defendants and offenders in contract 
        treatment in fiscal year 2002.
  --We are particularly pleased that our partnership activities have 
        expanded to include the city's faith institutions. Our multi-
        denominational Faith Community Partnership embraces more than 
        25 member institutions, and our volunteer mentor program has 
        matched more than 80 returning offenders with individuals who 
        are committed to helping them stay out of prison.
  --We continue to explore ways to partner with the Metropolitan Police 
        Department so that offenders are known to the police and our 
        Community Supervision Officers are a visible public safety 
        presence in the city's Police Service Areas. We are 
        particularly proud of joint supervision by MPD and CSOSA 
        officers who together make visits to offenders at their homes 
        and workplaces. These ``accountability tours'' demonstrate to 
        the community, the offender, and the offender's significant 
        others that the police and CSOSA are collaborating to enforce 
        supervision and prevent criminal activity.
  --We are also exploring ways in which offender and defendant 
        accountability can be enforced through technology, such as 
        using Global Positioning System-based electronic monitoring, to 
        maintain ongoing knowledge of the offender's location in order 
        to improve the enforcement of stay-away orders.
    For fiscal year 2004, CSOSA requests direct budget authority of 
$166,525,000 and 1,357 FTE. Of this amount, $103,904,000 is for the 
Community Supervision Program; $37,411,000 is for the Pretrial Services 
Agency, and $25,210,000 is for the Public Defender Service. The 
District of Columbia Public Defender Service transmits its budget 
request with CSOSA's. The Director of PDS, Ronald Sullivan, will 
present it in a separate statement.
    CSOSA's fiscal year 2004 budget request represents an 8 percent 
increase over fiscal year 2003 funding. Most of that increase is 
attributable to Adjustments to Base that will enable the Community 
Supervision Program to fully fund Community Supervision Officer 
positions to be filled in fiscal year 2003. These positions are 
essential to achieving our target caseload ratio.
    The Community Supervision Program increase also includes funding to 
expand our Close Supervision capabilities. In fiscal year 2002, CSOSA 
received $13 million and an authorization for 89 positions to expand 
the Assessment and Orientation Center into a full Reentry and Sanctions 
Center. Located at Karrick Hall on the grounds of D.C. General 
Hospital, the Assessment and Orientation Center provides a residential 
placement for high-risk defendants and offenders with extensive 
criminal histories and severe substance abuse problems. The program has 
proven very effective in increasing the likelihood that these 
individuals will go on to complete supervision successfully. Among 
offenders who complete the program, rearrests decreased by 74 percent 
in the year following treatment. Since its inception, almost 900 
defendants and offenders have successfully completed the program.
    The Reentry and Sanctions Center will increase the availability of 
this successful program for the offenders most likely to commit new 
crimes. We believe that through strategic intervention with this high-
risk population, we can achieve a significant decrease in recidivism. 
The Reentry and Sanctions Center will also increase CSOSA's capacity to 
implement intermediate sanctions for offenders and defendants who abuse 
drugs while under supervision, and for whom less intensive options 
might not be effective. Meaningful intermediate sanctions and increased 
availability of sanction-based treatment are among our most potent 
weapons in the fight to reduce recidivism.
    In September 2002, CSOSA signed a 10-year lease with the District 
of Columbia for the continued use of Karrick Hall. Although renovation 
work has been delayed pending approvals required by the District 
government, we request $3,104,000 to expand the Reentry and Sanctions 
Center to operate one additional unit, for a total of 40 beds. We will 
also continue to request funding for the program from the Office of 
National Drug Control Policy's High Intensity Drug Trafficking Area 
initiative, which has provided $1.3 million per year.
    The Pretrial Services Agency also has one new initiative focusing 
on enhanced supervision. Since the D.C. Department of Corrections' 
closure of Community Correctional Center No. 4 in 2002, more high-risk 
defendants are being released to the community and must be monitored by 
Pretrial Service Officers. The impact of this has been considerable. 
Officers must devote more time to every aspect of these cases and must 
increase the number of face-to-face contacts with these defendants. 
This increased contact is difficult to maintain with caseloads at their 
current levels. To mitigate the stress this has placed on the General 
Supervision staff, the Pretrial Services Agency requests $224,000 to 
provide vendor management of the agency's electronic monitoring 
program.
    We at CSOSA are proud of our progress as a Federal agency. We 
believe that our program model, which applies national best practices 
to the unique needs of the District of Columbia, will improve the 
safety of our city and increase the resources available to the 
offenders and defendants who live here. As we mature as an Agency, I 
have every confidence that we will be able to present an impressive 
record of accomplishments. I believe our success will make CSOSA a 
national leader in the field of community supervision and a unique 
model for other jurisdictions.
    Thank you again for the opportunity to appear before you today. I 
will be happy to answer any questions you may have.

                        Public Defender Services

STATEMENT OF RONALD S. SULLIVAN, JR., DIRECTOR
    Senator DeWine. Mr. Sullivan.
    Mr. Sullivan. Good afternoon, Mr. Chairman, Senator 
Landrieu.
    On behalf of the Public Defender Service for the District 
of Columbia, or PDS, I thank you for the opportunity to address 
you in support of PDS's fiscal year 2004 budget request. As you 
know, the Public Defender Services provides constitutionally 
mandated legal representation to indigent people facing a loss 
of liberty in the District of Columbia.
    PDS is the local defender in our Nation's Capital. And it 
is also a national standard-bearer. Throughout its 30-year 
history, PDS has maintained its reputation as the best public 
defender office in the country, local or Federal. We have been 
able to maintain this reputation because of PDS' innovative 
approaches that are applied by some of the most talented 
lawyers and support staff in the country. PDS is an agency that 
this Congress, this committee, and this community can be proud 
of.
    PDS generally is assigned the most serious resource-
intensive and complex cases in the District. With the 100 
lawyers on staff, PDS typically represents about 60 percent of 
the most serious felony charges; and the majority of juveniles 
facing serious delinquency charges. And consistent with a 2003 
initiative, we now represent nearly 100 percent of all people 
facing parole revocation. The majority of people--we also 
represent the majority of people in the mental health system 
who are facing involuntary civil commitment.
    With this backdrop, I will address our fiscal year 2004 
budget request. For fiscal year 2004, PDS requests $25,210,000 
and 218.5 FTE and direct budget authority, which includes a 
request for .5 or only one-half new FTE and $100,000 to support 
our only new initiative, the Appellate Assistance Response 
Initiative. The number of constitutionally mandated appellate 
cases opened by PDS has increased by 50 percent since 1997, 
while the numbers of attorneys providing these services has 
remained constant. In order to continue providing this 
constitutionally mandated service, PDS respectfully requests 
that this subcommittee approve its very modest budget 
initiative.
    Let me offer a brief example of how the work that we do 
makes a difference in the lives of real people. Recently, the 
District of Columbia Court of Appeals contacted PDS after 
affirming convictions in a two-person appeal. The Court was 
concerned because the briefs of one of the persons--and I will 
call her Jane to respect her privacy--looked like it was a 
verbatim replica of the other appellant's brief, even though 
the two had conflicting interests.
    PDS's Appellate Division accepted Jane's case, convinced 
the District of Columbia Court of Appeals to reopen the case, 
wrote new briefs for Jane, who all along maintained that the 
conviction was wrong, and, through PDS's advocacy, demonstrated 
that the evidence was not sufficient to support a conviction. 
Jane was acquitted. Justice was done.
    In another important Appellate Court matter, PDS advanced 
the position that it is improper and unconstitutional for the 
Government to exclude people from juries on the basis of 
religion alone, as religious freedom, in our view, reaches the 
core of what it means to be an American. Significantly, with 
the new Executive Branch administration, the Government advised 
the DCCA that it has changed its position and now agrees with 
PDS. Religion is an improper basis upon which to exclude 
jurors. We await the Court's decision.
    In other matters, PDS has recently increased the 
sophistication of its practice. And in light of this 
subcommittee's interest in and commitment to the children of 
the District of Columbia, I am proud to announce that we have 
added services at our organization, such as the special 
education advocacy for our juvenile clients. We are the only 
institutional provider, the District of Columbia Special 
Education Services. And given the disturbing correlation 
between educational deficiencies and delinquent behavior, this 
is a much-needed service.
    Utilizing the resources from our fiscal year 2003 DNA 
initiative, we have just litigated an admissibility issue 
involving a novel and complex DNA matter. Before ruling, the 
judge in this matter said--and he was referring to PDS and the 
United States Attorney's Office, and I quote, ``I want to say 
at the outset that you are to be highly commended. These are 
some of the most impressive pleadings I have seen in my years 
on the bench. It is a credit to both your institutions that you 
have been able to marshal all of this in a way that reminds me 
of two Wall Street firms going at it. I am sure you all are 
making $500 an hour.''
    And for the record, I will not object if this committee 
decides to compensate us thusly.

                           PREPARED STATEMENT

    This judge's recognition is consistent with PDS' model that 
we provide better services than money can buy. With your 
support of our appellate initiative and our fiscal year 2004 
budget request, I can assure the members of this subcommittee 
that PDS will continue to look for new and inventive ways to 
make each tax dollar we receive build a more fair and effective 
criminal justice system.
    My time has expired. I would like to thank you for your 
time and attention to these matters. And I will be happy to 
answer any questions you may have.
    [The statement follows:]

             Prepared Statement of Ronald S. Sullivan, Jr.

    Good afternoon, Mister Chairman and members of the Subcommittee. My 
name is Ronald S. Sullivan Jr., and I am the Director of the Public 
Defender Service for the District of Columbia (PDS). I come before you 
today in support of the agency's fiscal year 2004 budget request. The 
agency thanks you for your support of our programs in previous years.
    As a result of the National Capital Revitalization and Self-
Government Improvement Act of 1997 (the ``Revitalization Act''), PDS 
was established as a federally-funded, independent District of Columbia 
agency. In accordance with the Revitalization Act, PDS transmits its 
budget and receives its appropriation as a transfer through the Court 
Services and Offender Supervision Agency (CSOSA) appropriation. PDS 
provides constitutionally-mandated legal representation to people 
facing a loss of liberty in the District of Columbia who cannot afford 
a lawyer. In the District of Columbia, PDS and the District of Columbia 
Courts share the responsibility for providing constitutionally-mandated 
legal representation to people who cannot pay for their own attorney. 
Under the District of Columbia's Criminal Justice Act (CJA), the 
District of Columbia Courts appoint PDS generally to the more serious, 
more complex, resourceintensive, and time-consuming criminal cases. The 
Courts assign the remaining, less serious cases and the majority of the 
misdemeanor and traffic cases to a panel of approximately 350 
preselected private attorneys (``CJA attorneys''). Approximately 100 
lawyers on staff at PDS are appointed to represent: a significant 
percentage of people facing the most serious felony charges; the 
majority of the juveniles facing serious delinquency charges; nearly 
100 percent of all people facing parole revocation; and the majority of 
people in the mental health system who are facing involuntary civil 
commitment.
    In less than 1 week, defense attorneys and others from around the 
country will mark the 40th anniversary of Gideon v. Wainwright,\1\ the 
landmark Supreme Court case that held that a fair trial in non-Federal 
criminal cases includes the right to an attorney for those who cannot 
afford one. PDS, like so many other public defender offices, owes its 
existence to that case. PDS, however, is unique. It is the local 
defender office for our Nation's capital, and it is the national 
standard bearer; throughout its history PDS has maintained its 
reputation as the best public defender office in the country--local or 
Federal. PDS is an agency this Congress and the District of Columbia 
can be proud of.
---------------------------------------------------------------------------
    \1\ 372 U.S. 335 (1963).
---------------------------------------------------------------------------
    That reputation is no accident. From its beginning in 1971 as the 
Legal Aid Society, PDS' mission has been to serve as a model public 
defender organization in providing defense representation to the 
traditionally underserved indigent population. That mission has led PDS 
over the past 30+ years to enhance and improve the representation it 
offers to its clients. While much of our work is devoted to ensuring 
that no innocent person is ever wrongfully convicted of a crime, we 
also provide legal representation to people with mental illness who are 
facing involuntary civil commitment, recovering substance abusers 
participating in the highly successful Drug Court treatment program, 
and juveniles in the delinquency system who have learning disabilities 
and require special educational accommodations under the Individuals 
with Disabilities in Education Act. \2\
---------------------------------------------------------------------------
    \2\ 20 U.S.C. Sec. 1400, et. seq.
---------------------------------------------------------------------------
    PDS' mission has also led the agency to expand the resources it 
provides to the criminal justice community at large in the form of 
training for other District of Columbia defense attorneys and 
investigators who represent those who cannot afford an attorney and in 
the form of support to the District of Columbia Courts. In addition, 
the mission has spurred PDS to develop innovative approaches to 
representation, from instituting measures to address the problems of 
clients returning to the community who have been incarcerated to 
creating a one-of-a-kind electronic case tracking system. As PDS' 
recently chosen Director--one who previously had the honor of serving 
as a staff attorney and later as general counsel at PDS--I intend to 
maintain PDS' tradition of fulfilling the promise of that landmark 
Supreme Court case by ensuring qualified counsel for the accused in the 
Nation's capital while continuing to prepare the agency for the 
challenges it faces in the 21st century.
    Our sole fiscal year 2004 requested initiative, the Appellate 
Assistance Response Initiative, is part of that effort. For fiscal year 
2004, PDS requests $25,210,000 and 218.5 FTE in direct budget 
authority, which includes a request for .5 new FTE and $100,000 to 
support this new initiative. This modest increase in personnel 
resources and funding is requested in recognition of the President's 
emphasis on spending for national security.

                        FISCAL YEAR 2004 REQUEST

Appellate Assistance Response Initiative
    PDS applies throughout the agency its innovative approach to 
providing defense representation to individuals who are unable to pay 
for their own attorneys, including in its Appellate Division. PDS has 
become an established resource for the District of Columbia Court of 
Appeals as the Court has increasingly relied on PDS' Appellate Division 
for assistance in matters of unusual importance or complexity. PDS 
renders this assistance through amicus curiae, or ``friend of the 
court,'' briefs while it continues to provide constitutionally-mandated 
appellate representation to individuals. PDS not only serves the 
District of Columbia Court of Appeals in this way, but also the 
District of Columbia Superior Court; PDS has even appeared as amicus 
curiae in the United States Supreme Court. The Superior Court also 
turns to PDS with requests for amicus curiae briefs on complex or 
unusual issues that arise in collateral proceedings such as ineffective 
assistance of counsel claims.
    In part due to the consistent demand for PDS expertise as amicus 
curiae to the benefit of the criminal justice system, in the 5 years 
since the passage of the Revitalization Act, the number of 
constitutionally-mandated appellate cases opened by PDS has increased 
by 50 percent while the number of attorneys providing these services 
has remained unchanged. Furthermore, PDS appellate attorneys have 
additional responsibilities that place demands on their time. Attorneys 
in the Appellate Division devote a significant amount of time to 
training both PDS and non-PDS lawyers. Appellate Division attorneys 
organize and present material for the ``appellate track'' of the 
Criminal Practice Institute conference, they conduct several sessions 
in the yearly summer training series for the CJA bar, and they organize 
internal training sessions for PDS attorneys. The caseload increase, 
the requests for amicus curiae briefs, and the training work combined 
have stretched the Appellate Division's capacity, straining its ability 
to effectively meet the needs of PDS clients and the Court of Appeals 
at current funding levels. In order to continue providing 
constitutionally-mandated appellate legal representation to individuals 
who cannot afford an attorney and to the District of Columbia Courts, 
PDS seeks .5 FTE and $100,000 in increased support.

                    FISCAL YEAR 2003 ACCOMPLISHMENTS

    In fiscal year 2003, in addition to handling a variety of criminal, 
juvenile, parole, mental health, and other legal matters, the agency 
was very successful in instituting changes to improve the overall 
quality of the District of Columbia justice system through new 
approaches to client service, through litigation, and through very 
successful collaborations with other criminal justice and social 
service organizations. PDS' success in these areas was recently 
recognized by the Legal Aid Society of the District of Columbia, an 
organization that exists to make pro bono legal representation 
available to those who can least afford the services of an attorney.
    The Legal Aid Society selected PDS as one of its two honorees for 
2003 ``who have demonstrated unswerving dedication and achievement in 
providing access to all persons, regardless of income, to 
representation before the District of Columbia courts and agencies.'' 
Almost all past honorees, who include Justice Thurgood Marshall, the 
Honorable Eric Holder, Jr., and Charles Ruff, have been individual 
attorneys. Significantly, this year the Legal Aid Society decided to 
select an agency for this honor instead. This award pays tribute to 
PDS' effort to ensure that each and every client receives 
representation at the highest level of professional competence. This 
goal has always been--and will continue to be--the lodestar that guides 
this agency.

                      FISCAL YEAR 2003 INITIATIVES

    In fiscal year 2003, Congress passed as a bill, and the President 
signed into Law, a new program increase for PDS totaling 6 positions, 6 
FTE, and $874,000 in support of two new initiatives. PDS' DNA Sample 
Collection Act initiative received 2 positions, 2 FTE, and $427,000. 
The agency's Parole Revocation Defense Initiative received 4 positions, 
4 FTE, and $447,000. The enacted law was further amended under H.J. 
Res. 2 to decrease the total funding available in fiscal year 2003 in 
support of these new initiatives by a rescission of .65 percent, or 2 
positions, 1 FTE, and $149,955.

               DNA SAMPLE COLLECTION RESPONSE INITIATIVE

    As anticipated when PDS submitted its fiscal year 2003 budget 
request, the District of Columbia Council passed the Innocence 
Protection Act, which requires the government to retain all evidence 
containing DNA material to assist in establishing or refuting post-
conviction claims of actual innocence. This Act, along with the 
District of Columbia's DNA Sample Collection Act and the Federal DNA 
Analysis Backlog Elimination Act,\3\ has led to an increased need 
within the District of Columbia criminal justice system for expertise 
in the use of DNA as evidence. To implement its fiscal year 2003 DNA 
Sample Collection Response Initiative, PDS is generating the internal 
and external training necessary to develop attorneys with the knowledge 
and skills to engage in cutting edge litigation involving the ever-
changing landscape of DNA evidence. A Superior Court judge deciding a 
PDS matter that involved some of the most controversial and technically 
sophisticated scientific issues of this type recently acknowledged the 
value to the criminal justice system of expert litigators. The judge 
thanked the agency for its extraordinary pleadings and the caliber and 
stature of the expert witnesses who had been presented to the court. 
The judge also noted that the quality of the parties' advocacy and 
pleadings was on par with that of Wall Street firms charging $500 per 
hour.
---------------------------------------------------------------------------
    \3\ Both of these Acts require that the Court Services and Offender 
Supervision Agency collect DNA samples from D.C. Code offenders for 
comparative analysis by the FBI in unsolved crimes.
---------------------------------------------------------------------------
    Our recent investment in this rapidly developing area, combined 
with the commitment of the team of PDS lawyers involved in this effort, 
has taken the agency to the forefront of this field. We are already 
leveraging this expertise to share it with our colleagues on the CJA 
attorney panel. Thanks to the added assistance of Federal grants, PDS 
has committed to planning and hosting a free forensic science 
conference for court-appointed defense attorneys in the District of 
Columbia in June of this year. The conference will provide the most up-
to-date knowledge concerning the use of forensic evidence to conference 
participants. We have already obtained appearance commitments from a 
number of nationally recognized speakers.
    As has been PDS' custom, we will continue to develop the agency's 
expertise in new scientific methods and then seek to promptly 
disseminate and share that expertise to the benefit of all persons 
charged with offenses in the District of Columbia who cannot afford an 
attorney.

                  PAROLE REVOCATION DEFENSE INITIATIVE

    PDS' Special Litigation Division has handled an average of 75 
parole revocation cases per month in the first 4 months of fiscal year 
2003. This is consistent with the estimate of 70 to 100 cases per month 
PDS estimated in its fiscal year 2003 budget request, and it represents 
a 50 percent increase in the number of the Division's new case 
referrals from the same period last year. This underscores the need for 
the additional resources provided by the fiscal year 2003 budget. The 
Division continued to provide constitutionally-mandated parole 
representation in nearly 100 percent of all parole revocation cases 
involving D.C. Code offenders before the U.S. Parole Commission, a 
service PDS assumed responsibility for providing after the 
Revitalization Act was passed. The Division has recruited students from 
local law schools to represent District of Columbia parolees at their 
revocation hearings in order to leverage the agency's existing 
resources and provide litigation training to the students. The 
students, whose work is supervised by PDS attorneys, have relieved some 
of the strain on the agency's resources.

                     COMMUNITY RE-ENTRY INITIATIVE

    In fiscal year 2002, PDS received 10 positions, 9 FTE, and 
$1,019,000 in support of its Community Re-entry Initiative. PDS, ever 
exploring new, effective methods to meet the needs of its clientele, 
has established a Community Re-entry Project to help smooth the path 
that leads incarcerated individuals back into the community and to 
support them upon their arrival. The Project, PDS' sole fiscal year 
2002 initiative, continues to make great strides toward becoming fully 
functional. In fiscal year 2003, the Project \4\ focused on addressing 
the needs of children involved in the District of Columbia's juvenile 
delinquency system. The Community Re-entry Project developed a program 
to monitor the progress of children placed through the juvenile 
delinquency system in residential facilities and to provide support to 
prepare them for returning to their home communities. The Project also 
developed a ``Street Law'' program for children placed in the District 
of Columbia's juvenile detention facility to improve their decision-
making; this program will be expanded to include children placed in 
District of Columbia group homes. The Community Re-entry Project is 
also working with local public and private school students to develop 
peer mentor relationships between those students and children placed in 
the juvenile detention facility; the relationships will provide 
additional resources upon the children's return to their home 
communities.
---------------------------------------------------------------------------
    \4\ For children, the Community Re-entry Project operates as PDS' 
Juvenile Services Program.
---------------------------------------------------------------------------
    Also, working with local Hispanic families, the Community Re-entry 
Project assists in making resources available in their own 
neighborhoods to children returning from the District of Columbia's 
juvenile detention facility. The Project creates links between the 
returning children and a local neighborhood collaborative to identify 
and provide community support resources. The Project will expand this 
program by replicating it with other neighborhood collaboratives 
throughout the city to develop a network of support resources for 
children being released from the facility. The Project is developing an 
anti-truancy program in collaboration with the District of Columbia 
public schools system, the D.C. Bar, and the District of Columbia 
Superior Court to address truancy issues in recognition of their 
observed correlation with delinquent behavior.
    PDS will continue to develop the Project this year by addressing 
the needs of adults for re-entry services and support. The Project has 
established contact with some social services organizations and is 
seeking others to assist in easing the transition from incarceration to 
release with educational, employment, training, counseling resources 
and other effective tools to increase opportunities for success and 
decrease chances of recidivism.

                    GENERAL PROGRAM ACCOMPLISHMENTS

Criminal Justice System Reforms
    In accordance with PDS' many efforts to find new, effective means 
of implementing its mission to provide representation to those in the 
District of Columbia criminal justice system who cannot afford an 
attorney, PDS' Appellate and Special Litigation Divisions have 
litigated cases that have direct impact on services and processes of 
other local and Federal Government entities within and outside of the 
criminal justice system that affect our clients. PDS' successful 
advocacy in such cases has led to the equitable provision of public 
services to all recipients--not just PDS clients--ensuring that the 
rights of all people are protected and that critical support services 
necessary for incarcerated individuals' successful transition back into 
the community are available.
    Ensuring adequate representation.--The District of Columbia Court 
of Appeals solicited PDS' assistance after observing questionable 
behavior by a non-PDS appellate attorney in that Court. A woman and her 
codefendant had separately appealed their convictions for unauthorized 
use of a vehicle, each arguing that the evidence was insufficient to 
support the conviction. In reviewing the coappellants' cases, the Court 
noted that the woman's brief, filed by the appellate attorney, was an 
almost verbatim replica of the earlier filed brief of the woman's 
coappellant. After affirming both convictions, the Court contacted PDS 
and appointed the agency as the woman's new appellate counsel. The 
Court accepted PDS' argument that the first appellate attorney's 
performance was so deficient and prejudicial as to be tantamount to the 
complete absence of counsel on appeal, and allowed the woman to pursue 
her direct appeal again. In briefing the direct appeal, PDS pursued the 
same sufficiency-of-the-evidence argument advanced before. However, for 
the new brief, PDS was able to distinguish legal and factual arguments 
applicable to the woman's case that had been obscured by the first 
appellate attorney's approach of apparently copying the coappellant's 
brief. The Court held that the woman was entitled to a judgment of 
acquittal, as a direct result of PDS' involvement.
    Support for the District of Columbia Family Court's authority.--PDS 
has been at the forefront of litigation designed to ensure that judges 
of the newly created Family Court in the District of Columbia maintain 
the ability to exercise the responsibility and power Congress 
envisioned when it created that Court and sought to guarantee the 
existence of a cadre of judges with expertise in matters pertaining to 
children. Specifically, PDS has been involved in extensive litigation, 
both in the Superior Court and in the Court of Appeals, with the 
District of Columbia to resolve whether the Department of Human 
Services (DHS), a District of Columbia executive branch agency, or 
Family Court judges should have the power to determine what facility is 
best suited to meet the needs of troubled youth. According to DHS, once 
a judge determines that a delinquent child should be committed to DHS, 
the judge loses all authority to determine what institution or facility 
best meets that child's needs. PDS' position is that Congress has 
invested judges, in particular the specially trained Family Court 
judges, with the power and responsibility to determine those placements 
and not simply to hand the children to DHS and hope for the best.
    Fairness in jury selection.--PDS has been advancing the position 
for several years that striking a prospective juror on the basis of 
that juror's religious affiliation is unconstitutional in the same way 
that striking a juror on the basis of race or gender violates the 
Constitution. In our view, striking a juror on the grounds of religious 
affiliation alone--without a demonstrated basis that the juror's 
religious affiliation will interfere with the juror's ability to be 
impartial--violates the Equal Protection Clause and the First 
Amendment's Religion Clauses. Following the most recent change in 
administration, the Federal Government switched its position and 
notified the District of Columbia Court of Appeals that it now agrees 
with PDS that it would be unconstitutional to strike a juror on the 
basis of religious affiliation alone. If the Court agrees, this will be 
an important step in protecting religious liberty.
    Excessive detention.--PDS assisted a client who had been held at 
the District of Columbia Jail for a parole hearing based on a new 
criminal charge that was subsequently dismissed. Because the jail 
failed to act on the U.S. Parole Commission's detainer after the 
dismissal, the client waited unnecessarily for over a year to be 
brought before the Commission for his parole hearing. PDS' Special 
Litigation Division sought relief in Federal court; shortly before a 
hearing in the case, the client's illegal detention was terminated, and 
he was released from the jail.
    Rehabilitation of youthful offenders.--PDS challenged the failure 
of the Bureau of Prisons to comply with a requirement of the District 
of Columbia's Youth Rehabilitation Act that individuals sentenced under 
the Act be housed separate from adults. One of the Bureau's prison 
facilities placed each of 29 youthful offenders from the District of 
Columbia with an adult cellmate. Shortly after the PDS challenge was 
filed, each of the 29 was sharing a cell with another youthful 
offender.
    Timely parole hearings.--PDS pursued a class action case 
challenging the United States Parole Commission's failure to provide 
timely preliminary and final parole revocation hearings for District of 
Columbia parolees locally and throughout the country. The parties 
recently negotiated and signed a consent decree that mandates such 
timely hearings for the hundreds of affected individuals. The case was 
resolved after a Federal court agreed that the U.S. Parole Commission's 
procedures were unconstitutional and ordered the Commission to make 
critical reforms.

                 CRIMINAL JUSTICE COLLABORATION PROJECT

    Just as PDS explores new ways to ensure that it provides quality 
representation to its clients, PDS explores new opportunities to 
collaborate with others who seek to improve service to our clients or 
to the criminal justice system. An example, in addition to the 
collaborative work engaged in by the Community Re-entry Project as 
described above, is the OPTIONS Mental Health Treatment Program, 
developed by PDS to assist individuals in the criminal justice system 
who can benefit from the intervention of mental health professionals.
    OPTIONS continues to serve people with mental illness in 
collaboration with the Criminal Justice Coordinating Council, the 
District of Columbia Department of Corrections, the Pretrial Services 
Agency, the District of Columbia Department of Mental Health, and the 
District of Columbia Superior Court. The OPTIONS program provides 
comprehensive treatment and social services to people with mental 
illness who are charged with non-violent offenses in order to prevent 
recidivism and promote healthy rehabilitation. No similar service 
existed before PDS created this program, however, the need for it was 
significant.
    During its year-and-a-half existence, the program has been 
incredibly successful, assisting nearly 150 people with mental illness 
by providing counseling, medication, housing, and other critical social 
services. The participants in the OPTIONS program are individuals who 
have traditionally been a high risk for successive re-arrests in the 
absence of effective treatment. Through the comprehensive services 
provided in the OPTIONS program, the re-arrest rate among program 
participants has declined. In recognition of its positive impact, this 
pilot program has now been fully incorporated into the Department of 
Mental Health and will be a permanent fixture in the District of 
Columbia criminal justice system to better serve people with mental 
illness.

                     OTHER PROGRAM ACCOMPLISHMENTS

    PDS maintained its strong emphasis on providing representation in 
novel ways to people who cannot afford attorneys by continuing to 
implement and build on effective strategies it has already developed. 
PDS' special education work continues to serve the children who become 
involved in the juvenile delinquency system, PDS' long-standing mental 
health practice assumed new responsibilities, and PDS added new topics 
to its existing training program.
    Special Education Services.--One of the areas into which PDS has 
more recently expanded in an effort to meet more of the needs of its 
clientele is special education advocacy. PDS' Civil Legal Services Unit 
was established to address issues facing children in the delinquency 
system that often hinder the child's successful re-integration into the 
community. The centerpiece of the Unit is the team of attorneys who 
specialize in advocacy under the federal Individuals with Disabilities 
in Education Act (IDEA),\5\ which mandates special accommodations in 
public schools for children who cannot be adequately educated in a 
traditional classroom setting due to a learning disability or other 
challenge. The Unit's attorneys ensure that children receive an 
appropriate diagnostic assessment and work with the school system to 
secure alternative educational programs.
---------------------------------------------------------------------------
    \5\ 20 U.S.C. Sec. 1400, et seq.
---------------------------------------------------------------------------
    Mental health representation.--Toward the beginning of fiscal year 
2003, PDS' Mental Health Division began providing representation in all 
cases brought under a new District of Columbia statute providing for 
the involuntary civil commitment of individuals found not competent to 
stand trial due to mental retardation.\6\ The agency took on this 
responsibility while continuing to play a significant role in 
representing individuals with mental illness who are subject to civil 
commitment proceedings in the Superior Court. During the first few 
months of fiscal year 2003, the Division has been assigned 
approximately 60 percent of the emergency hospitalization cases filed 
in the Superior Court.
---------------------------------------------------------------------------
    \6\ Civil Commitment of Citizens with Mental Retardation Amendment 
Act of 2002, Pub. L. No. 14-199 (2002).
---------------------------------------------------------------------------
    Training.--PDS continues its tradition of providing in-depth 
training courses for court-appointed CJA attorneys in order to ensure 
that all counsel are qualified to handle the cases to which they are 
appointed and to promote the maximum economic efficiency in providing 
legal representation to people who cannot pay for an attorney.
  --PDS coordinated and presented ``Hot Topics in Education and 
        Community-based Services for Children with Disabilities,'' a 
        training program for attorneys who represent children in 
        juvenile delinquency proceedings. PDS has developed an 
        expertise in this area, and is the only such resource in the 
        District of Columbia.
  --The Superior Court has adopted standards for selecting attorneys 
        for membership on a panel the Court will look to for 
        appointment to cases in the juvenile justice system. This 
        parallels the process put in place by the Court for adult 
        cases. PDS is developing training materials and programs to 
        help attorneys obtain the requisite qualifications and skills.
  --The Public Defender Service produced the Criminal Practice 
        Institute Practice Manual, a 1,800-page, comprehensive treatise 
        on criminal law in the District of Columbia. Over 600 copies of 
        this manual have been distributed to the judges on the District 
        of Columbia Courts, the United States Attorney's Office, the 
        Bureau of Prisons, area law schools and the private bar.
  --The Public Defender Service sponsored the 38th annual Criminal 
        Practice Institute training conference, a 2-day event involving 
        seminars by nationally-known speakers, law professors, legal 
        scholars, local judges and criminal justice practitioners. 
        Approximately 100 participants attended the 2002 conference 
        along with PDS staff.
  --As it has done for the past 3 years, PDS has already begun to plan 
        for its annual Summer Series. This is a series of weekly 
        evening seminars in May, June, and July that are provided free 
        of charge to CJA attorneys covering matters specific to 
        practice in the Criminal and Family Divisions of the Superior 
        Court.
  --After adopting an investigator training proposal from PDS, the 
        Superior Court implemented a mandatory training requirement for 
        all CJA criminal investigators. Senior PDS investigators and 
        PDS staff attorneys prepared the training materials and 
        coordinated the training sessions on all aspects of criminal 
        investigation. As of the first 5 months of fiscal year 2003, 
        over 120 investigators have been trained and certified, and PDS 
        has already planned training for an additional 20 investigators 
        in the coming month. PDS will then turn its resources toward 
        providing the annual training required of investigators to 
        maintain their certification from year to year. This program is 
        designed to ensure that now, and in the future, there are 
        sufficient qualified investigators to assist CJA attorneys.

                     ADMINISTRATIVE ACCOMPLISHMENTS

    PDS' emphasis on innovation is not limited to its program-related 
work. The agency continually reviews its practices and procedures to 
improve its operational functions. Particularly now that PDS is a 
federally-funded agency, it seeks to reach a corresponding level of 
sophistication in the administration and execution of its 
responsibilities. Recent improvements made by PDS provide the necessary 
infrastructure to support our programs and our program staff and 
increase the potential for greater efficiency and effectiveness in 
carrying out PDS' mission.
    Information Technology.--PDS is developing its own case tracking 
software that provides comprehensive case management functionality for 
PDS attorneys, staff, and management. PDS demonstrated the software at 
a conference for defense attorneys, and other public defender 
organizations across the country have contacted PDS to express an 
interest in obtaining the software for their own use.
    Government Performance and Results Act.--PDS made significant 
progress in developing a 5-year strategic plan similar to the plans 
required of Federal executive agencies under the Government Performance 
and Results Act. The PDS management staff is reviewing the draft 5-year 
plan, the related 1-year performance plan will follow shortly, and PDS 
expects to present a performance-based budget request to Congress for 
fiscal year 2005.
    Criminal Law Database.--PDS added to its website a criminal law 
database that is the most comprehensive, publicly available research 
tool on District of Columbia criminal law in the country. It allows 
local practitioners and members of the public to find information about 
every existing D.C. Code offense, including the potential sentence. The 
database also contains an explanation of the District of Columbia's 
preventive detention statute, information on the immigration 
consequences for non- citizens in the criminal justice system, a 
description of the possible parole consequences for a parolee charged 
with a new offense, a parole ``salient factor score'' calculator, 
information about juvenile practice in the District of Columbia, a list 
of recently decided appellate cases, and a variety of important 
criminal justice links.
    Investigative staff increases.--Since fiscal year 2001, PDS has 
more than tripled the number of full-time staff investigators--
including five who are fluent in Spanish to serve the growing number of 
Spanish-speaking clients--and developed a comprehensive professional 
training program. Every PDS lawyer who handles felony cases now has a 
full-time staff investigator to assist with case preparation. This 
allows attorneys to reduce their involvement in time-consuming tasks 
that could be performed by non-attorneys and focus more on doing purely 
legal work.
    Each of the above reforms and successful collaboration projects has 
contributed to a better, more efficient criminal justice system and has 
improved the quality of services provided to people who cannot afford 
an attorney in the District of Columbia justice system. They serve as 
examples of the manner in which PDS identifies new ways of serving 
clients on its own and in successful collaboration with others, all 
consistent with PDS' goal of providing representation by qualified 
attorneys to those it is dedicated to serve.

                               CONCLUSION

    The right to a qualified attorney for people who cannot afford one 
is simple and basic, so much so that it has easily woven itself into 
American culture and into the public's consciousness. PDS has been in 
the forefront of defining what it means to satisfy the requirements of 
that right--not only defining it, but also meeting and exceeding that 
standard. As PDS has matured as an agency, it has increased the 
sophistication of its practice, adding services such as its special 
education advocacy and its community re-entry programs, which have the 
additional benefit of potentially reducing recidivism. PDS has thereby 
helped to raise the level of practice of the defense bar in the 
District of Columbia, ensuring that PDS can live up to one accurate 
description of the agency's work: ``better representation than money 
can buy.''
    I respectfully request your support of this initiative, and I would 
like to thank the members of the Committee for your time and attention 
to these matters and for your support of our work to date. I would be 
happy to answer any questions the Committee members might have.

    Senator DeWine. Thank you. Good. You both are right on 
time. Thank you. Appreciate it very much.
    Mr. Quander----
    Mr. Quander. Yes, sir.
    Senator DeWine [continuing]. Am I pronouncing your name 
close enough?
    Mr. Quander. You are. It is right on point.
    Senator DeWine. Right on point. Thank you.
    You talked about a 50-to-1 ratio.
    Mr. Quander. Yes.

                               OFFENDERS

    Senator DeWine. How does that compare with what is the 
national norm or the--I do not want to say the national 
average, because that is probably not what our goal should be. 
But what is recommended in your field, in your profession?
    Mr. Quander. In our field, I believe the----
    Senator DeWine. Excuse me. But considering the nature of 
the offender that you are dealing with.
    Mr. Quander. Well, the general population, general 
supervision, the national recommended goal is essentially 50 to 
1. We are very close to reaching that goal. Right now, we are 
in the area of 56 to 1 for general supervision.
    I had the opportunity recently to read an article from a 
newspaper in Annapolis, and the article spoke of the Maryland 
system. And in their system for parole and probation, they are 
averaging in excess of 116 cases per supervision officer. The 
article concluded by saying that that is nearly impossible to 
supervise individuals the way that the Court or that the 
citizens want.
    We are trying to reach that goal. And we think we will be 
able to reach that goal with the appropriations for 2004 so 
that we can provide all the services that we need to provide. 
That is the general population.
    For specialized individuals, such as sex offenders, 
domestic violence, traffic and alcohol, mental health, that 
ratio needs to be lower, needs to be in the area of 35 to 1.
    Senator DeWine. And where are you with the specialized 
population? I missed that in your testimony. I am sorry. I know 
you said it.
    Mr. Quander. In the specialized population, roughly we are 
averaging about 44 to 1. It is a little closer to, I think, 35 
to 1 or 37 to 1 in the sex offense area.
    Senator DeWine. And let me just say, as a former prosecutor 
and also someone who, as lieutenant governor of the State of 
Ohio, one of my responsibilities was to oversee our prison 
system, that the special population worries me more than the 
other population. And I guess I would be very interested in 
seeing what this committee could do to help you target that 
special population and work with you, Senator Landrieu, to try 
to get those special population numbers to where you want it to 
be.
    Mr. Quander. Thank you.
    Senator DeWine. I wonder if we could maybe dialogue with 
you on that.
    Mr. Quander. I would like to do that.
    Senator DeWine. I know you want to stay within the 
President's budget, and we do, too. But that worries me. And 
you are a little off there. And maybe we could talk about what 
it would take over the next couple years to move towards 
hitting that goal of 35 or whatever you think is the right 
number. You are close to it in the sex offenders, you say----
    Mr. Quander. Yes.
    Senator DeWine [continuing]. But maybe work towards the 
other. And I would ask our staff to work and set that as a goal 
of our committee. Because we are dealing with the safety of the 
people of the District of Columbia and the visitors to the 
District of Columbia. And I think it is very important.
    Mr. Quander. Yes. I would welcome that. One of the things 
that I would like to share with you is that what we are doing 
with that special population, and the reason their caseload is 
lower and why it needs to be lower is that we spend more time 
actually monitoring, supervising, having them come in, testing, 
all of those things. And actually, we are piloting a global 
positioning system.
    Senator DeWine. Really?
    Mr. Quander. And we are going to pilot it for the sex 
offenders, so that we will attach a bracelet, and we will be 
able to monitor where that individual is. We will be able to 
know if he has gone into a specific area where he is not 
allowed to be.
    I have had an opportunity to go down and to take a look at 
the system that is used by the Florida Department of 
Corrections, along with our associate director, Tom Williams. 
And we have had members of our staff actually utilizing it, 
wearing it, moving throughout the city. So we are getting close 
to piloting it. And we are looking at piloting it on a special 
group of the sex offender population.
    Senator DeWine. Well, you know, if there is a target 
population that is likely to re-offend, it is your target 
population. And you are the one who--you target them. You 
figure out who they are. You do it based on your expertise. We 
do not do it; you do it. And it seems to me that once you do 
that, that you need to have whatever the assistance is that you 
need to try to monitor that population and monitor them 
correctly. And we ought to try to give you the assistance that 
you need. You are the professional. Your people are the 
professionals. And we ought to try to give you the help that 
you need to do that within budget constraints. But we ought to 
try to bend over backwards to try to give you the help that you 
need. And we are going to try to do that. So----
    Mr. Quander. Thank you. We would greatly appreciate it.
    Senator DeWine. So our staff will work with you and maybe 
over the next couple of years try to do some things that could 
be of help. Thank you.
    Mr. Quander. Very well. Thank you.
    Senator DeWine. Senator Landrieu.
    Senator Landrieu. Thank you. First of all, let me thank 
both of you for stepping up to the positions that you have been 
asked to serve in with such enthusiasm. And I understand, Mr. 
Quander, that you are the first official first-time director of 
this very new Federal agency.
    Mr. Quander. Yes.
    Senator Landrieu. And we are joined today by the interim 
leader, Mr. Ormond. Are you here, Mr. Ormond?
    Mr. Quander. Yes, he is.
    Senator Landrieu. Thank you for the work that you have done 
over the last couple of years to get us to this point.
    Mr. Ormond. Thank you very much.

                  SUPERVISOR/PRETRIAL DEFENDANTS RATIO

    Senator Landrieu. And of course, our committee takes very 
seriously this responsibility because we basically are a direct 
appropriator to these Federal agencies. And while, again, we do 
not have the staff and do not ever intend to micro-manage it, 
we want you to know that we want to be a good resource to both 
of you to accomplish the goals that you have outlined and to 
share with us, because we share with you much of your vision.
    I understand that you all--Mr. Quander, you have a 
population of about 16,000 convicted offenders who are released 
into this community on probation, parole, or supervised 
released. That would be annually, 16,000 a year?
    Mr. Quander. Yes, roughly about 15,000.
    Senator Landrieu. Okay. And then you supervise on an annual 
basis about 8,000 defendants pretrial.
    Mr. Quander. That is correct.
    Senator Landrieu. And you do that all for a budget request 
of this year $166.5 million.
    Mr. Quander. Yes.
    Senator Landrieu. And Senator DeWine had asked, and I want 
to just be clear for the record, what is our ratio that we are 
at today in terms of probation supervisors to the convicted 
offenders? What is the ratio between the supervisor and the 
pretrial defendants?
    Mr. Quander. Certainly. It----
    Senator Landrieu. And what are our goals?
    Mr. Quander. The ratio as far as probation and parole and 
general supervision currently stands at 56 to 1. Our goal is 50 
to 1. In the specialized areas that I mentioned, the sex 
offense, mental health, domestic violence, and traffic and 
alcohol, our current ratio, I believe, is in the area of 44 to 
1. And what we are trying to get is to the area of 35 to 1.
    In pretrial services, the Pretrial Service officers, I 
believe their current caseloads are averaging in excess of 100, 
maybe 110. And I believe they want to be in the area close to 
where we are, in the area of like 50 or 60 to 1. Part of the 
2004 appropriations request will allow the Pretrial Services 
Agency to contract out for vendor services for the electronic 
monitoring program, which will allow them to use the staff that 
are currently doing that to bring down the caseload.
    Our agency, CSOSA, is also assisting with authority, 
reallocating positions, 10, to help them as they try to reduce 
their caseload and get it down to a much more manageable level.
    Senator Landrieu. We would like to work with you on that. 
We would like to keep these caseloads at a level where actually 
good work can be done, and the people that are doing the work 
feel as good about the work as they can, which is extremely 
difficult and very challenging work. In order to accomplish 
that, it is not only a reasonable ratio--and I am not sure that 
50 to 1 or 56 to 1 or 40 to 1 or 30 to 1, if there is any magic 
number. But I would also say that managing and minimizing the 
turnover of your employees is also very important, so that you 
have trained and skilled people not just moving in and out, but 
retraining staff.
    Could you comment a moment about your turnover in your 
agency? And could you give us a snapshot? And if not today, 
maybe present to this committee a snapshot of the turnover of 
your agency.
    Mr. Quander. I will be able to provide the exact figures in 
a subsequent submission. But I can inform you of this: As a new 
director, I spend a lot of time in the field talking to the 
workers, the people that actually do the work day in and day 
out. And the one constant, as I walk through the agency, is 
that people, the employees, they still want to save the world.
    Senator Landrieu. That is good.
    Mr. Quander. And what they say is, you know, ``Mr. Quander, 
if you can do X, Y, and Z, if you can remove this impediment, I 
can do even more.''
    As a director, I mean, I love to hear that because all they 
are saying to me is ``Remove some of these hurdles, make my job 
a little easier, I want to go out, I want to talk to people, I 
want to make a difference.''
    So I do not believe the turnover rate is very high. I 
believe right now we may have one or two vacancies in our 
supervision ranks. We have a new class that is coming on board. 
So we have people, for the most part, who are very involved. 
They are committed to it. It is extremely difficult for them, 
because they go to bed at night and they wake up in the morning 
and they open up the newspaper to see if one of their offenders 
may have committed a new crime.
    Senator Landrieu. Right.
    Mr. Quander. So there is a lot of pressure. But when we 
talk to them--and recently, Friday, we had our OMB budget 
analyst and her supervisor to walk through our facilities. And 
we just laid it out and gave them access to anyone they wanted.
    So I think the attitude is still there. They want to work. 
They just need me to provide a little support, to remove some 
of the impediments.
    Senator Landrieu. Well, that is very, very, very 
encouraging. And we want to be helpful.
    And I know I have only a minute left. But, Mr. Sullivan, I 
want to say that you bring to your job a tremendous background 
and accomplishments. And I am very impressed with your resume 
and what you bring to the job and your vision for what you are 
doing. And I hope that we will continue the good work in the 
history of your agency and look forward to continued benefit to 
the community.
    I am going to submit, Mr. Chairman, if I could, I have 
actually a number of very good questions that we are prohibited 
from pursuing because of our time. But I would like to have 
answers to these, so that we can get a better grasp of where 
you are now, where we need to go, so that we can try to be 
helpful.
    Mr. Sullivan. Certainly.
    Senator DeWine. Very good. Well, let me thank both of you 
very much. We appreciate your testimony, appreciate your 
written testimony, and look forward to working with both of 
you.
    Mr. Quander, we will follow up with you. And we would 
invite both of you, if you have specific concerns--I know you 
have submitted your request, but if you have specific concerns, 
to feel free to contact our staff as we prepare our budget, if 
there is anything in addition.
    And Mr. Quander, we will reach out to you and see what 
specifically we can do to work on that particular area that I 
was talking about.
    Mr. Quander. Thank you.
    Senator Landrieu. Can I just say one more thing?
    Senator DeWine. Yes, sure, Senator Landrieu.

                         FAITH-BASED INITIATIVE

    Senator Landrieu. I just wanted to mention that there is 
some opportunity with this new faith-based initiative that is 
moving its way through Congress in a very bipartisan way and 
with the President's commitment to involve the District. I 
think there is a real opportunity for the work that both of you 
all supervise to try to engage the power of the faith-based 
community in this community to help and become a real vibrant, 
dynamic partner in this work.
    Some churches are more inclined than others. Some have more 
experience than others. Some have better success rates than 
others. But I really challenge you all to think about the way, 
Mr. Sullivan, you said about stretching those dollars to use 
the faith-based and volunteer community to accomplish some of 
our goals.
    So I will have a question for the record in that line and 
look forward to your responses.
    Mr. Quander. If I can just say one thing: We are actually 
up and running with that. We have 25 faith-based organizations, 
churches, that are already signed up. We have in excess of--we 
have 80 offenders who have actually been matched with the 
faith-based institutions. So we have one of the few programs 
that has moved from the drawing board to actual practice. We 
have mentors who are coming in on a regular basis. So we are up 
and we are running. We just celebrated our first anniversary in 
January. And we are moving forward. So----
    Senator Landrieu. Well, that is great. We will see if these 
churches really work, you know.
    Mr. Quander. No doubt.
    Mr. Sullivan. Similarly, PDS has done the same. Our 
community defender office has a relationship with a church that 
we send our juvenile clients to.
    Senator Landrieu. I think it is an untapped resource in 
many ways. So I commend you all for that. Thank you.

   ADDITIONAL SUBMITTED STATEMENT AND ADDITIONAL COMMITTEE QUESTIONS

    Senator DeWine. Senator Strauss has submitted a prepared 
statement. It will be included in the record.
    [The information follows:]
               Prepared Statement of Senator Paul Strauss
    Chairman DeWine, Ranking Member Landrieu, and others on this 
Subcommittee, as the elected United States Senator for the District of 
Columbia, and an attorney who practices in the family court division of 
our local courts I would like to state for the record that I fully 
support the fiscal year 2004 Budget Request for the District of 
Columbia Courts, Defender Services, and the Offender Supervision 
Agency. As an elected Senator for the District of Columbia I stand by 
the Court System of District of Columbia. It is vital that the District 
of Columbia Court System be fully funded in the amount asked for today.
    I respect the positions of all of the witnesses that are here today 
and know that they and their staffs have worked hard on their budget 
proposals. I know that the fiscal marks that they are testifying in 
support of today are what they need in order for the D.C. Court System 
to continue to operate at full capacity. Since, as the District of 
Columbia Senator, I myself can not vote on this appropriation I am 
limited to merely asking you to support their proposals.
    The citizens of the District of Columbia deserve a judicial system 
of the highest quality. Unlike citizens of any other jurisdiction, we 
lack the legal rights to make these funding decisions internally. 
Unless the D.C. Courts are fully funded by the Congress, they will not 
be fully funded. Our Judges should be selected locally, not by the 
President. The D.C. voters recently expressed their preference for the 
principle of a locally elected prosecutor, instead of a Federal U.S. 
Attorney to prosecute local crimes.\1\ This is not just an issue of 
simply providing funds but it is an issue of justice. The District of 
Columbia should not have to look to Congress for the sole financial 
support of its courts. This is just another limit on the District of 
Columbia's ability to have self-government. I have made the case 
against these injustices many times before many Committees of this 
body. I do not intend to belabor them here today because the 
unfortunate truth is that while this status quo is maintained it is 
absolutely essential that Congress fully fund the D.C. Court system.
---------------------------------------------------------------------------
    \1\ D.C. Ref.: Establishment of an office of the District Attorney 
for the District of Columbia. On November 5th, 2002 85,742 or 82 
percent voted in favor while 18,558 or 17 percent voted against. 
Source: District of Columbia Board of Elections and Ethics.
---------------------------------------------------------------------------
    In this regard, I wish to sincerely thank the Subcommittee for 
holding this hearing. The political reality is that the voters of Ohio 
or Louisiana will not hold the D.C. Court system high on their list of 
legislative priorities. For you to take the time and effort to convene 
this hearing suggests that duty and principle, not politics, in this 
regard motivate your efforts.
    Just like in any other jurisdiction, fully funding the District of 
Columbia Courts is a critical step in maintaining law, order, and 
justice. It is vital to our community that our court system has 
adequate resources for the aforementioned reasons. In addition to the 
aforementioned reasons, in this day and age of heightened alerts due to 
security risks.
    The District of Columbia Courts' fiscal year 2004 request is a 
fiscally responsible budget that continues to build on past 
achievements to meet current and future needs. Some of the needs that 
will be met by the budget proposal submitted by the D.C. Courts are 
enhancing public security, investing in human resources, investing in 
information technology, expanding strategic planning and management, 
and strengthening services to families.
    Moreover, having stated the importance of fully funding the 
District of Columbia Court System, I would like to emphasize the 
importance of fully funding the Court's Defender Services line item. In 
order to provide adequate representation to families in crisis we need 
to fully fund Defender Services. All of this Committees good work on 
Family Court reform is in jeopardy with out the resources to back it 
up. The Family Court is an institution that must protect the District's 
most vulnerable citizens--its children, as well as provide countless 
other, more mundane yet important, legal functions common to every 
jurisdiction. The safety of children should not and will not be 
compromised due to political agendas or simple lack of funding. 
Although the budget provides training for new attorneys, experienced 
advocates best serve these children. We are in danger of losing our 
most experienced child advocates due to budget cuts.
    Once again this year the D.C. Court System asked for an increase in 
the hourly rate paid to attorneys that provide legal services to the 
indigent including those attorneys that work hard to represent abused 
and neglected children ad guardia and ad litems in Family Court. The 
first fee increase in nearly a decade was implemented in March of 2002 
when it was increased to the present rate of $65 per hour. In the 
fiscal year 2004 request the Courts recommend an incremental increase 
from the current $65 an hour to $75 per hour and eventually to $90 per 
hour. The reason that this adjustment is so important, is that the 
Federal court-appointed lawyers, literally across the street already 
get paid $90 an hour to do very similar work. Therefore, the disparity 
in pay between the two positions creates a disincentive amongst the 
``experienced'' attorneys to work for Defender Services in D.C. Court. 
I call on this Subcommittee to once again eliminate this disincentive. 
It was unfortunate that the fiscal year 2003 Appropriations Bill that 
came out of Conference and was signed into law by the President did not 
include this raise that this Committee, and full Senate rightly 
included into their mark up of the bill. I urge this Subcommittee to 
fully fund the requested increase in the defender services line item in 
the bill for fiscal year 2004 just like they did for fiscal year 2003, 
and then fight vigorously to defend that mark if a conference becomes 
necessary.
    Senator Landrieu, you have stated that the District of Columbia 
Family Court should be a ``showcase'' for the whole country. I firmly 
agree with that statement and add that as an attorney who practices 
regularly in the D.C. Family Court, I believe that it is, thankfully, 
on its way toward being that ``showcase''. However, there is continued 
need for improvement. I know that this Subcommittee has been firmly 
committed to the D.C. Family Court. On behalf of my constituents I 
thank you for all your hard work and dedication and I look forward to 
your continued cooperation. There has been strong bipartisan support in 
this Subcommittee for the D.C. Family Court. In particular, I commend 
Senators DeWine and Landrieu for all the great work that they have done 
on this important issue. Both of them have treated the D.C. Family 
Court as if it were a court in their own States.
    As a District resident, I look forward to the day when the District 
of Columbia does not have to look to Congress for the financial support 
of its courts. This is just another limit on the District of Columbia's 
ability to govern itself. However, if the status quo remains then it is 
absolutely essential that Congress fully fund the D.C. Court system.
    In conclusion, I would like to thank the Subcommittee for holding 
this important hearing. I urge this Subcommittee to take the budget 
proposals submitted today into strong consideration. Finally, let me 
take this opportunity to thank Matt Helfant of my staff for his 
assistance in preparing this statement. I look forward to further 
hearings on this topic and I am happy to respond to any requests for 
additional information.

                                 ______
                                 
         Questions Submitted to the District of Columbia Courts
    Questions Submitted by Senators Mike DeWine and Mary L. Landrieu

                           CAPITAL QUESTIONS

    Question. How much is allocated in fiscal year 2003 for the Old 
Courthouse?
    Answer. For fiscal year 2003, $7 million is allocated for the Old 
Courthouse.
    Question. For the underground garage?
    Answer. Because NCPC required an urban design master plan for 
judiciary before commencing work on the underground garage, the 
underground garage has been included in the overall Old Courthouse 
restoration project, as had been envisioned by earlier studies for the 
project. GSA has advised the Courts that the advantage of separating 
the garage, which was saving time by using a design-build contractor, 
was negated by the master plan requirement.
    Accordingly, the $7 million allocated for the Old Courthouse will 
finance design for both the garage and the restoration. We expect the 
garage to be first in the construction phase of the overall project.
    Question. How much was provided in the Fiscal Year 2003 Mil Con 
bill for the Military Court's share of the garage?
    Answer. Our understanding from the Court of Appeals for the Armed 
Forces (CAAF), is that $2.5 million was appropriated for construction 
costs of the garage in fiscal year 2002. In addition, the CAAF has paid 
GSA $850,000 for their share of the design costs. The costs of the 
garage have been divided between the D.C. Courts and the CAAF based on 
the share of parking spaces to be allocated to each.
    Question. How much has been provided for what could be considered 
Family Court improvements (in fiscal year 2002 and fiscal year 2003)? 
How much requested in fiscal year 2004 and fiscal year 2005 for these 
purposes?

                             D.C. COURTS CAPITAL REQUEST TO SUPPORT FAMILY COURT ACT
----------------------------------------------------------------------------------------------------------------
                                                    Fiscal Year     Fiscal Year     Fiscal Year     Fiscal Year
                                                       2002            2003        2004 Request    2005 Request
----------------------------------------------------------------------------------------------------------------
Original Request................................     $18,643,000     $16,068,000     $37,084,000      $2,830,000
Revised GSA figures.............................      18,643,000      16,068,000      11,410,000      29,294,000
----------------------------------------------------------------------------------------------------------------

    In fiscal year 2002 and fiscal year 2003, the costs reflect mainly 
(1) implementation of the Interim Plan (detailed in the April 5, 2002 
Transition Plan) to provide efficient, family-friendly facilities for 
the Family Court and (2) the Integrated Justice Information System 
(IJIS).
    For fiscal year 2004 and fiscal year 2005, the costs reflect (1) 
continuing IJIS throughout the Courthouse (which will give judicial 
decision-makers the most complete information on which to base 
decisions in children's cases) and (2) two-thirds of the estimated cost 
of the Moultrie Courthouse expansion project, approximately two-thirds 
of which will renovate or provide additional space for permanent, 
state-of-the-art, family-friendly facilities for the Family Court.

                                 ______
                                 
  Questions Submitted to the Court Services and Offender Supervision 
                                 Agency
    Questions Submitted by Senators Mike DeWine and Mary L. Landrieu

    Question. The funds to renovate Karrick Hall were appropriated in 
fiscal year 2002, but the renovation work has not yet begun. What are 
the circumstances surrounding the delay? What is your schedule for 
adding additional capacity?
    Answer. The use of CSOSA's renovation funds, as well as any 
District funds for similar purposes, was predicated upon the Mayor's 
submission to the of a Master Plan for the future use of the DC General 
Hospital campus (known as Reservation 13) to the DC Council by March 
31, 2002. Although the Mayor's plan was submitted by this deadline, it 
only provided for CSOSA's Reentry and Sanctions program to function in 
Karrick Hall for an ``interim'' period. The length of that period was 
not defined, and there was no provision made for the program's 
permanent location.
    Therefore, in the spirit of public safety partnerships and 
collaborations, CSOSA initiated another planning project with the City 
to identify alternatives to renovating Karrick Hall, including new 
construction, and make recommendations. That additional planning effort 
concluded in October 2002 that the renovation of Karrick Hall is the 
only viable alternative to provide a Re-entry and Sanctions program on 
the grounds of D.C. General, within the funding provided by Congress. 
The time for completing the renovation work is estimated at 12 months 
after construction begins. Construction is expected to begin within 6 
months of City approval to proceed with the renovation. During 
construction, the current program must be relocated and also allow for 
expansion of one additional 18 bed unit.
    Despite the findings of the joint planning effort, the City's 
planning staff is still holding to the Master Plan's long-term vision 
of tearing down Karrick Hall, and all of the other existing buildings 
on and campus, and commercially developing much of the property along a 
stretch identified as ``Massachusetts Avenue extended.'' However, the 
$13 million that has been provided to CSOSA is about $10 million short 
of what is required for a new building. In addition, various land 
siting, planning and construction issues would require approximately 36 
months to build a new building.
    CSOSA is anxious to complete work on Karrick Hall and bring the Re-
entry and Sanctions program online because of its proven potential as a 
tool to reduce recidivism. A study by the University of Maryland, 
Institute for Behavior and Health dated May 31, 2002 found that 
offenders who participated in the Washington/Baltimore HIDTA drug 
treatment program, currently operated in Karrick Hall, were less likely 
to commit crimes. Overall the arrest rate for Washington/Baltimore 
HIDTA treatment participants dropped 51.3 percent. The Washington AOC 
participants experienced a 75 percent decrease.
    Question. CSOSA's annual treatment funding has increased by 100 
percent since fiscal year 2000. Is this funding sufficient to meet the 
demand for treatment? What is being done to ensure that these resources 
are used most effectively?
    Answer. CSOSA's increased treatment funding has enabled us to make 
more placements and meet more demand. In fiscal year 2000, CSOSA 
(including PSA) made 1,692 treatment placements. This increased to 
1,875 placements in fiscal year 2001 and 3,510 placements in fiscal 
year 2002. (This includes substance abuse, sex offender, and domestic 
violence programming.) As funding has increased, the number of 
placements has increased proportionately.
    Even with the increased resources, however, CSOSA has not been able 
to place all offenders and defendants who need treatment. Approximately 
2,900 offenders received multiple positive drug tests in fiscal year 
2002. During the same period, CSOSA placed 1,665 offenders in substance 
abuse treatment. This means the Community Supervision Program can meet 
approximately 57 percent of the need for substance abuse treatment.
    If treatment is a condition of probation or parole, the offender's 
placement receives priority. For placements made by CSOSA, an 
assessment process determines what type of treatment would be most 
beneficial to the offender. We have also developed in-house treatment 
readiness and sanctions groups that help the offender develop the 
commitment necessary to complete treatment. Approximately 600 offenders 
attend these groups at any given time.
    Our Reentry and Sanction Center initiative is a critical element of 
our ability to use treatment resources effectively. The Reentry and 
Sanctions Center will increase the availability of intensive assessment 
and sanctions-based treatment for the high-risk substance-abusing 
offender.
    We are also in the early stages of research that should help us 
refine our treatment assessment process to use resources more 
efficiently. We have worked with vendors to develop a range of short- 
and longer-term residential programs, as well as a transitional housing 
program. Research will enable us to tell which programs have the 
greatest benefit and how much treatment an offender needs to complete 
before a positive behavioral change can be sustained.
    Question. You have repeatedly stated that your target caseload is 
50 offenders per officer in general supervision. Your testimony 
indicates that you feel that target can be reached with the resources 
requested last year and this year. What about high risk cases, such as 
sex offenders and mental health cases? What are you doing to manage the 
offenders most likely to pose a risk to public safety or to need 
special services?
    Answer. CSOSA has implemented several strategies to manage high-
risk cases. First, we assess the risk of every offender entering 
supervision. This assessment considers the current offense, criminal 
history, and community stability. Based on the results, we assign a 
supervision level that determines how often the offender will meet with 
his or her supervision officer. In addition, all offenders entering 
supervision for at least 30 days begin a program of drug testing that 
begins with very intensive testing and gradually relaxes as the 
offender demonstrates abstinence.
    Cases classified as needing ``intensive'' supervision are presented 
to the Metropolitan Police Department at a meeting in the Police 
Service Area where the offender lives. This presentation includes a 
photo of the offender. These cases are also targeted for joint CSOSA/
MPD site visits--called Accountability Tours--to raise the offender's 
awareness of the need to comply with conditions of supervision.
    In addition to these procedures applying to all offenders, some 
categories of offenders are assigned to specialized caseloads. Sex 
offenders, domestic violence cases, and offenders with active mental 
health issues constitute special supervision categories. These 
caseloads are lower than the general supervision caseloads. At present, 
the average special supervision caseload is 44 offenders per officer. 
Officers managing specialized cases receive additional training in the 
needs and characteristics of this type of offender. In future years, 
CSOSA anticipates lowering these specialized caseloads further.
    Finally, CSOSA is exploring ways in which technology can assist 
officers in managing high-risk offenders. We are researching Global 
Positioning System-based electronic monitoring that would enable us to 
track the offender's exact location at any time. We are looking at 
biometric technologies that will enable us to track the offender's 
attendance at work, treatment, or other required activities.
    Question. You have repeatedly stated that rearrests have decreased 
since your supervision officers began working with offenders in D.C. 
Halfway Houses. Where are rearrests at this time?
    Answer. Our latest statistics indicate that parole rearrests were 
fairly stable throughout fiscal year 2002 (approximately 95 per month). 
While this is a slight increase from last year, it is still 
substantially below the level experienced in May 1998, when CSOSA began 
working with parolees in halfway houses. At that time, the monthly 
parolee rearrest rate had reached 158.
    As our ability to obtain and analyze data has increased, we have 
been able to develop more accurate rearrest statistics for the entire 
population, including probationers. In fiscal year 2002, 2,809 
probationers were rearrested. Overall, 18 percent of the total 
supervised population was arrested. This is a slight increase (2 
percentage points) over fiscal year 2001.
    It is important to view offender rearrest in the overall context of 
total arrests. MPD arrested an average of 2,630 individuals per month 
in fiscal year 2002. Of these, 328 were individuals under CSOSA 
supervision. CSOSA's clients make up approximately 13 percent of MPD's 
monthly arrests.
    Question. How does the halfway house situation in the District 
affect your officers' ability to work with offenders prior to the start 
of supervision?
    Answer. Halfway house placement is an important element of 
successful parole supervision. It provides a transitional environment 
in which the offender can begin to cope with post-incarceration stress. 
He or she can obtain employment, finalize living arrangements, and 
formulate a plan to address the many issues that accompany re-entry 
into the community.
    Unfortunately, only about half of the parolees entering CSOSA 
supervision are placed in halfway houses. Bureau of Prisons (BOP) 
policy limits the type of offender who is recommended for placement; 
moreover, recently the BOP has moved toward strict enforcement of 
sentencing rules that limit halfway house placement to no more than 10 
percent of the sentence. For many parole violators and short-term 
felons, this effectively eliminates halfway house placement as an 
option. CSOSA has consistently recommended that the halfway house stay 
be at least 90, and preferably 120, days.
    At this time, that length of stay is not being achieved for most 
placements. Shorter halfway house stays reduce CSOSA's ability to work 
with the offender on an effective transition to community supervision.
    Question. Offender reentry has received a lot of attention from the 
media recently. How many offenders return to the District of Columbia? 
Do you anticipate that the number of offenders returning to the 
District will increase over the next few years?
    Answer. In fiscal year 2002, 2,148 offenders returned from prison 
to CSOSA supervision. This has held fairly constant over the past 
several years. CSOSA does not project a significant increase in the 2 
years for which projections have been completed. Overall, we expect an 
increase of about 2 percent in the parolee population in the next 2 
years.
    Question. What is CSOSA doing in the area of offender reentry?
    Answer. CSOSA's reentry program begins in the halfway house, where 
supervision officers assess the offender and develop an interim 
supervision plan that remains in effect for the first 90 days post-
release. For offenders who do not transition through halfway houses, 
assessment and case planning occur at the start of supervision.
    In fiscal year 2002, CSOSA engaged in significant efforts to begin 
linking returning offenders to community-based resources. We are 
working with Mayor Williams' Reentry Steering Committee on 
implementation of a comprehensive city-wide reentry strategy. This 
strategy will increase the returning offender's access to a wide range 
of services--not just supervision and treatment, but health care, job 
training, housing, official identification, and all the other services 
that a returning resident would need.
    Our Faith Community Partnership also connects returning offenders 
to the community. Research tells us that strong, positive relationships 
are essential to successful reentry, particularly during the initial 
stages of the process. We approached the city's faith institutions to 
provide this sort of guidance and role modeling through volunteer 
mentoring. Since the initiative was first announced in January 2002, 
response has been overwhelming. Over a hundred volunteer mentors have 
come forward to be trained. Offenders are hearing about the program 
while in prison and are asking to be part of it. We are currently 
working with the Bureau of Prisons to extend the program to the Rivers 
Correctional Facility in North Carolina, which houses about one 
thousand District of Columbia inmates.
    To date, about 80 offenders have received mentors. While the 
program is still very new, we have received strong anecdotal evidence 
that the participants are benefiting from the support and involvement 
of mentors. We recently held a citywide assembly to commemorate the 
program's first anniversary. At this event, two participating offenders 
gave testimony to the positive difference their mentors have made.
    In this second year of the Faith Community Partnership, we intend 
to continue the mentoring component and also focus on bringing the 
services of the faith community to returning offenders. Many faith 
institutions provide job training, housing, family counseling, and 
other resources which would greatly benefit our offenders. We are 
working with our member institutions to develop referral protocols and 
locate resources that can be used to increase program capacity.
    Question. You testified that 85 percent of arrests in the District 
do not involve offenders under CSOSA supervision, yet most crimes are 
committed by repeat offenders. What is CSOSA doing to reduce 
recidivism? What level of success have you achieved?
    The reduction of recidivism is CSOSA's most important priority. We 
recognize that our involvement in an individual's life is relatively 
brief. The average term of probation lasts about 20 months; the average 
parole, 5 years. An offender's criminal career can last much longer 
than CSOSA's window of opportunity to end that career.
    That is the main reason why our program model combines 
accountability with opportunity. Accountability lasts as long as an 
officer is there to enforce it. Opportunity lasts long past CSOSA's 
involvement. If we can help offenders develop positive ties to the 
community, they will be less likely to injure that community through 
crime. If we can help offenders understand and overcome their substance 
abuse, they will no longer commit crimes to support a drug habit.
    The primary mechanism for enforcing accountability is sanctions. In 
fiscal year 2002, over 900 instances of sanctioning were entered into 
the Community Supervision Program's case management system. We have put 
in place a sanctions matrix that identifies specific consequences for 
non-compliant behaviors. Sanctions range from verbal reprimand to 
short-term residential placement--called halfway back. We believe that 
our sanctions system will contain and correct non-compliant behaviors 
before they develop into full-fledged criminal activity.
    Our strategic plan identifies five intermediate outcomes that 
contribute to a reduction in recidivism: decreased rearrest, decreased 
drug use, decreased instance of revocation, increased employment and 
job retention, and increased education levels. We have begun tracking 
the results of each of these intermediate steps. We are confident these 
results will lead to a significant reduction in recidivism.
    Question. In your testimony, you discussed CSOSA's partnership with 
the Metropolitan Police Department. Does CSOSA partner with any other 
criminal justice agencies?
    Answer. CSOSA is an active member of the District of Columbia and 
Federal criminal justice communities. We believe that collaboration is 
essential to our success, and we are constantly seeking new 
opportunities to work with our colleagues in the field. CSOSA 
participates in the District's Criminal Justice Coordinating Council. 
We have conducted cross-training with the United States Parole 
Commission to improve staff communication between the agencies. We have 
developed a Memorandum of Understanding with the Federal Bureau of 
Prisons to place our officers in BOP-operated halfway houses, and with 
the city's Department of Employment Services to obtain targeted 
employment assistance. We are also collaborating with the BOP in an 
effort to increase public understanding of the vital role of halfway 
houses in the criminal justice system. CSOSA works continually to 
improve our coordination with our criminal justice partners and to 
provide a valuable public safety presence in the District of Columbia.

                          SUBCOMMITTEE RECESS

    Senator DeWine. Thank you.
    [Whereupon, at 11 a.m., Wednesday, March 12, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


        DISTRICT OF COLUMBIA APPROPRIATIONS FOR FISCAL YEAR 2004

                              ----------                              


                        WEDNESDAY, APRIL 2, 2003

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Mike DeWine (chairman) presiding.
    Present: Senators DeWine and Landrieu.

                           FOSTER CARE SYSTEM

                OPENING STATEMENT OF SENATOR MIKE DEWINE

    Senator DeWine. Good morning. The hearing will come to 
order.
    Today, on what fittingly is being recognized as the 
National Day of Hope for Abused Children, we are convening the 
first of what will be a series of hearings regarding the foster 
care system in our Nation's capital. I am honored to have, as 
our lead witness, Congressman Tom Davis, Chairman of the House 
Committee on Government Reform.
    Chairman Davis and I share a long-standing concern and 
commitment to children in our home States, in the District, and 
across our Nation, as of course has Senator Landrieu. Chairman 
Davis has held several oversight hearings regarding the 
receivership of Child and Family Services Agency, commonly 
referred to as CFSA. In addition, Chairman Davis and I worked 
closely together to get the D.C. Family Court Reform Act of 
2001 signed into law.
    As the new chairman of the House Committee on Government 
Reform, Chairman Davis has elevated the oversight of the 
District of Columbia to the full committee. He truly has 
demonstrated his concern for and commitment to our Nation's 
capital.
    Chairman Davis requested that the GAO review CFSA's 
performance and progress. And in our hearing today, we will 
examine and discuss the preliminary findings of that review, 
some of which are very disturbing. Our witnesses will describe 
the problems that have led to the current crisis in the 
District's foster care system and what CFSA has been doing and 
is doing to protect the lives of the District's children.
    Let me commend Congressman Davis for requesting this GAO 
review. It was a great step, something that is long overdue, 
and has provided this committee and this Congress and the 
District of Columbia some very, very important information.
    Candidly, this is not the first time that this Congress has 
looked at this issue, nor the first time that this committee 
has looked at this. This is not the first time that we, as a 
subcommittee, have heard testimony from witnesses describing 
the sorry state of the District's child welfare system. This is 
not the first time we have discussed the errors and the 
unbelievable lapses in judgment and the unquestionable and 
inexcusable breakdowns in the system, breakdowns that have led 
to the loss of at least 229 children's lives between 1993 and 
the year 2000.
    In fact, in a hearing all too similar to this one today, a 
hearing that we held in March 2001 about the state of foster 
care in the District, a hearing that this subcommittee held, we 
listened to vivid and tragic testimony detailing the complete 
collapse of the child welfare system in the District of 
Columbia. And at that hearing, I made it very clear that 
protecting the health and welfare of the District's children is 
our number one priority and how that, too, should be the number 
one priority of the District of Columbia.
    We put the CFSA on warning and said that enough was enough 
and that we were not going to allow blatantly irresponsible 
acts of incompetence to continue anymore. Further, we explained 
how this subcommittee has a responsibility, an obligation, to 
review the District's resource needs and budget proposals with 
close Congressional scrutiny. We have an obligation to ensure 
that any dollars that flow into the child welfare system are 
used for the proper protection of the children involved.
    So the question is: What has changed in these past 2 years? 
The preliminary GAO findings would suggest that very little has 
in fact changed. But before we get to the specifics of the GAO 
report, I would like to make something very clear. Whether we 
are talking about a child here in the District of Columbia or 
one in Cincinnati or one in Richmond or New Orleans or anywhere 
in the United States, I think we all would agree that every 
child in this country deserves to live in a safe, stable, 
loving and permanent home with loving and caring adults. Yet 
the reality is that tonight more than half a million children 
in this country will go to bed in homes that are not their own. 
And many of these children are tragically at risk.
    I first learned about this nearly 30 years ago in the early 
1970's, when I was serving as an assistant county prosecutor in 
my home county in Ohio, Green County, when I was a young county 
prosecuting attorney. One of my duties was to represent the 
Green County Children's Services in cases where children were 
going to be removed from their parents' custody. I witnessed 
then that too many of these cases drag endlessly, leaving 
children trapped in temporary foster care placements, which 
often entail multiple moves from foster home to foster home to 
foster home for years and years and years.
    It would appear that children in this city, in our Nation's 
capital, are at even more risk because of the systemic 
dysfunction within the District's child welfare bureaucracy. 
Let me explain.
    Over 10 years ago, the District's child welfare system was 
considered among the worst in the Nation. In 1989, the American 
Civil Liberties Union filed a class action lawsuit against the 
city, LaShawn A. v. Barry. And they argued that the District 
was failing to protect neglected and abused children.
    In 1991, the case went to trial where the Court ultimately 
found the District liable. Following this decision, the parties 
involved in the case developed a remedial action plan. The 
Court used this plan as the basis for its modified final order, 
which required the District to correct the vast deficiencies in 
its child welfare system.
    By 1995, however, little had changed, prompting U.S. 
District Judge Thomas F. Hogan to install a receiver to oversee 
the system and appoint a court monitor to review the District's 
performance. On June 15, 2001, the receivership ended. And 
responsibility was transferred to a newly established Cabinet-
level Child and Family Services Agency. The order terminating 
the receivership created a probationary period that would end 
when the District demonstrated progress on a series of 
performance indicators.
    Today, the court monitor will present her findings and 
testify as to whether or not to end the probationary period for 
CFSA. It is my understanding that the court monitor will 
recommend ending that probationary period. I will say bluntly 
that from reading the GAO's testimony, which will be presented 
shortly, I have some grave concerns about CFSA's abilities. I 
am curious to see how the court monitor's recommendations 
comports with the disturbing picture that GAO's findings paint.
    For example, the GAO has determined that CFSA is not, is 
not, meeting the most crucial requirements of the Adoption and 
Safe Families Act. This law, which I helped sponsor and which 
has been in effect since November 1997, includes a number of 
very specific provisions that require States to change policies 
and practices to better promote children's safety and adoption 
or other permanent options, or other permanency options.
    In fact, since this law has been in effect, adoptions have 
increased nearly by 40 percent nationwide. According to the 
GAO, though, while some improvements have been made, the CFSA 
has not adopted some key policies and procedures for ensuring 
the safety and permanent placement of children. Furthermore, 
caseworkers have not consistently implemented or documented 
some of the policies and procedures that have been adopted. In 
fact, CFSA is not meeting the Adoption and Safe Families Act 
standards in the following ways:
    Number one, initiating proceedings to terminate parental 
rights for children in foster care for 15 of the most recent 22 
months; number two, notifying parents of reviews and hearings; 
number three, requiring mandatory annual permanency hearings 
every 12 months for a child in foster care.
    Another troubling finding that the GAO will elaborate on 
further is the District's inability to track its children in 
foster care. In fact, data is not even available for 70 percent 
of the District's children in foster care. This is true even 
though the District has invested resources in a new automated 
information system that has been operational for over 3 years. 
How can we track these children and determine their well-being 
when they are not even entered into this automated system? How 
can the court monitor be sure that CFSA is meeting its 
standards if CFSA cannot even electronically track the children 
in its own care?
    I am very interested to hear the testimony of Anne 
Schneiders, chairman of the National Association of Counsel for 
Children, who has said that children wait for months, for weeks 
or months, before foster care placement is available. Some 
older children wait at group homes or even overnight at CFSA 
offices. They are often placed in whatever home has a vacancy, 
irrespective of the needs of the child or the preference of the 
family.
    In addition to the new GAO findings, other studies and 
newspaper investigations paint equally disturbing pictures. For 
example, according to a recent study by the U.S. Department of 
Health and Human Services, District children were in foster 
care an average of 65 months before they achieved a permanency 
plan. That is over 5 years in foster care before a plan is even 
determined.
    And, of course, none of us can forget the tragic and 
troubling accounts detailed in the September 2001 Washington 
Post's Pulitzer Prize winning investigative series on the state 
of the District's child welfare system. But even after that 
series ran, the Post identified additional cases of abuse and 
neglect. In a December 2001 story, the newspaper reported that 
at least 10 children under District protection died between 
June 2001 and December 2001, and that in one case an infant 
died of starvation after a city social welfare worker failed to 
visit his family for 7 months.
    Then, an August 2002 story reported that it took the CFSA 
nearly 3 months to remove an 11-year-old mentally retarded 
child from a District group foster care home after he reported 
being sexually abused by a 15-year-old fellow resident. In this 
particular case, the District social worker learned of the 
incident on April 9, 2002, but did not actually report it until 
July 2, 2002. And furthermore, when police finally interviewed 
the 11-year-old boy, they found out his 12-year-old roommate 
also had been sexually assaulted.
    These kinds of reports make us all sick. And the CFSA needs 
to understand we are not going anywhere, none of us are going 
anywhere. This committee is not backing off in any way until 
these children are protected. We have made the welfare and 
safety of these children our top priority.
    And as chairman of this subcommittee, I am going to 
continue to have hearings. And we are going to keep digging for 
facts and findings. And we are going to do everything we 
possibly can to save these children.
    Now I recognize that the District's child welfare system 
did not collapse overnight. And we are well aware that it will 
not be fixed overnight. However, 1 month, let alone 65 months, 
or 5 five years is a very long time in a child's life. It is an 
eternity for a child. How many more months and years can we ask 
these children and teens to wait until they have a safe and 
loving home?

                           PREPARED STATEMENT

    When we look at the District's child welfare system in its 
totality, we must not view its reform in a vacuum. The reform 
of this system is about a lot of things. This is about, we 
know, resource needs. This is about proper management of those 
resources and the services provided. It is also, of course, 
about accountability. And ultimately, and most importantly, it 
is about putting the safety and the health and well-being of 
thousands of children first, above all else.
    I know that Chairman Davis shares these concerns and is 
standing ready and willing to work together to make life better 
for these children. I thank him for requesting the GAO report. 
And I look forward to hearing his testimony.
    [The statement follows:]

               Prepared Statement of Senator Mike DeWine

    Good morning. This hearing will come to order. Today, on what 
fittingly is being recognized as the National Day of Hope for Abused 
Children, I am convening the first of what will be a series of hearings 
regarding the foster care system in the District of Columbia.
    I am honored to have as our lead witness, Congressman Tom Davis, 
Chairman of the House Committee on Government Reform. Chairman Davis 
and I share a long-standing concern and commitment to children in our 
own home States, in the District, and across the Nation. Chairman Davis 
has held several oversight hearings regarding the receivership of the 
Child and Family Services Agency, commonly referred to as CFSA. In 
addition, Chairman Davis and I worked closely together to get the DC 
Family Court Reform Act of 2001 signed into law.
    As the new Chairman of the House Committee on Government Reform, 
Chairman Davis has elevated the oversight of the District of Columbia 
to the full committee. He truly has demonstrated his concern for and 
commitment to our Nation's capital.
    Chairman Davis requested that the GAO review CFSA's performance and 
progress, and in our hearing today, we will examine and discuss the 
preliminary findings of that review--some of which are very disturbing. 
Our witnesses will describe the problems that have led to the current 
crisis in the District's foster care system and what CFSA has been and 
is doing to protect the lives of the District's children.
    But candidly, this is not the first time we've done this. This is 
not the first time that we, as a subcommittee, have heard testimony 
from witnesses describing the sorry state of the District's child 
welfare system. This is not the first time we've discussed the errors, 
and the unbelievable lapses in judgment, and the unquestionable and 
inexcusable breakdowns in the system--breakdowns that have lead to the 
loss of at least 229 children's lives between 1993 and 2000.
    In fact, in a hearing--all too similar to this one today--a hearing 
that we held in March 2001 about the state of foster care in the 
District--we listened to vivid and tragic testimony detailing the 
complete collapse of the child welfare system. And at that hearing, I 
made it unequivocally clear that protecting the health and welfare of 
the District's children is my No. 1 priority--and how that, too, should 
be the No. 1 priority of the District of Columbia. I put the CFSA on 
warning and said that enough was enough--that we were not going to 
allow blatantly irresponsible acts of incompetence to continue any 
more. Furthermore, I explained how this subcommittee has a 
responsibility--an obligation--to review the District's resource needs 
and budget proposals with close congressional scrutiny. We have an 
obligation to ensure that any dollars that flow into the child welfare 
system are used for the proper protection of the children involved.
    So, what has changed in these past 2 years? The preliminary GAO 
findings would suggest that very little has, in fact, changed. But, 
before we get to the specifics of the GAO report, I want to make 
something very clear.
    Whether we are talking about a child here in the District, or one 
in Cincinnati, or in Richmond, or in New Orleans, or anywhere else in 
America--every child deserves to live in a safe, stable, loving, and 
permanent home, with loving and caring adults.
    Yet, the reality is that tonight, more than a half-million children 
in this country will go to bed in homes that are not their own. Many of 
these children are at risk. I first learned this nearly 30 years ago in 
the early 1970's when I was serving as an assistant county prosecutor 
in Greene County, Ohio. One of my duties was to represent the Greene 
County Children Services in cases where children were going to be 
removed from their parents' custody. I witnessed then that too many of 
these cases drag on endlessly, leaving children trapped in temporary 
foster care placements, which often entail multiple moves from foster 
home to foster home to foster home--for years and years and years.
    It would appear that children in this city--in our Nation's 
capital--are at even more risk because of the systemic dysfunction 
within the District's child welfare bureaucracy. Let me explain.
    Over 10 years ago, the District's child welfare system was 
considered among the worst in the Nation. In 1989, the American Civil 
Liberties Union filed a class-action lawsuit against the city--LaShawn 
A. v. Barry--arguing that the District was failing to protect neglected 
and abused children. In 1991, the case went to trial, where the court 
ultimately found the District liable. Following this decision, the 
parties involved in the case developed a remedial action plan. The 
court used this plan as the basis for its modified final order, which 
required the District to correct the vast deficiencies in its child 
welfare system.
    By 1995, however, little had changed, prompting U.S. District Judge 
Thomas F. Hogan to install a Receiver to oversee the system and appoint 
a Court Monitor to review the District's performance.
    On June 15, 2001, the Receivership ended and responsibility was 
transferred to a newly-established Cabinet-level Child and Family 
Services Agency. The Order terminating the Receivership created a 
probationary period that would end when the District demonstrated 
progress on a series of performance indicators.
    Today, the Court Monitor will present her findings and testify as 
to whether or not to end the probationary period for CFSA. It is my 
understanding that the Court Monitor will recommend ending that 
probationary period. I will say, bluntly, that from reading the GAO's 
testimony, which will be presented shortly, I have some grave concerns 
about CFSA's abilities. I am curious to see how the Court Monitor's 
recommendation comports with the disturbing picture that GAO's findings 
paint.
    For example, the GAO has determined that CFSA is not meeting the 
most crucial requirements of the Adoption and Safe Families Act. This 
law--which I sponsored and which has been in effect since November 
1997--includes a number of specific provisions that require States to 
change policies and practices to better promote children's safety and 
adoption or other permanency options. In fact, since this law has been 
in effect, adoptions have increased by nearly 40 percent!
    According to the GAO, though, while some improvements have been 
made, the CFSA has not adopted some key policies and procedures for 
ensuring the safety and permanent placement of children.
    Furthermore, caseworkers have not consistently implemented or 
documented some of the policies and procedures that have been adopted. 
In fact, CFSA is not meeting the Adoption and Safe Family Act standards 
in the following ways: (1) initiating proceedings to terminate parental 
rights for children in foster care for 15 of the most recent 22 months; 
(2) notifying parties of reviews and hearings; and (3) requiring 
mandatory annual permanency hearings every 12 months for a child in 
foster care.
    Another troubling finding that the GAO will elaborate on further is 
the District's inability to track its children in foster care. In fact, 
data is not even available for 70 percent of the District's children in 
foster care. This is true even though the District has invested 
resources in a new automated information system that has been 
operational for over 3 years! How can we track these children and 
determine their well-being when they are not even entered into an 
automated system? How can the Court Monitor be sure that CFSA is 
meeting its standards if CFSA cannot even electronically track the 
children in its own care?
    I am very interested to hear the testimony of Anne Schneiders, 
Chair of the National Association of Counsel for Children, who has said 
that children wait weeks or months before a foster care placement is 
available. Some older children wait at group homes or overnight at CFSA 
offices. They are often placed in whatever home has a vacancy--
irrespective of the needs of the child or the preference of the family.
    In addition to the new GAO findings, other studies and newspaper 
investigations paint equally disturbing pictures. For example, 
according to a recent study by the U.S. Department of Health and Human 
Services, District children were in foster care an average of 65 months 
before they achieved a permanency plan! That is over 5 years in foster 
care before a plan is even determined!
    And, of course, none of us can forget the tragic and troubling 
accounts detailed in the September 2001 Washington Post's Pulitzer 
Prize winning investigative series on the state of the District's child 
welfare system. But, even after that series ran, the Post identified 
additional cases of abuse and neglect.
    In a December 2001 story, the newspaper reported that at least 10 
children under District protection died between June 2001 and December 
2001, and that in one case, an infant died of starvation after a City 
social worker failed to visit his family for 7 months.
    Then, an August 2002 story reported that it took the CFSA nearly 3 
months to remove an 11-year-old mentally retarded boy from a District 
group foster care home after he reported being sexually abused by a 15-
year-old fellow resident. In this particular case, the District social 
worker learned of the incident on April 9, 2002, but didn't actually 
report it until July 2, 2002! And furthermore, when police finally 
interviewed the 11-year-old boy, they found out that his 12-year-old 
roommate also had been sexually assaulted.
    These kinds of reports make me sick. And, the CFSA needs to 
understand that I am not going anywhere until these kids are protected.
    I have made the welfare and safety of these children my top 
priority, and as Chairman of this subcommittee, I'm going to keep 
having hearings, and we're going to keep digging for facts and 
findings, and we're going to do everything we possibly can to save 
these children.
    I recognize that the District's child welfare system did not 
collapse over night. And, we are well aware that it will not be fixed 
over night. However, one month--let alone 65 months or 5 years--is a 
very long time in a child's life. How many more months and years can we 
ask these infants and children and teens to wait until they have a safe 
and loving home?
    When we look at the District's child welfare system in it's 
totality, we must not view its reform in a vacuum. The reform of this 
system is about a lot of things. This is about resource needs. This is 
about proper management of those resources and the services provided. 
This is about accountability. And ultimately and most importantly, this 
is about putting the safety and health and well-being of thousands of 
children first--above all else.
    I know that Chairman Davis shares these concerns and is standing 
ready and willing to work together to help make life better for these 
children. I thank him for requesting the GAO report and welcome now his 
testimony.

    Senator DeWine. Let me turn to the Ranking Member of this 
committee, who has been a real partner in this effort and who 
cares passionately about the children of the District of 
Columbia, Senator Landrieu.

                 STATEMENT OF SENATOR MARY L. LANDRIEU

    Senator Landrieu. Thank you, Mr. Chairman. And I am going 
to be very brief and submit a statement for the record, because 
I am anxious to hear from our partner in the House on this 
issue. And I also have any number of questions that will follow 
up some of the more disturbing findings in this report.

                           PREPARED STATEMENT

    But let me just say that I appreciate this work. I want to 
associate myself with your remarks, Mr. Chairman, and 
understand that we have made some progress. But according to 
this report, there is a tremendous amount of work that is yet 
to be done. And this work is extremely important. And there is 
an urgency about this work. So I will submit the rest of my 
statement in writing. And thank you, Mr. Chairman.
    [The statement follows:]

             Prepared Statement of Senator Mary L. Landrieu

    I would like to join Chairman DeWine in welcoming our witnesses 
from the District as well as Chairman Tom Davis from the House 
Government Reform Committee. I appreciate Chairman Davis taking the 
time to share his insight into the District, as a representative from 
Virginia, and the GAO report which he initiated.
    It has been two years since Chairman DeWine and I convened our 
first hearing on this subcommittee to discuss child welfare in the 
District. At that time we met with some of you and some of your 
predecessors. We are happy that Judith Meltzer is on the panel again, 
and that her expertise has provided a thread of continuity in the 
reform of child welfare in the District. However, over the two years 
that have passed, we are still in the planning phase of reform.
    The receivership of the Child and Family Services Agency ended in 
June of 2001 after certain criteria were achieved by the city, such as, 
protecting CFSA from agency budget or personnel reductions; reform of 
the Family Court and coordination; implementation of memoranda of 
understanding with the Department of Health and the Commission on 
Mental Health Services for providing mental health and substance abuse 
services. These benchmarks have improved the direction of this agency, 
but not the results so far.
    Now this subcommittee is meeting with the leaders on child welfare 
again and we understand that the agency's probationary period, which 
has seen child welfare through the last 21 months, was terminated in 
January. I understand that the District has met 75 percent of 20 best 
practice benchmarks during probation. I would be interested to learn 
more specifically about the benchmarks met and those where the agency 
fell short.
    The two main guidebooks to reform of CFSA are a court order (the 
implementation plan of the LaShawn Decree) and the Federal law (the 
Adoption and Safe Families Act). GAO has aptly reviewed the District's 
strengths and weaknesses in these areas. The federal court will 
maintain oversight of the agency as it implements the standards set in 
the. Yet another component must be considered: the citizens of the 
District; as identified in Judith Meltzer's written testimony.
    I remain concerned that there is a grave difference between 
checking the box of criteria and impacting the lives of children. I 
have worked in this field for 20 years as an advocate for children, and 
I know that there are small things that can be done to make children 
safer, while the administrative arm of the agency is trying to stand up 
their processes. I do not want the District to lose sight of this fact. 
We must be achieving safety and permanency for every child on a day to 
day basis. We cannot wait until the administration of the agency is 
strong enough to do its job every day.
    Each of your different perspectives (as an advocate of children; as 
an administrator of an agency; and as the monitor to ensure compliance 
with court mandates) can provide insight.
    This morning, I would like to know from each of you: How can we 
move beyond ``we're working on it''? When is this agency going to 
remove the ``Under Construction'' sign and replace it with a sign 
reading, ``Now Operating''? We are not talking about widgets. We are 
talking about the safety and future of children.
    I hope that you all will be open with the subcommittee on the 
critical needs that exist and how we can address the necessary 
resources in the city. I appreciate the time of each of our witnesses 
and hope that we can begin a constructive dialogue on the future of the 
Child and Family Services Agency.

    Senator DeWine. Thank you.
    Congressman Davis, again, thank you for requesting this 
very revealing report. We are very grateful to you for doing 
this. And we look forward to your testimony. Thank you. Please 
proceed, and take as much time as you would like.

STATEMENT OF HON. TOM DAVIS, U.S. REPRESENTATIVE FROM 
            VIRGINIA
    Mr. Davis. Thank you very much. And good morning, Mr. 
Chairman and Senator Landrieu. And let me thank you for your 
partnership and your leadership, both of you, in this as well. 
And thank you for inviting me to testify today.
    As you know, I have a longstanding interest in the Child 
and Family Services Agency and all the reform efforts it is 
undertaking to provide adequate services to vulnerable children 
and families in the District.
    When I served as chairman of the House Government Reform 
Subcommittee on the District, we held numerous hearings to 
examine CFSA's operations under Federal court-ordered 
receivership. At the time, CFSA was plagued by deep-rooted 
management problems that impacted the safety of children in its 
care and hindered the agency's delivery of services.
    The systematic problems identified were widespread and 
included agency operations, staffing, budget, and fiscal 
management, procurement, and quality assurance monitoring. The 
CFSA has since worked to address many of these problems and 
fulfill the criteria for terminating the probationary period.
    To complement the reforms in CFSA, Congress worked with the 
D.C. Superior Court officials, Government, and community 
leaders to craft the Family Court Act. The act established 
management principles to better address the needs of the 
children in the system, increased the number of Family Court 
judges, and created the position of magistrate judge to help 
eliminate the backlog of cases and ensure that cases were 
managed in a timely manner. The Family Court reforms emphasized 
the importance of communication between the Court and the CFSA, 
including the establishment of an on-site liaison office in the 
Family Court to better inform judges of the availability of 
social services in the city.
    The occurrence of highly publicized incidents last year, 
including the placement of underage children in group homes, 
reminded us that many areas of CFSA's operations had yet to be 
reformed and that children were paying the price for agency 
mistakes. Therefore, then-D.C. subcommittee Chairwoman Connie 
Morella and I requested a follow-up GAO study to examine CFSA's 
performance measures and compliance with the Adoption and Safe 
Families Act, the implementation of key foster care policies, 
and the relationship between the agency and the Family Court.
    Based on GAO's initial results, I am pleased that CFSA is 
showing some progress in a number of areas. Specifically, we 
are encouraged by CFSA's efforts to develop written plans to 
help it comply with some of AFSA's requirements and performance 
measures. We are also pleased to note the agency's development 
of numerous foster care policies.
    Furthermore, CFSA's efforts to lower the number of underage 
children who are placed in group homes is commendable. However, 
I question why the number remains so high--GAO reports that 70 
children were still in group homes at the end of February 
2003--and whether the District has an adequate number of foster 
families.
    The relationship between CFSA and the Family Court is 
improving. And the two entities are working collaboratively. 
But I understand that hearing conflicts and staffing problems 
remain.
    While the agency's progress is encouraging, I admit that 
GAO's findings leave me with more questions than answers. I 
still have concerns about the many challenges that lay ahead. 
For instance, there are remaining AFSA requirements that the 
agency has not met regarding the termination of parental rights 
and permanency hearings. I understand that many of the delays 
in these areas are likely due to staffing shortages. I know 
that social service agencies nationwide face a shortage of 
social workers.
    So what has to be done to attract a larger number of 
qualified and competent social workers to CFSA? Mr. Chairman, I 
understand that you are examining this issue and looking for 
potential ways to provide a financial incentive to qualified 
applicants, including loan forgiveness and scholarships. Our 
counterpart, the House Committee on Government Reform, stands 
ready to provide the necessary support for innovative 
recruitment and retention efforts.
    As you know, Mr. Chairman, the incidents that prompted me 
to request the GAO report occurred in group homes. One of 
several issues that emerged included the delayed reporting of 
abuse allegations. I remain concerned that CFSA has been slow 
to improve staff training and clarify the incident reporting 
requirements so that employees understand their 
responsibilities.
    GAO also found that critical data about children's cases 
are not always entered into the FACES automatic case management 
system in a timely fashion. This limits a social worker's 
ability to provide the Family Court with the most accurate, 
relevant, and timely information so that the judge may make an 
educated decision to ensure the safety and well-being of the 
child. All components of the child welfare system need to work 
together to provide children with safe homes and any social and 
medical services that they may require. Since the information 
stored in the FACES system serves a variety of purposes within 
the agency, it is imperative that it is updated as quickly as 
possible. I hope that CFSA will discuss their IT improvement 
plans this morning.
    Furthermore, the data in the FACES system should ideally 
keep track of a child's assignment to a foster family, 
including those in Maryland. I continue to be concerned that 
the District of Columbia may not have an accurate tally of the 
number of children currently placed in Maryland foster homes. I 
have also received reports that the computers are often down, 
further exacerbating the database challenges.
    So what needs to happen in order to address the critical 
shortfalls identified by GAO? Does the answer lie in more 
staff, better management, better IT services, more money? How 
successful has CFSA been at targeting their resources to 
resolve management, staffing, and other operational challenges? 
These are questions that our committees must continue to ask as 
we pursue our respective roles. And I certainly hope that 
today's hearing will identify CFSA's advances and pinpoints its 
needs as it continues to institute reform.
    I understand that the process is slow. If only the system 
could be fixed overnight for the benefit of the children it 
serves. Unfortunately, the reality is that a comprehensive 
overhaul of an agency's infrastructure and the implementation 
of new polices and procedure, it takes time, it takes money and 
some patience.

                           PREPARED STATEMENT

    The House committee will hold an oversight hearing in May 
to further examine these issues. As we move forward with our 
oversight responsibility, I look forward to working together, 
as we examine the progress of the agency's reforms, determine 
what assistance Congress can provide as CFSA completes the 
development and improvement of its policies and procedures.
    That concludes my remarks, Mr. Chairman. Again, I 
appreciate the leadership of both of you on this issue.
    [The statement follows:]

             Prepared Statement of Representative Tom Davis

    Good morning, Mr. Chairman and Members of the Subcommittee. Thank 
you for inviting me to testify today about the District of Columbia 
Child and Family Services Agency (CFSA). As you know, I have a 
longstanding interest in CFSA and the reform efforts it is undertaking 
to provide adequate services to vulnerable children and families in the 
District.
    When I served as Chairman of the House Government Reform 
Subcommittee on the District of Columbia, we held numerous hearings to 
examine CFSA's operations under Federal court-ordered receivership. At 
the time, CFSA was plagued by deep-rooted management problems that 
impacted the safety of children in its care and hindered the agency's 
delivery of services. The systemic problems identified at CFSA were 
widespread and included agency operations, staffing, budget and fiscal 
management, procurement, and quality assurance monitoring. The CFSA has 
since worked to address many of these problems and fulfill the criteria 
for terminating the probationary period.
    To complement the reforms in CFSA, Congress worked with D.C. 
Superior Court officials, government, and community leaders to craft 
the Family Court Act. The Act established management principles to 
better address the needs of the children in the system, increased the 
number of Family Court judges, and created the position of magistrate 
judge to help eliminate the backlog of cases and ensure that cases are 
managed in a timely manner. The Family Court reforms emphasized the 
importance of communication between the Court and CFSA, including the 
establishment of an on-site liaison office in the Family Court to 
better inform judges of the availability of social services in the 
city.
    The occurrence of highly publicized incidents last year, including 
the placement of underage children in group homes, reminded us that 
many areas of CFSA's operations had yet to be reformed and that 
children were paying the price for agency mistakes. Therefore, then-
D.C. Subcommittee Chairwomen Connie Morella and I requested a follow-up 
GAO study to examine CFSA's performance measures and compliance with 
the Adoption and Safe Families Act (ASFA), the implementation of key 
foster care policies, and the relationship between the agency and the 
Family Court.
    Based on GAO's initial results, I am pleased that CFSA is showing 
progress in a number of areas. Specifically, I am encouraged by CFSA's 
efforts to develop written plans to help it comply with some of the 
ASFA requirements and performance measures. I am also pleased to note 
the agency's development of numerous foster care policies. Furthermore, 
CFSA's efforts to lower the number of underage children who are placed 
in group homes is commendable. However, I question why that number 
remains so high (GAO reports that 70 children were still in group homes 
at the end of February 2003), and whether the District has an adequate 
number of foster families. The relationship between CFSA and the Family 
Court is improving and the two entities are working collaboratively, 
but I understand that hearing conflicts and staffing remain problems.
    While the agency's progress is encouraging, I must admit that GAO's 
findings leave me with more questions than answers. I still have 
concerns about the many challenges that lay ahead. For instance, there 
are remaining ASFA requirements that the agency has not met regarding 
the termination of parental rights and permanency hearings. I 
understand that many of the delays in these areas are likely due to 
staffing shortages. I know that social services agencies nationwide 
face a shortage of social workers. So, what must be done to attract a 
larger number of qualified and competent social workers to CFSA? Mr. 
Chairman, I understand that you are examining this issue and looking 
for potential ways to provide a financial incentive to qualified 
applicants, including loan forgiveness and scholarships. The House 
Committee on Government Reform stands ready to provide the necessary 
support for innovative recruitment and retention efforts.
    As you know, Mr. Chairman, the incidents that prompted me to 
request the GAO report occurred in group homes. One of several issues 
that emerged included the delayed reporting of abuse allegations. I 
remain concerned that CFSA has been slow to improve staff training and 
clarify the incident reporting requirement so that employees understand 
their responsibilities.
    GAO also found that critical data about children's cases are not 
always entered into the FACES automated case management system in a 
timely fashion. This limits a social worker's ability to provide the 
Family Court with the most accurate and relevant information so that 
the judge may make an educated decision to ensure the safety and well-
being of the child. All components of the child welfare system need to 
work together to provide children with safe homes and any social and 
medical services they may require. Since the information stored in the 
FACES system serves a variety of purposes within the agency, it is 
imperative that it is updated as quickly as possible. I hope that CFSA 
will discuss their IT improvement plans this morning.
    Furthermore, the data in the FACES system should ideally keep track 
of a child's assignment to a foster family, including those in 
Maryland. I continue to be concerned that the District of Columbia may 
not have an accurate tally of the number of children currently placed 
in Maryland foster homes. I have also received reports that the 
computers are often down, further exacerbating the database challenges.
    So what needs to happen in order to address the critical shortfalls 
identified by GAO? Does the answer lie in more staff, better 
management, better IT services, more money? How successful has CFSA 
been at targeting their resources to resolve management, staffing, and 
other operational challenges? These are questions that our committees 
must continue to ask as we pursue our respective roles. And I certainly 
hope that today's hearing will identify CFSA's advances and pinpoint 
its needs as it continues to institute reform.
    I understand that the process is slow. If only the system could be 
fixed overnight for the benefit of the children it serves. The 
unfortunate reality is that a comprehensive overhaul of an agency's 
infrastructure, and the implementation of new policies and procedures 
take time, money, and patience.
    The House Committee on Government Reform will hold an oversight 
hearing in May to further examine these issues. As we move forward with 
our oversight responsibility, I look forward to working together as we 
examine the progress of the agency's reforms, and determine what 
assistance Congress can provide as CFSA completes the development and 
improvement of its policies and procedures.
    That concludes my remarks, Mr. Chairman. I am available to answer 
any questions you may have.

    Senator DeWine. Well, Mr. Chairman, we look forward to 
working with you. We just appreciate your interest and again 
thank you for requesting this GAO report. And I think it is 
going to provide us, both of us, with a great deal of 
information to help the District improve and work together on 
our common goal, to really help the children of the District of 
Columbia.
    Mr. Davis. Thank you.
    Senator DeWine. Senator Landrieu?
    Senator Landrieu. I just want to thank you for your 
testimony and acknowledge that these problems are quite severe 
in the District. And we have every intention of continuing to 
work with you to improve and to find workable solutions. I will 
note that the District, of course, which I always feel 
compelled to point out, is not the only place in the United 
States where these problems exist. But they exist in a more 
acute way here--the numbers just seem overwhelming to some of 
us who do this work all throughout the country. The District of 
Columbia is not alone, but it does seem to have some persistent 
problems that are just very tough to address.
    So I thank you for your effort and look forward to working 
with you.
    Mr. Davis. Thank you very much.
    Senator DeWine. Thank you very much.
    I would invite our second panel now to come forward.
    Dr. Olivia Golden is the Director of the District of 
Columbia's Child and Family Services Agency. Ms. Judith Meltzer 
is the court-appointed monitor for the Child and Family Service 
Agency. Ms. Cornelia Ashby is the Director of Education, 
Workforce, and Income Security Issues at the General Accounting 
Office. And Anne Schneiders is the chair and founder of the 
Washington Chapter of the National Association of Counsel for 
Children.
    I think we will start with you, Dr. Golden. And we will 
take just a brief 5-minute opening statement, if you would like 
to make one. And then we will just go right down. And then we 
will have questions.

STATEMENT OF DR. OLIVIA A. GOLDEN, DIRECTOR, CHILD AND 
            FAMILY SERVICES AGENCY, DISTRICT OF 
            COLUMBIA
    Dr. Golden. Thank you. Good morning, Chairman DeWine, 
Senator Landrieu, District of Columbia Subcommittee. I am 
Olivia Golden, the Director of the Child and Family Services 
Agency for the District of Columbia. And I appreciate your deep 
commitment to the District and to children.
    Less than 2 years ago, in June of 2001, Federal Court 
receivership of CFSA terminated. And I had the opportunity to 
become the first director of CFSA in its new form as a cabinet-
level agency of the District of Columbia. The legislation that 
created this new agency laid out for CFSA a whole set of 
responsibilities and authorities that had never been unified in 
one place in the District before, creating for the first time 
the opportunity for true reform.
    The pace of change since then has been extraordinary. It 
has only been 18 months since October of 2001 that the District 
has had a unified child abuse and neglect agency at all. Before 
then, CFSA investigated reports of neglect only, while the 
Metropolitan Police Department investigated reports of abuse 
and services to children who had experienced abuse were split 
between court social services and CFSA.
    In this fragmented system, the obstacles to such basic 
elements of child welfare services as prompt and high-quality 
investigation and timely movement to permanence were 
overwhelming. Both our own sense of urgency and the Federal 
Court's framework required us to create real change for 
children at the same time we were reengineering the whole legal 
and institutional framework for child welfare in the District, 
building the District's first real safety net for children.
    After our first year, as Senator DeWine mentioned, the 
court monitor in the LaShawn lawsuit reported that we had met 
75 percent of 20 exacting performance goals, measuring progress 
from the end of the receivership. As a result, Federal Judge 
Hogan signed the order ending the probationary period in 
January of 2002. Among the probationary period accomplishments 
that have the most direct impact on children are the dramatic 
reduction in the backlog of investigations open more than 30 
days, sharp reductions in the use of group care for young 
children, a sharp reduction in the number of children in 
residential care more than 100 miles from the District, and a 
20 percent increase in finalized adoptions.
    This is a critical juncture for reform and for the LaShawn 
lawsuit. The District has demonstrated its capacity to mobilize 
and maintain momentum for change. Yet the end of CFSA's 
probation does not mean the end of the lawsuit. We are now 
committed to several years of hard work to meet the ambitious 
goals we have set for ourselves and the requirements of the 
Court's modified final order. We have been closely working with 
the court monitor and plaintiffs in developing the 
implementation plan that will set out benchmarks for this 
process.
    CFSA's multi-year timetable for reform is consistent with 
the national experience. Our national advisory panel, which 
includes leaders who have transformed child welfare in other 
jurisdictions, such as William Bell from New York, Judge 
Ernestine Gray from New Orleans, and Judith Goodhand from 
Cleveland, Ohio, has suggested that we think of change in a 
major urban child welfare system as a 5- to 10-year process. As 
William Bell wrote of New York's ambitious child welfare 
reform, ``Everyone involved had to accept that real reform was 
a multi-year, multi-faceted undertaking.''
    In my written testimony, I describe in detail how far we 
have come and the reform that still lies ahead in staff 
recruitment, retention, and training, in licensing, in contract 
reform, in foster care and adoptive parent recruitment, in 
information systems, and in partnerships with other agencies. 
In this oral summary, I would like to highlight just three 
additional accomplishments.
    First, because manageable social worker caseloads are key 
to quality services for children, we have brought the average 
ongoing caseload down from about the mid-30's last year at this 
time to 23 as of last week.
    Second, our substantial progress in building a reliable and 
timely automated data system has been key to our 
accomplishments for children. I would love to talk about that 
more during questions. This month FACES, our system, will 
receive an award from Computer World Magazine for being a 
national leader in automating child welfare case management. 
And I would like to correct some of the comments made earlier, 
if we have time in the question period, because we do have a 
very complete and timely automated system. But there is old 
data from 1998 and 1999 that GAO found, because of the state of 
the system then, the old data was not all on it.
    Third, just 1 year ago, we began reforming legal support by 
co-locating a dramatically expanded team of attorneys with 
CFSA. Today, social workers have legal representation in 97 
percent of all hearings. Our legal staff has been reorganized 
to work with Family Court judicial teams. And each lawyer is 
shifting to vertical prosecution, which means seeing a case 
through from initial hearing to permanence.

                           PREPARED STATEMENT

    In conclusion, we are at an extraordinary moment in the 
District's child welfare system, a moment of early 
accomplishment, of great hope, and yet of fragility. I am 
deeply grateful for the subcommittee's past support and 
leadership and for both Senator Landrieu and Senator DeWine's 
work at a national level where I had the chance to work with 
you as well.
    My written testimony suggests several areas for the 
subcommittee's continued involvement, which I look forward to 
discussing today or in the future.
    Thank you.
    [The statement follows:]

                 Prepared Statement of Olivia A. Golden

    Good morning Chairman DeWine, Senator Landrieu, and Members of the 
District of Columbia Subcommittee of the Senate Appropriations 
Committee. I am Olivia Golden, the Director of the Child and Family 
Services Agency (CFSA) for the District of Columbia, and I am grateful 
for the opportunity to testify today regarding the progress of child 
welfare reform in the District of Columbia. I appreciate the deep 
commitment of Senator DeWine, Senator Landrieu, and other Subcommittee 
members to the District's well-being and to the child welfare agenda of 
safety, permanence, and well-being.
    Less than 2 years ago, in June 2001, Federal Court Receivership of 
CFSA terminated, and I had the opportunity to become the first Director 
of CFSA in its new form as a cabinet-level agency of the District of 
Columbia. The legislation that created this new cabinet-level agency 
laid out for CFSA a whole set of responsibilities and authorities that 
had never been unified in one place in the District before, creating 
for the first time the opportunity for true reform. The pace of change 
since then has been extraordinary. For example, it has only been about 
18 months, since October of 2001, that the District has had a unified 
child abuse and neglect agency. Before then, CFSA investigated reports 
of neglect only, while the Metropolitan Police Department investigated 
reports of abuse, and services to children who had experienced abuse 
were split between Court Social Services at the Superior Court and 
CFSA. In this fragmented system, the obstacles to such basic elements 
of child welfare services as prompt and high-quality investigation and 
timely movement to permanence were overwhelming. To take another 
example, after 15 years when the District's statute regarding licensing 
of foster homes, group homes, and independent living facilities had 
never been implemented, this authority was given to CFSA in the April 
2001 legislation and was implemented through regulations in 2001 and 
early 2002. Just weeks ago, we accomplished the District's first-ever 
licensing of these facilities, meeting the regulatory deadline of 
January 1, 2003.
    But there was no time to wait for this dramatic institutional 
change to be complete: both our own sense of urgency and the Federal 
Court's framework for measuring progress required us to create real 
change for children at the very same time we were re-engineering the 
whole statutory and institutional framework for child welfare in the 
District. After our first year, the Court Monitor in the LaShawn 
lawsuit reported that we had met 75 percent of 20 exacting performance 
goals measuring progress from the baseline at the end of Receivership, 
thus ending the probationary period under LaShawn. Judge Hogan signed 
the order ending the probationary period in January 2002.
    Among the probationary period accomplishments that have the most 
direct impact on children are:
  --reduction in the backlog of investigations open more than 30 days 
        from over 800 in May of 2001 to under 300 in May of 2002 (and 
        under 100 today);
  --sharp reductions in the use of congregate care for young children--
        for example, a reduction in the number of children under 6 in 
        group care from 99 in May of 2001 to 47 in May of 2002 and 
        under 40 as of February 28, 2003;
  --a sharp reduction in the number of children in residential care 
        more than 100 miles from the District to 56 as of February 
        2003. This is a sharp decline from a total of 83 in May of 2001 
        and 65 in May of 2002;
  --a 20 percent increase in finalized adoptions from the year ending 
        in May of 2001 to the year ending in May of 2002; and
  --improvements in the proportion of cases with current case plans, 
        the building block for permanence for children.
    I want to acknowledge the leadership and commitment demonstrated by 
Mayor Williams, Deputy Mayor Graham, the Council of the District of 
Columbia and Delegate Eleanor Holmes Norton, in making such dramatic 
change possible in less than 2 years.
    It has been an extraordinary personal opportunity for me to be part 
of these 2 years of fundamental reform in the District. In my previous 
role as Assistant Secretary for Children and Families at the Federal 
level, I had the opportunity to work on both the Adoption and Safe 
Families Act and the Federal Child and Family Service Reviews, in order 
to better align the Nation's child welfare system with three critical 
goals: keeping children safe, enabling every child to grow up in a 
permanent family, and supporting the well-being of the most vulnerable 
children and most fragile families. It is these same three goals that 
have shaped our work for the past 2 years in the District.
    In today's testimony, I would like to give you a sense of how far 
we have come in this very brief but very intense period of reform and 
of the continued, major reform that still lies ahead. Four key themes 
summarize where we have been and where we are going:
  --1. After less than 2 years out of receivership, we are at a 
        critical juncture for reform and for the LaShawn lawsuit.--We 
        have accomplished major milestones, by completing the statutory 
        reform sketched above and achieving the milestones that ended 
        the probationary period; at the same time, we have ahead of us 
        a several-year plan to accomplish the vision for reform laid 
        out in the LaShawn Modified Final Order.
  --2. This timetable for reform is consistent with the national 
        experience about reform of major urban child welfare systems, 
        an experience we draw on through our National Advisory Panel 
        and a wide variety of other expertise.--We are about 2 years 
        into a reform process that the national experience suggests 
        will take 5 to 10 years of sustained, committed effort.
  --3. CFSA's progress has required both major institutional changes--
        such as new legislation, new regulations, and new 
        intergovernmental agreements--and improvements in basic, day-
        to-day practice leading to better results for children.--In the 
        first year we transformed the statutory and institutional 
        framework and tore down barriers to reform at the same time 
        that we achieved early results for children, including the 
        achievement of 75 percent of the performance standards to end 
        the probationary period. In the second year, we are continuing 
        the rapid pace of change, accelerating the improvements for 
        children and the development of core processes, and 
        strengthening emerging partnerships.
  --4. We have ahead of us an ambitious multi-year program to build in 
        quality and transform results.--We expect that the road map to 
        this ambitious reform agenda will be the Implementation Plan 
        currently being completed by the Federal Court Monitor after 
        intensive discussions with the District and the LaShawn 
        plaintiffs. We believe that the support of the whole community 
        will be necessary to achieve this ambitious agenda, and we are 
        grateful for the continuing support of the Subcommittee and the 
        opportunity to suggest how the Subcommittee can help from here 
        on.
    Before turning to these specific themes, I would like to illustrate 
the impact of reform on children's lives with one real example: 17-
year-old Anna has experienced at least 15 psychiatric hospitalizations 
since becoming involved with CFSA at age 12. Her father and grandmother 
love Anna, but they are worn out from dealing with her bi-polar and 
behavioral disorders, seizures, verbal and physical violence, substance 
abuse, and running away. They wanted Anna placed in a residential 
treatment facility. Anna's CFSA caseworker hoped to keep Anna in the 
community and in contact with her family, so she referred Anna's case 
to Multi-Agency Placement Team (MAPT). Through MAPT, Anna has been able 
to stay in the community with intensive, coordinated, multi-agency 
support. These services include: placement in a foster home that can 
meet her needs, intensive case management, referral to a local 
psychiatrist, involvement with a mentor, enrollment in an education-
based day treatment program, and a part-time job. The difference for 
Anna is that her family and the agencies worked together to coordinate 
services for her. This is very different than hasty assembly of 
fragmented services in the past. Anna's difficulties are severe, and 
she may or may not be able to remain in the community. But for now, 
MAPT has provided access to intensive, coordinated local services; Anna 
has been diverted from a restrictive residential placement; and she is 
engaged in school and with the providers and not running away.

                     STATUS OF THE LASHAWN LAWSUIT

    We are now at a very important point in the LaShawn lawsuit. The 
Receivership and the probationary period that followed it have 
terminated, as a result of the District's successful enactment of key 
legislative reforms as well as the accomplishment of 75 percent of the 
20 performance goals. In January, Federal Judge Hogan of the U.S. 
District Court certified CFSA's completion of probation, which 
successfully demonstrates the District's capacity to mobilize and 
maintain momentum for change.
    At the same time, the end of CFSA's probation does not mean the end 
of the lawsuit. We are now facing several years of hard work to meet 
the ambitious goals we have set for ourselves and the requirements of 
the Modified Final Order, which is the original consent decree the 
District signed in 1993, and other remedial orders. Now, the District 
must substantially comply with requirements in these orders to end 
Federal Court involvement.
    The vision of reform laid out in the Modified Final Order not only 
has legal force but offers a compelling vision of safety, permanence, 
and well-being for abused and neglected children. It envisions a 
District where:
  --prompt, thorough, quality investigations protect children at risk 
        and screen them appropriately for health and mental health 
        issues;
  --a broad range of services in the community help children remain at 
        or return home safely--or, when those options are not possible, 
        grow up in nurturing adoptive families;
  --support is readily available to help foster, kinship, and adoptive 
        parents meet children's health, mental health, and other needs;
  --children almost always live with families and only rarely in group 
        settings;
  --foster children have as much continuity and stability as possible, 
        including opportunities to live with their brothers and 
        sisters, to bond with one foster or kinship family rather than 
        move among many placements, and to see their parents often as 
        long as reunification is the goal; and
  --social worker caseloads are low enough that both CFSA and private-
        partner social workers routinely provide quality case 
        management while expanding their skills through pre-service and 
        in-service training.
    For several months, the District, Federal Court Monitor, and 
plaintiffs have been negotiating an Implementation Plan designed to 
improve the key areas of local child welfare in keeping with this 
vision. As you will hear today from the Court Monitor, we are 
optimistic that the final Implementation Plan will be submitted to the 
Court very soon. This final Implementation Plan will mandate and direct 
continued reform of CFSA over the next several years. It will mean 
meeting measurable benchmarks within specific time frames. And it will 
mean achieving substantial compliance of the Modified Final Order, so 
that Federal court oversight will terminate and further legal action 
will be avoided.
    I expect the final Implementation Plan will challenge us to move 
beyond our achievements to date to develop a well functioning urban 
child welfare system. I also expect that CFSA will need to continue, 
and perhaps even increase, the fast-paced rate of change we have 
struggled to establish over the past 2 years. However, with continued 
reform inside our agency and sustained support from outside, the 
District now has two unprecedented opportunities: first, to establish 
the strong public child protection program local children and families 
deserve and second, to end the LaShawn lawsuit. The challenge will be 
great, the demands high, and the time frame extended over several 
years. But the time is right to continue our momentum and achieve 
significant positive outcomes for children, families, and the city. 
This payoff is clearly well worth all our best efforts and support.

             THE NATIONAL CONTEXT FOR CHILD WELFARE REFORM

    To inform and sustain this dramatic pace of reform at CFSA, we have 
drawn on a range of national expertise in the reform of urban child 
welfare systems. The October 2000 consent order that led to the end of 
the Receivership envisioned a National Advisory Panel, to be supported 
by private funding and to provide expertise and advice to the Director 
of CFSA. With support from the Annie Casey Foundation, we have 
established this National Panel, which includes academic experts as 
well as leaders who have transformed child welfare systems in other 
jurisdictions--such as William Bell, current Commissioner of the 
Administration for Children's Services in New York, Judge Ernestine 
Gray from New Orleans who is the Immediate Past President of the 
National Council of Juvenile and Family Court Judges, and Judith 
Goodhand who formerly led child welfare in Cleveland, Ohio.
    These national leaders have provided us with a range of advice, 
support, and technical assistance, ranging from informal training 
activities to an on-site team review of all of CFSA's placement 
functions, with a report to follow shortly. One common theme to all of 
their advice, however, has been to think of change in a major urban 
child welfare system as a 5- to 10-year process. As William Bell, 
Commissioner of New York City's child welfare agency, wrote of New 
York's ambitious child welfare reform (New York Times Op-ed dated 
January 21, 2003), ``a desire for quick fixes had to be resisted. 
Everyone involved had to accept that real reform was a multi-year, 
multi-faceted undertaking.''

                      CFSA: A SNAPSHOT OF PROGRESS

    Before moving on to the details of our reform process, I would now 
like to take a moment to provide a snapshot of our progress for 
children. Our goal is to achieve safety, permanence, and well being not 
just for one, or a dozen, or a hundred but for the thousands of 
children who need the District's protection every year. To provide a 
context for the scale of the task ahead, in fiscal year 2002, our 24-
hour line for reporting child abuse and neglect received an average of 
640 calls monthly. About 440--or 69 percent--of those calls met the 
criteria for abuse or neglect and were referred for investigation. In 
an average month, CFSA served some 3,119 children in paid placements, 
and about 2,301 families with children at home. At the end of fiscal 
year 2002, we had 1,803 children adopted from our foster care program 
and living in adoptive homes, with support from the District's 
subsidized adoptions program.
    In every area where we are assessing progress, we see a balance of 
important positive changes yet a great deal left to do. Key highlights 
include:
  --Improved staffing and reduced caseloads per social worker, yet more 
        to do to reach our goals.--Because manageable caseloads are key 
        to high quality services for children, we have placed a top 
        priority on bringing down and equalizing caseloads, to reduce 
        both the average caseload and the caseloads carried by our most 
        over burdened workers. As a result of our aggressive 
        recruitment (described below) as well as a focus on assigning 
        and managing cases more equitably, we have brought the average 
        ongoing caseload down from about the mid-30's last year at this 
        time to 23 as of last week. At the top end, we have gone from 
        18 workers carrying more than 50 cases last August to none at 
        that level now, and we expect to bring all caseloads below 40 
        within the next few weeks. However, we have much more to do: 
        under the MFO, we will need to bring all ongoing caseloads 
        below 20, with some targeted for 17 and 12 cases depending on 
        the child and family circumstances. At the front end of the 
        system, our investigators are very close to the MFO caseload 
        levels: at the end of February, 45 of 55 investigators had 
        caseloads below the MFO level of 12 investigations. We intend 
        to meet the MFO level in investigations by the end of the 
        fiscal year.
      Recruitment and retention of child welfare staff are national 
        challenges and not unique to the District of Columbia. The 
        Child Welfare League of America and the American Public Human 
        Services Association, among others have reported on the problem 
        and proposed remedies. With support from the Annie E. Casey 
        Foundation, we are hoping to build on this knowledge and add 
        new lessons from our experience that may assist other 
        jurisdictions.
  --Timely investigations.--As indicated above, we have made important 
        progress in reducing the backlog of investigations open more 
        than 30 days, from a backlog of more than 800 in May of 2001 to 
        under 300 in May of 2002 to under 139 today. The proportion of 
        open investigations that have been open 30 days or less is 
        currently 70 percent. We have been able to accomplish these 
        improvements even while adding new responsibilities, such as 
        the new area of institutional investigations--investigations of 
        settings such as group homes, foster homes, and day care 
        centers--which in many States are seen as more complex and 
        time-consuming than individual abuse and neglect 
        investigations. Our next steps in investigations will require 
        us to focus intensively on quality, in order to meet the 
        ambitious standards in the MFO.
  --Continued reductions in reliance on congregate care.--Sadly, the 
        District's history involves far too great a reliance on group 
        care rather than families for children who cannot live safely 
        at home. We have already made important changes in this 
        historic practice and anticipate further progress over the 
        coming years. In addition to the dramatic reduction in the 
        number of very young children--under age 6--in congregate care 
        highlighted above, we have also focused on reducing the number 
        of children age 12 and under in congregate care. This number 
        has dropped from 130 as of May 31, 2002 to 70 as of February 
        28, 2003 of whom approximately 40 are under the age of 6.
      Understanding the stories of the young children who have moved 
        from group care to families helps make clear how much 
        difference this change can make to their lives. Just to take 
        one example: In CFSA's drive to replace group homes with family 
        settings, especially for children age 6 and under, Michael 
        posed several challenges. He has been blind and mute from 
        birth, with his father as his primary caretaker. When a family 
        crisis temporarily overwhelmed his father, Michael entered a 
        group home at age 4. Two years later, Father was stable, but 
        Michael remained in group care. Everyone, including Father, 
        recognized that Michael had made progress through specialized 
        services while in the group home--for example, enrollment in a 
        school for blind children. So the challenge was to connect 
        Father to services that would support him in meeting Michael's 
        special needs. Among services CFSA located and put in place 
        are: a home health aide to provide respite for Father, an 
        introduction to Michael's pediatrician of 2 years, a visiting 
        nurse, individual and family therapy to help Father learn how 
        to interact with Michael more fully, and referrals to local 
        sources of Braille materials and special toys. Last month, 
        Michael went home with his father. For now, he continues to 
        attend the school for blind children. Someday, with 
        accommodations, he may be able to attend a mainstream 
        classroom.
  --Improving the timeliness of adoption and guardianship for children 
        who cannot return to their birth homes.--In fiscal year 2002, 
        CFSA finalized 313 adoptions, representing approximately a 20 
        percent increase from last year. Key elements of this 
        accomplishment were close collaboration with the Superior 
        Court, improved legal support for CFSA, and emphasis on 
        tracking progress. In fiscal year 2003, we anticipate improving 
        further our process for ensuring that children who cannot live 
        with their birth parents are able to grow up with a loving 
        family. Next steps include holding immediate permanency 
        staffings as soon as the court determines a child cannot go 
        home, further improvements in legal support and filings to 
        terminate parental rights, and award of a contract for an 
        Adoption Resource Center to support adoptive parents.
      In addition, there are currently 60 relatives in the process of 
        obtaining subsidized guardianship. Thirty relatives have 
        completed the process awaiting judge's order, as did two last 
        year. The subsidized guardianship program is an effective 
        approach to achieving permanence for a child when a relative is 
        prepared to make a lifetime commitment but not to terminate 
        parental rights.

                        THE FIRST YEAR OF REFORM

    A key first step in achieving these changes for children was the 
tremendously ambitious set of institutional reforms that the District 
accomplished in the months just before and just after CFSA's June 2001 
return from Receivership, reforms that were focused on dismantling the 
structural and legal barriers that for so long stood in the way of 
safety, permanence, and well-being for the District's abused and 
neglected children. The consent order provided a framework for the 
structural reforms to achieve a major overhaul of child welfare in the 
District of Columbia, including the following elements:
  --enabling legislation that established CFSA as a Cabinet level 
        agency under the Mayor with independent personnel and 
        procurement authority, licensing 13 authority for foster homes 
        and group homes, and responsibility for the Interstate Compact 
        on the Placement of Children;
  --unification under CFSA of the responsibility for abuse and neglect 
        investigation and services, a provision of the enabling 
        legislation which was implemented effective October 1, 2001, 
        thus ending the fragmentation that had been a key barrier to 
        serving families effectively;
  --promulgation of the District's first licensing regulations for 
        group homes (September 21, 2001) and foster homes (July 28, 
        2001); and publication of the first regulations to govern 
        independent living facilities, (February 22, 2002); and
  --reform of the legal support provided to CFSA social workers, 
        including almost tripling the number of attorneys so social 
        workers can always be represented in court, and restructuring 
        legal services to enable much closer coordination between 
        attorneys and social workers and provide for an attorney-client 
        relationship with CFSA.
    Each of these institutional changes has required many hours of work 
to implement, requiring fundamental change in the nature of work, 
training, staffing assignments, and policies. At the same time, the 
benefits have been far-reaching. For example, the extraordinary 
partnership between the Corporation Counsel and CFSA has reformed legal 
support for our agency. A little less than 1 year ago, we co-located a 
dramatically expanded team of attorneys with CFSA and began reforming 
attorney support of social workers. Today, social workers have legal 
representation in 97 percent of all hearings. Our legal staff has been 
reorganized to work in teams with Superior Court judicial teams. Each 
lawyer is currently shifting to ``vertical prosecution,'' which means 
seeing a case through from initial hearing all the way to permanency, 
with the goal of more timely and better decision-making on behalf of 
children.
    A final key element of structural reform was the Family Court 
legislation passed by the Congress in 2001, with important 
contributions by members of this Subcommittee, and signed by the 
President in January 2002. We have already seen major improvements in 
the relationships among the key systems and in the processes for 
managing children's cases as a result of this legislation, and early 
indicators are promising in terms of the results for children. In the 
past, poor relationships among CFSA, Superior Court, and the 
Corporation Counsel had created problems for children and families in 
the system. But today, as the Council for Court Excellence reported 
last October, we are working together towards the same goals:

    ``The major public stakeholders in the DC child welfare system--the 
DC Superior Court, the Child and Family Services Agency (CFSA), and the 
Office of the Corporation Counsel (OCC)--are working collaboratively to 
make major structural changes that will position the city to achieve 
dramatically improved outcomes for children.''

    Our goal is to continue working closely with the Family Court to 
achieve better outcomes for children through teamwork among the legal 
and social work professionals involved with a child's case, through 
scheduling that allows social workers to be out in the field visiting 
children and families, through clear accountability and outcome 
measures, and through shared knowledge and professional development. I 
meet regularly with Presiding Judge Lee Satterfield to identify issues 
that we need to tackle jointly to benefit children. Last fall, CFSA 
participated actively in the design and implementation of the first 
cross-training, hosted by the Family Court, on systems of care. Also in 
the fall, CFSA worked closely with the Court to design the best way to 
transfer cases to the new teams of magistrate and associate judges in 
the Family Court. This activity for the last 1,200 cases, is happening 
in a phased in manner over several months to guard against the 
disruption of the casework continuity with a social worker. We provided 
automated systems support so that cases from one of CFSA's 
administrations would be assigned to just two or three teams of judges. 
This would enable judges, attorneys, and CFSA social workers to develop 
shared expectations and to work together more closely. In partnership 
with the Courts, we have successfully designed a schedule that will 
ensure social workers some time without court appearances, freeing them 
to make visits and conduct other work. Finally, we are collaborating 
closely with the Court in the area of information systems. We have just 
initiated a project to scan court orders into our automated system so 
that everyone involved at CFSA has complete and accurate information. 
Our most recent success in the field of automation is that we have 
developed the functionality in FACES that enables us to interface with 
the Court's Information System and are now able to show by social 
worker and supervisor the court hearing dates, times and locations for 
all children who are in our custody. This is an enormous achievement 
because it greatly improves our ability to manage social worker and 
attorney time more efficiently and improve the court experiences of 
children and families.
    These institutional changes were critical, because they positioned 
us to achieve dramatically improved outcomes for children and families: 
to keep children safe, ensure that children grow up in permanent 
families, and promote the well-being of the most vulnerable children 
and most fragile families.

                       THE SECOND YEAR OF REFORM

    Building on these institutional changes and the early results 
reflected by the probationary period standards, CFSA is moving ahead on 
a range of improvements in practice, in the systems that support our 
work, and in our partnerships with public and private agencies. The 
goal of all of these changes is to accelerate even further the 
improvements in children's lives. Yet we know that in many areas, we 
have a great deal still to do. This section offers only a sampling of 
the many major reforms now underway.

Staff Recruitment/Retention
    Recruitment and retention of a full complement of qualified social 
workers are essential to reducing individual caseloads, which, as 
suggested above, will vastly improve child protection. Currently, CFSA 
has approximately 270 licensed masters- and bachelors-level social 
workers. This represents a net increase of 30 social workers over the 
past year and falls slightly short of our goal of 300 social workers, 
total, in fiscal year 2002. (If we had counted both licensed social 
workers and social work graduates in trainee positions pending 
licensure, we would have exceeded the goal, with a total of 304 social 
workers at the end of fiscal year 2002. However, since District law 
does not allow unlicensed social workers to carry cases, we do not 
count our unlicensed trainees until they pass the licensing exam.)
    In fiscal year 2003, our goal is to end the year with a total of 
310 licensed social workers. While we have made important progress 
towards this goal and believe we can meet it, it will not be easy, nor 
will it be easy to continue progress into fiscal year 2004 and future 
years, in order to meet and maintain the MFO caseload standards. To 
achieve the goal of 310 total licensed social workers, even with a 
retention rate that is a little better than the national average, we 
anticipate having to hire more than 160 social workers and trainees 
during the course of this year to achieve our targeted increase of 40-
50 licensed social workers on board at the end of the year. We have an 
aggressive recruiting strategy--including outreach to both local and 
selected distant colleges and universities with schools of social work, 
participation in major conferences in the social work field, increased 
advertising, and targeting bi-lingual candidates--and our retention of 
social workers is consistent with the experience of other child welfare 
agencies nationwide. For all licensed social workers at CFSA, the 
turnover rate was 17 percent--or slightly below the annual average of 
20 percent for State child welfare agencies. We continue to work on 
improving retention through strategies such as reducing caseloads, 
upgrading training, and providing more support for doing a tough job. 
We are very appreciative of the Committee's interest in the broad issue 
of social worker recruitment and retention and would like to highlight 
the District's interest in participating as a pilot site in your work 
in areas such as scholarships, stipends, and loan forgiveness for 
social workers.

Training
    CFSA's major improvements in training are key to both recruitment 
and retention, as well as being an important underpinning to the 
quality of services. We are proud to report that our recruiters have 
heard from candidates that word has spread about our new training 
units, which enable new workers to learn how to handle the pace and 
intensity of CFSA's work with close guidance. These new units are a 
drawing card for CFSA compared to other organizations.
    We now coordinate our training through an in-house Training Academy 
that is set up to offer pre-service and in-service training to our 
staff. Under the requirements of the Modified Final Order, Pre-Service 
Training is a competency-based, 4-month program of classroom and on-
the-job training designed to prepare new social workers and supervisors 
for effective delivery of child welfare services. It includes 
theoretical, skill building, and practical learning experiences. In 
addition, trainees receive intensive supervision in a training unit. 
They learn about CFSA's structure, goals, and mission and about legal 
aspects of child welfare.
    During the past year, the CFSA Training Academy has offered the 
following courses for the first time: joint training of foster parents 
and social workers, orientation for non-social work staff, and training 
for the magistrate judges of the Family Court in conjunction with the 
Corporation Counsel. In the year ahead, we will continue to strengthen 
and expand the design of the training office to ensure that our efforts 
impact the quality of practice and staff development critical to 
improving outcomes for children in care.

Improved Service Quality
    Ensuring children's safety, providing opportunities for them to 
grow up in stable families, and supporting well-being of both children 
and families require quality services. We are working to raise the bar 
for services provided by our contracted and community partners through 
two different but complementary strategies:
  --implementation of the new licensing authority assigned to CFSA in 
        2001, and
  --an aggressive and proactive program of contract reform.

            Licensing and Monitoring
    Licensing of Youth Residential Facilities has been in the making 
for 15 years following passage of the Youth Residential Licensure Act 
of 1986. The group home regulations became final in September, 2001; 
the foster home regulations became final in July, 2001; and the 
Independent Living Program regulations became final in February, 2002.
    Last spring and summer, the Office of Licensing and Monitoring 
within CFSA began the process of licensing providers who operate group 
homes and independent living facilities. Throughout the process, CFSA 
provided technical assistance to help facilities get licensed and 
inspected all facilities. CFSA met the deadlines for licensing of all 
26 independent living and group home providers. The standards have 
already made a significant difference in the quality of facilities 
where our young people live, including repairs, renovations, and in 
some cases a shift to new space.

            Contract Reform
    Our contract reform is a bold initiative designed to ensure that 
CFSA's performance-based posture and best practices in modern child 
welfare are reflected in the services we buy. It is a vehicle for 
stimulating increased availability of community-based services in the 
District, reducing reliance on group homes, making providers 
accountable for delivering positive outcomes for children and families, 
offering incentives for outstanding results, and ensuring good use of 
public funds to meet community needs.
    Last August, CFSA met with providers to announce the contract 
reform initiative and involve them in the process. During the fall, we 
gathered provider input through focus groups. In January, we circulated 
draft Requests for Information. The deadline for comments just passed 
about a month ago. We appreciate the extensive, valuable feedback we 
received from providers, Superior Court, the Federal Court Monitor and 
plaintiffs, and community members, and we are now reviewing all 
comments with care. The next step will involve drafting three new 
global Requests for Proposals that will seek an expanded range of 
quality offerings in the areas of Congregate Care, Family-based Care, 
and Community-based Care and Preventive Services. We expect to put 
these RFP's out for bid this spring and to launch the new contracts in 
late summer.

Foster, Adoptive, and Kin Parent Recruitment
    Our vision is to increase our numbers of resource family homes in 
the District of Columbia of foster, adoptive, or kin homes. Currently 
we have 150 traditional foster homes, 350 kin homes and 4 proctor homes 
within the District. We are committed to placing children in the 
neighborhoods and communities from which they are removed to minimize 
the trauma and the significant losses that children experience as a 
result of placement in foster care. We are focusing therefore on 
geographically sensitive recruitment to increase numbers of resource 
parents in those wards from which more children are being removed, as 
well as child specific recruitment activities. We are also expanding 
our Proctor Parent program and building capacity for them to meet the 
needs of the behaviorally challenged children and the medically fragile 
population, and we have successfully negotiated a contractual 
arrangement with the Foster Parent Association of D.C. to offer several 
key services to our resource families, including identifying members to 
co-facilitate training and facilitate support groups. We anticipate 
that foster parents themselves are an excellent resource for 
recruitment as we can move towards ensuring that the needs of current 
parents are met.

Information Systems and Data Collection and Tracking
    Our substantial progress in building a reliable and timely 
automated data system has been key to our accomplishments for children. 
In the last year and a half, we have built a collaboration between 
staff from FACES (our automated information system), top management 
from all parts of the agency, and our line social work and supervisory 
staff that has dramatically improved the quality and timeliness of data 
entry and the user-friendliness and relevance of the automated FACES 
reports and screens. As a result, staff at all levels from social 
workers to supervisors and top managers are now able to count on FACES 
as a tool for their work, to rely on FACES reports as a means of 
tracking performance and results for children, and to use FACES 
information for planning--whether planning for one child or for the 
agency as a whole. In the key area of safety, a close collaboration 
between FACES and our intake and investigations staff has yielded not 
only full and timely data but reporting screens that enable supervisors 
to manage investigations better. For ongoing supervisors, a key piece 
of information for ensuring safety is social worker visitation, which 
supervisors can now track through CFSA's automated system. For example, 
each supervisor can access reports that track social worker visits to 
children in the last month. These management reports are updated daily 
and available to supervisors through a few clicks of the mouse.
    Similarly, there have been major improvements in the key data 
needed to achieve permanence:
  --Case plan information is now much more complete on the automated 
        system, in part because of major improvements in the case plan 
        automated format implemented as a result of social worker 
        feedback.
  --Court reports can now be completed and reviewed by supervisors and 
        program managers as part of FACES.
  --Information from the Court regarding permanency hearings, while 
        still incomplete, is just at the point of major improvement as 
        a result of the new automated feed to our system from the 
        Court's data.
  --Automated linkages to other agencies are supporting our work in 
        both safety and permanence. For example, access to the 
        District's criminal justice information system helps our 
        investigators locate missing parents quickly--a critical step 
        in the adoption process.
    We are proud that the improvements in our FACES system have begun 
to receive national recognition. Last fall, the Court Monitor noted 
improvements in the quality of FACES in her report. This month, FACES 
will receive an award from Computerworld magazine for being a leader in 
automating child welfare case management. Our Chief Information 
Officer, Harold Beebout, was one of the first five CIO's in the 
District to receive certification from the District's Office of the 
Chief Technology Officer through a rigorous process where senior 
information technology officials from several jurisdictions probed the 
technical and strategic preparedness of the District's top information 
managers.

Partnerships
    Almost all the performance achievements I've been describing are 
the result of partnerships: with foster and adoptive parents, 
providers, Family Court, other agencies, and many others. The strong 
local safety net children and families deserve will ultimately be woven 
through partnerships. The child welfare function is essential, but it 
is only one component among a vast array of services that abused and 
neglected children need to overcome their difficulties and thrive. 
Other public and private agencies and community members have important 
roles to play. CFSA's status as a cabinet-level agency has opened the 
door to improved working relationships with other District agencies. On 
behalf of those we serve, we are working to exploit this wonderful 
opportunity.
    A prime example is CFSA's developing links with the Department of 
Mental Health. As we conduct clinical staffings and review cases at 
CFSA, over and over we see mental health needs that must be met if 
children are to be safe, grow up in stable families, and thrive. 
Children need counseling to rise above abuse and neglect. Parents need 
mental health services to overcome their own crises and keep their 
children safe. Foster parents need access to emergency help when a 
foster child has a crisis in the middle of the night. Social workers 
need expert mental health consultation to assess the risks of a child's 
return home.
    To access more and better mental health services for those we 
serve, CFSA is developing a strong collaboration with the District's 
Department of Mental Health. The timing is perfect because DMH is under 
its own court deadlines and is just as intent as CFSA on strengthening 
the local safety net for children and families. Senior members of our 
two agencies met for a day-long retreat a few weeks ago and developed a 
detailed work plan that focuses on access to services, development of 
provider capacity, service definition, Medicaid reimbursement, and 
other issues.
    CFSA's partnership with the Healthy Families/Thriving Communities 
Collaboratives continues to provide services that strengthen, provide 
support to children in foster care in the communities where they live 
and support efforts to reunite children in foster care with their 
families. During the past year, CFSA and the Collaboratives built upon 
its partnership by taking a more targeted approach in examining ways to 
strengthen service delivery for children and families in the District. 
As a result of this concentrated effort, in 2002 two Collaboratives 
have instituted Emergency Assessment programs, providing intensive 
preventive services to families in their own communities and diverting 
families from ongoing involvement with the child welfare system. In 
addition, we have entered into new partnership agreements with the 
Collaboratives in three distinct areas--preventative, supportive and 
aftercare. Services offered within these targeted areas include case 
management; visitation; housing assistance; parent, caregiver, and 
foster parent support; support for family visitation; and information 
and referral. Our partnership throughout the years with the 
Collaboratives has shown that family-centered, culturally competent 
practice that provides integrated community based services truly makes 
a difference in the lives of children and families entering and exiting 
the child welfare system.

                               NEXT STEPS

    While we have made an important and vigorous beginning on the 
agenda of safety, permanence, and well-being for the District's 
children, we have ahead of us an ambitious multi-year program to build 
in quality and transform results. We expect that the road map to this 
ambitious reform will be the Implementation Plan currently being 
completed by the Federal Court Monitor after intensive discussions with 
the District and the LaShawn plaintiffs. In order to accomplish the 
goals of the plan, we know that we will be continuing the intense pace 
of change. And because of the District's unique role as both a local 
and a State child welfare agency, we will be continuing this intense 
pace of change both in our daily services to the children who come 
through our doors and in our reforms of policy, institutions, and 
infrastructure. That is, at one and the same time, we will be:
  --improving our services to the hundreds of children who come to our 
        attention each month through new investigations;
  --providing strong clinical support and staffing to ensure that the 
        thousands of children now on our caseload achieve the permanent 
        families they deserve, either through reunification, 
        guardianship, or adoption;
  --building new services and resources for children and new supports 
        for foster, kin, and adoptive families, both through our own 
        contract reforms and through new and strengthened partnerships 
        with agencies across District government;
  --strengthening prevention and neighborhood-based services for 
        families;
  --under-girding the services we provide both internally and through 
        our partners with the critical infrastructure to support 
        quality, such as training, quality assurance, policy 
        development, licensing and monitoring;
  --recruiting and retaining high quality, well-trained social workers;
  --recruiting and retaining foster, kin, and adoptive parents who can 
        meet the needs of the District's children and providing those 
        resource parents with the training and supports they need; and
  --continuing our efforts to build in stronger partnerships with the 
        metropolitan jurisdictions and with the Superior Court, in 
        order to promote children's safety, permanence, and well-being.
    Achieving these goals will require continued commitment from the 
whole community. The District's financial investments in CFSA, even 
through difficult financial times, have been critical to achieving the 
progress so far, and stabilizing this commitment into the future will 
be essential to continuing progress from here. We very much appreciate 
the support of the Subcommittee, for a key next step in maintaining 
this momentum: the District's proposal to correct an inequity in the 
current statutory framework for Federal reimbursement for Title IVE, by 
raising the Title IVE Federal reimbursement rate to 70 percent, which 
would make it the same as Medicaid, as it is in all other 
jurisdictions. We also very much appreciate the leadership of the 
Subcommittee in ensuring that the District, Maryland, and Virginia 
continue collaborating to develop metropolitan agreements that will 
benefit children, and in promoting the continued close collaboration of 
CFSA and the Superior Court, and we urge a continued focus in both of 
these very promising areas.
    Beyond these critical areas for the Subcommittee's continued 
leadership, we appreciate the invitation to identify additional areas 
for potential investment. We offer the following ideas for further 
discussion, because they link closely to the next steps in the Federal 
Court's Implementation Plan and the needs of the District's children. 
We are eager to provide additional information in any of these areas 
that interest the Committee:
  --Prevention and Integrated Services for Families.--A major issue for 
        the District's children and families is the availability of 
        early and integrated services that could prevent placement or 
        make reunification possible. We are working closely with our 
        community-based collaborative partners in this area, as well as 
        developing expanded partnerships with other District agencies 
        such as the Department of Mental Health, Addiction Prevention 
        and Recovery Administration, and the Department of Housing and 
        Community Development. These are issues across the country yet 
        they are particularly difficult to address in the District, 
        with the intensive needs that children and families may have 
        and the gaps in resources. We believe that there are 
        opportunities here for the Federal Government to pilot ideas of 
        great interest nationally as well as to make a major difference 
        for the District's children.
  --Adoption.--Because of the intensive work that we are currently 
        doing to identify the specific needs of children who are 
        awaiting placement, we would be very interested in 
        collaborating with the Subcommittee on a project that focuses 
        on recruitment for these children. In general, our children who 
        are awaiting adoption are ages 7-13 and part of sibling groups; 
        in addition, we would like to focus on a number of children who 
        are medically fragile and will need adoptive homes prepared to 
        meet those needs.
  --Piloting of National Initiatives Regarding Social Worker 
        Recruitment, Retention, and Training.--We are interested in 
        working closely with the Subcommittee on piloting in the 
        District key initiatives to recruit and retain social workers 
        to do public child welfare work that could be valuable for 
        national policy. We are interested in discussing strategies 
        such as loan forgiveness, stipends and scholarships for 
        bachelors-level social workers interested in continuing their 
        education, and scholarships for paraprofessionals interested in 
        becoming social workers.
  --Joint Initiatives with the Court, such as Training and Information 
        Systems.--We are currently engaged in a range of activities 
        with the Superior Court and see ambitious next steps ahead, 
        particularly as the Court's new information system is 
        implemented. The District's side of these joint activities 
        could be enhanced through further support.

                               CONCLUSION

    We are at an extraordinary moment in the District's child welfare 
system: a moment of early accomplishment, of great hope, and yet of 
fragility. If we maintain our commitment and our investment for several 
more years, building on the major institutional reforms, promising 
partnerships, and early results for children that we have already seen, 
we will achieve the vision of safety, permanence, and well-being that 
our children deserve. On the other hand, if we are unable to maintain 
this level of continued commitment to change, we risk failing our 
community and our children. I am deeply grateful for the Subcommittee's 
past support and leadership on behalf of the District and our most 
vulnerable children, and I know the District can count on your 
continued support and leadership in the future. Thank you, and I look 
forward to any questions.

    Senator DeWine. Ms. Ashby.

STATEMENT OF CORNELIA M. ASHBY, DIRECTOR OF EDUCATION, 
            WORKFORCE, AND INCOME SECURITY ISSUES, 
            GENERAL ACCOUNTING OFFICE
    Ms. Ashby. Mr. Chairman and Senator Landrieu, I am pleased 
to be here today to discuss the preliminary findings from our 
study of the D.C. Child and Family Services Agency, done at the 
request of Representative Tom Davis, Chairman of the House 
Committee on Government Reform. We will issue our final report 
next month.
    My comments are based primarily on our analysis of data in 
the District's automated child welfare information system, 
known as FACES. We verified the accuracy of the data. But for 
some of the data elements we needed, CFSA had not entered into 
FACES information for about two-thirds of its active cases. 
Consequently, we obtained and analyzed information from paper 
case files to supplement FACES information for some cases. 
Most, but not all, of the cases with incomplete data originated 
prior to FACES going online in October 1999. Top CFSA managers 
told us that including data in FACES for active cases that 
originated prior to FACES is not an agency priority. In my full 
statement, we discuss the importance of having accurate, 
timely, and complete automated case management data for all 
cases.
    In summary, CFSA has addressed various AFSA requirements 
and met several of the selected performance criteria, adopted 
child protection and foster care policies, and enhanced its 
working relationship with the D.C. Family Court. However, much 
remains to be done.
    CFSA addressed six of the nine AFSA requirements and met or 
exceeded four of the eight performance criteria. For example, 
CFSA signed a border agreement to achieve timelier placement of 
District children in Maryland, which addresses the AFSA 
requirement to use cross-jurisdictional resources to facilitate 
timely permanent placements of children. However, CFSA did not 
meet AFSA requirements involving proceedings to terminate the 
rights of parents in certain situations, annual permanency 
review hearings or notice of reviews and hearings. One of the 
selected performance criteria requires 60 percent of children 
in foster care to be placed with one or more of their siblings. 
As of November 2002, 63 percent of children had such 
placements.
    The criteria for which CFSA's performance fell short 
included social worker visitation with children in foster care, 
placement of children in foster homes with valid licenses, 
progress toward permanency, and parental visits with children 
in foster care who have a goal of returning home. For example, 
none of the 144 children placed in foster care during the 2-
month period prior to November 30, 2002, received required 
weekly visits by a CFSA caseworker. CFSA has written plans to 
address 2 of the 3 unmet AFSA requirements and 3 of the 4 unmet 
performance criteria.
    CFSA has adopted child protection and foster care placement 
policies that are comparable to most, but not all of those 
recommended by organizations that develop standards for child 
welfare programs. However, caseworkers did not consistently 
implement the six policies we examined.
    CFSA has policies for investigating allegations of child 
abuse, developing plans, and estimating permanency goals for 
foster children. In addition, it has policies for managing 
cases. CFSA has, in addition to its policies for managing 
cases, policies for licensing and monitoring group homes, plans 
for training staff in group homes, and a goal to reduce the 
number of young children in group homes. However, CFSA lacks 
some recommended policies, namely written time frames for 
arranging needed services for children and families, limits on 
the number of cases assigned to a caseworker, and procedures 
for providing information about planned services for children.
    For three of the six policies we examined, FACES data 
indicated that the percentage of foster care cases for which a 
policy was implemented ranged from 13 to 73. This variation is 
due in part to the incomplete data in FACES. In addition, 
information related to the other three policies was not 
routinely recorded in FACES, and we had to review case files to 
assess their implementation.
    One policy requires caseworkers to complete a case plan 
within 30 days of a child's entry into foster care. However, 
case plans were not routinely completed within 30 days. Another 
policy requires administrative review hearings every 6 months. 
But such hearings were rescheduled often. The third policy 
requires caseworkers to arrange for services. It was difficult 
to determine whether services were actually provided. CFSA 
officials told us that they recently made changes to help 
improve the implementation of some of these policies.

                           PREPARED STATEMENT

    CFSA has improved its working relationship with the Family 
Court with its commitment to promoting improved communication 
and by expanding the support services it provides for court 
activities. However, CFSA officials and Family Court judges 
noted several hindrances that constrained their working 
relationships. The hindrances they noted included scheduling 
conflicts between court and CFSA, the insufficient number of 
caseworkers, caseworkers who were unfamiliar with cases that 
had been transferred to them, and the unclear roles and 
responsibilities of attorneys, judges, and CFSA caseworkers.
    This concludes my statement. I would be glad to answer any 
questions.
    [The statement follows:]

                Prepared Statement of Cornelia M. Ashby

     ISSUES ASSOCIATED WITH THE CHILD AND FAMILY SERVICES AGENCY'S 
                        PERFORMANCE AND POLICIES

    Mr. Chairman and Members of the Subcommittee: I am pleased to be 
here today to discuss preliminary findings from our study of the 
District of Columbia's Child and Family Services Agency (CFSA), done at 
the request of Representative Tom Davis, Chairman of the House 
Committee on Government Reform. My testimony will focus on the extent 
to which CFSA has (1) taken actions to address the requirements of the 
Adoption and Safe Families Act of 1997 (ASFA) and met selected 
performance criteria, (2) adopted and implemented child protection and 
foster care placement policies that are comparable to those generally 
accepted in the child welfare community, and (3) enhanced its working 
relationship with the D.C. Family Court.
    My comments today are based primarily on our analysis of the 
information in the District's automated child welfare information 
system, known as FACES, which CFSA is to use to manage child welfare 
cases and report child abuse and neglect, foster care, and adoption 
information to the Department of Health and Human Services (HHS). We 
analyzed cases in FACES that were at least 6 months old as of November 
2002 and verified the accuracy of its data. However, CFSA had not 
entered into FACES detailed information on the data elements we needed 
for our analysis with respect to about two-thirds of the District's 
active foster care cases--mostly cases that originated prior to FACES 
going on-line in October 1999. Consequently, we also obtained and 
analyzed information from paper case files to supplement FACES 
information for some cases. We also interviewed District officials, 
CFSA managers, judges, and child welfare experts, and we analyzed 
Federal and District laws and regulations, related court documents, and 
child welfare policies. Our final report will be issued in May 2003. We 
conducted our work between September 2002 and March 2003 in accordance 
with generally accepted government auditing standards.
    In summary, CFSA has taken actions to address various ASFA 
requirements and met several selected performance criteria,\1\ enacted 
child protection and foster care placement policies and procedures, and 
enhanced its working relationship with the D.C. Family Court; however, 
much remains to be done. CFSA met two-thirds of the ASFA requirements 
and half of the selected foster care performance criteria we used, and 
developed written plans to address two of the three unmet ASFA 
requirements and three of the four unmet performance criteria. In 
addition, CFSA has adopted child protection and foster care placement 
policies and procedures that are comparable to most, but not all, of 
those recommended by organizations that develop standards applicable to 
child welfare programs. However, CFSA has not adopted some key policies 
and procedures for ensuring the safety and permanent placement of 
children, and caseworkers have not consistently implemented or 
documented some of the policies and procedures that have been adopted. 
For example, CFSA has developed an automated child welfare data system 
to help manage its caseload, but detailed information for the data 
elements related to the policies reviewed had not been entered into the 
system for about 70 percent of its foster care cases. Further, CFSA has 
improved its working relationship with the Family Court through 
improved communication and top management support; however, both CFSA 
and the Family Court still need to overcome barriers that continue to 
constrain this relationship.
---------------------------------------------------------------------------
    \1\ These performance criteria were among those included in the 
performance standards that CFSA had to meet in order to end the 
probationary period following the general receivership. We selected 
those performance criteria that in our judgment most directly relate to 
the safety and permanent placement of children.
---------------------------------------------------------------------------

                               BACKGROUND

    CFSA is responsible for protecting thousands of foster care 
children who have been at risk of abuse and neglect and ensuring that 
critical services are provided for them and their families. However, 
many children in CFSA's care languished for extended periods of time 
due to managerial shortcomings and long-standing organizational 
divisiveness. As a result of these deficiencies, the U.S. District 
Court for the District of Columbia issued a remedial order in 1991 to 
improve the performance of the agency. In 1995, lacking sufficient 
evidence of program improvement, the agency was removed from the 
District's Department of Human Services and placed in general 
receivership. Under a modified final order (MFO) established by the 
court, CFSA was directed to comply with more than 100 policy and 
procedural requirements. The efforts CFSA made during the receivership 
to improve its performance included establishing an automated system, 
FACES, to manage its caseload. The U.S. District Court ended the 
receivership in 2000, established a probationary period, and identified 
performance standards CFSA had to meet in order to end the probationary 
period. The court appointed the Center for the Study of Social Policy 
as an independent monitor to assess CFSA's performance and gave them 
the discretion to modify the performance standards. However, in the 
summer of 2002, abuses of two children placed in group homes were 
reported, indicating that CFSA's operations and policies, especially 
those regarding foster care cases, may still need improvement.
    Additionally, several Federal laws, local laws, and regulations 
established goals and processes under which CFSA must operate. ASFA, 
with its goal to place children in permanent homes in a timelier 
manner, placed new responsibilities on all child welfare agencies 
nationwide. AFSA introduced new time periods for moving children toward 
permanent, stable care arrangements and established penalties for 
noncompliance. For example, it requires States to hold a permanency 
planning hearing--during which the court determines the future plans 
for a child, such as whether the State should continue to pursue 
reunification with the child's family or some other permanency goal--
not later than 12 months after the child enters foster care. The D.C. 
Family Court Act of 2001, established the District's Family Court and 
placed several requirements on the District's Mayor and various 
District agencies, including CFSA and the Office of Corporation Counsel 
(OCC).\2\ The Family Court Act requires the Mayor, in consultation with 
the Chief Judge of the Superior Court, to ensure that D.C. government 
offices that provide social services and other related services to 
individuals served by the Family Court, including CFSA, provide 
referrals to such services on site at the Family Court.
---------------------------------------------------------------------------
    \2\ The D.C. Family Court Act of 2001, established the Family Court 
as part of the D.C. Superior Court. The Family Court replaced the D.C. 
Superior Court's former Family Division. Among other responsibilities, 
the Family Court handles child abuse and neglect cases and court 
hearings and other proceedings for the District's foster children and 
their families. OCC provides legal support for CFSA caseworkers during 
their appearances before the Family Court.
---------------------------------------------------------------------------
    CFSA operates in a complex child welfare system.\3\ The agency 
relies on services provided by other District government agencies. For 
example, both the Fire Department and the Health Department inspect 
facilities where children are placed, and D.C. Public Schools prepare 
individual education plans for children in care. In addition, CFSA 
works with agencies in Maryland, Virginia, and other States to arrange 
the placement of District children in those States and also works with 
private agencies to place children in foster and adoptive homes.
---------------------------------------------------------------------------
    \3\ We issued several GAO reports that addressed CFSA operations 
and program plans. For more information see related GAO products.
---------------------------------------------------------------------------
    The management of foster care cases involves several critical 
steps. Typically, these cases begin with an allegation of abuse or 
neglect reported to the CFSA child abuse hot line. CFSA staff are 
required to investigate the allegation through direct contact with the 
reported victim. If required, the child may be removed from his or her 
home, necessitating various court proceedings handled by the District's 
Family Court. CFSA case workers are responsible for managing foster 
care cases by developing case plans, visiting the children, 
participating in administrative hearings, attending court hearings, and 
working with other District government agencies. CFSA case workers are 
also responsible for documenting the steps taken and decisions made 
related to a child's safety, well-being, and proper placement. In 
addition, CFSA is responsible for licensing and monitoring 
organizations with which it contracts, including group homes that house 
foster care children.
    HHS is responsible for setting standards and monitoring the 
Nation's child welfare programs. The monitoring efforts include 
periodic reviews of the operations, known as Child and Family Services 
Reviews,\4\ and of the automated systems, known as Statewide Automated 
Child Welfare Information System (SACWIS) Reviews, in the States and 
the District of Columbia. HHS last reviewed CFSA's child welfare 
information system in 2000 and its overall program in 2001.
---------------------------------------------------------------------------
    \4\ Child and Family Services Reviews, conducted by HHS, cover a 
range of child and family service programs funded by the Federal 
Government, including child protective services, foster care, adoption, 
independent living, and family support and preservation services. The 
2001 review evaluated seven specific safety, permanency, and well-being 
outcomes for services delivered to children and families served by 
CFSA.
---------------------------------------------------------------------------
 CFSA UNDERTOOK ACTIONS TO ADDRESS MOST ASFA REQUIREMENTS REVIEWED AND 
             MET HALF OF THE SELECTED PERFORMANCE CRITERIA

    CFSA took actions to address six of the nine ASFA requirements and 
met or exceeded four of the eight performance criteria we included in 
our study. Although ASFA includes other requirements, we only included 
those directly related to the safety and well-being of children. The 
performance criteria were among those performance standards that CFSA 
had to meet in order to end the probationary period following the 
general receivership. We selected those that, in our judgment, most 
directly relate to the safety and permanent placement of children in 
foster care. For example, CFSA signed a border agreement to achieve 
timelier placement of District children in Maryland, which addresses 
the ASFA requirement to use cross-jurisdictional resources to 
facilitate timely adoptive or permanent placements for waiting 
children. However, CFSA did not meet three requirements involving (1) 
proceedings to terminate the rights of parents whose children are in 
foster care, (2) annual hearings to review permanency goals for 
children and (3) notice of reviews and hearings. Table 1 summarizes the 
ASFA requirements directly related to the safety and well-being of 
children and identifies whether CFSA met them.

 TABLE 1.--SUMMARY OF ASFA REQUIREMENTS RELATING DIRECTLY TO THE SAFETY
                       AND WELL-BEING OF CHILDREN
------------------------------------------------------------------------
           ASFA Requirements Met              ASFA Requirements Not Met
------------------------------------------------------------------------
1. Include the safety of the child in        1. Initiate or join
 State case planning and in a case review    proceedings to terminate
 system.                                     parental rights for certain
                                             children in foster care--
                                             such as those who have been
                                             in foster care for 15 of
                                             the most recent 22 months
                                             of care.
2. Comply with requirements for criminal    2. Provide family members a
 background clearances and have procedures   notice of reviews and
 for criminal record checks.                 hearings and an opportunity
                                             to be heard.
3. Develop a case plan for a child for      3. Conduct mandatory annual
 whom the State's goal is adoption or        permanency hearings every
 other permanent living arrangement.         12 months for a child in
                                             foster care.
4. Develop plans for the effective use of   ............................
 cross-jurisdictional resources to
 facilitate timely adoptive or permanent
 placements for waiting children.
5. Provide for health insurance coverage    ............................
 for children with special needs in State
 plans for foster care and adoption
 assistance.
6. Incorporate standards to ensure quality  ............................
 services for children in foster care in
 State plans.
------------------------------------------------------------------------
Source: ASFA and HHS' CSFR and GAO analysis.

    We analyzed automated data related to eight selected performance 
criteria and found that CFSA met or exceeded four of them. For example, 
one of the criteria requires 60 percent of children in foster care to 
be placed with one or more of their siblings; we found that as of 
November 30, 2002, 63 percent of children were placed with one or more 
siblings. The areas in which CFSA's performance fell short included 
criteria related to (1) social worker visitation with children in 
foster care, (2) placement of children in foster homes with valid 
licenses, and (3) progress toward permanency for children in foster 
care and (4) parental visits with children in foster care who had a 
goal of returning home. For example, none of the 144 children placed in 
foster care during the 2-month period prior to November 30, 2002, 
received required weekly visits by a CFSA caseworker. In addition, 52 
of 183 foster care children (32 percent), for whom CFSA had not met the 
progress towards permanency goal, had been in foster care without 
returning home for 36 months or more. Twenty-two of these children had 
been in foster care 5 or more years without returning home. A complete 
list of the performance criteria and our analysis is shown in appendix 
I.
    CFSA has written plans to address two of the three unmet ASFA 
requirements and three of the four unmet performance criteria we 
selected for our study. One of CFSA's plans includes actions to address 
one criterion for which the agency fell short--parental visits. This 
plan, the Interim Implementation Plan, includes measures that were 
developed to show the agency's plans for meeting the requirements of 
the MFO issued by the court. The plan states that, for new contracts, 
CFSA will require its contactors to identify sites in the community for 
parental visits to help facilitate visits between parents and their 
children. However, CFSA does not have written plans that address other 
unmet criteria, such as reducing the number of children in foster care 
who, for 18 months or more, have had a permanency goal to return home. 
CFSA has also not implemented the ASFA requirement to provide foster 
parents, relative caregivers, and pre-adoptive parents the opportunity 
to be heard in any review or hearing held with respect to the child. 
Without complete plans for improving on all measures, CFSA's ability to 
comply with the ASFA requirements and meet the selected performance 
criteria may be difficult. Furthermore, unless these requirements and 
criteria are met the child's safety may be jeopardized, the time a 
child spends in foster care may be prolonged, or the best decisions 
regarding a child's future well-being may not be reached.
    Agency officials cited external demands, including court-imposed 
requirements, staffing shortages, and high caseloads, as factors that 
hindered CFSA's ability to fully meet the ASFA requirements and the 
selected performance criteria. For example, program managers and 
supervisors said that the new court-imposed mediation process intended 
to address family issues without formal court hearings places 
considerable demands on caseworkers' time. The time spent in court for 
mediation proceedings, which can be as much as 1 day, reduces the time 
available for caseworkers to respond to other case management duties, 
such as visiting with children in foster care. Furthermore, managers 
and supervisors reported that staffing shortages have contributed to 
delays in performing critical case management activities, such as 
filing for the termination of parental rights. Staffing shortages are 
not a unique problem to CFSA. We recently reported that caseworkers in 
other States said that staffing shortages and high caseloads had 
detrimental effects on their abilities to make well-supported and 
timely decisions regarding children's safety. We also reported that as 
a result of these shortages, caseworkers have less time to establish 
relationships with children and their families, conduct frequent and 
meaningful home visits, and make thoughtful and well-supported 
decisions regarding safe and stable permanent placements.\5\
---------------------------------------------------------------------------
    \5\ U.S. General Accounting Office, Child Welfare: HHS Could Play a 
Greater Role in Helping Child Welfare Agencies Recruit and Retain 
Staff, GAO-03-357 (Washington, DC: Mar. 31, 2003).
---------------------------------------------------------------------------
 CFSA HAS ESTABLISHED MANY FOSTER CARE POLICIES BUT LACKS OTHERS, AND 
         THE EXTENT OF IMPLEMENTATION AND DOCUMENTATION VARIES

    CSFA has established many foster care policies but, caseworkers did 
not consistently implement the six we examined. In addition, CFSA's 
automated system lacked data on policy implementation for 70 percent of 
its foster care cases. When CFSA's caseworkers are not consistently 
implementing the policies essential steps are not always being taken 
for all children in a timely manner. As a result, children may be 
subject to continued abuse and neglect or efforts to achieve permanent 
and safe placements may be delayed. Furthermore, without information on 
all cases, caseworkers do not have a readily available summary of the 
child's history needed to make future decisions and managers do not 
have information needed to assess and improve program operations.
csfa has established many foster care policies but caseworkers did not 

                      CONSISTENTLY IMPLEMENT THEM

    While we previously reported in 2000 \6\ that CFSA lacked some 
important child protection and foster care placement policies, CFSA has 
now established many such policies and most are comparable to those 
recommended by organizations that develop standards applicable to child 
welfare programs. For example, CFSA has policies for investigating 
allegations of child abuse, developing case plans, and establishing 
permanency goals for foster children. In addition, one policy is more 
rigorous than suggested standards. Specifically, CFSA's policy requires 
an initial face-to-face meeting with children within 24 hours of 
reported abuse or neglect, while the suggested standard is 48 hours or 
longer in cases that are not high risk. However, CFSA still lacks some 
that are recommended, namely (1) written time frames for arranging 
needed services for children and families (e.g., tutoring and drug 
treatment for family members); (2) limits on the number of cases 
assigned to a caseworker, based on case complexity and worker 
experience; and (3) procedures for providing advance notice to each 
person involved in a case about the benefits and risks of services 
planned for a child and alternatives to those services.
---------------------------------------------------------------------------
    \6\ U.S. General Accounting Office, District of Columbia Child 
Welfare: Long-Term Challenges in Ensuring Children's Well-Being, GAO-
01-191 (Washington, DC: Dec. 29, 2000), and U.S. General Accounting 
Office, Foster Care: Status of the District of Columbia's Child Welfare 
System Reform Efforts, GAO/HEHS-00-109 (Washington, DC: May 5, 2000).
---------------------------------------------------------------------------
    CFSA did not consistently implement the six policies we examined. 
We selected policies that covered the range of activities involved in a 
foster care case, but did not duplicate those examined in our review of 
the AFSA requirements or the selected performance criteria. For three 
of the six policies, data in FACES on all foster care cases indicate 
that the extent to which caseworkers implemented them varied 
considerably. Table 2 summarizes these three policies and the 
percentage of cases for which the data indicated the policy was 
implemented.

 TABLE 2.--THE EXTENT OF IMPLEMENTATION OF SELECTED FOSTER CARE POLICIES
------------------------------------------------------------------------
                                                            Percent of
                                                            Foster Care
                                                             Cases for
                         Policy                              Which the
                                                            Policy Was
                                                            Implemented
                                                              (N=943)
------------------------------------------------------------------------
Initiate face-to-face investigation of alleged child                  26
 abuse or neglect within 24 hours of receiving an
 allegation on CFSA's child abuse hotline...............
Complete a safety assessment within 24 hours of face-to-              13
 face contact with the child............................
Complete a risk assessment within 30 days of receiving                73
 an allegation on the hotline...........................
------------------------------------------------------------------------
Source: FACES data and GAO analysis.

    In some cases, it took CFSA caseworkers considerably longer than 
the required time to initiate an investigation or complete safety and 
risk assessments. In 93 cases, CFSA caseworkers took more than 10 days 
to initiate the investigation and in 78 cases, it took caseworkers 
longer than 100 days to complete a risk assessment, more than three 
times longer than the 30-day requirement.
    For the other three policies, we reviewed case files and examined 
related data from FACES for 30 cases, because officials told us that 
the information related to these policies was not routinely recorded in 
FACES. One policy requires caseworkers to complete a case plan within 
30 days of a child's entry into foster care. Our analysis and file 
review found that case plans were not routinely completed within 30 
days. Another policy requires conducting administrative review hearings 
every 6 months. These reviews ensure that key stakeholders are involved 
in permanency planning for the child. We found that administrative 
review hearings were rescheduled for a variety of reasons, such as the 
caseworker had to appear at a hearing for another case or the attorney 
was not available. The third policy requires caseworkers to identify 
and arrange for services for children and their families. It was 
difficult to determine whether services recommended by caseworkers were 
approved by supervisors or if needed services were provided. Managers 
said that sometimes services are arranged by telephone and the results 
not entered into FACES.
    Officials said that several factors affected the implementation of 
some of the policies we reviewed. Agency officials explained that, in 
part, the data on implementation of the initial investigations and 
safety assessment reflected that the District's Metropolitan Police 
Department was responsible for the initial investigation of child abuse 
cases until October 2001 and that data was not entered into FACES. CFSA 
now has responsibility for both child abuse and neglect investigations. 
Further, program managers and supervisors said that several factors 
contribute to the time frames required to initiate face-to-face 
investigations, including difficulty in finding the child's correct 
home address, contacting the child if the family tries to hide the 
child from investigators, and even obtaining vehicles to get to the 
location. Caseworkers' supervisors and managers explained that 
generally, the policies were not always implemented because of limited 
staff and competing demands and the policies were not documented 
because some caseworkers did not find FACES to be user friendly.
    CFSA officials said they recently made changes to help improve the 
implementation of some of the policies we reviewed. CFSA has focused on 
reducing its backlog of investigations and reduced the number of 
investigations open more than 30 days from 807 in May 2001 to 263 in 
May 2002. CFSA officials said that they anticipate a reduction in the 
number of administrative review hearings that are rescheduled. The 
responsibility for notifying administrative review hearing participants 
when a hearing is scheduled was transferred from caseworkers to the 
staff in the administrative review unit, and notification will be 
automatically generated well in advance of the hearings. Additionally, 
another official said that CFSA has begun testing a process to ensure 
that all needed services are in place within 45 days.
    However, without consistently implementing policies for timely 
investigations and safety and risk assessments, a child may be subject 
to continued abuse and neglect. Delaying case plans and rescheduling 
administrative review hearings delay efforts to place children in 
permanent homes or reunite them with their families. Further, without 
knowing whether children or families received needed services, CFSA 
cannot determine whether steps have been taken to resolve problems or 
improve conditions, which also delays moving children toward their 
permanency goals.
    In addition to its policies for managing cases, CFSA has policies 
for licensing and monitoring group homes, plans for training staff in 
group homes, and a goal to reduce the number of young children in group 
homes. CFSA's policies for group homes are based primarily on District 
regulations that went into effect July 1, 2002. According to a CFSA 
official, the agency was precluded from placing children in an 
unlicensed group home as of January 1, 2003. As of March 2003, all CFSA 
group homes were licensed, except one, and CFSA was in the process of 
removing children from that home. In the future, CFSA plans to use 
requirements for licensing group homes as well as contractual 
provisions as criteria for monitoring them. CFSA also plans to provide 
training to group home staff to make it clear that, as District 
regulations require, any staff member who observes or receives 
information indicating that a child in the group home has been abused 
must report it. Further, CFSA has a goal to reduce the number of 
children under 13 who are placed in group homes. CFSA has reduced the 
number of children under 13 in group homes from 128 in August 2002, to 
70 as of February 2003; and, has plans to reduce that number even 
further by requiring providers of group home care to link with agencies 
that seek foster care and adoptive families.

     CFSA'S AUTOMATED SYSTEM LACKED DATA ON MANY FOSTER CARE CASES

    While CFSA's policies with regard to is automated child welfare 
information system--FACES--were not among the six policies we initially 
selected for examination, in our efforts to assess CFSA's 
implementation of the selected foster care policies, we determined that 
FACES lacked such data for about 70 percent of its active foster care 
cases. Of the population of foster care cases at least 6 months old as 
of November 30, 2002--2,510 cases--data on the initial investigation 
and safety and risk assessment policies were not available for 1,763 of 
them. CFSA officials explained that all of these cases predated FACES 
and the previous system was used primarily to capture information for 
accounting and payroll purposes, not for case management. Top agency 
managers said that CFSA does not currently plan to make it an agency 
priority to include data in FACES for these pre-FACES cases. 
Additionally, FACES reports showed that data was not available on many 
of the more recent foster care cases. For example, complete data on the 
initiation of investigations and safety assessments were not available 
for about half of the 943 cases that entered the foster care system 
after FACES came on line. Officials explained that their plans are to 
focus on improving a few data elements at a time for current and future 
actions.
    Complete and accurate data is an important aspect of effective 
child welfare systems. HHS requires all States and the District of 
Columbia to have an automated child welfare information system. These 
systems, known as Statewide Automated Child Welfare Information Systems 
(SACWIS), must be able to record key child welfare functions, such as 
intake management, case management, and resource management. However, 
it its review of FACES, HHS found the system to be in noncompliance 
with several requirements, including the requirements to prepare and 
document service/case plans and to conduct and record the results of 
case reviews.\7\ In addition to the standards and requirements 
established by HHS for all child welfare systems, the MFO requirements 
stress the importance of an automated system for CFSA. Many of the 
requirements the MFO imposed on CFSA direct CFSA to produce management 
data. For example, the MFO requires that CFSA be able to produce 
management data showing (1) how many children who need medical reports 
received them within 48 hours after the report of neglect or abuse was 
supported, (2) the caseload figures by worker for all workers 
conducting investigations of reports of abuse or neglect, and (3) the 
number of supervisors with at least 3 years of social work experience 
in child welfare.
---------------------------------------------------------------------------
    \7\ HHS completed its SACWIS assessment review of FACES in June 
2000. The purpose of this review is to assess whether the child welfare 
information system performs functions that are important to meeting the 
minimal requirements.
---------------------------------------------------------------------------
    It is very important to have accurate and timely automated case 
management data for all cases. An expert from a child welfare 
organization stated that there is a great need to transfer information 
from old case records to new automated systems in a systematic way. 
Without such a transfer, paper records with important information may 
be lost. She said that records of older teens have been lost, and, with 
them, valuable information such as the identity of the child's father, 
has also been lost. Without data in FACES, if caseworkers need missing 
data they will have to look for paper records in the case files, some 
of which are voluminous. This file review effort is much more time 
consuming than reviewing an automated report and requires more time for 
caseworkers to become familiar with cases when cases are transferred to 
new caseworkers. Complete, accurate, and timely case management data 
enables caseworkers to quickly learn about new cases, supervisors to 
know the extent that caseworkers are completing their tasks, and 
managers to know whether any aspects of the agency's operations are in 
need of improvement.

 CFSA HAS ENHANCED ITS WORKING RELATIONSHIP WITH THE D.C. FAMILY COURT 
           BY WORKING COLLABORATIVELY, BUT HINDRANCES REMAIN

    CFSA has enhanced its working relationship with the Family Court 
through its commitment to promoting improved communication and by 
expanding its legal support services for court activities. CFSA 
participates in various planning committees with the Family Court, such 
as the Implementation Planning Committee, and assists in providing 
service referrals on site at the Family Court. Since 2002, attorneys 
from the OCC have been located at CFSA and work closely with 
caseworkers. This co-location has improved the working relationship 
between CFSA and the Family Court because CFSA caseworkers and the 
attorneys are better prepared for court appearances. Additionally, 
training sessions have been held that included CFSA caseworkers, OCC 
attorneys, and Family Court judges. Furthermore, frequent dialogue 
between top management at CFSA and the Family Court and top management 
support have been key factors in improving these relationships.
    However, CFSA officials and Family Court judges noted several 
hindrances that constrain their working relationships. These hindrances 
include scheduling conflicts between the court and CFSA, an 
insufficient number of caseworkers, caseworkers who are unfamiliar with 
cases that have been transferred to them, and the unclear roles and 
responsibilities of CFSA caseworkers, attorneys, and judges. For 
example, CFSA officials said that Family Court judges often override 
caseworker recommendations that affect children and families. Family 
Court judges told us that they believe caseworkers do not always 
recommend appropriate services for children and their families. As a 
result of these conflicting perspectives, court officials said that 
appropriate decisions affecting children and families might not be 
reached in a timely manner.

                              CONCLUSIONS

    While CFSA has met several procedural ASFA requirements and other 
performance criteria, developed essential policies, and enhanced its 
working relationship with the Family Court, it needs to make further 
improvement in order to ensure the protection and proper and timely 
placement of all of the District's children. To improve outcomes for 
foster care children, CFSA needs a comprehensive set of policies; 
effective implementation of all policies; complete, accurate, and 
timely automated data on which to base its program management; and an 
effective working relationship with the D.C. Family Court. However, 
gaps in its foster care policies, inconsistent policy implementation, 
and incomplete automated data may hinder CFSA's ability to protect and 
improve the outcomes for the District's children. We expect to have 
recommendations in our final report that will address these issues and 
strengthen CFSA's operations. Mr. Chairman, this concludes my prepared 
statement. I will be happy to respond to any questions that you or 
other Subcommittee Members may have.

      APPENDIX I.--GAO'S ANALYSIS OF SELECTED PERFORMANCE CRITERIA
------------------------------------------------------------------------
      Performance Criteria                               GAO Analysis
------------------------------------------------------------------------
1. Current case plans for foster
 care cases:
    Forty-five percent of foster  Met...............  As of September
     care cases have current                           30, 2002, 46
     case plans.                                       percent of foster
                                                       care cases had
                                                       current case
                                                       plans.
2. Visitation between children
 in foster care and their
 parents:
    Thirty-five percent of cases  Not met...........  As of November 30,
     in which children have a                          2002, 1 percent
     goal of returning home have                       of children with
     parental visits at least                          a return home
     every 2 weeks.                                    goal had parental
                                                       visits at least
                                                       every 2 weeks.
3. Social worker visitation with
 children in foster care:
    Twenty-five percent of        Not met...........  As of November 30,
     children in foster care                           2002, no children
     have weekly visits with                           had weekly
     caseworkers in their first                        visits; 0.3
     8 weeks of care; 35 percent                       percent had at
     of all children in foster                         least monthly
     care have at least monthly                        visits with a
     visits with a social worker.                      social worker.
4. Appropriate legal status for
 children in foster care:
    No child in emergency care    Met...............  As of November 30,
     (legal status) for more                           2002, no children
     than 90 days.                                     in emergency care
                                                       more than 90
                                                       days.
5. Current and valid foster home
 licenses:
    Seventy-five percent of       Not met...........  As of November 30,
     children are placed in                            2002, 47 percent
     foster home with valid                            of children were
     licenses.                                         in foster homes
                                                       with valid
                                                       licenses.
6. Progress toward permanency:
    No more than 10 percent of    Not met...........  As of November 30,
     children in foster care                           2002, 30 percent
     have a permanency goal of                         of children had a
     return home for more than                         permanency goal
     18 months.                                        of return home
                                                       for more than 18
                                                       months.
7. Foster care placement with
 siblings:
    Sixty percent of children in  Met...............  As of November 30,
     foster care are placed with                       2002, 63 percent
     one or more of their                              of children were
     siblings.                                         placed with one
                                                       or more siblings.
8. Placement stability:
    No more than 25 percent of    Met...............  As of November 30,
     children in foster care as                        2002, 21 percent
     of May 31, 2002, have had                         of children in
     three or more placements.                         care since August
                                                       1, 2001, had
                                                       three or more
                                                       placements.
------------------------------------------------------------------------
Source: GAO analysis.


    Senator DeWine. Thank you very much. Ms. Schneiders.

STATEMENT OF ANNE E. SCHNEIDERS, CHAIR AND FOUNDER, 
            WASHINGTON CHAPTER, THE NATIONAL 
            ASSOCIATION OF COUNSEL FOR CHILDREN
    Ms. Schneiders. Good morning, Senator DeWine and Senator 
Landrieu. I come before you as the Chair of the Washington 
Chapter of the National Association of Counsel for Children, 
which is a national advocacy organization for children.
    Senator DeWine. You might want to pull that mike close. 
Thank you.
    Ms. Schneiders. I am a practicing attorney and a clinical 
social worker, licensed in D.C., Maryland, and New York, and 
practiced child welfare/foster care for 25 years before going 
to law school. I am pleased to have this opportunity to address 
this committee on the status of Child and Family Services from 
the perspective of one who must interface with this agency on 
behalf of abused and neglected children as guardian ad litem 
for almost 200 children over the years.
    The rise and fall of statistics does not interest me, as 
numbers can say whatever you want them to to make a point. My 
concern is the impact of policy decisions on children, as too 
many children who have been cared for by CFSA leave the system 
angry, resentful, and no better off than when they entered. Let 
me cite such a few policies.
    First is placement. Children brought into the system are 
too often made to wait weeks or months before a placement is 
available. Children 14 and older are made to wait in group home 
facilities until a placement is identified. Many are then 
placed in whatever home has a vacancy, regardless of the needs 
of the child or the expressed preference of a family. There is 
little matching of a child to the family.
    The result is a negative experience for both and the 
ultimate removal of the child. Some children are moved two, 
three, and four times before finding an appropriate placement. 
This is true of both CFSA foster homes and the private agencies 
with whom CFSA contracts. Some children abscond from the group 
homes before a foster home is located. Some act up to the point 
of requiring psychiatric hospitalization. Thus the trauma of 
the abuse, coupled with the trauma of removal from the birth 
parents, are compounded three and fourfold by the actions of 
Child and Family Services.
    CFSA needs to invest in active and aggressive recruitment 
of therapeutic foster homes so that it has a pool of families 
with whom to place children. Children should be matched with 
families, so that there is at least a reasonable expectation 
that the placement will be effective. It should not take 4 to 6 
weeks to put a child in a foster home.
    Secondly, the lack of adequate support services. There is a 
disturbing punitive climate emerging in the agency that seems 
to view the child as the culprit in the abuse and neglect 
cases. Services are not readily available to counter the 
effects of abuse and neglect. Tutors are limited to 1 month of 
service with repeated requests for renewal. Little can be done 
in 1 month. Mentors are only available for 3 months at a time, 
with a need to justify renewal. The purpose of a mentor is to 
afford the child a meaningful relationship. To terminate such a 
relationship in 3 months only serves to have the child 
experience yet another loss.
    Teenagers are denied admission to independent living 
programs until they are 18, regardless of the need and the 
child's readiness at 16 or 17. Specialized evaluations and 
therapy are limited to whatever Medicaid will pay, regardless 
of the child's need or the availability of competent 
clinicians. GALs are frequently told by social workers to 
request a court order or the service will not be provided, thus 
making the court manage the case. There is no similar policy 
restricting services to parents, who immediately get referrals 
for therapy, parenting, anger management, drug treatment, and 
whatever else they may need.
    CFSA needs to have a police that guarantees every child the 
services which the Court identifies as needed to counter the 
effects of abuse and neglect and prepare them more quickly for 
permanency or emancipation.
    The preparation for emancipation. Most of the children who 
age out of foster care are young people whose problems or age 
have precluded adoption or whose family failed to improve 
sufficiently for them to return home. They have serious 
academic deficits, emotional problems, mental limitations, none 
of which are their fault. They lack self-confidence and self-
help skills. They are immature and vulnerable. They are ill-
prepared to jump into the mainstream of life.
    CFSA discharges the children without secure housing, 
employment, or healthcare. This month alone I have had two 
children I represent age out at 21. One mildly retarded, 
emotionally disturbed youngster is currently homeless. The 
other, a teen mother of two, was given a list of city shelters 
to which to apply the day after her 21st birthday. There is no 
farewell, no emancipation celebration, no assurance that if you 
get stuck, you can come back for help, just a message that your 
case has been closed.
    CFSA receives an allocation of Section 8 housing vouchers 
from the Federal Government that are carefully doled out to 
selected parents who have abused and neglected their children 
and who are seeking reunification. At the same time, CFSA sends 
its own young people, the victims of the abuse and neglect, out 
of the system at age 21 telling them where to find the nearest 
shelter. None of the vouchers in the hands of CFSA can be given 
to its own children for whom it has served as surrogate parent.
    To make matters worse, CFSA is now proposing to reduce the 
age of emancipation of 18 instead of the current 21, because 
they claim that children do not appreciate the services 
offered. Very few children even of stable families are ready to 
leave home at 18. Intact, stable families send their children 
to college in the hopes that they will mature during those 
years. It is incredible to think that CFSA expects abused and 
neglected children, who have had very little nurturing and 
stability and who have too often bounced around the foster care 
system, are mature enough to manage on their own at age 18. All 
that is available to them is the street or a city shelter. 
Discharging these children at age 18 will force them to survive 
on the street, selling drugs or their bodies for enough money 
to buy food. This is not the way the District of Columbia 
should handle its children.
    Current legislation which provides that these very 
vulnerable young people remain in care until age 21 is both 
humane and responsible and should not be altered as a means of 
balancing the budget. The decision as to whether a child is 
prepared for independent living prior to age 21 should continue 
to be left with the Family Court who has oversight of the case 
and should not be made as the result of an arbitrary and 
capricious policy based on finances.
    CFSA needs to develop a policy and method of providing 
appropriate housing for children that emancipate from the 
system each year and not just send them to the city shelters to 
apply for TANF and food stamps. None of us would treat our own 
children that way. CFSA needs to design an integrated program 
of services staffed with persons who can engage young adults in 
meaningful activities and in which the young people are active 
participants in their own development. CFSA should create an 
after-care department to assist youngsters who spent their 
childhood in foster care and need a home to return to for 
occasional assistance during stressful times, especially as 
they try to get started on their own.
    Finally, it is intriguing to hear CFSA boast about the 
reduction in staff turnover when workers continue to leave, 
cases remain uncovered or covered by a supervisor. Social 
workers continue to complain about high case loads, routinely 
put in for transfers to non-case carrying positions, or work 
late into the night to get reports to the Court on time. I 
spoke to a social worker yesterday at midnight who was still 
trying to finish a report for the Court today.
    Cases are still counted as families without regard to the 
number of children in that family. Social workers are often 
responsible for up to 50 children at a time because of the way 
cases are counted, making it impossible to get to IEP meetings, 
treatment team meetings, or other significant events in the 
child's life. Cases have as many as three or more workers at a 
time and far more during the life of the case. A worker is 
assigned to the case on one day, the goal is changed to 
adoption, and the case is transferred to a recruitment worker. 
A family is recruited, and the case is transferred to an 
adoption worker. At the same time, a sibling goes to 
independent living and is assigned a teen services worker. 
Another sibling is placed with a contract agency and is given a 
different worker. I represent a set of twins, who each have 
different workers.
    Such a practice precludes the formation of beneficial 
relationships.
    Senator DeWine. Twins who have different workers?
    Ms. Schneiders. Pardon?
    Senator DeWine. Twins who have different workers?
    Ms. Schneiders. Yes. One happens to be in residential 
treatment, and therefore gets a worker through that unit. And 
the other is in a foster home and has a worker with that unit. 
And no one knows who has case responsibility for that.
    CFSA needs to develop a one case-one worker policy similar 
to the Court's one family-one judge system, with a maximum of 
15 to 20 children per worker, regardless of the number of 
families. Social workers need to get to know the case so that 
services are not duplicated, facts are not lost, progress is 
not overlooked, goals are not changed. And the continual 
reorganization of the agency is counterproductive in pursuit of 
this goal.

                           PREPARED STATEMENT

    Success should be measured when children in the care of 
Child and Family Services Agency feel safe and protected, loved 
and cared for, and achieve permanence early or are prepared to 
face the world on their own at age 21, not when the statistics 
prove that numbers have gone up or down.
    Thank you.
    [The statement follows:]

          Prepared Statement of Anne E. Schneiders, Esq., LISW

    Good morning, Senator DeWine, and all members of the Appropriations 
Committee.
    My name is Anne Schneiders, and I come before you as the Chair and 
Founder of the Washington Chapter of the National Association of 
Counsel for Children, a national advocacy organization for children. I 
am a proud resident of the District of Columbia; a practicing attorney 
at D.C. Superior Court; and a clinical social worker licensed in the 
District of Columbia, Maryland and New York. I spent 25 years as a 
social worker and administrator in foster care before going to law 
school.
    I am pleased to have this opportunity to address this Committee on 
the status of Child and Family Services from the perspective of one who 
must interface with this agency on behalf of abused and neglected 
children as a Guardian ad litem for almost 200 children over the years.
    Dr. Olivia Golden has certainly brought an element of 
professionalism to the table, and her reports to you and other bodies 
reflect considerable progress and improvement. The reality, however, 
from my perspective, as an advocate for the children entrusted to CFSA 
and their families, is that while Dr. Golden is masterful at 
conceptualizing programs and services, policies and procedures, 
structures and organizations, she is so far removed from the daily 
delivery of services to the children and their families, that she is 
unaware that the concepts she espouses are not effectuated on the front 
lines. In this testimony I will address specific issues and provide 
some concrete examples of the difficulties those of us trying to 
represent children and families encounter in working with CFSA. This 
agency is still in dire need of improvement, and in spite of all the 
rhetoric about progress and improvement, much of it remains on paper 
and has not made it to the level of practice on a daily basis.
    The rise and fall of statistics does not interest me, as numbers 
can say whatever you want them to say to make a point. My concern is 
the impact of policy decisions on children as too many children who 
have been ``cared for'' by CFSA leave the system angry, resentful and 
no better off than when they entered. Let me cite a few such policies:

               DIVERSION OF REPORTS OF ABUSE AND NEGLECT

    Advocates for children and families are very concerned with the 
apparent diversion of neglect and abuse cases away from the Superior 
Court's Family Court. Children must be represented by counsel to be 
adequately protected. During the year (2002), only about 900 neglect 
and abuse cases were petitioned, while in previous years between 1,700-
1,900 per year were petitioned. We are under no illusion that community 
based services are this effective!! Children are being placed with D.C. 
family members in what are called ``third party placements'' in order 
to avoid the ICPC difficulties of placing children over State lines, 
without ascertaining the criminal and child abuse histories of these 
potential caretakers. While obtaining criminal and abuse clearances is 
sometimes a cumbersome process, it is essential to protect children 
from further abuse. In these cases, we welcome what CFSA refers to as 
``bureaucratic barriers'' that serve to protect children.
Recommendation
  --There should be an outside review of the reports of abuse and 
        neglect that get diverted to community based services to 
        determine the appropriateness of these referrals, and to see 
        how many of them eventually come before the court in a more 
        severe state than at the initial identification.

                          LACK OF PROSECUTION

    We are also very concerned that perpetrators of sexual abuse and 
physical abuse of children are not prosecuted in the District of 
Columbia. Most attorneys will tell you that none of the perpetrators of 
the abuse of children before the court have been prosecuted, yet we 
continue to make reunification the primary goal in abuse cases. While 
CFSA has taken all of the Corporation Counsel attorneys under its 
umbrella--and even into its building--there has been no significant 
improvement in the government's pursuit of justice for children. 
Recently, the mother in a case petitioned in 1999 for physical abuse 
was arrested. The children had already been removed, reunified, and 
have recently had to be removed again for repeated physical and 
emotional abuse. Had proper steps been taken to prosecute the initial 
criminal child abuse case, these children would not have been re-
abused. Another severely retarded, cerebral palsy child was abused at 
home; brought into care; abused physically and sexually in group homes 
prior to placement in a foster home. None of these instances were 
pursued because he was deemed not a reliable witness. Again, over a 3-
year period 3 children were removed from one parent. One child had been 
burned and shot; the third child was scalped at the age of 6 weeks. No 
one was ever prosecuted for these crimes because the victims were 
young! If these 3 cases are on my caseload, I am sure there are 
hundreds of others throughout the system.

Recommendation
  --CFSA must be required to pursue justice for children and criminal 
        prosecution of those who physically and sexually abuse 
        children.

                           PLACEMENT POLICIES

    Children brought into the system are too often made to wait weeks 
or months before a placement is available. Young children still are 
retained at 400 6th Street overnight or until a placement is available. 
Children 14 and older are made to wait in group home facilities until a 
placement is identified. Many are then placed in whatever home has a 
vacancy regardless of the needs of the child or the expressed 
preference of the family. There is little matching of child to family. 
The result is a negative experience for both and the ultimate removal 
of the child. Some children are moved 2, 3, 4 times before finding an 
appropriate placement. This is true of both CFSA foster homes and the 
private agencies with whom CFSA contracts for services. Some children 
abscond from the group home before a foster home is located. Some act 
up to the point of requiring psychiatric hospitalization. Thus, the 
trauma of the abuse coupled with the trauma of removal from the birth 
parents are compounded 3- and 4-fold by the actions of Child and Family 
Services Agency.
    As recently as last week a 15-year-old child who had spent a year 
in a group home requested a foster home in January, and the Judge 
ordered CFSA to identify a home for him. In March the matter was 
brought back to court because no referral had yet been made. When the 
Judge asked for an explanation, CFSA came up with a home--reportedly 
the only home available in the system. No match was made; the child 
never met the foster family. He was just placed in the home. It lasted 
less than a week before the child ran away. The child remains in the 
group home being told there is no other foster home in the system. He 
must just wait!
    The same is true of the process for placing children in residential 
treatment programs. Last year I represented two 14-year-old children 
who spent extended periods of time in the Psychiatric Institute of 
Washington waiting for the process of identifying a residential 
treatment program to progress. These children wasted 2-3 months of 
their childhood sitting in a hospital waiting for meetings to be 
scheduled; papers to be exchanged; and transportation to be arranged 
before they could begin the treatment process.

Recommendation
  --CFSA needs to invest in active and aggressive recruitment of 
        therapeutic foster homes so that it has a pool of families with 
        whom to place children. Children should be matched with 
        families so that there is at least a reasonable expectation 
        that the placement will be effective. It should not take 4-6 
        weeks to place a child in a foster home, nor 6-8 weeks for 
        admission to a residential setting.

                   LACK OF ADEQUATE SUPPORT SERVICES

    There is a disturbing punitive climate emerging in the agency that 
seems to view the child as the culprit in abuse and neglect cases. 
Services are not readily available to counter the effects of abuse and 
neglect.
  --Tutors are limited to 1 month of service with repeated requests for 
        renewal. Little tutoring can be effective in 1 month. The 
        request for renewal on a monthly basis is a serious waste of 
        time on the part of social workers. Judges need to order such 
        simple services as tutoring to be sure that this service is not 
        interrupted, and re-started with a new tutor. Children cannot 
        adjust that readily to new faces and styles of teaching.
  --Mentors are only available for 3 months at a time with the need to 
        justify renewal for longer periods. The purpose of a mentor is 
        to afford the child a meaningful relationship. To terminate 
        such a relationship in 3 months only serves to have the child 
        experience yet another loss. CFSA has contracts with various 
        firms who pay the mentors for the time invested in the child. 
        Because of this expense, they limit the time given to any child 
        to 12 hours/month with the maximum amount, if justified, to 24 
        hours/month. This time includes transportation to and from the 
        child's place of residence. Volunteers for Abused and Neglected 
        Children (formerly CASA) have trained volunteers who do not get 
        paid. All CFSA has to do is enter into a contract for 
        administrative services, but has failed to do so. It is 
        difficult to understand the rationale for this decision.
  --Teenagers are denied admission to independent living programs until 
        they are 18 regardless of the need and the child's readiness at 
        16 or 17. This leaves some children in inappropriate settings 
        waiting for the magical age of 18 for admission to an 
        appropriate program. No one has yet explained the rationale for 
        this decision.
  --Specialized evaluations and therapy are limited to whatever 
        medicaid will pay for regardless of the child's need or the 
        availability of competent clinicians. Every child removed from 
        the birth parent is traumatized by this event, or those leading 
        up to removal. Too often the multiple moves of CFSA from 
        shelter care to multiple foster homes only compounds the 
        emotional stress these children experience. The inability to 
        secure specialized forms of therapy is serious. Young children 
        require therapy to deal with sexual trauma, physical abuse, 
        attachment disorders, and depression, while adolescents become 
        angry, defiant, aggressive and act out sexually or use drugs. 
        Identifying quality mental health care for these children is 
        extremely difficult given CFSA's policy that only providers who 
        take medicaid can be used unless there is a court order for a 
        specific type of therapy or therapist. This process is lengthy 
        and delays by weeks or months the initiation of therapy for 
        very troubled children and often puts both home and school in 
        jeopardy. Payment to vendors, while better than previously, 
        continues to be problematic and keeps the pool of available 
        clinicians limited. This is one of the most serious 
        shortcomings of CFSA given the fact that virtually every child 
        in care needs therapy.
    GAL's are frequently told by social workers to request a court 
order or the service will not be provided, thus making the court manage 
the case. There is no similar policy restricting services to parents 
who immediately get referrals for therapy, parenting, anger management 
programs, drug treatment, and whatever else they need, regardless of 
whether they take advantage of it or not.
    The same problem exists for other evaluations and therapies ordered 
by the court--i.e. psychiatric and psychological evaluations of both 
children and parents. The one place where it was possible to get top 
quality, comprehensive evaluations of children and their parents was 
the Youth Forensic Services. This agency, however, has been virtually 
dismantled by the Commission on Mental Health so that Youth Forensics 
now has no psychiatrist, 2 psychologists one of whom is unlicensed, and 
3 social workers.

Recommendations
  --CFSA needs to have a policy that guarantees every child the 
        services which the court identifies as needed to counter the 
        effects of abuse and neglect, and prepare them more quickly for 
        permanency or emancipation. There needs to be an identified 
        roster of qualified clinicians who can be accessed readily so 
        as not to delay the initiation of therapy for traumatized 
        children. Adoption is often delayed because a child has not 
        been provided therapy, mentoring, tutoring or other needed 
        services to counter the negative effects of prior physical/
        sexual abuse or severe neglect.
  --Some oversight committee needs to revisit the logic of dismantling 
        Youth Forensic Services which was one of the best resources 
        available to CFSA. There is no comparable service available in 
        the District of Columbia which understands the needs of the 
        court; the type of comprehensive evaluations needed; and the 
        impact of court decisions on children and families.

                      PREPARATION FOR EMANCIPATION

    Most of the children who ``age out'' of foster care are young 
people whose problems or age have precluded adoption, or whose family 
failed to improve sufficiently for them to return home. They have 
serious academic deficits, emotional problems, mental limitations, none 
of which are their fault. They lack self confidence and self-help 
skills. They are immature and very vulnerable. They are ill prepared to 
jump into the mainstream of life.
    CFSA discharges these children without secure housing, employment, 
or health care. This month alone I have had two children I represent 
age out at 21. One mildly retarded, emotionally disturbed youngster is 
currently homeless; the other, a teen mother of two was given a list of 
city shelters to which to apply the day after her 21st birthday. There 
is no farewell; no emancipation celebration; no assurance that if you 
get stuck you can come ask for help; just a message that ``Your case is 
now closed.'' Adoptive families are assured of post-adoption services; 
teens are given no such assurance.
    CFSA receives an allocation of Section 8 vouchers from the Federal 
Government that are carefully doled out to selected parents who have 
abused or neglected their children and who are seeking reunification. 
At the same time, CFSA sends its own young people, the victims of the 
abuse or neglect, out of the system at age 21 by telling them where to 
find the nearest shelter. None of the vouchers in the hands of CFSA can 
be given to its own children for whom it has served as surrogate 
parent.
    To make matters worse, CFSA is now proposing to reduce the age of 
emancipation to 18 instead of the current age of 21 because they claim 
the children don't appreciate the services offered. Very few children 
even of stable families are ready to leave home at age 18. Intact, 
stable families send their children to college in the hopes that they 
will mature during those 4 years. It is incredible to think that CFSA 
expects abused and neglected children, who have had very little 
nurturance and stability, and who have too often bounced around the 
foster care system are mature enough to manage on their own at age 18. 
All that is available to them is the street or a city shelter. 
Discharging these children at age 18 will force them to ``survive'' on 
the street selling drugs or their bodies for enough money to buy food. 
This is not the way the District of Columbia should handle its 
children.

Recommendations
  --Current D.C. legislation which provides that these very vulnerable 
        young people remain in care until age 21 is both humane and 
        responsible and should not be altered as a means of balancing 
        the budget. The decision as to whether a child is prepared for 
        independent living prior to age 21 should continue to be left 
        with the Family Court judge who has oversight of the case, and 
        should not be made as the result of an arbitrary and capricious 
        policy based on finances.
  --CFSA needs to develop a policy and method of providing appropriate 
        housing for the children that emancipate from the system each 
        year, and not just send them to city shelters, and to apply for 
        TANF and food stamps. None of us would treat our own children 
        in this manner!
  --CFSA needs to design an integrated program of services, staffed 
        with persons who can engage young adults in meaningful 
        activities and in which the young people are active 
        participants in their own development.
  --CFSA should create an after-care department to assist youngsters 
        who spent their childhood in foster care and need a ``home'' to 
        return to for occasional assistance during stressful times, 
        especially as they try to get started on their own.

                     STAFF RETENTION AND ASSIGNMENT

    It is intriguing to hear CFSA boast about the reduction in staff 
turnover, when workers continue to leave; cases remain uncovered or 
``covered'' by a supervisor. Social workers continue to complain about 
the high caseloads; routinely put in for transfers to non-case carrying 
positions; or work late into the night to get reports to the court on 
time. Cases are still counted as ``families'' without regard for the 
number of children in that family. Social workers are often responsible 
for up to 50 children at a time, making it impossible to get to IEP 
meetings, treatment team meetings, or other significant events in a 
child's life.
    Cases have as many as 3 or more workers at a time and far more 
during the life of the case. A worker is assigned to a case on one day; 
then the goal is changed to adoption and the case is transferred to a 
``recruitment'' worker; a family is recruited and the case is 
transferred to an ``adoption'' worker. At the same time a sibling goes 
to independent living and is assigned a ``teen services'' worker; 
another sibling is placed in a contract agency and is given a different 
worker. I represent a set of twins who each have different workers. 
Such a practice precludes the formation of beneficial relationships 
that support the family and children--and delay progress.

Recommendation
  --CFSA needs to develop a ``one case/one worker'' policy similar to 
        the court's ``one family/one judge'' system, with a maximum of 
        15-20 children per worker regardless of the number of families. 
        Social workers need to get to know the case so that services 
        are not duplicated, facts lost, progress overlooked. The 
        continual ``re-organizing'' of the agency is counter 
        productive.
    Success should be measured when children in the care of Child and 
Family Services Agency feel safe and protected, loved and cared for, 
and achieve permanence early or are prepared to face the world on their 
own at age 21.
    I thank you for this opportunity and look forward to improved 
relationships between CFSA and the community.

    Senator DeWine. Thank you very much. Very interesting.
    Ms. Meltzer.

STATEMENT OF JUDITH W. MELTZER, DEPUTY DIRECTOR, CENTER 
            FOR THE STUDY OF SOCIAL POLICY, AND COURT-
            APPOINTED MONITOR, CHILD AND FAMILY 
            SERVICES AGENCY
    Ms. Meltzer. Thank you. Good morning, Senator DeWine, 
Senator Landrieu. Thank you for this opportunity to testify and 
for your continuing leadership.
    I am Judith Meltzer, Deputy Director of the Center for the 
Study of Social Policy, which is the court-appointed monitor to 
U.S. District Court Judge Thomas Hogan for the LaShawn A. v. 
Williams lawsuit.
    The LaShawn modified order is a comprehensive decree dating 
to 1994, mandating comprehensive reform of the District's child 
welfare system. The Center is the monitor with responsibility 
for development of implementation plans and for ongoing 
assessment of the District's progress.
    The recent history of LaShawn begins with the termination 
of the receivership in June 2001 and the launching of a 
probationary period. The probationary period was to end only 
when the District demonstrated sufficient progress on a series 
of very incremental benchmarked performance standards. The 
District did that. Attached to this testimony is a copy of our 
report of September 30, 2002, which was based on an independent 
review last summer of over 1,000 CFSA case records.
    In doing that review, we looked at both the automated 
records on the FACES information system, as well as paper 
records for every case, because you could not rely on the 
automated system to get complete information. We did find that 
the District met 75 percent of the targets, which was the basis 
for recommending a termination of the probationary period.
    This is an accomplishment, and a significant one for the 
District. And I do not want to underestimate it. But I also 
want you to know that it does not mean that the District's 
child welfare system is consistently functioning at an 
acceptable level of performance or that the District achieved 
compliance with the LaShawn Order.
    I want to emphasize this in response to your earlier 
remarks, Chairman DeWine. The probationary standards were set 
as very incremental markers to demonstrate that the city had 
the capacity to administer this agency. In other words, the end 
of probation gives the responsibility for administration back 
to the District of Columbia from the U.S. District Court. And 
that was really the question that was resolved by the 
termination of the probationary period. We are now at a point 
of developing the implementation plan for going forward, 
because the Court has determined that the administration can 
continue to make progress on these standards.
    As Court Monitor, I am currently responsible for the 
development of this implementation plan in collaboration with 
the parties. The Implementation Plan is designed to address the 
deficiencies we found, the deficiencies found by GAO, and the 
deficiencies identified by the field and by advocates such as 
Ms. Schneiders.
    Since January, Dr. Golden and her staff, the Office of 
Corporation Counsel of the Mayor's office, plaintiffs and I 
have been working intensively to reach consensus on a plan. 
That discussion is near completion--and I will be submitting a 
plan to the Court by mid-April. The implementation will set 
ambitious yet, I believe, feasible targets between now and 
December 2006 for District performance. Among the most 
important are continued improvement in the timeliness and 
quality of investigations of child abuse and neglect; high-
quality social work and supervisory practice related to 
assessment, case planning and supervision of placement; wider 
availability of community-based supports; enhanced service 
provision; increased visits by social workers; an expanded 
range of high-quality family placement options in the District; 
reliable and accessible supports for foster parents; consistent 
access to mental health services, substance abuse services, and 
comprehensive medical, psychological and educational services; 
and permanent homes for the 1,110 children currently in the 
foster care system with a permanency goal of adoption.
    The implementation plan also requires steady and measurable 
improvement in several key infrastructure areas, including 
aggressive hiring of social workers. This job cannot be done 
unless there are enough social workers who are well trained to 
do it. The Plan also requires implementation of a high-quality 
training program for CFSA staff and for private agency workers; 
revamping contract policies and procedures to establish clear 
and enforceable performance expectations; full implementation 
and enforcement of the new licensing standards for foster 
homes, group homes, and independent living facilities; 
revamping the agency's administrative case review system; 
continued work with the new Family Court to achieve AFSA 
timelines and outcomes, and completion of work on the automated 
information system, FACES, so that the agency has access to 
timely, accurate, and complete data on the children and 
families it serves.
    I believe that the Implementation Plan, with its ambitious 
yet sequenced targets, can be successfully completed. And my 
optimism is in part based on the excellent leadership that has 
been provided in the last 2 years by the Mayor, Dr. Golden, and 
her staff.
    In addition to a degree that far exceeds anything that I 
witnessed in the prior history of LaShawn, the child welfare 
agency is finally working constructively with other agencies in 
the District Government, including the Mental Health Agency. 
Also Superior Court, under the leadership of Judge Rufus King 
and presiding Judge Lee Satterfield, is working collaboratively 
and constructively with the child welfare agency.
    There are five actions that the subcommittee can take to 
help accelerate positive change. I will list them only now, 
although my written testimony provides some additional detail.
    First, I think the Congress can provide incentives for the 
creation of a qualified and stable workforce, either through 
educational stipends or loan forgiveness programs and through 
expanding the applicability of Title IV-E training 
reimbursement to private agency workers, court staff, and other 
public agency partners.
    Second, I think there can be additional financial support 
for targeted prevention efforts that will allow the District to 
expand the provision of comprehensive neighborhood-based 
services to families at risk of entering the child welfare 
system.
    Third, I believe there should be targeted efforts to 
achieve permanency for the 1,110 children in the foster care 
system who have a permanency goal of adoption. This is one-
third of the current caseload.
    Fourth, I think there can be assistance for the development 
of additional foster and adoptive families within the District 
of Columbia, including foster families for children who are 
entering the system without exceptional needs, as well as those 
who have severe behavioral and therapeutic needs.
    Fifth, there needs to be intensive efforts to create assets 
and supports for those leaving the foster care system, as Ms. 
Schneiders has just testified to. There are currently 1,028 
youths over the age of 14 in the foster care system. Again, 
that is almost a third of the caseload. And it is a higher 
proportion of older children than other systems. This reflects, 
I think, the many years in which the system did not move 
children to permanency in a timely fashion. But much more has 
to be done to provide these children with the supports they 
need, so that when they exit the foster care system, they can 
lead healthy and independent lives.

                           PREPARED STATEMENT

    Members of the subcommittee, I want to conclude by 
emphasizing the importance of continuing support for the work 
of the District's child welfare system. I know it is 
frustrating. It has been extremely frustrating for me. It is 
frustrating for everybody that this reform has taken so long. 
But this is a multi-year effort. The Implementation Plan that 
the Court will order will chart ambitious steps for finally 
bringing the District's child welfare agency to an acceptable 
level of performance. This requires changes in practice, 
policy, and structure, as well as additional resources.
    With our continued efforts and shared commitment, I look 
forward to a day in the not-too-distant future when we can 
celebrate full compliance with LaShawn order and the end of 
Federal Court oversight of the system.
    Thank you.
    [The statement follows:]

                Prepared Statement of Judith W. Meltzer

    Senator DeWine and other distinguished members of the Subcommittee, 
thank you for the opportunity to testify this morning about the 
progress of the District of Columbia's Child and Family Services Agency 
(CFSA). I am Judith Meltzer, Deputy Director of the Center for the 
Study of Social Policy. I serve as the Court-appointed Monitor to U.S. 
District Court Judge Thomas Hogan for the LaShawn A. v. Williams 
lawsuit. The LaShawn Modified Order is a comprehensive decree, dating 
to 1994. The Order includes expectations for child welfare performance 
in the District across the full range of programmatic and 
administrative functions that are necessary to achieve the safety, 
permanency and well-being of children who are at risk of and experience 
child abuse and neglect. The LaShawn Order appointed the Center for the 
Study of Social Policy as the independent Court Monitor with 
responsibility for the development of implementation plans and for the 
ongoing assessment of the District's progress in complying with the 
Federal court orders.
    The recent history of LaShawn begins with the leadership of Mayor 
Anthony Williams and the establishment of the Child and Family Services 
Agency in June 2001, with Dr. Olivia Golden as its Director. On that 
date, the Federal court terminated the Receivership of the District's 
child welfare system and launched a probationary period, which would 
end only when the District demonstrated sufficient progress on a series 
of 20 benchmarked performance standards. The District was to achieve 
agreed-upon performance targets for 75 percent of the standards by 
October 31, 2001, which was later extended to May 31, 2002. The 
standards were designed as incremental measures of progress and 
covered, among other things, the timeliness of investigations of abuse 
and neglect; the development of current case plans for family services 
cases and children in foster care; reducing the number of children in 
emergency and congregate care; increasing the numbers of children 
adopted; and improving the appropriateness and stability of foster care 
placement for children in the District's custody. Attached to this 
testimony is a copy of my report to the Court dated September 30, 2002, 
on the District's progress in meeting the Probationary Period 
Performance Standards based on our review last summer of over 1,000 
case records. The District met performance targets for 75 percent of 
the standards and, based on those results, I was able to recommend that 
the probationary period be terminated. On January 7, 2003, U.S. 
District Court Judge Hogan formally terminated the probationary period, 
thus ending the Federal court Receivership of the District's child 
welfare agency, although Federal court oversight under LaShawn remains 
in place.
    The ending of the Receivership reflects real improvement in the 
system and is a significant and positive accomplishment for the 
District of Columbia. It does not, however, mean that the District's 
child welfare system is consistently functioning at an acceptable 
performance level or that the District has achieved compliance with the 
LaShawn Order. This Subcommittee hearing comes at a very important time 
for the Child and Family Services Agency as it works to create a child 
welfare system that meets not only the Court's expectations for 
performance, but more importantly a system that meets the expectations 
of the citizens of the District of Columbia.
    As Court Monitor, I am currently responsible for the development, 
in collaboration with the parties, of a binding Implementation Plan 
that identifies the steps and tasks necessary to achieve compliance, 
the timelines for task accomplishment and the resources (including 
staff, personnel, contracts and other resources) necessary for 
implementation. This Implementation Plan is to be submitted to the 
Court and will become an enforceable order of the Federal court under 
the LaShawn Order. The expectations of the LaShawn Order and the 
Implementation Plan are consistent with the District's efforts to 
comply with the Federal and District Adoption and Safe Families Act 
(ASFA) and with community and professional standards of acceptable 
child welfare practice.
    Since January, I have been working intensively and constructively 
with Dr. Golden and her staff, the Office of Corporation Counsel, Grace 
Lopes from the Mayor's Office and representatives from plaintiffs 
(Children's Rights, Inc.), to reach consensus on an Implementation 
Plan. Our negotiations ended last week and I expect to make final 
decisions and submit an Implementation Plan to the Court by no later 
than April 15th. At that time, I will be glad to submit the proposed 
Plan to this Subcommittee for inclusion in the record of this hearing.
    The Implementation Plan will set ambitious, yet I believe, feasible 
targets between now and December 2006 for District performance across 
the spectrum of child welfare practices and services. Among the most 
important are:
  --Continued improvement in the timeliness and quality of 
        investigations of child abuse and neglect.
  --High quality social work and supervisory practice with children and 
        families in the areas of assessment case planning, and 
        supervision of placement.
  --Wider availability of community-based supports for families to 
        prevent children and families from entering the child welfare 
        system.
  --Enhanced services provision so that children will enter foster care 
        placement only when their own families cannot be assisted to 
        provide them with safe and stable homes.
  --Increased visits by social workers to children in placement and to 
        families with children at home with current child protective 
        services cases.
  --Development of an expanded range of high quality family placement 
        options in the District of Columbia to continue progress to 
        reduce the numbers of children, especially young children, who 
        are cared for in group settings. The Implementation Plan will 
        most likely include a provision that requires the District to 
        end any overnight placement in its in-house Intake Center by 
        June 2003 and to have fewer than 50 children under age 12 in 
        congregate settings by December 31, 2004.
  --Providing reliable and accessible foster parent supports so that 
        placement disruptions decline and children experience fewer 
        placement moves while they are in foster care.
  --Consistent access to resources that children and families need, 
        especially mental health services, substance abuse services and 
        comprehensive medical, psychological and educational services.
  --Locating adoptive families or permanent kinship families for the 
        1,100 children in foster care with a permanency goal of 
        adoption, and completing the necessary adoption subsidy/
        guardianship agreements and other legal actions to provide 
        these children permanent homes.
    In order to achieve the programmatic and practice goals that I 
listed, the Implementation Plan also requires steady and measurable 
improvement in several key infrastructure areas, including:
  --Aggressive hiring of social workers through improved recruitment 
        and retention strategies leading to rapidly declining caseloads 
        for all workers. The Implementation Plan is anticipated to 
        require complete achievement of LaShawn caseload standards for 
        workers and supervisors by the end of 2004.
  --Implementation of a high quality training program for CFSA staff 
        and private agency workers that is geared to improving practice 
        skills and achieving defined practice competencies.
  --Revamping the contract policies and procedures to establish clear 
        and enforceable expectations for performance by private 
        agencies related to achieving safety, permanency and well-being 
        outcomes for children.
  --Full implementation of new licensing standards for foster homes, 
        group homes and independent living facilities and consistent 
        and effective enforcement of licensing standards.
  --Revamping the Agency's administrative case review system to provide 
        consistent and meaningful review of case progress and 
        achievement of permanency goals.
  --Continued work with the new Family Court to make sure that the 
        entire system works together to achieve ASFA permanency 
        expectations and timelines.
  --Implementation of comprehensive quality assurance processes, 
        including routine case and supervisory reviews, special 
        incident reviews, external fatality reviews and quantitative/
        qualitative assessment of case process and outcomes.
  --Completion of work on CFSA's automated management information 
        system (FACES) so that the Agency has access to timely, 
        accurate and complete data on the children and families it 
        serves.
    In making decisions about the Implementation Plan, I have worked 
with the District and the plaintiffs to achieve a balance between the 
urgent needs of children and families and the desire to quickly produce 
results, with the District government's appropriate concern about 
successfully sequencing and managing multiple and demanding 
requirements for change. I believe that the Implementation Plan, with 
its ambitious yet sequenced performance targets, can be successfully 
completed. My optimism is, in part, based on the excellent leadership 
provided by Dr. Golden and the hard working CFSA staff. Dr. Golden has 
assembled an enthusiastic team of competent child welfare professionals 
and has mobilized the diverse talents of many staff within the Agency 
and from a broad range of private agency and community partners. In 
addition, to a degree that far exceeds anything I have witnessed in the 
prior history of LaShawn, the child welfare agency is working 
constructively with other agencies in the District government, most 
importantly, the Department of Mental Health, the Office of Corporation 
Counsel, and the Metropolitan Police Department. This collaborative 
effort is greatly enhanced by the support of the Mayor. Finally, the 
Superior Court, under the leadership of Chief Judge Rufus King and 
Presiding Judge Lee Satterfield, is working with the child welfare 
agency to ensure children's safety and to provide meaningful and timely 
judicial review of children's progress toward permanency. The serious 
difficulties of providing appropriate services, supports and stable 
living situations for children remain, but I believe there is an 
improved level of trust and commitment from the various parts of the 
system to work together in new ways to solve these complex problems.
    There are five actions that the Subcommittee can take to help 
accelerate positive change. They include:
  --1. Provide incentives for the creation of a qualified and stable 
        workforce.--This can be done in two ways: first, provide 
        financial incentives for recruitment and retention of social 
        workers through loan forgiveness, new stipends or loans for 
        education in return for defined, time-limited commitments to 
        child welfare work in the District; and second, by provide 
        additional funding, either through extending the applicability 
        of Title IV-E training reimbursement or through other means, to 
        provide intensive skill building and family-centered practice 
        training for workers in the public child welfare agency and for 
        staff in private provider agencies and partner agencies, such 
        as mental health, substance abuse, and the Courts.
  --2. Provide additional financial support for targeted prevention 
        efforts that would allow the District to expand the provision 
        of comprehensive neighborhood-based services to families at 
        risk of entering the child welfare system.--For the past 2 
        years, the District was able to use TANF funds to support 
        services provided by the eight Healthy Families, Thriving 
        Communities Collaboratives, including their innovative use of 
        Family Team Decision Making, which bring family, extended 
        family and community supports together with public agency 
        workers to develop and implement plans of care to ensure safety 
        and permanency for children. In fiscal year 2004, the District 
        will have to use local funds to replace the TANF resources for 
        this work and currently does not have additional funding 
        available for any expansion of these important efforts.
  --3. Support targeted efforts to achieve permanency for the 1,100 
        children in foster care who have a permanency goal of 
        adoption.--This can be done in one of several ways: first, 
        providing fiscal incentives for achieving permanency through 
        adoption or subsidized guardianship for children currently in 
        foster care. Bonus funds could be available for specialized 
        recruitment for sibling groups, young teens and/or children 
        with individualized needs, or to pay for additional services 
        and supports to allow a foster family or kin provider to 
        securely commit to adoption or permanent guardianship. Second, 
        funds could be provided to allow the District child welfare 
        agency to enter into contracts with private child placing 
        agencies to engage in child-specific recruitment and placement 
        with families for currently waiting children.
  --4. Assist with the development of foster and adoptive families 
        within the District of Columbia.--One of the barriers to 
        District families wishing to become licensed foster parents is 
        the presence of lead paint in much of the District's older 
        housing stock. Some potential families cannot be approved as 
        foster parents or kin providers until they secure lead paint 
        abatement, which is frequently beyond their financial means. 
        Funding to pay for lead paint abatement for these District 
        families, who are otherwise qualified to be licensed foster or 
        kinship homes or approved adoptive families, could be made 
        available.
  --5. Support intensive efforts to create assets and supports for 
        youth leaving foster care.--As of December 31, 2002, one-third 
        of the children in foster care (1,028 children) were age 14 and 
        over. The District has a higher percentage of older children in 
        its foster care system than nationally, in part reflecting the 
        many years in which the District failed to make timely 
        decisions on permanency for children. Despite current efforts, 
        many of these older children will not achieve permanency before 
        they leave the foster care system, and much more needs to be 
        done to ensure that they are equipped to survive as independent 
        adults when they do leave. Congress could help by providing 
        additional support for educational stipends, work experience 
        and career coaching for these children; for additional mental 
        health and substance abuse services; for assistance with 
        housing when they leave foster care and for the creation of 
        Individual Development Accounts (IDA's) that would allow teens 
        in foster care to build assets.
    Members of the Subcommittee, I conclude by emphasizing the 
importance of continuing support for the work of the District's child 
welfare agency. The Implementation Plan that the Court will order will 
chart ambitious steps for finally bringing the District's child welfare 
agency to an acceptable level of performance. This will require changes 
in practice, policy and structure as well as additional resources. 
Achieving the desired results also will require clarity and tenacity 
about accountability and consistent review of performance data to 
measure progress and take corrective action. As external Monitor, the 
Center for the Study of Social Policy will prepare periodic progress 
reports for the Court, the District government, the Congress and the 
public, and we will work with the Agency to improve their internal 
quality assurance and results monitoring. With our continued efforts 
and shared commitment, I look forward to a day, in the not too distant 
future, when we will celebrate full compliance with the LaShawn Order 
and the end of Federal court oversight of the District of Columbia 
child welfare system.
    Thank you and I will be pleased to take questions.

    Senator DeWine. Thank you all very much.
    Let me start, Dr. Golden, I saw sometimes you nodding your 
head yes and sometimes you nodding your head no. And so maybe 
we should start with clarifying for the record how much of the 
GAO report you agree with and what you do not agree with.
    Dr. Golden. Well, we have talked at great length. And I 
really appreciate----
    Senator DeWine. I want to get that on the record, though, 
so we all know here----
    Dr. Golden. Okay.
    Senator DeWine [continuing]. How much of the GAO report is 
in dispute. And I know we do not have the final report.
    Dr. Golden. Right.
    Senator DeWine. But I would like to know, at least going 
into the report, how much do you think is not correct----
    Dr. Golden. I really----
    Senator DeWine [continuing]. And which is correct.
    Dr. Golden. Sure.
    Senator DeWine. And then we can go and argue about what it 
means.
    Dr. Golden. Well, I have not seen a late draft. It sounds 
to me as though most of the issues about which we discussed, 
the methodology, have been addressed. I think that the one set 
of things that would be worth our talking about more is that 
some of the GAO information is historical information; that is, 
in a number of areas, because they looked at a sample of cases 
in the fall of 2002, that entered the system anywhere from 1998 
on, some of the information is historical. And that is very 
valuable to us, because it tells us where we came from. But it 
is different currently. And as we have been working it through 
with GAO, we have been discussing that.
    Senator DeWine. I do not know what you mean.
    Dr. Golden. Excuse me?
    Senator DeWine. I do not know what you are talking about.
    Dr. Golden. Okay. Shall I give you what----
    Senator DeWine. Yes.
    Dr. Golden. Okay.
    Senator DeWine. Explain it to a lay person who is not in 
the system.
    Dr. Golden. Okay.
    Senator DeWine. I do not do this every day. What does it 
mean?
    Dr. Golden. Sure. Sure.
    Senator DeWine. What do you mean, historical?
    Dr. Golden. Well, remember that FACES was created in 2000. 
The receivership ended in 2001. And the system was unified, 
meaning that CFSA had responsibility for all cases in about 
October of 2001. So the system changed very dramatically over 
those years.
    Senator DeWine. All right.
    Dr. Golden. What--for a number of GAO's findings, for 
example, case plans submitted in the first 30 days, which is an 
area where we know we need to do lots of work----
    Senator DeWine. All right.
    Dr. Golden [continuing]. As I understand it, the 
methodology was to look at cases in the fall of 2002, and then 
go back and look at whenever they came into the system, whether 
many years ago or recently. And for me, as I think about--I am 
very eager to use all the information GAO has in our reform 
plans. For me, that is a different piece of information, 
because that is about how cases were investigated versus the 
information they have provided me that is more current.
    So when I am providing you and the Court with information, 
I am focusing a lot on the change, where things were in 2001, 
when we had a deeply fragmented system, and what has changed. 
And some of GAO's information is about that, and some of it is 
longer ago.
    Senator DeWine. Okay. But these kids are still in the 
system, though.
    Dr. Golden. That is right.
    Senator DeWine. These are not kids that are gone.
    Dr. Golden. That is right.
    Senator DeWine. I mean, let us make sure we understand. 
When I think historic, when I heard you say historic, I thought 
you meant a kid that was gone, in other words, a kid that was, 
you know, 22 and out of the system and we are not worried about 
anymore. But we are still worrying about these kids.
    Dr. Golden. Right. And we are still trying to improve our 
practices.
    Senator DeWine. Okay.
    Dr. Golden. And so some of the GAO information tells me 
about my caseworkers' practices now.
    Senator DeWine. So this is not ancient history.
    Dr. Golden. That is right.
    Senator DeWine. These are still kids. And we are still 
worrying about them. And we still have a responsibility for 
them.
    Dr. Golden. And we are focusing really intently on changing 
how we serve those children.
    Senator DeWine. Okay. And the fact is, what about the 
statistic that 70 percent of the current cases are not in the 
system? Now what about that statistic?
    Dr. Golden. I believe----
    Senator DeWine. That kind of grabs you.
    Dr. Golden. Right. And that----
    Senator DeWine. Is that right or wrong?
    Dr. Golden. It is wrong stated as you stated it. I do not 
think GAO would state it that way.
    Senator DeWine. Okay. State it correctly then. I am wrong. 
Tell me how I should state it.
    Dr. Golden. Okay. Right now we know where all of our 
children are and who they are. We know a whole lot of other 
information about them. For those children currently in our 
caseload who came into care before FACES or who came into care 
through the Metropolitan Police Department before we were doing 
it, there is information about their early months that exists 
in a hard copy case file but is not in our system.
    Senator DeWine. Okay. GAO----
    Dr. Golden. Is that right?
    Senator DeWine [continuing]. How would you say it? I want 
to get it right now.
    Ms. Ashby. Okay. I think that is true. And I think perhaps 
the issue is the significance of that. It is true that in some 
of the analyses we did, we--in fact, what we did is look at 
active cases in November of 2002, because that is at the point 
we were doing our field work. And we took cases that were at 
least 6 months old at that point. And we tried to determine 
certain things about those cases.
    In some instances, the particular things we were looking 
at, particularly with regard to initial investigations, safety 
assessments and so forth, we could not get that information 
consistently from the automated system, although it should have 
been there. And even in some cases where these cases were 
initiated after FACES went online, the information was missing.
    Senator DeWine. Which is pretty shocking.
    Ms. Ashby. It is surprising. And in not just a few----
    Senator DeWine. I mean, that is surprising.
    Ms. Ashby. Not just a few cases.
    Senator DeWine. I mean, if the case started after the 
system started, you really do not have any excuse for not 
having it in then, it seems to me.
    Ms. Ashby. Right. About half, in some cases. In some 
instances, for specific pieces of information, specific data 
elements or fields, the information was missing for up to half 
of the cases.
    Dr. Golden. If it would be helpful to offer some examples 
of those fields and the timing, because one of the things that 
I know, Senator DeWine, it may be important to you to know is 
how do we compare to other operational information systems 
around the country, and what is it that means that we are 
getting an award or we are in the top half, giving that we are 
missing some fields.
    And just to give you a couple of examples, because with an 
information system it always takes time over the years, some of 
the big changes, when I came in 2 years ago, even though FACES 
was operational, we did not have good data entry. We did not 
know which cases went with which workers. We did not know how 
to count worker caseloads. We did not know which homes were 
licensed. We were not easily tracking worker visitation. And we 
did not have good information on court hearings.
    Today we have good information on all those things 
currently. Some of them are really recent. The court hearing 
information, we just got our automated feed from the Court 3 
weeks ago. So over this 2-year period what we have been doing 
is improving the implementation bit by bit. And I think the 
reason our FACES system is getting that national award is 
partly about where we have gotten to now.
    I absolutely agree that if you look at where we were a 
couple of years ago, there is a lot of improvement that we have 
had to do.
    Ms. Ashby. Well, I would agree there has been improvement. 
And I would also suspect that if you only looked at the last 
year, for example, the numbers would look better. But of 
course, what we were asked to do was, for current cases, to 
look to see what the status of things were. And to only look at 
the last year where there have been improvements would not be a 
correct picture either.
    With respect to the data itself and the data, or elements 
within the data, for children who entered the system prior to 
October 1999 when FACES went online, much of that information 
could still be relevant. These are active cases. And if you do 
not know the history, or you cannot readily obtain the 
history--I will not say you cannot know it, because there are 
case files, although we and perhaps others would like to 
address this as well. We found problems with the case files as 
well. Those are not complete either.
    But much of the data, or some of the data, with respect to 
currently active cases, if that information is not readily 
available to the current caseworker, then that worker does not 
necessarily know what has gone on in terms of prior services to 
that child or that family. Perhaps there has been medical 
interventions that may be lost. It is much more--it is much 
more difficult to use paper case files than it is to use an 
automated system. I mean, that is the difference between the 
first half of the 20th century and the 21st century. Certainly 
an automated system is what you need. With an automated system 
you can do various analyses that you cannot do otherwise.
    For example, it was mentioned the possibility of not 
knowing where a child is, if a child might be in Maryland, in a 
foster home in Maryland, and the system might not know it. 
Well, unless you have a name or an I.D. number to go to a case 
file, you really could not find that out. In an automated 
system, perhaps you could do a search, and you could locate the 
child. So I think it is the significance that we are 
disagreeing on in terms of that earlier data.
    Dr. Golden. And I think it is a challenge in all the 
systems around the country. Because all the SACWIS systems have 
been--I mean, ours is one of the newer ones, so we are pleased 
about where are, given when it was implemented. But only 21 
States have them operational. We are one of those.
    So for all the States that either are as new as we are or 
even newer, they do--everybody faces that challenge of whether, 
when you are looking at something several years back, that 
social worker is going to work from the hard copy record and 
focus their data entry on current or look back.
    Senator DeWine. Let me just ask a simple question. And 
again, I am kind of an outsider here. Obviously, I am an 
outsider. But how long would it take to enter all just the 
current data? You do not have any intention of entering the 
current data. I mean, that is what you are telling me.
    Dr. Golden. I am sorry, Senator. I think we do have the 
current data. I am not understanding.
    Senator DeWine. Well, that is not--I am sorry. That is not 
what Ms. Ashby just told me. She said she has found cases where 
you do not have the current data in there.
    Dr. Golden. Well----
    Senator DeWine. She said she found a case where you did not 
have the current data in there.
    Ms. Ashby. And I think we need to define current.
    Senator DeWine. Well, current, what you told me is after 
the system came up----
    Ms. Ashby. That is correct.
    Senator DeWine [continuing]. Online, you found cases where 
all the data was not in there.
    Ms. Ashby. That is correct.
    Senator DeWine. That is current to me.
    Dr. Golden. Well, we----
    Senator DeWine. I draw the line when the system came into 
effect.
    Dr. Golden. Right. Well, let me give you a couple of 
examples. And they would probably be ones we would work on. One 
example of data that would not be in there even for a few 
months ago would be full and complete data from the Court about 
hearings. Because we are very excited. We worked out with the 
Court how to get that feed from them. And so that automated 
data we would not have been complete until we got it started.
    In some cases, we do go back. In other cases, we work from 
paper records and focus on current.
    Another example would be visits, where we have done a huge 
amount of work in the past few months, because we are managing 
visits very much every week. We are focusing on that. And there 
it is a matter, both with our social workers internally and 
with our contracted agencies, focusing a lot of training on 
getting that into the system.
    There is a tradeoff for those social workers, both in our 
agency and in the contracted agencies, about being up to date 
versus going back and trying to transfer information from their 
paper records for the past. We usually focus on what we think 
is most urgent for improving our practice for children. But 
there is often a tradeoff.
    And I think, again, other jurisdictions that have SACWIS 
systems may not have as many elements as we do current or some 
may have more, some may have fewer. Everybody is making a 
judgment call on how much you can effectively use the automated 
system.
    Senator DeWine. Okay. I think I have beat this enough. I am 
going to turn to Senator Landrieu. I am going to come back. I 
have a lot of questions.
    Senator Landrieu. Thank you, Mr. Chairman. I can sense your 
frustration. And I share some of that, because we do want to 
just try to be as clear as we can, so that we can push forward 
these reforms and continue to try to be supportive.
    Let me start with a bigger picture. Could somebody, maybe 
Ms. Golden, clarify for us the universe of children we are 
talking about today? I have read your statement, and it is just 
not clear to me. And maybe I am not reading it correctly. But 
we are talking about 3,119 children currently in placement, 
plus 2,301 children in families.
    Dr. Golden. Those are end of 2002 point-in-time numbers. 
They are pretty--they have been pretty stable. That is right.
    Senator Landrieu. Well, I just want to clarify that if I 
add those two numbers, that is all the children we are talking 
about. That is it, the total?
    Dr. Golden. Well, the other--that is the number at any 
given point. It is the number of children in placement and the 
number of families we are supervising in their homes. That is 
right. Every month we get about----
    Senator Landrieu. Okay. So just--I do not----
    Dr. Golden. I apologize.
    Senator Landrieu. I just need a number. What is the number? 
It is 31 plus 23 is 54, approximately 5,400.
    Dr. Golden. The number of cases. That is right.
    Senator Landrieu. 5,400 cases.
    Dr. Golden. That is right.
    Senator Landrieu. Now that would be multiple children per 
case?
    Dr. Golden. The way that----
    Senator Landrieu. Yes or no?
    Dr. Golden. In the families, family cases, we count the 
family, when children are at home. But when children are in 
placement, we count every child.
    Senator Landrieu. I am just trying to get a number. I am 
just trying to get a number of the children that we are talking 
about.
    Dr. Golden. Yes.
    Senator Landrieu. So give me an estimate, or a real number. 
If it is 5,400 cases, how many children would you say that we 
are monitoring, either monitoring because they are in an out-
of-home paid placement or monitoring children that are still in 
their families----
    Dr. Golden. Right.
    Senator Landrieu [continuing]. But are being monitored 
because of abuse and neglect allegations?
    Dr. Golden. As you said, Senator, it is about----
    Senator Landrieu. So would I raise this number to 6,500? 
Would it be that many?
    Dr. Golden. The number--the children in the families, as I 
said, we count the children in placement, as do most States. In 
families, I actually can get you the exact number.
    Senator Landrieu. Could I get that?
    Dr. Golden. I would say look at an average of about two to 
three children per family. I think our total--those are 
children who are all in the home. If any child is in placement, 
we count that child separately.
    Senator Landrieu. Okay. The reason I am pressing for this 
number is because I am then going to ask you how many social 
workers you have on staff. And I am going to divide the number 
of social workers and children and come up with the actual 
caseload that we are talking about.
    Dr. Golden. Okay.
    Senator Landrieu. Because there are ways that you can 
determine the caseload, you know, say the caseload is X or say 
the caseload is Y. But the way that I would think would be the 
best way is to take the number of children and divide by the 
current payroll of social workers. So first of all, we know 
whether we are talking about a caseload of 15 to 1, 25 to 1, 50 
to 1, or 75 to 1.
    Dr. Golden. I can tell you that approximately, and then we 
can follow up with a division, if that would be useful.
    Senator Landrieu. Okay. What is it?
    Dr. Golden. The caseload, which does include families for 
children at home--that is the way the modified final order 
counts it, and most places do--and children in placement is 
about 23. The----
    Senator Landrieu. Okay. Then I am going to take that 
number, 23 to 1. But I am going to do the division this other 
way and see if there is a discrepancy.
    Dr. Golden. Right.
    Senator Landrieu. The reason I push this number is that I 
do not think we can get much other reform done unless you get 
that caseload down. Because we are depending on the social 
workers, I would imagine----
    Dr. Golden. Absolutely.
    Senator Landrieu [continuing]. To execute the imputing of 
the data, the visitation, the permanency plans. And so it is 
very important, I would suggest to the chairman, that our 
committee focus----
    Dr. Golden. Absolutely.
    Senator Landrieu [continuing]. On the funding and 
recruitment, or funding necessary and then recruitment, for the 
caseworkers, so that the caseworkers remain, hopefully, 
permanent and not turnover, get a handle on their cases, both 
the back log of the historical cases, as you have talked about, 
and the current, and then try to, you know, manage the reform 
that way.
    Dr. Golden. If it would be helpful--I agree completely with 
that. I think that that is a key area for us. In working with 
the Federal Court on the implementation plan, we have some 
standards that frame our work and a workload study coming up to 
refine those standards. So I would be glad either now or after 
to share with you, we have standards for children in placement, 
we have standards for families in the home, and we have 
standards for investigators, which we are very close to, about 
12 investigations a month. And we have--we have a plan, and we 
have a workload study plan to fine tune that. So that would be 
a wonderful fit with the strategies of the committee.
    Senator Landrieu. Well, I look forward to working with you. 
Now following that up just a moment, because I appreciate Ms. 
Schneiders's testimony so much and was pleased that last year 
this committee actually appropriated $1.5 million for the 
guardian ad litem program, which supports a lot of the work 
that you and some of the other attorneys in the area do. And we 
are very proud of that, because we want to step up the advocacy 
as an independent voice, you know, helping us all to really 
stay focused on the reforms. And we really appreciate the 
contribution that advocates are making.
    But based on the testimony given, are you in a position to 
change the policy that we were talking about, so that it turns 
out to be one child per caseworker, and that children are not 
moved from one type of caseworker to another? Could you comment 
on that? And are you committed to the one child-one worker 
system? And if so, when will it be implemented? And if not, why 
not?
    Dr. Golden. Let me tell you about all the work we have been 
doing that, because that is key. And I just want to note that 
Ms. Schneiders is on our local advisory board. And we had a bit 
of this conversation the other night. And I was hoping we would 
follow up with the names of some of the workers, so I could 
work on the specific cases. So that is still ahead for us.
    But let me tell you a little bit about where we stared and 
what we have done in terms of the one worker-one child.
    Senator Landrieu. That would be fine, except my time is 
just so short.
    Dr. Golden. I apologize.
    Senator Landrieu. I just want you, Dr. Golden, if you 
could----
    Dr. Golden. Yes.
    Senator Landrieu [continuing]. To say do you agree with the 
policy of one social worker per child? And if so, when is that 
going to be implemented for the--have we gotten a number? Are 
we talking about 5,000 children, the 5,000 approximately? I 
will just say 5,000 children under care.
    Dr. Golden. I think that the--I agree not only with a 
worker for a child. But I think Ms. Schneiders' point was also 
to try to make sure that, where possible, siblings have the 
same worker. And so we are focusing on both those things. We 
do--and we have made changes in our structure to make that 
happen. Children used to move back and forth when they went 
from a family to out-of-home care. And we have put together in-
home and reunification units with a goal of addressing that.
    We do still anticipate that when the child's goal becomes 
adoption, it often will be better to have that child's case 
moved to an adoption worker. Jurisdictions around the country 
do that different ways. But I think the experience suggests 
that that really works well, because that way you move the 
child towards placement more fully. But that is one of the very 
specific examples.
    Senator Landrieu. I am not--I just want to say that I am 
not sure that I agree with that.
    Dr. Golden. Okay.
    Senator Landrieu. That is why I want to press this point. I 
am just looking for a time line. As the manager of this agency, 
what is the time line that you have in mind for making sure 
that each of the 5,000 children under your care have one worker 
per child or one worker per sibling group? Do you think you 
will reach that goal in 12 months or 24 months or do you have a 
time line in mind?
    Dr. Golden. Well, each child having one worker, I actually 
do want to find out where the problems are now, because that 
should be consistent now. Sibling groups, I think----
    Senator Landrieu. But you are testifying that currently 
today it should be a policy of a child having the same worker, 
today?
    Dr. Golden. From the point where their case is--where their 
investigation is completed, because we have separate 
investigators who would handle that child's case, who would do 
that the first 30 days, and then hand that child's case to an 
ongoing worker. From that point either until permanence or 
until adoption--now there are lots of reasons why that does not 
happen in terms of turnover of that individual worker. But I 
think, as I understand the question, you are asking if our 
policy is to have a child develop bonds with a social worker 
over that whole period, from investigation until the point of 
adoption.
    Senator Landrieu. Until either reunification or adoption.
    Ms. Schneiders, maybe you could comment about what your 
experiences are. Is that happening? Or do you find--you 
testified that you have a set of twins that each have a 
different worker.
    Dr. Golden. Right. Siblings we have to work on.
    Ms. Schneiders. The problem, as I see it, is that every 
time the child makes a move, there is a--because of the way the 
agency is configured--there is a teen unit, there is an 
adoption unit, there is a reunification unit, there is a this 
unit and that unit. So if one child is moving through these 
units, so they have a worker, the goal is adoption. Immediately 
we refer to the adoption unit. The adoption unit then has a 
recruiter. So then the child interacts with the recruiter and 
goes on Wednesday's Child and all that.
    Once the family is found, the recruiter is gone, and the 
child gets an adoption worker. And then--but the siblings can 
be doing another thing. The sibling can be in a teen unit. The 
sibling can be in residential.
    So what we are proposing is that the family be given a 
worker, who can work with that family, so that----
    Senator Landrieu. Absolutely.
    Ms. Schneiders [continuing]. Around these different issues 
there can be sibling visitation, the parent knows who to call, 
and they are not calling five different workers because this 
child is here and another child is there. And that when a child 
makes some progress, the worker knows the progress and the 
struggles to that progress and can benefit from that and move 
the child to the next level.
    Every time a worker changes, they go back to square one, to 
try to learn the case and learn the facts. And they come to 
court and say: I have only had the case for 3 months. I do not 
know anything about it.
    Senator Landrieu. That is what we are determined to end. 
Let me just state that now. I know the chairman has additional 
goals--we are going to end that system in the District and, as 
much as we can, throughout the child welfare agencies around 
the country. We are going to move to a system where there is 
one worker either per child or one worker per family, that 
knows the child, knows the family, knows the history, and stays 
with it, creating that kind of system.
    I am going to end with this. We are going to minimize the 
number of group homes that exist, maximize the number of real 
families, not to underestimate the contribution that foster 
families make, but to make therapeutic real families for 
children to move into temporarily. And they are either going to 
move back to the family that they came from or move into an 
adoptive family.
    So the business of foster care is going to be eliminated 
over a short period of time. Children will be in real families. 
And the case work has to get down to a manageable level for the 
caseworkers with consistency.
    So I will end on that. Let us continue to pursue with this 
GAO report, Mr. Chairman. It is very disturbing in the sense 
that I know we have made a lot of progress, but this outlines a 
tremendous amount of work that has to be done.
    Dr. Golden. Absolutely.
    Senator Landrieu. This committee is prepared to provide 
resources and guidance and assistance. What I am not prepared 
to do is to wait another 5 years for some of these changes to 
take place. They are too important, and they are too critical. 
And there are children's lives that are in the balance.
    So thank you very much.
    Senator DeWine. Thank you.
    Ms. Ashby, you state in your testimony that many 
caseworkers find the FACES database difficult to use. In your 
research, did you find that this was due to the system actually 
being difficult to navigate, or what was the problem?
    Ms. Ashby. I do not----
    Senator DeWine. Or was it a lack of training for the 
caseworkers or--you know, look, the only reason you go to a 
system like this--I am stating the obvious. But the only reason 
you go to a system like this and put the money into it is so 
that your caseworkers have more time to be caseworkers.
    Ms. Ashby. Right.
    Senator DeWine. And, you know, the same with policemen. You 
have technology so a policeman can be a policeman. And you want 
the caseworker to be a caseworker. And you want him or her to 
have more information at his or her fingertips about the 
client, about the child and about the child's family and get 
that information so you can serve that child better.
    Ms. Ashby. Correct.
    Senator DeWine. Now if the system is getting in the way of 
that or if the caseworker cannot use the system or if the 
caseworker is working around the system, we have a problem. And 
I get the impression we have a problem. So what is the deal 
here?
    Ms. Ashby. All right. I cannot give you a definitive 
answer. I suspect that it is all of the above, that in some 
cases, perhaps, a caseworker is intimidated by an automated 
system. That is not unusual.
    Senator DeWine. Yes. I get that. I understand.
    Ms. Ashby. There is training available, as I understand it. 
And there is actually, I think, up to 3 days training. So I 
find it hard to believe the training is an issue. Time may be, 
the time it takes to gather the information and put it in the 
system. I do not know if access to computers--and I do not know 
if every caseworker has a desktop computer or not. Dr. Golden 
is indicating that that is the case. So access to the computer 
is probably not the problem.
    Maybe it is culture. I do not know. If you have an 
organization that is saying that historical data is not 
important because that was last year or 2 years ago or 3 years 
ago, maybe that is interpreted to mean, well, maybe today's 
data is not that important either, because a year from now, 2 
years from now, that will be historical. I do not know. We did 
not look at FACES in terms of the technical aspects of it or 
inputting data, per se.
    Senator DeWine. Well, let me ask this, and let me again be 
more provocative here, Dr. Golden: When you are--is that a 
problem when your organization is not putting a premium on 
historical information, because you are not putting it in? And 
you are not putting a premium on it, and, therefore, the 
caseworker says: My organization is not paying the money to put 
it in or is not mandating it be put in, and therefore maybe it 
is not important to be put in.
    Dr. Golden. Senator, what----
    Senator DeWine. You are looking me in the eye, and you are 
basically telling me it is never going to go get put in. That 
is the impression, because you have never answered me whether 
it is ever going to be put in.
    Dr. Golden. Senator, let me----
    Senator DeWine. Now have you, Doctor?
    Dr. Golden. I think what I focused on, and it sounds as 
though----
    Senator DeWine. Doctor?
    Dr. Golden [continuing]. I am giving you the wrong answer, 
sir.
    Senator DeWine. Have you ever told me it is going to be put 
in? Please give me a yes or no.
    Dr. Golden. I----
    Senator DeWine. No. I take it as a no.
    Dr. Golden. Right. I mean, I think----
    Senator DeWine. It is never going to be put in.
    Dr. Golden [continuing]. Data from 1998 hard copy records, 
you are----
    Senator DeWine. It is never going to be put in. So that 
caseworker is never going to have that information about this 
child.
    Dr. Golden. The caseworker has the information in a hard 
copy record.
    Senator DeWine. Has to go get the hard copy, which----
    Dr. Golden. Senator, I am glad to go back and talk to staff 
about this issue. But I wonder--what I want to tell you is what 
we have learned, because we have hugely changed social workers' 
use of FACES. And I actually, in my management meeting the 
other day preparing for this hearing, asked people why they 
thought there had been a huge transformation and culture 
change. Because we are--and we are doing that not only with our 
own workers, but with the private agency workers. Because it is 
right, that in the past people did not use it.
    What has transformed that is that not only are we now 
managing it every week, but we have made it easier for social 
workers. We have had a group that meet regularly, that seeks to 
change, for example, the investigations screens, the case plan 
screens, so they are useful to the worker. So we have just 
transformed people's use of it currently.
    I hear, Senator, your concern about whether in our intense 
focus on having people use this system in an up-to-date way so 
it is helpful to them, we have neglected something that we 
should have gone back and done. And I will go back and ask that 
question. But what I really want you to know is that the 
current culture of using the system and of the focus on data at 
every level is just transformed. And our private agencies, we 
have cases managed by our private agencies, when we started 
managing the data, they were looking behind. And they did not 
like to look behind. They think of themselves as doing a good 
job. They discovered that they had big FACES training issues. 
And we went out and did all of that work.
    So I think we have transformed that. And I will certainly 
go back and find out whether, in our haste to really reform the 
current, there is something we should have done differently in 
the past.
    Senator DeWine. Well, if your answer to me would have been, 
Senator, it just costs too darn much money to do it, I might 
understand it. I might not agree with you. But I do not even 
hear that.
    Dr. Golden. I do not think it ever----
    Senator DeWine. I mean, I am not even sure I understand 
what you are even telling me. I am not--I did get a good 
night's sleep last night. I mean, I just do not get.
    Dr. Golden. Well, perhaps I am just hearing wrong somehow. 
I think----
    Senator DeWine. Here is what I am hearing, and take me 
through this. And, look, this is only part of the problem. And 
we have about another hour here.
    Dr. Golden. Right. Of course.
    Senator DeWine. So everybody just relax. We are going to 
have a long time.
    Dr. Golden. Of course.
    Senator DeWine. What I am hearing you tell me is, we have a 
new system. It is a Cadillac system. And it is going to give 
our caseworkers the information they need, which is part of 
what is going to make my caseworkers do their job.
    Dr. Golden. Right. It helps them do their job better and 
help us hold them accountable.
    Senator DeWine. And there is training. And there is a lot 
of things that will make caseworkers do their job better. One 
is training. One is ratio. So that, as Senator Landrieu talked 
about----
    Dr. Golden. Absolutely.
    Senator DeWine [continuing]. So we do not--the casework 
ratio. Supervision. There are a lot of things that would go 
into it. But one would be a computer system that gives me the--
I can download the information.
    Dr. Golden. Absolutely.
    Senator DeWine. Okay. So we are only talking about one 
thing, but it is important, one thing. And what I am hearing 
you say is that I have a new system, but I am only going to use 
part of the system. Each child is only--I am only going to 
retrieve part of the information about that child. And then the 
rest of the information will not be available to me. Now it 
will be available to me, if I go back and look at the file. It 
just seems so inefficient. I do not quite get it.
    Dr. Golden. Well----
    Senator DeWine. And I am not hearing any answer to why you 
are doing it that way. And I would really like to move on. I 
would just like to give you an answer.
    Dr. Golden. Right. I mean I can give you the best answer I 
can. Then I will go back and look. I do not think that it 
ever--as with any system implementation, I do not think it ever 
occurred to us that--we have the basic information about 1998, 
for example, that lets us check past reports. I do not think, 
because I do not think it typically happens when you implement 
a system, that going back, collecting those hard copy records, 
and, if they have information about things like whether there 
was a--how soon the person contacted the child, which may or 
may not be in there. It may or may not be in there 
systematically. We do now know the quality. I do not think it 
occurred to us to try to collect all those records and fill in 
that specific information----
    Senator DeWine. How about if the child----
    Dr. Golden [continuing]. Because we are so----
    Senator DeWine. How about if the child had more--how about 
more basic things? How about more significant--not procedural 
things, but how about basic facts about the child?
    Dr. Golden. Those should be there. Everything about--I 
should not say anything, because, again, it depends on the 
quality----
    Senator DeWine. Would those be the system?
    Dr. Golden. Those should be in the system, yes. I mean, 
again----
    Senator DeWine. Where the child was physically.
    Dr. Golden. That should be there, if it was accurately kept 
at that time. We do not know the quality of work in 1998 or 
1999. So if that is anywhere--but yes, where the child was, the 
age.
    Senator DeWine. Well, I mean, if it is in your hard file.
    Dr. Golden. Right. That should be there.
    Senator DeWine. That is there.
    Dr. Golden. That should be there, unless it was----
    Senator DeWine. That would be in your computer system.
    Dr. Golden. That should be there, if it was in the hard 
copy.
    Senator DeWine. If the child received some sort of 
treatment, that would be in there?
    Dr. Golden. I do not think treatment information would be 
likely to have been very well collected----
    Senator DeWine. Whoa.
    Dr. Golden [continuing]. In 1998 or 1999.
    Senator DeWine. Whoa. Is that not important? I mean, I can 
see----
    Dr. Golden. Right.
    Senator DeWine [continuing]. Notification being important. 
That is procedure.
    Dr. Golden. Right.
    Senator DeWine. But if the child--let us say the child has 
been sexually abused.
    Dr. Golden. Right.
    Senator DeWine. And the child went to see a psychiatrist.
    Dr. Golden. Right.
    Senator DeWine. Okay. Would that not be important?
    Dr. Golden. It would be important. It may or may not be in 
the hard copy record.
    Senator DeWine. Oh, my lord.
    Dr. Golden. It may or may not have been done in 1998.
    Senator DeWine. You are kidding me.
    Dr. Golden. Right. That is an area where we have had to 
make huge reforms, the whole area of mental health services and 
the way----
    Senator DeWine. You are telling me that is not even in the 
hard copy.
    Dr. Golden. It would depend on the quality of the work. At 
that point, sexual abuse investigation----
    Senator DeWine. If it was in the hard copy, would it have 
been transferred to the computer?
    Dr. Golden. I do not know if service information as well 
transferred to the computer, probably not.
    Senator DeWine. Okay. Now that is what I find shocking. Now 
here, let us get to what I find shocking.
    Dr. Golden. Yes.
    Senator DeWine. If it is in a hard copy and it is in a file 
about Jim Smith, a little boy who has been sexually abused, I 
would expect a caseworker to be able to pull that up on a 
computer and to know that the child has been sexually abused 
and has had a psychiatrist talk to him, or whoever the 
counselor was or whatever it was.
    Dr. Golden. Right.
    Senator DeWine. That to me is important. It is not 
important that historically 3 years ago, there was a court 
notification, et cetera.
    Dr. Golden. Right, which is the kind of information that we 
are not updating.
    Senator DeWine. Right. I am not worried about that, 
historically.
    Dr. Golden. Right.
    Senator DeWine. Okay? What I am worried about is that that 
caseworker, who is dealing with that child, knows that that 
child has been sexually abused and knows that that child went 
through a treatment with Dr. So-and-So, so he could pick up the 
phone and call Dr. So-and-So and find out about this child, if 
he needed to do that.
    Now would we agree that that is important?
    Dr. Golden. I would agree that that is important.
    Senator DeWine. And would we agree that that all be in that 
computer?
    Dr. Golden. I agree that if we had that information, it 
should be in the computer. The concern I am expressing is that 
that is an area where I think that the problems back in 1998 
and 1999 went way deeper than the computer system.
    Senator DeWine. Okay. But what you just told me----
    Dr. Golden. I agree.
    Senator DeWine [continuing]. It might be, might be, in the 
hard copy. But what you just also told me is, even if it was in 
the hard copy, it might not have been transferred to the 
computer. That is what I find offensive and alarming. And I 
think you ought to fix it.
    Dr. Golden. Thank you, sir.
    Senator DeWine. Okay. We are going to--and I apologize to 
everyone on the panel. We are going to have to stop. We are 
going to have to recess this for about 10 minutes.
    I have a press conference on missing and exploited children 
in this same building. I am going to try to get to the press 
conference, get back from the press conference. We are going to 
stop this panel. We are going to come back here in about 10 
minutes, as soon as I can get back. And I apologize for that. 
And I will come right back. But it will be at least 10 minutes. 
You can take a break, whatever you want to do.
    Thank you very much. One of the GAO conclusions that I have 
listed here shows only 1 percent of children with the goal of 
reunification had a parental visit at least every 2 weeks. Now 
I find that to be a shocking statistic. Only 1 percent of 
children who had a goal of reunification had a parental visit 
at least every 2 weeks. So that means we have a child, all 
these children, who have a goal of reunification. And yet only 
1 percent of them are seeing a parent every 2 weeks.
    How could that be? How can you reunify a child with a 
parent, and only 1 percent of them are seeing the parent every 
2 weeks?
    Dr. Golden?
    Dr. Golden. That is a huge issue for us. The number that we 
have from the court monitor's report is about 12 percent. So 
that is the court monitor's finding from her review. It was an 
improvement for the year before, but it is clearly completely 
untenable. I agree with you completely.
    What we are doing about it is three or four different 
strategies. One big obstacle was a history in the agency of not 
having community sites for visitation and the logistics of 
parents coming into town and into our building. We have put in 
our contracts with all our community-based partners to 
facilitate and supervise visitation. So we are working a lot on 
community-based sites.
    A second piece of it is engaging the family early. Because 
one of the things that can happen, in the agency's past, we did 
not reach out to family members early on. And that made it much 
harder to engage them later. We are moving towards, though we 
have a long way to go, early case conferences.
    And we are focusing much more in our--both in our work with 
our community partners and with our own social workers on 
building on--once you have all the family members involved, 
then you have to do the visitation. I expect we are also going 
to learn a lot about scheduling, what we need to do to 
accommodate parents' work schedules. I think there is a whole 
set of things. I agree completely that that is an area where we 
have to keep working very hard.
    Senator DeWine. Anybody else on the panel want to discuss 
that issue?
    Ms. Schneiders. From a practitioner's point of view, when a 
case comes in, there is an automatic goal of reunification for 
the child for a period of time until, you know, we work through 
that. And in those cases where there is an automatic goal, not 
a plan goal, but just because it is a new case, it is a goal of 
reunification, sometimes the parents simply do not show up. 
They are still very heavily involved in drugs. So you may 
schedule a visit, but it does not occur. So it constitutes as 
no visit.
    Senator DeWine. Sure. Although--I understand why--you know, 
you have many cases. But 1 percent is an unbelievable figure, 
or even 12. I mean----
    Ms. Schneiders. Right. I was----
    Senator DeWine. Even if it is only 12 percent. I mean, it 
is still unbelievably low to me. But----
    Ms. Meltzer. In our study, 66 percent of the children 
actually had no visit over the period, the first 8 weeks in 
foster care, that we looked at that. So it is a critically 
important issue. It is critically important that the family get 
involved right away with the agency on the development of the 
case plan. And in your own State, Ohio, there is really good 
experience, particularly I know in Cleveland, where they have 
implemented Family-to-Family. For any child coming into 
placement, the agency convenes a family team meeting, with the 
family and the extended family, within 24 hours of that 
decision or before the decision is made. They have found that 
that is a very helpful strategy, because you use that meeting 
to make sure that the placement is one that is the best match 
to the child's needs. You sometimes can avert the placement by 
working with family members to identify family resources. And 
then you set up, at that early point, the visitation schedule 
with the family.
    It is one of the things that we have been talking to the 
District about, either implementing something like that or at 
least convening a family meeting within the first 7 days of a 
child entering foster care, which is the requirement under the 
LaShawn order.
    Senator DeWine. Now I have another statistic here that says 
that 46 percent of foster children have current case plans. 
Could that be right? It is from the GAO report, 46 percent of 
foster children have current case plans. What does that mean?
    Dr. Golden. The court monitor study shows approximately 
doubling on that number over the year, from--to reach a number 
of about half from May 31 of 2001, when 25 percent of foster 
care children and 9 percent of kinship and family services 
children had current case plans, to about 50 percent May 31, 
2002. That is an enormous issue for us which we are working on 
in several different ways.
    One way is the improvements in automation. So both with our 
own staff and with the social workers in our contracted 
agencies, we have really improved the case plan screens so that 
they are very user friendly.
    A second piece of that is the work we are doing to bring 
down the caseload ratios that we discussed with Senator 
Landrieu. A key part of that is not just addressing the 
average, but addressing the issues of the workers who are most 
overwhelmed that Ms. Schneiders described. And so we focused on 
having no one at the top end.
    And the third issue is with the Court in terms of our 
scheduling and work with them. So that sounds about accurate, 
about where we are. We have raised our quality standards at the 
same time. And that is one that we have very ambitious goals 
for ourselves for improving over the next year.
    Senator DeWine. I would like to go through, if we could, 
Ms. Schneiders's recommendations. And the way I would like to 
do it is for her to take about 30 seconds on each one of them. 
She has already done it, but I would like to get us back into 
it. And then I would like Dr. Golden, if you could respond to 
each one of them.
    Ms. Schneiders, you want to do that? I have your written 
testimony. I could read them, but I think it would probably be 
more effective if you just explained each one of them from your 
written testimony. You have nine recommendations. I would like 
to go through each one them.
    Ms. Schneiders. The first one refers to the need for active 
and aggressive recruitment of therapeutic foster homes so that 
there is a pool of families with whom to place children. And 
the children need to be matched with the family.
    I can give an example. Just recently, I have a child who 
requested of the judge in January for a family. The judge 
ordered that a family be found for this child, who was 15 years 
old. Nothing happened until----
    Senator DeWine. Excuse me. I want to make sure I have----
    Ms. Schneiders. It is on page 3 in italics.
    Senator DeWine. Okay. I am looking at a different----
    Ms. Schneiders. I think----
    Senator DeWine. I am looking at your apparently original--I 
do not care how you proceed. But I have your original one. And 
actually, it starts with outside review of reports of abuse and 
neglect that get diverted to community-based services. So I do 
not care which one you go from, but----
    Ms. Schneiders. Okay. I was going from the oral one. And 
the one that I think is in circulation----
    Senator DeWine. Okay. How many do you have in your oral 
one?
    Ms. Schneiders. Pardon?
    Senator DeWine. How many recommendations do you have in 
your oral one? Are they the same?
    Ms. Schneiders. They are the same. There are a few more in 
the full----
    Senator DeWine. All right. You do it however you want to do 
it.
    Ms. Schneiders. All right.
    Senator DeWine. You proceed however you----
    Ms. Schneiders. I will take the ones that are in the report 
that everybody has, just so it will make it easier.
    Senator DeWine. It does not matter. You do it however you 
want. I just want to make sure we are literally on the same 
page here.
    Ms. Schneiders. Well, in the full report there was 
reference to the number of diversion of reports, which I did 
not address orally. So that is problematic.
    Senator DeWine. Okay. Let us do it.
    Ms. Schneiders. That is on page 4 of the full report. The 
concern that those of us who are advocating for children is the 
number of abuse and neglect reports that come into the agency 
that get diverted to the community. They do not go directly to 
the court. They are not papered, as they say in the court 
system. They go back to the community for community service and 
then very frequently will come back to the court at a later 
date when there is a more severe incident of abuse, where the 
community services were inadequate to address that.
    And we are recommending that somebody look at a 6-month 
period or 12-month period and find out, of those abuse and 
neglect reports that came in, that got diverted to the 
community, how many of those came in in worse shape than they 
were originally when the first report was made. And that if the 
community agencies are not able to really respond to and 
support these families at that level, and the children are 
getting re-abused or more severely abused, then we need to look 
at that diversion strategy to--it is an effort to keep children 
in their families. And I understand the rationale for it. But 
it----
    Senator DeWine. I am not sure I understand. Give me an 
example. What happens?
    Ms. Schneiders. 10:30 at night, a call comes in, a child 
who has been, you know, abused, sexually abused, physically 
abused, whatever. The case, which normally would have been 
brought to the court the next morning and papered or petitioned 
as a neglect case, brought into the system and followed the 
normal route. The decisions that are being made at the front 
end that a collaborative, a community-based, service agency 
could handle that case. So the case then gets sent the 
following morning back to the community, to a community 
collaborative, a community-based program, to say we have a 
report of abuse, go see this family, look into it and see, you 
know, can you provide family services or can you provide, you 
know, something else.
    The decision making as to how serious the report was and 
how serious the--or how much service is needed is left at the 
front end of the referral process. So the case goes back. It 
may stay in the community for another 3, 4, 5, 6 months. And 
then we get it back again with a more severe incident of abuse. 
And then it gets put into the court system and into the foster 
care system.
    Senator DeWine. So your recommendation is what?
    Ms. Schneiders. My recommendation is that there be, whether 
the GAO or somebody look at all of the referrals that are 
coming in and being diverted back to the community before they 
are brought to court, to see if in fact this is an effective 
strategy to divert them to the community or are children 
suffering greater harm than is necessary, if they had been 
brought in to the court, looked at it, monitored it for a few 
months, and reunified.
    And that that effort that we are doing right now of bring 
it in, petition it for the court, let a judge take a look at it 
and have, you know, some advocacy there, and reunify the family 
quickly through the strategies that we have, may be safer for 
the child than one worker in the intake department making that 
decision on his or her own, sending it to the community, and 
we----
    Senator DeWine. So the current system is--my background is 
a criminal justice background. The current system is what, sort 
of a diversion system?
    Ms. Schneiders. It is a front end diversion.
    Senator DeWine. I mean, it diverts it out and never gets 
into the system.
    Ms. Schneiders. That is right. That is right. It keeps it 
at the community. So maybe some of those families that are 
being counted where there are services being provided in the 
community to the family, which is a good thing--I am not saying 
we should not provide services to families at the community 
level.
    Senator DeWine. Right.
    Ms. Schneiders. But there needs--we need to look at who is 
making the decision about the safety of the child in 
determining that the case does not need to go to court.
    Senator DeWine. Well, who is the best person to monitor 
that, though?
    Ms. Schneiders. Well, I do not know. I do not know who is 
monitoring it now. I mean, I know the authority to make the 
diversion is at the point of intake. I do not know if there is 
a case review or a strategy. I know that the cases are not----
    Senator DeWine. Dr. Golden, how do we know that is working?
    Dr. Golden. I guess two things. The first----
    Senator DeWine. Who monitors that?
    Dr. Golden. Who monitors how we do our intake and 
investigation and those choices would, I think, be two or three 
different places. One would be the supervisory chain. That is, 
the intake worker making that decision with their supervisor 
and their program manager. In many cases, there is a--they have 
a risk assessment. And they are also trying--this goes to what 
the court monitor said a moment ago about actually, I think, 
probably our problem in the District compared to other 
jurisdictions is that we do less of that than many places, 
rather than more.
    So we are trying to draw in the community and the family. 
In many cases, though, rather than divert right away, we would 
have that community, we would have that meeting with the 
community and the family. And then our worker has to make the 
judgment about the seriousness. They are making it within ACC, 
typically with a corporation counsel. So there is that piece.
    In addition, we are doing a variety of outside reviews. We 
obviously have our court monitor, who looks at our practice. We 
have just had a look at our placement practice in general by 
some of the national experts, including Judith Goodhand from 
Cleveland. So I actually--I think that their overall advice is 
actually going to be that the District has been behind on 
getting support in early. But I will note that concern and make 
sure we look at both sides of it.
    Ms. Meltzer. I am not sure that I actually agree with the 
description of what is happening that Ms. Schneiders has 
presented. My understanding of the emergency assessment program 
that is in place is that the only cases that are being diverted 
are cases that do not rise to the level of substantiated abuse 
and neglect. They are diverting cases that are the borderline 
cases, trying to get some community services in place to 
support the family to prevent some of these cases which 
otherwise might have come into the system.
    Senator DeWine. Oh, okay.
    Ms. Meltzer. Now the bigger question, I think, that is 
raised, is the importance of looking over time at repeat 
reports. These include cases that have been served by the 
system and then are closed and then you have a repeat incidence 
of maltreatment, as well as cases where that was never 
substantiated and you have a repeat maltreatment report. 
Looking at repeat reports and cases is work that the agency has 
to do through its own quality assurance process. And it is a 
part of the work that we will do in monitoring the quality of 
investigative practice.
    Senator DeWine. Well, would you agree with that, Dr. 
Golden?
    Dr. Golden. Yes. And I think that we are in fact, as Ms. 
Meltzer has highlighted, we divert without our involvement 
where we think it does not meet the threshold. We also are 
trying to get community supports in, even if we are going to 
keep going with it, because we might, for example, identify a 
family member who could be a caretaker for that child. And I 
agree with those ways of monitoring.
    Senator DeWine. What is your system to go back and figure 
out how many of those cases that you made a mistake on? And you 
are bound to make mistakes. I mean, everybody makes mistakes. I 
mean, this is an art. This is not an exact science.
    Dr. Golden. Yes.
    Senator DeWine. I mean, you make a judgment call that this 
is not a--that it does not rise to an abuse case. This is not 
an abuse case. This was not an abuse case. And you go back and 
look and you say, well, obviously it was.
    Dr. Golden. Let me tell you about----
    Senator DeWine. We missed that one.
    Dr. Golden. Right. I think there are several pieces to that 
process. And some of them are not finished yet, which is why in 
all of these I am telling about a work in progress. Because, 
remember, up until 18 months ago, we did not even do the abuse 
investigations. Those were with the police. And now we do.
    The first thing is that in any abuse case where there is a 
concern that it might rise to also having a criminal side, we 
would be jointly investigating with the police. So that is 
important to note. But second, in a case where, in terms of how 
we are doing and are we making mistakes, the initial review is 
the supervisor signing off and the program manager and the work 
with the attorney. Then there has to be the quality assurance 
look and review, where we are both looking at data and going 
back and looking at a sample of cases. We are in the process of 
picking across everything we do in the agency, where are the 
most important places to focus that.
    I think the other key safety net is that for those cases 
were someone in the community is involved, we are also 
constantly talking with them in terms of if they see something 
that is getting worse, that they need to bring back to us. So I 
think you always having to be looking at both sides in order to 
make it better.
    Senator DeWine. Do you want to proceed to No. 2 of the 
recommendations?
    Ms. Schneiders. The second recommendation refers to the 
need for CFSA to pursue justice for children through criminal 
prosecution of those children who are physically and sexually 
abused. I can speak to any number of children that I represent 
where the child has been physically abused in the home. I have 
one case where there are three children in the home. One was 
sexually, was burned and shot. The third child was scalped. And 
there had been no criminal prosecution of those cases at all.
    There was another retarded child that was sexually abused 
in one foster home, sexually abused in a group home. And we 
finally got him into a therapeutic foster home. There has been 
no prosecution of that case. And the rationale is they are 
young, they are retarded. And so--and it is difficult to do.
    But that CFSA has all of these corporation counsel within 
their building even under their control, I think injustice to 
children, there needs to be more prosecution of these cases and 
more aggressive, you know, digging for the facts that can 
actually prove that this child was in fact harmed. The staff 
get fired, and they go off into the sunset, and nothing is done 
to prosecute any of the people who are responsible for these 
abuses.
    Senator DeWine. Dr. Golden?
    Dr. Golden. I would very much like to see those examples, 
because it is very distressing to me if the police or the U.S. 
Attorney's Office were not proceeding to prosecute. We, I 
think, would be comfortable advocating with them. I really feel 
our relationship with both the police and the U.S. Attorney's 
Office, which does prosecutions, is quite strong now. So I 
would like to see those examples.
    Ms. Schneiders. Because in the 10 years that I have been 
practicing with this system, I have never had a case of 
physical or sexual abuse prosecution by corporation counsel.
    Dr. Golden. Well, the prosecution is not by the corporation 
counsel. It is by the U.S. attorney. But I have been in--
because now with the stronger relationships that exist, DCAC, 
the Joint Advocacy Center exists to go to address all of those 
cases where prosecution is potential. I actually, from my 
experience of observing that, had the sense that the issues 
that there might have been with the police and the U.S. 
attorney, in terms of making sure we coordinated well, were 
better. So I need to know about those cases. And we will find 
out if we need to advocate for them.
    Ms. Schneiders. Well, the two cases that I cited were both 
seen by the Children's Advocacy Center. The children were 
interviewed. And the case was closed.
    Senator DeWine. Are these current?
    Ms. Schneiders. Pardon?
    Senator DeWine. How long ago were these cases?
    Ms. Schneiders. These are still active cases. These are----
    Senator DeWine. I mean, how long ago did the criminal act 
occur?
    Ms. Schneiders. In the child that was scalped, she is now 
3. It happened when she was 6 weeks old. So it is within a 2- 
to 3-year period.
    Senator DeWine. Okay.
    Dr. Golden. So it would be useful to know----
    Senator DeWine. But what Dr. Golden is--what I am hearing 
her say is that she believes that the relationship between her 
office and the U.S. Attorney's Office is better.
    Is that what you are telling me, Dr. Golden?
    Dr. Golden. Yes. So I would want the information, to 
understand why they did not choose to prosecute or what the 
issues were. It would help us to have that information.
    Ms. Schneiders. The third recommendation is that CFSA needs 
to invest in active and aggressive recruitment of therapeutic 
foster homes. And I started to give the example of the 
youngster in January who asked for a foster home. The Court 
ordered the foster home in January. In March, we were told that 
there were no homes in the system that this child could go to. 
The judge issued a show cause. CFSA came to court and said, 
``We have one home with one bed in it. And we're going to put 
him there.''
    And I raised the question as to whether this was a good 
match, should this child be in this home, did they even want a 
15-year-old. In looking at it, they didn't want a 15-year-old, 
but they were kind of pressured to take the child because they 
had the only available bed. The child ran away within 4 days 
and is currently back in a group home facility in April. And 
there is no home available.
    And, you know, with the number of children coming into 
care, I think we really need to have a pool of homes available 
so that we can find the right home for the right child and hope 
that one placement will be all that is needed and not two or 
three bounces before we get to a match.
    Senator DeWine. Doctor?
    Dr. Golden. I agree that recruitment of foster homes that 
can meet the needs of our children and support of those homes 
is really critical. My testimony has an example where that has 
made a big difference for a child, because we have been really 
focusing on foster homes, rather than group care, which is the 
past history for many years at the agency.
    And the example in my testimony was a child who had been in 
many residential and psych hospital placements. And through a 
new process that draws in the Department of Mental Health we 
were able to stabilize her in a foster home. And you and I have 
talked about following up on this case.
    But I agree completely. And I think that the successes we 
have had in sharply reducing the number of young children in 
group care come in part from supporting foster homes better, 
though I think they also come for identifying kin support. So 
this is a very important area for us to keep working on.
    Senator DeWine. How many foster families do you need?
    Dr. Golden. We actually are working this year on a target 
with the District--this is just in the District. We also have a 
lot of children in homes in Maryland--by the end of this fiscal 
year between 50 and 100 additional families in traditional. 
That is not counting the therapeutic we are talking about here. 
And we will learn, as we go through that process, we probably 
need more than that over time. We now have----
    Senator DeWine. Well, that many more or how many do you 
have altogether?
    Dr. Golden. Our total right now--the numbers in my 
testimony are in the District. And then I can give you broader 
ones. The District numbers are about 150 traditional foster 
homes, more than 300 kin homes. And just as a side point, the 
other point in my testimony, the other story, is about having 
greater success as we work with families earlier at identifying 
kin who will care for children.
    But if you look totally in the District and Maryland, both 
within our agency and contracted, it is 900 to 1,000 foster 
homes, including all the kinds.
    Senator DeWine. And how would that breakout be between the 
District and Maryland?
    Dr. Golden. Let us see. It is about half and half, a little 
bit--I am looking at which of these are active, but roughly 
half and half between the District and Maryland in terms of our 
number of foster homes. We are working very hard to recruit in 
the District. That is why I told you our target for increases 
in the District, because we think it is generally better for 
children to be in homes in their community. But we have also, 
as I think you heard in the GAO's testimony, signed an interim 
agreement with Maryland, which actually helps both the 
jurisdictions. It is about both making sure that we are able to 
have them do what we need them to do in terms of support in 
Maryland about meeting their needs and the children's needs 
while children are in Maryland.
    Senator DeWine. And you have no agreement with Virginia?
    Dr. Golden. We actually had a terrific meeting with 
Virginia in the fall. And for a variety of reasons, in terms of 
their timetable, our next meeting is now set up for several 
weeks from now. We have a meeting scheduled for later this 
month. And with Virginia, they are interested in expanding the 
interim agreement with Maryland, which focuses on foster care 
placement, on criminal record checks of potential foster and 
kin placements, and on an abuse and neglect investigation. I 
think with Virginia we are also interested in talking about 
some adoption-related issues.
    Senator DeWine. Ms. Schneiders, do you want to continue?
    Ms. Schneiders. The fourth recommendation refers to the 
need for services for children. Children coming into foster 
care as abused and neglected children are almost universally in 
need of therapy to deal with the loss of the parent, the abuse 
that they suffered. They also are very frequently children who 
are behind academically, who need tutors.
    At the present moment, we can get a tutor for 1 month. And 
then it has to be renewed for the next month and renewed for 
the next month. And we do this on a monthly basis, which delays 
time. It disrupts the tutoring, because the tutor is not 
available while the referral process is going on.
    Mentors are only allowed on a 3-month basis. So a child 
forms a relationship, and the mentor either has to leave or be 
renewed. I know it is an effort in monitoring costs and all the 
rest of it, but it is very disruptive to the services for the 
children. And unless--I now know that I immediately ask the 
Court for an order for a 6-month tutor or a semester for a 
tutor. Because if I get it in a court order, I will get it. But 
if you just simply ask the agency for a tutor, you get it on a 
monthly basis. If you ask for a mentor--I ask for a mentor now 
for a year. But it has to be done by court order in order to 
get it, rather than getting it through the agency. And I think 
the agency needs to acknowledge that these children need the 
services and leave it to the judgment of the social worker as 
to whether the tutor needs to be for a semester or a year.
    Because this is where some of the problem comes with the 
workers and the amount of time they spend doing these 
perfunctory types of re-referrals month after month after 
month. And yet we know the children need the services. And we 
know 1 month of a tutor is not going to do any good. And the 
recommendation basically is that services be readily available 
to these children on a consistent basis and not in the 
fragmented way in which we are currently doing it.
    Dr. Golden. Let me comment on the overall recommendation 
for services, and then specifically on mentoring and tutoring. 
We have talked a little bit. There is a set of very particular 
contractor issues there.
    In terms of overall services for children, one of the 
things that was most clear to me when I came and that I think 
is clear as we develop the implementation plan for the modified 
final order is that the District's history of not having 
services for children and families has been pervasive across a 
range of services, including in terms of dramatic needs of our 
children's mental health, because the District has not had a 
child and family mental health system.
    That agency is coming back from receivership, did come back 
for receivership at the very same time as we have. And we have 
pushed intensively with them to build that network and have it 
be there for our children. And again, there are some examples 
for particular children in my testimony.
    We know and they know that we have a long way to go. For 
example, one of the things we really focus on is having a child 
be able to have an appointment for therapy regarding the trauma 
that they experienced during their abuse as quickly as 
possible. And what we are finding, as we start tracking that 
and looping back to the Department of Mental Health is that 
sometimes there are process steps they can do, but sometimes 
there is just issues of capacity, of having the person 
available. So that is an area that we are working on with them 
very intensively.
    In terms of mentoring and tutoring and other services, we 
are doing a big contract reform. We are trying to get more of 
our dollars into the front end services for children and 
families. Specifically in mentoring and in tutoring, we have 
had contracts with a relatively small number of companies. We 
are trying to enlarge and broaden, increase the use of 
volunteers in some of those areas. And we have also had 
concerns from some about quality and appropriateness. So we are 
trying to review them better.
    We had a lot of comments on our draft proposals. I have not 
had the chance, I do not think, to see any comments from Ms. 
Schneiders. And I would like to seek you out after this and 
make sure we have those. But our general direction there is 
that we are trying to broaden the range of possibilities, 
include volunteer as well as paid, and make sure that the 
mentoring is appropriate and that we are looking at it to make 
sure that it is good quality.
    Ms. Schneiders. That does not address the issue, though, of 
needing to get a tutor and then re-get a tutor and re-get a 
tutor, whether having a tutor for a month and having a mentor 
for 3 months, which is a current policy, is really in the best 
interest of the children. Because once the tutor stops and we 
do the reapplication, you may get another tutor. And then that 
one stops, and you get another tutor. So the disruption and the 
fragmentation is very problematic to the children that are 
trying to use these people.
    Senator DeWine. All right.
    Ms. Schneiders. The fifth recommendation regarding the--it 
may not be within the purview of this committee. And that is 
the dismantling of youth forensic services, which was an 
excellent service for children and for the Family Court, where 
we had trained people who understood the court system, 
understood child development. And that whole unit right now has 
no psychiatrist, one unlicensed psychologist and one licensed, 
and three social workers. So it is virtually useless in terms 
of getting quality assessments of children.
    The current problem with Child and Family of getting 
current assessments is finding people who are qualified to 
evaluate young children.
    Senator DeWine. Excuse me. That unit is under what?
    Ms. Schneiders. I think it was under the Commission for 
Mental Health. But Child and Family used it through the court 
system rather extensively. And we got very good, comprehensive 
evaluations of children and their parents. And now we are just 
scattered all over. And the people that are currently 
evaluating children very often have no knowledge of child 
development and the types of therapy that children benefit most 
from.
    And as I said, I am not sure that the family has any 
control over that. But it is a serious concern.
    The sixth recommendation and the ones that follow all 
relate to the whole issue of the adolescent. And I think this 
is a population that is very badly neglected in the Child and 
Family Services. A lot of emphasis has been placed on adoption 
and reunification of young children. But the child who gets 
past the adoptable age and the child who gets into the 
adolescent age because their parents are not ready to, or have 
not made the progress, and so they end up at 14 up to 21 really 
children in limbo in this city.
    They are youngsters--currently, the legislation says that 
children can be or should be kept in care until age 21, 
although they may be emancipated at 18, if in fact they are 
ready. That is a very human and responsible and necessary 
element of our law that needs to be kept in place. Trying to 
reduce it to age 18 is unconscionable. These children--our own 
children are not ready at 18. And I think if we did a poll of 
people in this room who had children 18, they are still at 
home, they are college hoping they will grow up, they are in--
they may be there until they are 25 or 30. And they have had 
good nurturing homes.
    To say that a child who has been abused and neglected and 
bounced around foster family to group home to residential 
treatment to psychiatric hospital are somehow going to be ready 
at 18, or even 21, to then go out and be independent is just--
it is a myth. And the children who leave the system are not 
generally prepared to do so.
    I had one youngster who joined the Marines. And she has 
done very well. And I watch for her on television every day 
now, as we proceed through this war. But two youngsters this 
month, one, as I said, is currently homeless. She called me two 
nights ago to say, ``Ms. Schneiders, where can I?'' We knew she 
had no place to go. But she was 21. Her case was closed and 
nothing was done to guarantee that she had housing or a means 
of support.
    The other youngster has two children. She was given the 
Salvation Army Shelter and a list of city shelters to go to. 
She is, you know, currently staying back with her abusive 
father until she can get into the shelter.
    The housing situation is critical for these youngsters. And 
CFSA does get a handful of vouchers, I think it is like 100 a 
year, from the Federal Government. And that is referred to in 
one of the recommendations where the--the vouchers that are 
given to CFSA right now are all allocated to parents who are 
trying to reunify, which is a good thing. I am not negating 
that. But we should not take the parents who have abused these 
children and give them housing and take the children who have 
been abused and put them on the street. There is something 
wrong with that logic.
    And we do not have a mechanism and Child and Family for 
guaranteeing that our children who emancipate are safely cared 
for at that point. And I would ask that a serious look be made 
at how they are emancipated, what the housing situation is and 
the employment. We do not help them get jobs at the point of 
emancipation to make sure they have an income. We send them to 
TANF. We tell them how to get food stamps. And I think that is, 
you know, just an unacceptable way of emancipating our 
children.
    Senator DeWine. Dr. Golden.
    Dr. Golden. At our last local advisory board meeting, we 
talked about the fact that we all think we need to be working 
in stronger ways with adolescents. One of the effects of the 
past history of this system and of the District's very broad 
policy is that compared to other States we have a very large 
proportion of young adults. We have about 13 percent of all the 
children in our caseload are young adults 18 to 21. And we 
talked about asking Ms. Schneiders and others to help us work 
on that system. And I know I appreciate her commitment to do 
that.
    The District--we are supporting the current law, which 
continues services to children until 21. We are very unusual 
compared to other States. Most States have some kind of 
voluntary commitment arrangement between 18 and 21. And at one 
point, we were talking about that. We got input that, given the 
history of our young people, having that arrangement from 18 to 
21, being voluntary and not court supervised would be a bad 
thing to do here. And so we heard that feedback.
    I think the issue for me is that we are--again, it is 
looking at the effects of all of these years and of the 
District's absence of services as a whole. We have to do better 
for the young people coming into the system, so we do not have 
as many young people who are 18 and have spent 2 years, 10 
years, in the system. And at the same time, that is one of the 
challenges of this moment in reform, we have to be changing the 
front end, and we have to be taking seriously the needs of the 
young adults in the system at a time when the District as a 
whole faces a lot of big problems that really hit them hard, 
like housing.
    And I know, Senator DeWine, in your focus on the District's 
appropriation as a whole, a lot of these are about the pieces 
that we need in place. What we are working on right now is 
trying to improve the years 15 to 17, independent living and 
skills and support for young people. And I think we are also 
planning to staff several months before aging out, young people 
who are about to turn 21. We are planning to work with the 
collaboratives and our community partners on what they can do.
    But I think this is a hard one. And I really want Ms. 
Schneiders and community help as we think it through.
    Ms. Schneiders. When I think of the vouchers that the 
agency gets from the Federal Government, a percentage of them 
need to be reserved for the children who need them, as well as 
for the parents who need them. I do not think 100 percent of 
them need to go to the parents solely. I think we need to say, 
these are our children, we are the surrogate parent, and we 
need to allocate a percentage of those for the children. Not 
all the children need them, but some really do need that front 
end help. And that is referred to in recommendation 7.
    Senator DeWine. Let me just interrupt a minute, because I 
want to make sure I understand the testimony.
    Dr. Golden, Ms. Schneiders in her written testimony she 
says, ``CFSA is now proposing to reduce the age of emancipation 
to 18 instead of the current age of 21.'' Is that true or not?
    Dr. Golden. It is no longer true. As we had let her and 
others know----
    Senator DeWine. That is no longer true. Okay.
    Dr. Golden [continuing]. We had discussed that idea, 
because we felt as though some kind of voluntary arrangement 
might work better. We got feedback from Ms. Schneiders and 
others saying it was a bad idea. And we are no longer proposing 
it.
    Senator DeWine. Okay. So that is not true anymore.
    Dr. Golden. It is not true anymore.
    Senator DeWine. Okay. Got it.
    Ms. Schneiders. In recommendation 8 we are recommending 
that CFSA design an integrated program of services that are 
staffed with persons who know how to engage young adults in 
meaningful activities and to include the young people in 
participation in this. I think we need to have a mechanism from 
hearing from these 18- to 21-year-old youngsters of what do 
they need, what do they find helpful, and what will get them 
ready. There currently is no mechanism, although I have 
proposed it on other occasions that there be a task force of 
young adults in the system as to what they need in order to be 
prepared to leave the system. And we still would strongly 
recommend that they be involved in that process.
    Dr. Golden. I have been meeting, though not as regularly as 
a task force forum, with a group of young people in our system. 
And I agree very much that their perspectives are very useful 
in shaping where we go.
    Ms. Schneiders. And then the final recommendation in this 
section is that there be some form of an aftercare department 
for these youngsters. They do go out at 21. They think they are 
ready. They try to do something. And then everything falls 
apart. And then end up on the street. They end up in a shelter 
or nowhere. And they need to be able to come home.
    If they have lived their childhood, as some of these 
children have, at Child and Family Services, they should be 
able to come home to Child and Family and ask for help in an 
aftercare type of arrangement, just as adoptive parents very 
often do. There is an aftercare for adoption. Adoptive parents 
think they know what they got into when they adopted. They run 
into trouble. They can come back and ask for help. And our 
children should also have some place, some department, where 
they can come back and say I am stuck, I need help, you know, 
to get me out of the predicament at this point in time. And I 
would strongly recommend that that be considered.
    Dr. Golden. I mean, it is interesting, because I think 
about that recommendation a little bit from my experience at 
the national level. And I remember how much difficulty we had. 
I mean, many States just go through 18. Other States do the 
voluntary involvement between 18 and 21. The District is one of 
I think not very many that support all children through 21. 
There is not Federal reimbursement for that period from 18 to 
21, which is another issue the committee may want to consider.
    So I think the question of what we can do after 21 and how 
to do it is a hard issue for us and a hard issue everywhere. We 
are trying to--I mean, in some ways the only answer in the long 
run is that children need to be in families. And we need to not 
have children aging out. So that is, I think, the longer run 
answer. But for these young people, where we are going right 
now is trying to build those links to the community better, 
having it in our contracts with our collaborative partners, 
``aftercare,'' as you described, building mentor and family 
relationships in the community that will endure.
    So that is the direction that I have been thinking about. I 
do not know if there is any more formalized direction. And as I 
say, I do think that there is an issue nationally even in 
getting support in a voluntary process beyond age 18. So I 
think we have to fix it so kids do not get to that age in that 
situation. And at the very least, we have to build community 
connections.
    Ms. Schneiders. The final recommendation is one that 
Senator Landrieu also referred to, the one case-one worker 
policy and the reduction of the number of children. And I keep 
emphasizing that we need to count children, not families. 
Because families can range from one child to eight and ten 
children in a family. So I do not think it is justified to say 
one case-one family, so much as we need to count the children 
that these workers are responsible for.
    And I think if we can get that policy in place with the 
reduction of the number, that no worker should have more than 
20 children that they are responsible for, then we might get 
the data into the computer that we were talking about. But 
right now, when they are carrying 30 and 40 and 50 cases and 
doing IUPs and treatment team meetings, they are not getting 
data into the computer, even for current data, let alone any 
back data.
    Senator DeWine. I am intrigued by your comment, the 
continual reorganizing of the agency is counterproductive. What 
do you mean by that?
    Ms. Schneiders. It seems as if there is a continual 
process. Like about 2 months ago, the agency reorganized 
everybody in the building on a given day, changed places, 
changed locations, changed phone numbers, changed supervisors, 
changed, you know, units, changed everything. The elimination 
of one unit and its consolidation with another, it simply 
causes confusion. And you call a worker and then you find out 
that, well, I am no longer the worker because I am now in this 
unit versus that unit. And you ask for the rationale for it, 
and it is just: Well, we are reorganizing. We are, you know, 
eliminating this department, adding this department.
    There is no notice to the other service providers. You find 
that there is no way to reach people with phone numbers. I mean 
it is--foster parents, generally they call me to say: I do not 
even know who my worker is anymore because I got--you know, I 
called and the message says she is not the worker anymore; she 
got moved to another unit.
    I do not know the rationale. I hope maybe the last 
reorganization may be the final one, but I am not overly 
hopeful that is going to be the case.
    Senator DeWine. Dr. Golden?
    Dr. Golden. I am really sorry, Ms. Schneiders, that we did 
not have a chance to talk when you had that concern, because 
that definitely sounds like something we should have explained 
more fully. Each of the--solving each of these problems, moving 
towards one worker-one case, unifying abuse and neglect, 
correcting our placement process has required that we have made 
changes. We have created a whole new department of clinical 
practice so that we have support for our workers. We have 
created for the first time ever in the District an 
institutional abuse unit. So we are able to look into reports 
of abuse and neglect. We have created a whole new licensing 
process, which was not--we did not have as a--did not exist in 
the District before.
    We have just improved our placement process for exactly the 
set of reasons that you have highlighted, because we want to 
make sure that children go to families. So we have changed 
that. And we did because we have also been hiring social 
workers so fast, we did find ourselves in a situation where we 
needed to do a move so people could be physically lined up with 
their units, because we are squeezed into our building, and we 
did have to do that.
    So I guess what I would say is that I think the amount of 
change we have to do is very great. And I think that that 
requires in some cases structural change, as well as hiring and 
support for families. And we--I mean, I think that the pace of 
change--and that is probably what my testimony highlighted. 
Partly, I think, what you are experiencing, I am experiencing, 
our staff, our foster parents, is that to meet the standards we 
have for ourselves, the court, and the committee have for us, 
it has been a phenomenal pace of change in 18 months. It has 
been creating an agency where there were fragmented pieces 
before.
    And the question of whether that will slow down or whether 
the amount of change we still have to do is going to be an 
equal pace actually is something I am reflecting on now. And we 
have been having lots of dialogue with the court monitor's 
office on the implementation plan. But I think that our big 
goal has been to make sure that each of those new 
responsibilities, that we are able to carry it out.
    So that is kind of core to me in terms of which steps we 
take, in which order, and at which pace.
    Senator DeWine. Do you want to comment about Ms. 
Schneiders's goal in regard to children versus families?
    Dr. Golden. Sure. And I might ask the court monitor to come 
in after that. I think that the reason both we in many 
jurisdictions focus on children in placements, and families in 
the home, is because the social workers work when a child in 
placement involves visiting and working with that child very 
intensively. When they are supervising a family, their goal is 
really for what we hope is a relatively short period of time to 
strengthen that family so that the parent can take back their 
role.
    So that is, I think, the reason behind it. We do--one of 
the things that goes with that is that you do not want workers 
to have a lot of family cases. And the standard--because they 
are very demanding. And so the standard in the modified final 
order is very strict for how many cases a worker ought to have. 
I think that we have the chance over the next year, as we bring 
down caseloads, to do a workload study and try to see if there 
is a better way to count.
    But I think the big headline, which I think is probably the 
most important one, is that the way we are getting a handle on 
what has been a huge issue for years is by working every week 
with a count of cases and workers working directly with the 
social worker and the supervisor and focusing first on the ones 
who are at the top end, so that we had a few months ago had got 
down to nobody over 50 this week to nobody over 40. And so we 
are focusing on the people who are most overwhelmed to try to 
make an impact there first.
    I do not know, Judy, if you want to----
    Ms. Meltzer. The modified LaShawn Order has caseload 
standards which are based on the Child Welfare League of 
America standards. And they are: 1 worker to 20 children for 
children in foster care, although they are 1 to 12 for children 
with special needs. They are 1 to 17 for families, when the 
children are in their own homes with their families. And they 
are 1 to 12 for investigations. Those are the standards that 
the District has to comply with. And the hiring has to match so 
that they can get caseloads down to those caseload standards.
    I personally think that when you are doing work with 
families, you want the caseloads organized around the families. 
But what you want to do is have the caseloads low enough so 
that the worker can deal with both the needs of the individual 
children in that family and the whole family.
    The place where caseworkers complain the most is when one 
child is in placement. So it counts as one case on their 
caseload, if they are a foster care worker. But there may be 
three or four children in the home with the family that, for 
reasons that may or may not make sense, they are not in foster 
care or they are not being served. And it is those situations 
where I think caseworkers feel the most burdened.
    The answer for me is caseloads that are low enough so that 
workers can individualize the services to the needs of those 
children and families.
    Dr. Golden. And actually, one important step in terms of 
just counting in a way that feels more responsive to our 
workers is that in that situation you have just describe with 
the child in foster care and a family at home, for a long time 
that was a big issue with our union and our workers that we 
were not counting the family work. Now we do, because that 
worker is responsible for a child in placement and for 
reunification. So they have to be doing work with that family. 
And that should count. So we do count that.
    Senator DeWine. Ms. Schneiders?
    Ms. Schneiders. What we need to keep in mind is that when 
we have one child in placement and three at home, the three at 
home obviously something was amiss in that family which brought 
one child into care. And therefore, that family needs closer 
monitoring. With the three children at home, you know, it can 
run the range of disability or need for service. They can be in 
different schools. They can be--one needs therapy. They can be 
different ages. You can have a disabled child at home, even 
though it is not brought into care.
    So I think there has to be some look at what is asked for 
in that family, what is needed in that family, not just a 
numerical count that meets a standard. So that when workers are 
complaining at the amount of work they have to do with the 
family, it can be three children in a family or eight children 
in a family, as we have any number of families with large 
numbers in them. And it counts as one. And I think there has to 
be some method for looking at what it is we are asking the 
worker to do. How many children are we asking that worker to be 
responsible for in the provision of services?
    Senator DeWine. All right. Dr. Golden, let me ask you for 
your comment about this report. I am referring to the Child and 
Family Services review, District of Columbia, from the U.S. 
Department of Health and Human Services, dated February 2002. I 
am 7. ``A little evidence was found in the cases reviewed that 
showed the agency as consistently petitioning to terminate the 
parental rights of parents whose children have been in foster 
care for 15 of the last 22 months. Of the foster care cases 
reviewed, 54 percent of the children who were in care longer 
than 15 months did not have parental rights terminated. And the 
compelling reasons for not terminating parental rights were not 
documented in the case plan or court order. Children in the 
sample were in care an average of approximately 65 months 
before they achieved their permanency plan or were still in 
placement as of July 29, 2001 review.''
    Now I understand that is July 29, 2001. And so what I would 
like to do is just give you the opportunity to update that for 
me.
    Dr. Golden. Okay. That report--and as you know, Senator, 
because I think you and I worked together when I was at HHS and 
designed the child and family reviews. That was an experience 
for me of having the Federal review right as I moved to the 
District that I had previously worked on designing the 
framework at the Federal Government. And I felt as though it 
was extremely useful to us. It gave us the baseline, looking at 
the past system that we then needed to use to move forward. So 
it was extremely helpful.
    One of the things, as you know, that is highlighted there 
about the history of the system is that there was never a focus 
on TPRs in the District. And that is--well, let me tell you 
what we are doing about it. But then I want to give you just a 
little more history, because it will help you understand what 
has to happen to move forward.
    There are really three parts to what we are doing. One is 
an aggressive legal strategy. Last year for the first time, we 
filed more than 100 TPRs, or the corporation counsel's office 
did, more than many previous years all added together. And this 
year we have expectations in our performance agreements with 
our attorneys of filing many more.
    A second piece is changing, improving our social work 
casework, because another piece of it is making our decisions 
earlier. It is about what we were talking about earlier, 
engaging the family earlier so we can make up our mind whether 
that is working or not, and having much prompter permanency 
staffings and administrative reviews.
    A third piece is working with the Court on the legal 
framework for terminating parental rights. And Judge 
Satterfield and I actually just talked about that this week, 
about moving ahead on that.
    The history in the District is that there is a second way 
of terminating the rights of a parent in an adoption, which in 
the past was used almost exclusively instead of TPR. And that 
is terminating the rights during the adoption petition through 
a show cause. I am not a lawyer, but it happens at the point 
where there is an adoptive home identified. And it only 
terminates rights for that home.
    That approach, which was historic in the District, has big 
disadvantages for children where it delays timeliness or makes 
it harder to recruit adoptive homes. So the Court is now--we 
are both being more aggressive. And the Court is very open to 
working with us so that we continue to move forward on that. So 
those are the pieces of our strategy.
    Senator DeWine. Okay. I appreciate that. I thank you for 
that. Where are we now, though? Are these figures still 
accurate, 65 months? It says children in the sample were in 
care an average of approximately 65 months before they achieved 
their permanency plan.
    Dr. Golden. Was that a sample----
    Senator DeWine. Is that about right now?
    Dr. Golden. It is not right if it is all children. If it is 
children with a goal of adoption, I do not know. The numbers I 
have right now, in terms of permanency, are that our median 
across all of our open cases is a little under 3 years, which 
is way too high. But that is for sort of all of our open cases. 
We have done a little research work looking at a sample of 
cases at the point they close. And it is clearly in the 2- to 
5-year range.
    I do not know. Typically around the country, if you look at 
the sample that closes for adoption, it is even higher. So I 
guess the main thing I would say to you is that I know that 
time until a case closes is too high. It is--that number, it is 
not as high as that number, but it is definitely higher than it 
should be. And that is part of what we have to work on.
    And part of it--this may be more than you want to know 
about the measurement of it. We do have--part of having so many 
older young people and the history of the system's earlier 
failures is that we are going to continue to have young people 
who will be aging out at the same time we are trying to change 
the experience of children who come in.
    Senator DeWine. Doctor, with all due respect, if I was in 
your position--and thank God, I am not. You have the toughest 
job anybody has--I would want to know that.
    Dr. Golden. Yes. Well, we just asked----
    Senator DeWine. Why would you not want to know that?
    Dr. Golden. I actually just asked for a study. So I 
appreciate that.
    Senator DeWine. You have to know that. You have to know 
each different category. You have to know, you know, each--I 
would want it broken down of each type kid.
    Dr. Golden. Absolutely.
    Senator DeWine. Because it is a measurement of--how are you 
going to hold everybody accountable on your team? Are you going 
to back and say: Look, we have to do better than this? And you 
are going to break it down. You are absolutely right. Kids in 
the certain age category, you know, where are they? And the 
kids in a certain age category, where are they? And there is 
going to be reasons why some of them are going to be where they 
are.
    Dr. Golden. Absolutely.
    Senator DeWine. But for you to come in front of this 
committee, or it is not just this committee, but in front of 
the public, in a public meeting or anyplace, and not be able to 
answer that basic question is a real problem. Do you not 
understand that? It is just a horrible, horrible problem. How 
can you run your department and not know that?
    Dr. Golden. And the specific question is, not know the 
median time to closure for cases.
    Senator DeWine. Oh, it is not the--yes. But that is just 
one question.
    Dr. Golden. Right.
    Senator DeWine. I would want to know the range.
    Dr. Golden. Absolutely.
    Senator DeWine. I would want to know----
    Dr. Golden. Absolutely. Well, let me tell you what we are 
doing about it. Because I agree. When I came to this agency, 
the fact that there was no data available was a huge issue. Now 
we have, as the court monitor will testify, data on dozens of 
indicators. But I agree completely that the ones about 
permanency, we know the average time to closure. We know the 
average time cases have been open. That is that, I believe it 
was, about 2.8 years. And we have actually just had some 
graduate students work with us to analyze our data in more 
detail. And that is where the information that I just gave you 
came from.
    So I think that that is exactly right. It is also an area 
that we are working with the Court on, because they also have 
an interest in tracking their data. And as we work on exchange 
of data, we are making that more consistent.
    Senator DeWine. And the universe is what? And Senator 
Landrieu asked you this. But how many total cases are we 
talking about?
    Dr. Golden. Our total number of cases--the conversation she 
and I were having was about the family cases and whether to 
count the children.
    Senator DeWine. Okay. How many kids are we talking about?
    Dr. Golden. Right. And the number of children is about 
8,000. The number of cases is about 5,000, because--of the 
family cases. So that is about the total number. And we track 
every month, not only those overall caseloads, but age 
breakdowns, geographic breakdowns, information about the 
investigations that come in every month and what percent are 
substantiated, the children who have left our caseload but are 
being supported by adoption subsidies. So all of those things 
we regularly track.
    Senator DeWine. But, I mean, I really would want to know 
how long these kids were in care before they got a permanency 
plan. I mean, that is just so basic.
    Dr. Golden. Yes.
    Senator DeWine. I mean, if they were not getting a 
permanency plan, I have a problem, right?
    Dr. Golden. Absolutely.
    Senator DeWine. A permanency plan is kind of a----
    Dr. Golden. Well, until a plan, we do know. We know from 
the court monitor's report and the court data about the 
permanency hearing. We know that about 75 percent meet the AFSA 
standards in terms of the permanency hearing, met it in 2001. 
And we have to keep building on that.
    Senator DeWine. Wait a minute. You do know what? I missed 
that.
    Dr. Golden. The share of children who achieve the 
permanency hearing within the AFSA time line.
    Senator DeWine. Okay.
    Dr. Golden. I am sorry. I thought that was----
    Senator DeWine. You know that.
    Dr. Golden. Right.
    Senator DeWine. But you do not know how many actually have 
a plan in place, because that is what the quote is.
    Dr. Golden. I am sorry. I thought you were----
    Senator DeWine. Well, let me just read it again to you. I 
am just reading directly from the report.
    Dr. Golden. Okay.
    Senator DeWine. ``Children in the sample were in care an 
average of approximately 65 months before they achieved their 
permanency plan.''
    Dr. Golden. Right. So that means until they either went 
home or were adopted. Right? That is until the closing of the 
case. Right. And that is something that we know how long cases 
have been in care, and the information that you are just asking 
me for at the point of closure for different categories, we 
have just had a special study done that looks at some pieces of 
that. And I will be happy to share the more detailed 
information with you.

                          SUBCOMMITTEE RECESS

    Senator DeWine. Anybody have any other comments?
    Well, I thank you all for your patience very much. I think 
it has been a very helpful hearing. As I said at the beginning, 
this committee will continue to have hearings on these issues. 
We think it is very, very important. We want to work with you. 
We want to try to be of assistance to you. And again, we thank 
you very much. You each have contributed a great deal. And 
there is nothing more important, I think, than what is going on 
in the District than to work with our children.
    Thank you very much.
    Dr. Golden. Thank you.
    Senator Landrieu. Thank you.
    [Whereupon, at 1:05 p.m., Wednesday, April 2, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


        DISTRICT OF COLUMBIA APPROPRIATIONS FOR FISCAL YEAR 2004

                              ----------                              


                       WEDNESDAY, APRIL 30, 2003

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Mike DeWine (chairman) presiding.
    Present: Senator DeWine.

                      DISTRICT OF COLUMBIA COURTS

STATEMENTS OF:
        ANNICE M. WAGNER, CHAIR, JOINT COMMITTEE ON JUDICIAL 
            ADMINISTRATION IN THE DISTRICT OF COLUMBIA
        DOUG NELSON, DIRECTOR, PROPERTY DEVELOPMENT DIVISION, PUBLIC 
            BUILDINGS SERVICE, NATIONAL CAPITAL REGION, GENERAL 
            SERVICES ADMINISTRATION
ACCOMPANIED BY:
        RUFUS KING III, CHIEF JUDGE, SUPERIOR COURT OF THE DISTRICT OF 
            COLUMBIA, AND MEMBER, JOINT COMMITTEE ON JUDICIAL 
            ADMINISTRATION IN THE DISTRICT OF COLUMBIA
        ANNE WICKS, EXECUTIVE OFFICER, D.C. COURTS AND SECRETARY, JOINT 
            COMMITTEE ON JUDICIAL ADMINISTRATION IN THE DISTRICT OF 
            COLUMBIA

                OPENING STATEMENT OF SENATOR MIKE DEWINE

    Senator DeWine. Good morning. This hearing will come to 
order. Today we are convening a second hearing regarding the 
fiscal year 2004 budget for the District of Columbia Courts. At 
our first hearing last month, there was some confusion as to 
capital funds required for fiscal year 2004.
    My understanding is that since that hearing the courts have 
worked closely with GSA to determine their actual capital 
requirements for the next 2 years. According to the court's 
written testimony, $244.8 million is being requested for fiscal 
year 2004. This is an increase of $38.5 million above the 
fiscal year 2003 enacted budget, and $36.6 million more than 
the President's budget request.
    We would like to hear the witnesses today as to how they 
plan to use these additional resources and how this increase 
would work, including the success of the Family Court, as well 
as the operations of the Superior Court. We are also interested 
to learn how the court's facilities plan will be implemented in 
a time line for completion of these important capital projects.
    These capital projects will play a key role in providing a 
safe family friendly environment as is required by the Family 
Court Act.
    Today our GSA witness will describe the important role his 
agency will have as a project manager for the renovation and 
construction of court facilities.
    I'm also curious to hear how the time lines of the D.C. 
Courts' construction plans compare to other courthouse 
constructions in other jurisdictions.
    Given the constraints of the recently passed budget 
resolution, frankly, it's going to be difficult for this 
subcommittee to provide the increases above the President's 
request for the courts. I would like to hear from Judge Wagner 
how the President's proposed budget level, which is $36.6 
million below the court's request is going to affect the 
court's operations.
    Also, I recognize that the most significant construction 
costs will occur in fiscal year 2005. I urge the courts to meet 
with officials from OMB as soon as possible to ensure that the 
capital costs are requested in the President's fiscal year 2005 
budget request.
    The witnesses will be limited to 5 minutes for opening 
remarks, and copies of your written statements will be placed 
in the record in their entirety.
    Senator Strauss has submitted a written statement to be 
included in the record.
    [The statement follows:]

               Prepared Statement of Senator Paul Strauss

    As the elected United States Senator for the District of Columbia, 
and an attorney who practices in the family court division of our local 
courts I would like to state for the record that I fully support the 
fiscal year 2004 Budget Request for the District of Columbia Courts. As 
an elected Senator for the District of Columbia, I stand by the Court 
System of District of Columbia. It is vital that the District of 
Columbia Court System be fully funded in the amount asked for today.
    I respect the positions of all of the witnesses that are here today 
and especially know that Judges King, Wagner, and their staff have 
worked hard on their budget proposal. I know that the fiscal marks that 
he is testifying in support of today are what we need in order for the 
D.C. Court System to continue to operate at full capacity. Since, as 
the D.C. Senator, I myself cannot vote on this appropriation I am 
limited to merely asking you to support his proposal.
    In this hearing, the witnesses have presented the fiscal marks that 
they request regarding capitol improvements requirements of the D.C. 
Courts in fiscal year 2004. With the cooperation of and significant 
input from General Services Administration, the D.C. Courts have come 
up with a Master Plan for Facilities. This plan incorporates 
significant research, analysis, and planning. I support this plan and 
am happy that this subcommittee supports it as well.
    However, as much as I appreciate having the support from this 
subcommittee on the Master Plan for Facilities, I respectfully state 
that this matter is not in the Office of Management and Budget or the 
President's hands. I know that I need not remind you that Congress has 
the final say over how much money is spent and it is very unlikely that 
the President will veto the entire bill if more money is appropriated 
on this project than is written into the President's budget. Of course, 
that does not mean that Judges Wagner, King, and their staff should not 
take the advice of Chairman DeWine and strongly advocate for this 
project to OMB. It is still very important to have this project written 
into the President's fiscal year 2005 Budget. Having it in there will 
of course make it more likely that the money will be appropriated for 
the project.
    The District of Columbia Courts' fiscal year 2004 request is a 
fiscally responsible budget that continues to build on past 
achievements to meet current and future needs. Some of the needs that 
will be met by the budget proposal submitted by the D.C. Courts are 
enhancing public security, investing in human resources, investing in 
information technology, expanding strategic planning and management, 
and strengthening services to families.
    Moreover, having stated the importance of fully funding the 
District of Columbia Court System, I would like to emphasize the 
importance of fully funding the Court's Defender Services line item. In 
order to provide adequate representation to families in crisis we need 
to fully fund Defender Services. All of this Committee's good work on 
Family Court reform is in jeopardy without the resources to back it up. 
The Family Court is an institution that must protect the District's 
most vulnerable citizens--its children, as well as provide countless 
other, more mundane yet important, legal functions common to every 
jurisdiction. The safety of children should not and will not be 
compromised due to political agendas or simple lack of funding. 
Although the budget provides training for new attorneys, these children 
are best served by experienced advocates. We are in danger of losing 
our most experienced child advocates due to budget cuts.
    Once again this year the D.C. Court System asked for an increase in 
the hourly rate paid to attorneys that provide legal services to the 
indigent including those attorneys that work hard to represent abused 
and neglected children ad guardia and ad litems in Family Court. The 
first fee increase in nearly a decade was implemented in March of 2002 
when it was increased to the present rate of $65 per hour. In the 
fiscal year 2004 request the Courts recommend an incremental increase 
from the current $65 an hour to $75 per hour and eventually to $90 per 
hour. The reason that this adjustment is so important is that the 
Federal court-appointed lawyers, literally across the street already 
get paid $90 an hour to do very similar work. Therefore, the disparity 
in pay between the two positions creates a disincentive amongst the 
``experienced'' attorneys to work for Defender Services in D.C. Court. 
I call on this Subcommittee to once again eliminate this disincentive. 
It was unfortunate that the fiscal year 2003 Appropriations Bill that 
came out of Conference and was signed into law by the President did not 
include this raise that this Committee, and full Senate rightly 
included into their mark up of the bill. I urge this Subcommittee to 
fully fund the requested increase in the defender services line item in 
the bill for fiscal year 2004 just like they did for fiscal year 2003, 
and then fight vigorously to defend that mark if a conference becomes 
necessary.
    Senator Landrieu has stated that the District of Columbia Family 
Court should be a ``showcase'' for the whole country. I firmly agree 
with that statement and add that as an attorney who practices regularly 
in the D.C. Family Court, I believe that it is thankfully on its way 
toward being that ``showcase''. However, there is continued need for 
improvement. I know that this Subcommittee has been firmly committed to 
the D.C. Family Court. On behalf of my constituents I thank you for all 
your hard work and dedication and I look forward to your continued 
cooperation. There has been strong bipartisan support in this 
Subcommittee for the D.C. Family Court. In particular, I commend 
Senators DeWine and Landrieu for all the great work that they have done 
on this important issue. Both of them have treated the D.C. Family 
Court as if it were a court in their own States.
    In the long term, a family-friendly showcase state-of-the-art 
Family Court with its own identity and a separate entrance is included 
in the Master Plan that the D.C. Courts and GSA have compiled. I am 
also happy to see that the Master Plan takes into account the 
transition from the Family Court of today to the Family Court we will 
see in the future. The two-pronged approach that includes the 
transition, the final step means that this plan is well thought out, 
and they are ready for the money to be appropriated for this important 
project.
    In conclusion, I would like to thank the Subcommittee for holding 
this important hearing and Judges Wagner and King as well as Mr. Doug 
Nelson, Director-Property Development, GSA for working hard on the 
Master Plan for Facilities and testifying today. I urge this 
Subcommittee to take the budget proposals submitted today into strong 
consideration. Finally, let me take this opportunity to thank Matt 
Helfant of my staff for his assistance in preparing this statement. I 
look forward to further hearings on this topic and I am happy to 
respond to any requests for additional information.

    Senator DeWine. Judge Wagner is, of course, the Chief Judge 
of the District of Columbia Court of Appeals. We are also 
joined by Mr. Doug Nelson, Director of the Property Development 
Division, Public Building Services, National Capital Region, 
General Services Administration. And of course also on the 
panel is Judge King, who we welcome back again as well.
    Mr. Nelson, why don't we just start with you, and just tell 
us where you think we are, what do we need to know.

                      STATEMENT OF DOUGLAS NELSON

    Mr. Nelson. Thank you, Mr. Chairman, Senators. Thank you 
for this opportunity to discuss the fiscal year 2004 capital 
budget request for the District of Columbia Courts. I'm Doug 
Nelson and I am appearing here in my capacity of the Director 
of the GSA National Capital Region's Property Development 
Division. The Property Development Division is part of the GSA 
Public Building Service, and we provide program and project 
management services for major new construction, modernization, 
lease construction, renovations, and repair and alteration 
projects for Federal facilities.
    Development of large, complex and technically challenging 
projects of historical significance is not only part of our 
Nation's legacy, but also GSA's. Our projects stand as a 
testimony to the outstanding level of quality and service we 
deliver to our customers.
    GSA is pleased that the D.C. Courts have turned to us to 
provide project management services for their projects arising 
from the District of Columbia Family Court Act of 2001. GSA has 
been supporting D.C. Courts' projects ranging in scope from 
planning to minor repairs and alterations to major renovation 
and new construction. We are now directly involved with 
projects encompassing three existing buildings and a new 
parking garage, all of which are located in and around 
Judiciary Square.
    The projects consist of the Family Court Interim Plan, 
interior renovation of Building B to house, among others, the 
Small Claims Court, the Landlord-Tenant Court, and 
administrative offices. It also includes the partial renovation 
of approximately 30,000 occupiable square feet of the Moultrie 
Courthouse John Marshall level to house part of the Family 
Court; the renovation and adaptive reuse of the historic 1820's 
old D.C. Courthouse to house the D.C. Court of Appeals, 
including the new construction of the underground parking 
garage; and expansion of the Moultrie Courthouse to meet the 
space needs of the Superior Court to provide state of the art 
facilities for the Family Courts.
    These projects are related to one another, since room for 
the Family Court is being created within the Moultrie 
Courthouse by a combination of relocation of the Court of 
Appeals to the Old Courthouse, the movement of the current 
Moultrie occupants to Building B, and the Moultrie John 
Marshall level renovation. Presently, all projects that I have 
identified are underway, although each are at different stages 
of completion.
    The current status of each project: An 8(a) contractor has 
been awarded a design-build contract for the Building B 
interior renovations. The project is in the demolition phase of 
construction and occupancy is scheduled for December of 2003.
    The Moultrie Courthouse John Marshall level renovation and 
creation of new courtrooms for the Family Court is being 
designed by the architectural firm Oudens and Knoop.
    The architectural firm of Beyer, Blinder, Belle, architects 
and planners, has recently been selected for the Old Courthouse 
and the parking garage, and we are using GSA's Design 
Excellence program for that selection.
    The architectural firm of Gensler has been recently 
selected for the Moultrie Courthouse expansion utilizing the 
Design Excellence program.
    For your information, I have provided individual fact 
sheets for the Building B project, the Old Courthouse and 
garage project, and the Moultrie Courthouse expansion project. 
These fact sheets provide more detailed information on each of 
the projects.
    In addition to the construction projects I have described, 
GSA is also working with the D.C. Courts to prepare a master 
plan for Judiciary Square at the request of the National 
Capital Planning Commission. A draft of this plan is scheduled 
for presentation to the Commission early this summer, and 
approval of this plan is essential for continued progress of 
the projects.

                           PREPARED STATEMENT

    Mr. Chairman and Senators, we look forward to working with 
you throughout the appropriate appropriations process, and I 
thank you for the opportunity to discuss the fiscal year 2004 
capital budget request of the Courts as it relates to these 
projects. I would be pleased to answer any questions.
    [The statement follows:]

                   Prepared Statement of Doug Nelson

    Mister Chairman, Senators, thank you for this opportunity to 
discuss the fiscal year 2004 capital budget request of the District of 
Columbia Courts. I am Doug Nelson, and I am appearing in my capacity as 
the Director of the GSA National Capital Region Property Development 
Division. The Property Development Division is part of the GSA Public 
Buildings Service and we provide program and project management 
services for major new construction, modernization, lease construction, 
renovations, and repair and alteration projects for Federal facilities.
    Development of large, complex and technically challenging projects 
of historical significance is not only part of our Nation's legacy, but 
also GSA's. Our projects stand as testimony to the outstanding level of 
quality and service we deliver to our customers.
    GSA is pleased that the D.C. Courts have turned to us to provide 
project management services for their projects arising from the 
District of Columbia Family Court Act of 2001. GSA has been supporting 
D.C. Courts' projects ranging in scope from planning to minor repairs 
and alterations to major renovation and new construction. We are now 
directly involved with projects encompassing three existing buildings 
and a new parking garage, all of which are located in and around 
Judiciary Square.
    The projects consist of:
  --Family Court Interim Plan:
    --Interior renovation of Building ``B'' to house, among others, the 
            Small Claims Court, the Landlord-Tenant Court, and 
            administrative offices;
    --Partial renovation of approximately 30,000 occupiable square feet 
            of the Moultrie Courthouse John Marshall level to house 
            part of the Family Court;
  --Renovation and adaptive reuse of the historic 1820's Old D.C. 
        Courthouse to house the D.C. Court of Appeals, including the 
        construction of a new underground parking garage; and
  --Expansion of the Moultrie Courthouse to meet the space needs of the 
        Superior Court and to provide state of the art facilities for 
        the Family Court.
    These projects are related to one another, since room for the 
Family Court is being created within the Moultrie Courthouse by a 
combination of the relocation of the Court of Appeals to the Old 
Courthouse, the movement of current Moultrie occupants to Building 
``B'', and the Moultrie John Marshall level renovation. Presently, all 
of the projects that I have identified are underway, although each is 
at a different stage of completion.
    The current status of each project is:
  --An 8(a) contractor has been awarded a design-build contract for the 
        Building ``B'' interior renovations. The project is in the 
        demolition phase of construction and occupancy is scheduled for 
        December 2003;
  --The Moultrie Courthouse John Marshall level renovation and creation 
        of new courtrooms for the Family Court is being designed by the 
        architectural firm Oudens and Knoop;
  --The architectural firm Beyer Blinder Belle has recently been 
        selected for the Old Courthouse and the parking garage 
        utilizing GSA's Design Excellence program; and
  --The architectural firm Gensler has recently been selected for the 
        Moultrie Courthouse expansion utilizing the Design Excellence 
        program.
    For your information, I have prepared individual fact sheets for 
the Building ``B'' project, the Old Courthouse and garage project, and 
the Moultrie Courthouse expansion project. These fact sheets provide 
more detailed information on each of the projects.
    In addition to the construction projects I have described, GSA is 
also working with the D.C. Courts to prepare a Master Plan for 
Judiciary Square at the request of the National Capital Planning 
Commission. A draft of this plan is scheduled for presentation to the 
Commission early this summer. Approval of this plan is essential to the 
continued progress of the projects.
    Mister Chairman, Senators, we look forward to working with you 
throughout the appropriations process, and I thank you for the 
opportunity to discuss the fiscal year 2004 capital budget request of 
the Courts as it relates to these projects. I would be pleased to 
address any questions.

      FACT SHEET.--D.C. COURTS BUILDING ``B'' INTERIOR RENOVATIONS

Background
    This project is on behalf of the D.C. Courts in accordance with the 
Family Court Act of 2001. The scope of work is the renovation of the 
interior of Building ``B'', located on 4th Street, NW, between E and F 
Streets. Building ``B'' has three above-grade floors and an occupiable 
basement totaling 68,000 OSF. Renovation of the building is being 
carried out in two phases, with the building remaining partially 
occupied during each phase. When the renovation project is complete, 
Building ``B'' will house the Landlord-Tenant Court and the Small 
Claims Court, as well as other Superior Court offices.

Current Status
    The first phase of the project is currently underway. A design-
build contract was awarded to Dalco, Inc., an 8(a) construction 
contractor working in conjunction with the architectural firm of Leo A 
Daly. The demolition portion of the first phase is nearing completion. 
The design of the new work is scheduled for completion in April 2003, 
with construction to commence immediately thereafter.
  --Construction Manager.--A Construction Management (CM) contract was 
        awarded by GSA in February 2003 for the D.C. Courts projects, 
        including the Building ``B'' renovation. This contract includes 
        management of the design and construction phases of the 
        project.
  --Design.--Design is scheduled for completion in April 2003.
  --Construction.--Construction is ongoing, with the first phase new 
        construction scheduled to commence in April 2003.

Milestones
    Award (Design-Build).--December 2002.
    Design Complete.--April 2003.
    Occupancy.--December 2003.

Cost
    Design & Construction.--$13,500,000 (fiscal year 2003).
    M&I.--$1,500,000 (fiscal year 2003).
    Total Budget.--$15,000,000 (fiscal year 2003).

Contact
    Doug Nelson, Director, GSA-NCR Property Development Division.
    fact sheet.--d.c. courts old d.c. courthouse and parking garage

Background
    This project is on behalf of the D.C. Courts and includes the 
restoration and adaptive reuse of the historic Old D.C. Courthouse in 
Judiciary Square in Washington, DC. The project also includes a new 
underground parking garage adjacent to the Old Courthouse with space 
for approximately 250 vehicles, which will be shared with the U.S. 
Court of Appeals for the Armed Forces (USCAAF). Designed in 1820, the 
Old Courthouse currently comprises 96,000 SF. An additional 37,000 SF 
addition to the Old Courthouse is planned as part of this project, 
bringing the completed total square footage to 133,000. When complete, 
the building will house the D.C. Court of Appeals.

Current Status
    The project is currently in the design procurement phase. An 
Architect/Engineer (A/E) has been selected utilizing GSA's Design 
Excellence program, and it is anticipated that the design will commence 
upon award in June 2003.
  --Master Plan.--A D.C. Courts Judiciary Square Master Plan is being 
        developed at the request of the National Capital Planning 
        Commission (NCPC). The draft report is planned for a June 6, 
        2003 submission to NCPC. NCPC approval of this plan is critical 
        to the continued progress of the project.
  --Construction Manager.--A Construction Management (CM) contract was 
        awarded by GSA in February 2003 for the D.C. Courts projects, 
        including the Court of Appeals and the parking garage. This 
        contract includes management of the design and construction 
        phases of the project.
  --Design.--An A/E has been selected based on technical merit, and 
        cost negotiations are planned to commence in early May 2003. A 
        single design contract will be awarded, but the A/E will 
        produce separate sets of construction documents for the garage 
        and the Courthouse.
  --Construction.--The parking garage and the Old Courthouse are to be 
        constructed utilizing separate construction contracts. 
        Construction of the parking garage is planned to commence in 
        September 2004, with completion planned in December 2005. The 
        Old Courthouse construction is scheduled to begin in March 2005 
        and is scheduled for occupancy in March 2007.

Milestones
    Design Award.--June 2003.
    Design Complete.--Garage: February 2004; Courthouse: August 2004.
    Construction Award.--Garage: September 2004; Courthouse: March 
2005.
    Garage Complete.--December 2005.
    Courthouse Occupancy.--March 2007.

Remaining Cost
    GSA has received fiscal year 2003 and prior year funds from the 
D.C. Courts for this project. In addition, part of the garage cost is 
to be funded by the USCAAF. A summary of the total projected D.C. 
Courts project costs is as follows, with the remaining funds required 
from the D.C. Courts:
    Design.--Courthouse & Garage $5.4M (fiscal year 2003).
    M&I.--Courthouse & Garage $7.3M ($1.7M in fiscal year 2003; $0.7M 
in fiscal year 2004; $4.9 in fiscal year 2005).
    Construction.--Courthouse & Garage $66.5M ($8.8M in fiscal year 
2004; $57.7M in fiscal year 2005).
    Total Cost.--$79.2M ($7.1M in fiscal year 2003; $9.5M in fiscal 
year 2004; $62.6M fiscal year 2005).
    Remaining D.C. Courts Funding.--$74.1M ($2.0M in fiscal year 2003; 
$9.5M in fiscal year 2004; $62.6M fiscal year 2005).

Contact
    Doug Nelson, Director, GSA-NCR Property Development Division.
         fact sheet.--d.c. courts moultrie courthouse expansion

Background
    This project is on behalf of the D.C. Courts in accordance with the 
Family Court Act of 2001. The scope of work is the expansion of the H. 
Carl Moultrie I Courthouse building to provide more room for the 
Superior Court's Family Court and to provide space for a new Family 
Services Center. The Moultrie Courthouse is located on the south side 
of Judiciary Square facing Indiana Avenue, NW. The project consists of 
a 74,000 SF expansion of the building consisting of a 64,000 SF 
addition along the building's south side and a new 10,000 SF pavilion 
located on the north side. Related projects in Judiciary Square arising 
from the Family Court Act include interior renovation of D.C. Courts 
Building ``B'' and the partial renovation of the Moultrie Courthouse 
John Marshall level.

Current Status
    The project is currently in the design procurement phase. An 
Architect/Engineer (A/E) has been selected utilizing GSA's Design 
Excellence program, and it is anticipated that the design will commence 
upon award in August 2003.
  --Master Plan.--A D.C. Courts Judiciary Square Master Plan is being 
        developed at the request of the National Capital Planning 
        Commission (NCPC). The draft report is planned for a June 6, 
        2003 submission to NCPC. NCPC approval of this plan is critical 
        to the continued progress of the project.
  --Construction Manager.--A Construction Management (CM) contract was 
        awarded by GSA in February 2003 for the D.C. Courts projects, 
        including the Moultrie Courthouse expansion. This contract 
        includes management of the design and construction phases of 
        the project.
  --Design.--An A/E has been selected based on technical merit, and 
        cost negotiations are planned to commence in July 2003.
  --Construction.--Construction is planned to commence in May 2005.

Milestones
    Design Award.--August 2003.
    Design Complete.--September 2004.
    Construction Award.--May 2005.
    Occupancy.--June 2009.

Remaining Cost
    Design.--$3,600,000 (fiscal year 2003).
    M&I.--$1,200,000 (fiscal year 2003).
    M&I.--$4,800,000 (fiscal year 2005).
    M&I.--$950,000 (fiscal year 2008).
    Construction.--$44,000,000 (fiscal year 2005).
    Construction.--$7,700,000 (fiscal year 2008).
    Total Remaining.--$62,300,000 ($4.8M in fiscal year 2003; $48.9M in 
fiscal year 2005; $8.6M in fiscal year 2008).

Contact
    Doug Nelson, Director, GSA-NCR Property Development Division.

    Senator DeWine. Mr. Nelson, thank you very much. You set a 
new record. You only took 4 minutes to testify.
    Judge Wagner, you do not have to follow that precedent. We 
will give you his extra minute. Judge Wagner, go ahead.

                     STATEMENT OF ANNICE M. WAGNER

    Chief Judge Wagner. Good morning, Mr. Chairman, and 
Senators. Thank you so much for this opportunity to address 
further our capital improvement requirements for the District 
of Columbia Courts in fiscal year 2004. For the record, I am 
Annice Wagner, and I am the Chair of the Joint Committee on 
Judicial Administration in the District of Columbia, which is 
the policy-making body for the District of Columbia Courts.
    With me is Chief Judge Rufus King III, who is a member of 
our Joint Committee and who is the chief judge of our trial 
court, the Superior Court of the District of Columbia. We also 
have other staff members present with us. We have Anne Wicks, 
our Executive Officer, and secretary to the Joint Committee, 
and Mr. Joseph Sanchez, the Courts' Administrative Officer. 
They are here to provide detailed information to the committee.
    The Courts' capital funding requirements are significant, 
as we know. That is because they include funding for projects 
critical to maintaining, preserving and building safe and 
functional courthouse facilities which are essential to meeting 
the heavy demands of the administration of justice in our 
Nation's capital.
    Since we appeared before you, we have held several, or a 
series of productive meetings with the General Services 
Administration, which as you know, is the program and project 
manager for the Courts' construction and renovation projects. 
As with any complex construction project, we are informed that 
ongoing refinement of the design, acquisition, and construction 
plans have led to changes in project approaches, which affect 
the Courts' capital funding request for fiscal year 2004.
    Two points should be emphasized about these changes at the 
outset. First, these changes do not change the timing for the 
completion of the adaptation of the Old Courthouse for use by 
the D.C. Court of Appeals, the Moultrie Courthouse expansion, 
or the interim and final Family Court plans which will be 
discussed more fully later. And second, they merely shift 
capital costs from fiscal year 2004 to fiscal year 2005. The 
shift in timing of funding has had no impact on the 
construction time line, as you have heard, and all capital 
projects remain on schedule, at least as of today.
    Recent studies by GSA have shown the Courts' space needs, 
which will occur over the next decade, and indeed show a 
current shortfall in space. To meet these needs, we have three 
major approaches.
    First, renovation of the Old Courthouse for readaptive use 
will provide space for the District's court of last resort, the 
District of Columbia Court of Appeals, and this will free space 
in the Moultrie Courthouse for trial court operations, 
including our Family Court. Second, construction of an addition 
on the Moultrie Courthouse, a major portion of which will be 
developed as a separately accessible state of the art Family 
Court facility. And third, the future occupation of Building C, 
which is adjacent to the Old Courthouse.
    The readaptive use of the Old Courthouse is critical to 
meeting the space needs of the entire court system. Investment 
will improve efficiencies by co-locating the offices and 
support facilities and provide 37,000 square feet of critically 
needed space in the Moultrie building. As you know, the 
Moultrie building is uniquely designed to meet the needs of the 
trial court particularly, because of its secure corridors 
through which many many prisoners have to go each day to the 
various courtrooms within the building. It's well suited to 
that.
    It is also well suited to the planned addition for the 
Family Court, which will be facilitated through the master 
plan. This addition allows for development on C Street of a 
separate Family Court entrance, with its own name appearing on 
the building, which will provide a welcoming facility for 
families coming to the Court in the most difficult times of 
their lives, no doubt.
    The Moultrie building was built in 1978 for 44 trial 
judges, and today it is strained beyond its capacity in order 
to accommodate 62 trial judges and 24 magistrate judges, and 9 
appellate judges, as well as senior judges and support staff 
for the two courts.
    I would like to take the time to mention the historical and 
architectural significance of Judiciary Square, which lends 
dignity to the important business conducted by the Courts. The 
National Capital Planning Commission is requiring the Courts to 
develop a master plan for Judiciary Square, essentially an 
urban design plan, before construction can begin. The D.C. 
Courts are working with several stakeholders on the plan, 
including the United States Court of Appeals for the Armed 
Forces, the National Law Enforcement Museum, the Newseum, and 
the Metropolitan Police Department.
    The Old Courthouse is the centerpiece of Judiciary Square 
and is one of the oldest buildings in the District of Columbia. 
The architectural and historic significance of the building, 
which was built from 1821 to 1881, led to its listing on the 
National Register of Historic Places. Since it has been 
vacated, thanks to the support of Congress, we have been able 
to take steps to prevent its further deterioration and to begin 
planning for its readaptive use.
    The project will not only meet the critical needs of the 
Courts by serving as the new site for the Court of Appeals, it 
will also impart new life to one of the most significant 
historic buildings in Washington, DC. It will meet the needs of 
the Courts and it will benefit the community through an 
approach of strengthening a public institution, restoring a 
historic landmark, and stimulating the neighborhood's economic 
activities.
    There are a number of other buildings such as Buildings A, 
B and C, which are in our master plan. Work is underway to move 
the Superior Court's two highest volume courtrooms, small 
claims and landlord-tenant, into Building B by this year's end. 
This move will free much needed space in the Moultrie building, 
for the development of a Family Court, which will include three 
new courtrooms, three new hearing rooms, a centralized intake 
facility, a family friendly waiting area, and District of 
Columbia government liaison offices for Family Court matters.
    The Courts are pleased to be working with GSA on these 
projects, and Mr. Nelson has explained some of them to you. As 
we embark on projects of the large scope envisioned by the 
Master Plan for D.C. Courts Facilities, we are particularly 
pleased to have GSA's expert guidance and the guidance of the 
experts whom they have hired. The master plan incorporates 
significant research, analysis and planning by expert 
architects, engineers and design planning.
    I know that my time is short here, but there are two key 
features that I want to mention about the interim Family Court 
plan. During 2002, the Courts constructed and reconfigured 
space in the Moultrie Courthouse to accommodate the nine new 
Family Court magistrate judges and their support staff. The 
Court also constructed four new hearing rooms for Family Court 
magistrates hearing child abuse and neglect cases, and 
renovated space for the mayor's social services liaison office.
    A key element of the Family Court interim plan is the JM 
level construction in the Moultrie Courthouse of three new 
courtrooms and three new hearing rooms, a centralized Family 
Court intake center, a family friendly child waiting area, and 
a new Family Court entrance on the John Marshall Plaza. The JM 
level construction will be complete in the latter part of 2004. 
We are pleased to be able to report that.
    There is a long-term Family Court plan, as you know. I 
won't get into it right now, but I will await your questions. 
It is addressed in my written testimony to the committee.
    Unless these infrastructure needs are addressed, the 
functional capability of the Courts will decline and the 
quality of justice in the District of Columbia will be 
compromised. For fiscal year 2004, we ask for $52,889,000 for 
capital projects, and as you know, the bulk of the funding 
needed for the master space plan will come in fiscal year 2005.

                           PREPARED STATEMENT

    Again, thank you for the opportunity to discuss the Courts' 
capital budget request, and we look forward to working with you 
throughout the appropriations process. Chief Judge King and I 
would be pleased to address any questions.
    [The statement follows:]

                 Prepared Statement of Annice M. Wagner

    Mister Chairman, Senator Landrieu, thank you for this opportunity 
to address further the capital improvement requirements of the District 
of Columbia Courts in fiscal year 2004. For the record, I am Annice 
Wagner, and I am appearing in my capacity as the Chair of the Joint 
Committee on Judicial Administration in the District of Columbia. The 
Joint Committee, as the policy-making body for the District of Columbia 
Courts, has responsibility, for, among other matters, space and 
facilities issues in the District of Columbia's court system.
    With me this morning are Chief Judge Rufus King III, a member of 
the Joint Committee and the chief judge of our trial court, the 
Superior Court of the District of Columbia, Ms. Anne Wicks, the 
Executive Officer of the Courts and Secretary to the Joint Committee, 
and Mr. Joseph E. Sanchez, Jr., the Courts' Administrative Officer.
    The Courts' capital funding requirements are significant because 
they include necessary funding for projects critical to maintaining, 
preserving and building safe and functional courthouse facilities 
essential to meeting the heavy demands of the administration of justice 
in our Nation's Capital. Since appearing before you on March 12, 2003, 
the Courts have had a series of productive meetings with 
representatives of the General Services Administration (GSA), the 
agency serving as program and project managers for the Courts' 
construction and renovation projects. As with any complex construction 
project, we are informed that on-going refinement of the design, 
acquisition and construction plans have led to changes in project 
approaches which affect the Courts' capital funding requirements in 
fiscal year 2004 for these multi-year projects. Two points should be 
emphasized about these changes at the outset. First, these changes do 
not change the timing for the completion of the readaptation of the Old 
Courthouse for use by the District of Columbia Court of Appeals, the 
Moultrie Courthouse expansion, or the interim and final Family Court 
plans, which will be discussed more fully later. Second, the changes 
provided to us by GSA for fiscal year 2004 merely shift some capital 
costs from fiscal year 2004 to fiscal year 2005. The total cost of 
these projects and the GSA requirement for full funding at the 
beginning of construction remain. The shift in the timing of funding 
requirements has had no impact on the construction timeline, and all 
capital projects remain on schedule.

                          FACILITIES OVERVIEW

    Let me begin by outlining an inventory of the Courts' major 
facilities and key features of our Master Space Plan for their use. To 
administer justice in our Nation's Capital, the D.C. Courts presently 
maintain 645,000 occupiable square feet of space in Judiciary Square. 
Specifically, the Courts are responsible for four buildings in the 
square: the Old Courthouse at 451 Indiana Avenue, the Moultrie 
Courthouse at 500 Indiana Avenue, N.W., and Buildings A and B, which 
are located between 4th and 5th Streets and E and F Streets, N.W. In 
addition, when the District government's payroll office vacates 
Building C, the old Juvenile Court, we anticipate that it will be 
returned to the Courts' inventory. Recent studies by the General 
Services Administration have documented the D.C. Courts' severe space 
shortage. In 2002, the Courts were short approximately 48,000 square 
feet for operations, with a shortfall of 134,000 square feet projected 
in the next decade.
    A recently completed Master Plan for D.C. Court Facilities secured 
by the GSA defined the 134,000 square foot space shortfall facing the 
Courts and proposed to meet that need through three mechanisms: (1) 
renovation of the Old Courthouse for readaptive use by this 
jurisdiction's court of last resort, the District of Columbia Court of 
Appeals, which will to free space in the Moultrie Courthouse for trial 
court operations; (2) construction of an addition to the Moultrie 
Courthouse, a major portion of which will be developed as a separately 
accessible Family Court facility; and (3) the future occupation of 
Building C, adjacent to the Old Courthouse.
    The restoration and readaptive use of the Old Courthouse for the 
District of Columbia's highest court, the Court of Appeals, is pivotal 
to meeting the space needs of the court system. Investment in the 
restoration of the Old Courthouse will improve efficiencies by co-
locating the offices that support the Court of Appeals and by providing 
37,000 square feet of critically needed space for Superior Court and 
Family Court functions in the Moultrie Courthouse. The Moultrie 
Courthouse is uniquely designed to meet the needs of a busy trial 
court. It has three separate and secure circulation systems--for the 
judges, the public, and the large number of prisoners present in the 
courthouse each day. Built in 1978 for 44 trial judges, today it is 
strained beyond capacity to accommodate 62 trial judges and 24 
magistrate judges in the trial court and 9 appellate judges, as well as 
senior judges and support staff for the two courts. Essential District 
criminal justice and social service agencies also occupy office space 
in the Moultrie Courthouse. It is needless to say that the Courts have 
outgrown the space available in the Moultrie building. The space is 
inadequate for this high volume court system to serve the public in the 
heavily populated metropolitan area in and around our Nation's Capital. 
The Courts require well-planned and adequate space to ensure efficient 
operations in a safe and healthy environment.
    The historical and architectural significance of Judiciary Square 
lends dignity to the important business conducted by the Courts and at 
the same time complicates somewhat any efforts to modernize or alter 
the structures. Judiciary Square is of keen interest to the Nation's 
Capital. The National Capital Planning Commission is requiring that the 
Courts develop a Master Plan for Judiciary Square--essentially, an 
urban design plan--before construction can be commenced in the area. 
The D.C. Courts are working with all stakeholders on the Plan, 
including the United States Court of Appeals for the Armed Forces, the 
National Law Enforcement Museum, the Newseum, and the Metropolitan 
Police Department.
    The Old Courthouse, the centerpiece of the historic Judiciary 
Square, is one of the oldest buildings in the District of Columbia. 
Inside the Old Courthouse, Daniel Webster and Francis Scott Key 
practiced law, and John Surratt was tried for his part in the 
assassination of President Abraham Lincoln. The architectural and 
historical significance of the Old Courthouse, built from 1821 to 1881, 
led to its listing on the National Register of Historic Places and its 
designation as an official project of Save America's Treasures. The 
structure is uninhabitable in its current condition and requires 
extensive work to meet health and safety building codes and to readapt 
it for use as a courthouse. Since it has been vacated, thanks to the 
support of Congress, we have been able to take steps to prevent its 
further deterioration. This project will not only meet the critical 
needs of the Courts by serving as the new site for the Court of 
Appeals; it will also impart new life to one of the most significant 
historic buildings in Washington, DC. It will meet the needs of the 
Courts and benefit the community through an approach that strengthens a 
public institution, restores a historic landmark, and stimulates 
neighborhood economic activity.
    Buildings A, B, and C, dating from the 1930's, are situated 
symmetrically along the view corridor comprised of the National 
Building Museum, the Old Courthouse, and John Marshall Park and form 
part of the historic, formal composition of Judiciary Square. These 
buildings have been used primarily as office space in recent years, 
with a number of courtrooms in operation in Building A. Work is 
underway to move the Superior Court's two highest volume courtrooms, 
Small Claims and Landlord and Tenant, into Building B by year's end. 
This move will free much needed space in the Moultrie Building for 
development of the Family Court, which will include three new 
courtrooms, three new hearing rooms, a centralized intake facility, a 
family-friendly waiting area and District liaison offices for Family 
Court matters.
    The H. Carl Moultrie I Courthouse, built in the 1970's, while not 
historic, is also located along the view corridor and reinforces the 
symmetry of Judiciary Square through its similar form and material to 
the municipal building located across the John Marshall Plaza. 
Currently the Moultrie Courthouse provides space for most Court of 
Appeals, Superior Court, and Family Court operations and clerk's 
offices, as previously described.
    The Courts have been working with GSA on a number of our capital 
projects since fiscal year 1999, when we assumed responsibility for our 
capital budget from the District's Department of Public Works. In 1999, 
GSA produced a study for the renovation and readaptive use of the Old 
Courthouse. Later, in 2001, GSA prepared Building Evaluation Reports 
that assessed the condition of the D.C. Courts' facilities. These 
projects culminated in the development of the first Master Plan for 
D.C. Courts Facilities, which delineates the Courts' space requirements 
and provides a blueprint for optimal space utilization, both in the 
near and long term.
    As we embark on projects of the large scope envisioned by the 
Master Plan for Facilities, we are particularly pleased to have the 
General Services Administration and its teams of construction and 
procurement experts working with us. We appreciate GSA's presence and 
participation this morning to provide detailed information on these 
projects that are so important to the administration of justice in our 
Nation's Capital.

                       MASTER PLAN FOR FACILITIES

    The Master Plan for D.C. Courts Facilities incorporates significant 
research, analysis, and planning by experts in architecture, urban 
design and planning. During this study GSA analyzed the Courts' current 
and future space requirements, particularly in light of the 
significantly increased space needs of the Family Court. The Master 
Plan examined such critical issues as: alignment of court components to 
meet evolving operational needs and enhance efficiency; the impact of 
the D.C. Family Court Act of 2001 (Public Law Number 107-114); 
accommodation of space requirements through 2012; and planning to 
upgrade facilities, including, for example, security, 
telecommunications, and mechanical systems. The Plan identified a space 
shortfall for the Courts over the next decade of 134,000 occupiable 
square feet, and proposed to meet that need through three approaches: 
(1) renovation of the Old Courthouse for readaptive use by the D.C. 
Court of Appeals, which will free space in the Moultrie Courthouse for 
trial court operations; (2) construction of an addition to the Moultrie 
Courthouse, to meet the needs of the Family Court; and (3) reoccupation 
of Building C, adjacent to the Old Courthouse. In addition, the Plan 
determined that other court facilities must be modernized and upgraded 
to meet health and safety standards and to function more efficiently.

                    FAMILY COURT IN THE MASTER PLAN

Interim Family Court Space Plan
    The Master Plan incorporates an Interim Space Plan for the Family 
Court that provides the facilities necessary to fully implement the 
Family Court Act, as well as a long term plan that optimizes space and 
programmatic enhancements for the Family Court. The Interim Space Plan 
for Family Court will be complete in the fall of 2004. As this Interim 
Space Plan proceeds towards completion, procedural changes have been 
implemented within the Family Court to meet the requirements of the 
Family Court Act. I believe Mr. Nelson from GSA plans to describe the 
status of the Interim Plan, which was detailed in the Family Court's 
April 5, 2002 Transition Plan. Therefore, I will mention only briefly 
the essential components of the Interim Plan.
  --During fiscal year 2002 the Courts constructed and reconfigured 
        space in the Moultrie Courthouse to accommodate the nine new 
        Family Court magistrate judges and their support staff. The 
        Courts also constructed four new hearing rooms for Family Court 
        magistrate judges hearing child abuse and neglect cases, and 
        renovated space for the Mayor's Services Liaison Office.
  --A key element of the Family Court Interim Space Plan is the JM-
        level construction in the Moultrie Courthouse of three new 
        courtrooms, three new hearing rooms, the Mayor's Services 
        Liaison Office, a Centralized Family Court Filing and Intake 
        Center, a family-friendly child waiting area, and a new Family 
        Court entrance from the John Marshall Plaza to the Moultrie 
        Courthouse. In addition, the corridors and hallways along the 
        courthouse's JM-level will be redesigned and upgraded to create 
        family-friendly seating and waiting areas.
    As stated previously, the JM-level construction will be complete in 
the latter part of 2004, marking the implementation of the Interim 
Plan. When the renovation of the first floor of Building B is complete 
(fall 2003), the Small Claims and Landlord & Tenant courts and clerk's 
offices will be relocated from the JM level of the Moultrie Courthouse 
to Building B, and Family Court construction will begin on the JM 
level.

Long Term Plan
    The long term plan includes expansion of the Moultrie Courthouse. 
Once complete, it will provide a state-of-the-art, family-friendly 
facility for Family Court operations, with its own identity and 
separate entrance, which will be a model for the Nation. We envision a 
safe facility designed to alleviate the inevitable stresses on the 
families who come to the courthouse seeking justice. We want the Family 
Court to be inviting and welcoming to families with small children, to 
families with teenagers, to all families. We envision a customer-
friendly facility that incorporates the ``one-stop'' concept by 
locating all related court units in one place and making it easier for 
families to access needed social services from D.C. government 
agencies. The interim Family Court plans are designed to transition 
smoothly into this long term plan and to maximize the efficient use of 
time and money.

                  CAPITAL FUNDING IN FISCAL YEAR 2004

    To permit the Courts to continue to meet the needs of the community 
and the demands confronting the District's judicial branch, adequate 
resources are essential. The most critical issue we face today is 
sufficient capital funding to address the Courts' severe space shortage 
and aging infrastructure. Only by investing in these critical areas 
will the Courts be in a position to ensure that the type of security 
necessary to protect our citizens and our institution is in place, and 
that our facilities are in a safe and healthy condition and reasonably 
up-to-date. Unless infrastructure needs are addressed, the functional 
capability of the Courts will decline and the quality of justice in the 
District of Columbia will be compromised.
    Based on figures from GSA, which reflect the current approach to 
our major construction projects, the Courts' capital budget request for 
fiscal year 2004 is $52,889,000, comprised of the following projects:

------------------------------------------------------------------------

------------------------------------------------------------------------
Courtrooms and Judges Chambers........................        $1,950,000
HVAC, Electrical and Plumbing Upgrades................        16,220,000
Restoration of Old Courthouse (complete garage                 4,519,000
 construction)........................................
Restroom Improvements.................................         1,100,000
Elevator and Escalator................................         2,000,000
Fire and Security Alarm Systems.......................         6,500,000
General Repair Projects...............................         7,740,000
Moultrie Courthouse Expansion.........................         1,200,000
Master Plan Implementation--Development Studies.......           550,000
Integrated Justice Information System.................        11,110,000
                                                       -----------------
      Total...........................................        52,889,000
------------------------------------------------------------------------

    GSA has been working with us on the two major, multi-year projects 
to provide the majority of the additional space needed to meet the 
134,000 occupiable square feet deficit identified in the Master Plan 
for facilities: Restoration of the Old Courthouse and Expansion of the 
Moultrie Courthouse. Over the next 2 fiscal years, 2004 and 2005, these 
projects will require $117 million. As both projects are currently in 
the design procurement phase, GSA will require the majority of these 
funds in fiscal year 2005, when the major construction contracts are 
finalized. In addition, to implement future projects required by the 
Master Plan, development studies will be needed in fiscal year 2004; 
these have been added to our capital budget request. I understand that 
Mr. Nelson from GSA plans to provide more detail on the current status 
of these projects.
    Restoration of the Old Courthouse will provide space for the D.C. 
Court of Appeals, the District's court of last resort. Restoring this 
historic landmark will help meet the urgent space needs of the 
appellate court and the entire court system and will preserve the rich 
history of this building for future generations. When the Court of 
Appeals vacates its current space in the Moultrie Courthouse, 
approximately 37,000 square feet will become available for Superior 
Court and Family Court operations. The Old Courthouse project includes: 
restoration of the Greek Revival building; construction of additional 
underground office and courtroom space, and a new entrance to the north 
on E Street; and, as authorized by Public Law 106-492, construction of 
a secure parking facility to be shared with and connected to the U.S. 
Court of Appeals for the Armed Forces, which is adjacent to the Old 
Courthouse.
    The Moultrie Courthouse Expansion is comprised mainly of additions 
presently planned for the south side (C Street) and Indiana Avenue 
entrance of the courthouse. The C Street addition will result in the 
expansion of five floors in the Moultrie building. The ground level 
floors of the addition will enhance the Family Court by providing a new 
courthouse entrance solely for Family Court, additional child 
protection mediation space, increased Child Care Center space, and safe 
and comfortable family-friendly waiting areas. The C Street addition 
also will permit the Courts to consolidate family-related operations in 
one central location, including juvenile probation functions and 
District government social service agencies that provide needed 
services to families and children in crisis. The upper level floors of 
the addition will meet critical space needs for other Superior Court 
operations.
    The remainder of the Courts' fiscal year 2004 capital budget 
request includes funding to: continue the implementation of the 
Integrated Justice Information System (IJIS); enhance the security, 
health and safety of the public using court facilities; and maintain 
our deteriorating infrastructure. These important projects were 
discussed in my March 12th testimony, and their funding requirements 
remain as originally submitted.

                               CONCLUSION

    Mister Chairman, Senators, again, thank you for this opportunity to 
discuss the Courts' capital budget request. We look forward to working 
with you throughout the appropriations process. Chief Judge King, Ms. 
Wicks, Mr. Sanchez, and I would be pleased to address any questions.

    Senator DeWine. Judge, thank you very much. Let me start by 
asking, to carry out this plan, you've got a real spike up in 
costs next year, 2005, and this is just not going to happen, 
frankly, unless the President puts it in his budget. We all 
know that. What has been your communication with OMB about 
this?
    Chief Judge Wagner. Good question. While I have not have 
had any recent communication with OMB about this, what I was 
told was, it is not a question of whether funding will be 
recommended for one of the first phases, which is the 
readaptive use of 451 Indiana Avenue, the Old Courthouse, but a 
question of when. We have shared our master plan in a full 
briefing in May, I mean our staff has done that. In terms of 
the principals meeting with the leadership of OMB, that's a 
different matter. They are always made aware of our budget 
requests and what the purpose of the capital funding is, and 
our staff briefed them in a full briefing in May.
    Senator DeWine. What kind of reaction did your staff get?
    Chief Judge Wagner. Well, that's a good question, and I 
might ask Ms. Wicks to respond to that. But the reaction that 
I've gotten has always been it's not a question of if, it's a 
question of when, and we know that the country has other needs, 
but this country always preserves its historic treasures, its 
symbols of its democracy, and in this case it can be used for 
that purpose. So if that phase gets off the ground, we have the 
Family Court support, I think that we can all accomplish this 
if we work together over the next few years.
    Senator DeWine. Why don't you step up and identify yourself 
for the record.
    Ms. Wicks. I am Anne Wicks, the Courts' Executive Officer. 
We briefed the Congressional staff in May, a full briefing of 
our plans. We also, in October, did our fiscal year 2004 budget 
submission to OMB, and did a full briefing.
    Senator DeWine. That was when?
    Ms. Wicks. In October of this past year. At that time, OMB 
felt that we weren't quite far enough along in the planning and 
study for the capital projects. Since that time, as you all are 
aware, we have completed the D.C. Courts' Master Plan for 
Facilities, at the first of this year, which has been provided 
to OMB. We are now at the point where we are nearly complete 
with the Judiciary Square Master Plan, the first draft of that 
plan will actually be presented in part tomorrow to the 
National Capital Planning Commission.
    So we're at the point now where OMB should have information 
so that they feel we are very far along, and we are setting up 
a meeting with OMB and GSA representatives to go through and 
show them that we do have detailed plans at this point.
    Senator DeWine. That's going to be at what level?
    Ms. Wicks. Well, we will be meeting with Mark Schwartz, who 
is the branch chief, and then after we brief him, I would hope 
that he would help us set up something, as far as meetings 
which will help us with this.
    Senator DeWine. Well, I can't say this in--there aren't 
strong enough words for me to urge you, Judge Wagner, Judge 
King, you're going to have to go sell this. It is not going to 
happen unless OMB is on board. It does not make me particularly 
happy that they have that much power, but that is what the 
facts are. If the Administration does not come forward next 
year with this in their budget, it will not happen. This is a 
chunk of money.
    Now, I happen to support it, I think it's very important, I 
think you have a plan, I think it's a viable plan, I think it's 
essential for the future of the District of Columbia, the court 
system. But if you don't sell it to OMB and sell it to the 
Administration, it will not happen. Would you like to comment 
on that?
    Chief Judge Wagner. That's an excellent reminder, Senator, 
and I appreciate that, and I guess my experience in the past 
has been consistent with what you just stated, and we will make 
every effort to make that happen at the executive branch.
    Senator DeWine. Okay. I mean, it's just not going to 
happen, GSA can't make it happen, and unless it comes up to the 
level in that budget, it's just not going to happen. So, it 
needs to come up here with the Administration strongly behind 
it for it to have any chance of being done.

                 FISCAL YEAR 2005 FUNDING REQUIREMENTS

    And you know, that's where we have a major thrust on this, 
I believe is 2005, isn't it? We're talking about how much money 
in 2005, Mr. Nelson?
    Mr. Nelson. Yes, in fiscal year 2005 for the D.C. 
courthouse project, we're looking at $62.6 million, and for the 
Moultrie Courthouse expansion, we're looking at $48.9 million, 
for fiscal year 2005.
    Senator DeWine. Now if you don't get that, what happens?
    Chief Judge Wagner. For the capital budget request?
    Senator DeWine. Right, what Mr. Nelson just said.
    Chief Judge Wagner. Well, I don't think that, if you're 
talking about for 2004, I'd like to----
    Senator DeWine. I'm talking about 2005. I mean, what I'm 
saying is you have to be worried, I'm worried about 2004, but 
I'm also saying, they're thinking about 2005 now. They have 
already submitted 2004. You know, you need to be on dual 
tracks, you need to be worried about 2004, but you also need to 
be worried with OMB about 2005, and unless you start to make 
the case with people at OMB who are going to be ultimately 
deciding your fate and unless somebody--you know, you need to 
get out there, you need to be traveling around with them, you 
need to be showing them around. You need them to see your 
vision and unless they get it, it's pretty easy to say well, 
that's just a lot of money and we can't do it.
    Chief Judge Wagner. Senator, we're going to work on that, 
and I'm glad you reminded us. We have done this type of 
strategy before, and I think that we can get support from the 
White House and OMB.
    Senator DeWine. Well, I pray that you can but I just want 
to put it into perspective. $118 million would be one-fourth of 
the entire District of Columbia Subcommittee, our 
subcommittee's allocation. Now think about that. Now I'm for 
you, I am for it. You don't have to sell Mike DeWine and I 
don't think you have to sell Mary Landrieu. Don't spend your 
time worrying about us.
    Go talk to the Administration. Go talk to OMB. Spend a lot 
of time talking to them.
    Chief Judge Wagner. We will do that, and we appreciate your 
support.
    Senator DeWine. I'm for you, it has to get done. If it 
doesn't get done now, it will have to get done later. We have 
kids to worry about, we have projects to deal with, it has to 
get done, but you have to go sell them.
    Let me move to a more immediate problem, and that is soon 
enough, but let me move to a more immediate problem. Given that 
the President's budget request is $36.6 million less than what 
you are requesting, what are we going to do, or what are you 
going to do if we can't deliver that money for you and if you 
end up with, this subcommittee and this Congress ends up giving 
you exactly what the President has requested? And that, let me 
just tell you, is a distinct possibility. I'm not happy to tell 
you that.
    Judge King, Judge Wagner, let's just assume that you get 
what the President says you should get. So that's 36, by my 
calculation, $36.6 million less than you want, or maybe a 
better way of saying that is less than you requested. I'm sure 
you want more than that, but less than you requested. So what 
gets cut?
    Chief Judge Wagner. Well, I am saying it would have a 
significant impact on some critical areas.
    Senator DeWine. Well, tell me what.
    Chief Judge Wagner. The Moultrie building has about 10,000 
people coming through it every day. Since September 11th 
everyone has been concerned about safety and security, as we 
have. A part of the funding that we have requested, which we 
would not be able to do if the President's numbers were enacted 
would be to increase the number of court security officers for 
our court building. We would not be able to finance other 
facilities, security improvements, which are detailed in our 
study, that is the monitors, the audio-video devices, the types 
of things that you need to upgrade security in these kind of 
uncertain times.
    We need to invest in our implementation of the IJIS system, 
Integrated Justice Information System, and some $4 million we 
would not have in order to do that. We wouldn't be able to 
enhance our strategic planning which is going to guide our 
progress over the next 5 years. We wouldn't be able to invest 
further in accurately creating trial records, which is critical 
to a court of record. We asked for $1,624,000 to improve the 
record of court proceedings. Those are just some of the items 
that we have requested that I think are critical to our 
functioning in the next fiscal year.
    Senator DeWine. Well, I think it would be helpful for this 
subcommittee if you prepared--I know we have just hit you with 
this orally, but I think today--well, you have obviously seen 
the President's budget before today, but we're going to need 
from you, and if we are able to see if this is what you end up 
with, we need to see a more detailed description of where 
you're going to go.
    Chief Judge Wagner. I'm sorry?
    Senator DeWine. I need to see a more detailed description 
of where you want to go, assuming that's what you end up with.
    Chief Judge Wagner. We will be glad to submit that.
    Senator DeWine. Why don't you submit that for us please.
    What were your discussions with OMB in regard to your, the 
2004 budget preparation? I'm looking at this pretty significant 
cut. What were your discussions with OMB?
    Chief Judge Wagner. I think Ms. Wicks could answer that.
    Senator DeWine. I would be interested in what kind of input 
they had from you.
    Ms. Wicks. We provided them with a full budget submission 
as we provided to Congress, detailing all of our budgetary 
needs. We also provided them with studies and reports that 
supported various parts of our budget request.
    Senator DeWine. Did you have face-to-face contact with 
them? Did you do interviews with them? I'm interested in the 
process.
    Ms. Wicks. I understand. I can't recall specifically this 
past October, whether we did sit down with and meet with them 
and walk through the budget. We had done face to face meetings 
with them over the summer for the capital request and the space 
planning. I can't recall, once we hit the fall and submitted 
the full request. I believe at the time OMB had already started 
the process; I think the President had speeded up the process 
for them this year because of other issues, and so I think they 
were very far along by the time we met with them.
    Senator DeWine. Who would they have dealt with, you?
    Ms. Wicks. They would have dealt with me and our Fiscal 
Officer and staff in our offices.
    Senator DeWine. Well, you would have remembered if they had 
talked to you, wouldn't you?
    Ms. Wicks. Well, I have so many meetings in a day, I don't 
recall sitting down face to face with them at the time we 
submitted the budget, but I do recall face to faces prior to 
that.
    Senator DeWine. Do you recall talking to them on the phone?
    Ms. Wicks. Absolutely.
    Senator DeWine. What were they interested in?
    Ms. Wicks. They were interested in more detailed plans and 
reports on the facilities issues. We had several telephone 
conversations in October trying to appeal the President's 
budget and talking through what we felt were priority issues 
for the year for reconsideration on appeal. Our focus was 
security issues, facility issues primarily, for the courthouse. 
We sent over security studies, the U.S. Marshals Service had 
done surveys and studies of our building because they provide 
primary security in the building. And we provided as much 
information as we could--we sent over a box of reports and 
information during the appeal process. We tried to talk through 
with them what we felt about the importance of the issues.
    And we actually, I recall being advised by them that the 
Courts should consider themselves lucky because we did get a 
slight increase in the President's budget compared to the 2003 
level, where other agencies got nothing or got cut, so that was 
their response to us.
    Senator DeWine. Well, as I said, Judge, I'm interested in 
getting from you a summary, at least, of where you would make 
your cuts in regard to your proposal versus the President's 
funding level.
    Chief Judge Wagner. We will submit that for you, Mr. 
Chairman.
    [The information follows:]

   D.C. COURTS CAPITAL REQUEST, FISCAL YEAR 2004--PRELIMINARY ADJUSTMENTS FROM COURTS' REQUEST TO PRESIDENT'S
                                                 RECOMMENDATION
----------------------------------------------------------------------------------------------------------------
                                                                      Courts'       Preliminary     President's
                                                                      Request       Adjustments   Recommendation
----------------------------------------------------------------------------------------------------------------
Courtrooms and Judges Chambers..................................      $1,950,000  ..............      $1,950,000
HVAC, Electrical and Plumbing Upgrades..........................      16,220,000    ($7,450,000)       8,770,000
Restoration of Old Courthouse at 451 Indiana Avenue.............       4,519,000  ..............       4,519,000
Restroom Improvements...........................................       1,100,000  ..............       1,100,000
Elevator and Escalator..........................................       2,000,000     (1,000,000)       1,000,000
Fire and Security Alarm Systems.................................       6,500,000     (6,500,000)  ..............
General Repair Projects.........................................       7,740,000  ..............       7,740,000
Moultrie Courthouse Expansion...................................       1,200,000     (1,200,000)  ..............
Master Plan Implementation--Development Studies.................         550,000  ..............         550,000
Integrated Justice Information System...........................      11,110,000     (5,088,000)       6,022,000
                                                                 -----------------------------------------------
      Total.....................................................      52,889,000    (21,238,000)      31,651,000
----------------------------------------------------------------------------------------------------------------

              COMPARISON OF COURTHOUSE CONSTRUCTION PLANS

    Senator DeWine. Thank you. Mr. Nelson, let me ask you, if 
you look at construction plans for the Courts in the District 
of Columbia, how does that compare with the courthouse 
construction plans in other States or other cities? Is that 
possible to compare them? I know this is kind of maybe in some 
respects more complex, at least to me it looks complex.
    Mr. Nelson. That's a good question, and it depends how 
complex the courts projects are, but in the size that we're 
dealing with, a design time frame for court projects usually is 
about 14 to 18 months, and then construction depending on the 
size, is about 24 months to 36 months, 2 years to 3 years for 
construction.
    This is complex for the Moultrie Courthouse because of the 
additions that we're doing. You have an occupied building that 
we will be dealing with. We tried to work on the schedules for 
the projects so we could fine tune them where we get them done 
as quickly as we could, because they were stressing the need 
that they needed for the project, and I think we have a 
realistic schedule for the design for the Old D.C. Courthouse 
and for the Moultrie Courthouse.

                     PHASING OF CONSTRUCTION FUNDS

    Senator DeWine. So the summary, though, would be what? This 
doesn't look out of the ordinary?
    Mr. Nelson. No, it does not look out of the ordinary. For 
the renovation work for D.C. Courts, it looks like it fits in 
line with what we would be doing for a renovation projects. And 
then for the additions that we're doing for Moultrie, they look 
in line with the time frame for other projects.
    Senator DeWine. This looks like a big chunk in one year. 
Why is that? Why is there such a big chunk in 2005? Can that be 
dealt with in some other way or is that just the way, is that 
the way that it's preferred to deal with? Explain that to me. 
Who prefers to deal with it that way, is that the courts or is 
that you?
    Mr. Nelson. I think it's how the master plan has been laid 
out.
    Senator DeWine. But why was it laid out that way, is my 
question. Whose preference is it?
    Mr. Nelson. Well, it's the Courts' preference for how 
they're going to be moving people while the renovation gets 
completed, and then when the work gets done in Moultrie 
Courthouse, so there is a domino effect between those two 
buildings for moving people around.
    Senator DeWine. Maybe I wasn't clear. Could you spread that 
money out over time, is my question. For budget purposes, could 
you spread that out?
    Mr. Nelson. For awarding construction projects, you have to 
have all your construction funds in the fiscal year that you 
make the award. And right now, both of those projects are 
scheduled.
    Senator DeWine. Is that your rule?
    Mr. Nelson. It is a requirement in OMB Circular A-11, 
insstructions for preparing the budget.
    Senator DeWine. OMB's rule.
    So that's what we're dealing with?
    Mr. Nelson. Yes.
    Senator DeWine. So you have to have funds before you start 
the project?
    Mr. Nelson. Yes.
    Senator DeWine. That's not your problem, it's our problem.
    Mr. Nelson. Yes.
    Senator DeWine. And then they have to live with that 
basically.
    Mr. Nelson. Yes.
    Senator DeWine. All right, thank you all very much. Does 
anybody have any other comments? Judge Wagner.
    Chief Judge Wagner. I just want to thank you again for your 
support, for holding this hearing, for working with us on this, 
and we will try to work on that other branch to get help.

                          SUBCOMMITTEE RECESS

    Senator DeWine. Well, you work on them. Go sell.
    Mr. Nelson. Thank you.
    Senator DeWine. Thank you all very much.
    [Whereupon, at 10:50 a.m., Wednesday, April 30, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


        DISTRICT OF COLUMBIA APPROPRIATIONS FOR FISCAL YEAR 2004

                              ----------                              


                        WEDNESDAY, MAY 14, 2003

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Mike DeWine (chairman) presiding.
    Present: Senators DeWine and Landrieu.

                       NONDEPARTMENTAL WITNESSES

STATEMENT OF SISTER ANN PATRICK CONRAD, ASSOCIATE 
            PROFESSOR, NATIONAL CATHOLIC SCHOOL OF 
            SOCIAL SERVICE, THE CATHOLIC UNIVERSITY OF 
            AMERICA

                OPENING STATEMENT OF SENATOR MIKE DEWINE

    Senator DeWine. Good morning. The hearing will come to 
order. Today we begin the subcommittee's second hearing within 
6 weeks regarding the foster care system in the District of 
Columbia. On April 2 we heard testimony that revealed a number 
of serious problems and shortcomings with the District's Child 
and Family Services Agency.
    It is imperative that CFSA address these problems and 
protect the lives of this city's children. Clearly, the 
paramount reason for exposing CFSA's failures is to discover 
ways to make lives better for the most vulnerable and precious 
of citizens, our children. That's why today's hearing will 
focus on ways that this subcommittee can target resources 
towards new initiatives aimed at improving the foster care 
system in the District of Columbia.
    Before we hear from today's panel, I think some of the 
points that were raised at our earlier hearing bear repeating, 
so briefly: First, the General Accounting Office has determined 
that CFSA is not meeting the official requirements of the 
Adoption and Safe Families Act. This law, which I helped pass 
and get signed into law in November of 1997, includes a number 
of very specific provisions. It requires States to change 
policies and practices, of course also the District of 
Columbia, to better promote children's safety and adoption, or 
other permanency options.
    In fact since this law has been in effect, adoptions have 
increased by nearly 40 percent nationwide. But, according to 
the GAO, CFSA is not meeting the important requirements of the 
Adoption and Safe Families Act.
    Another troubling finding that the GAO testified about is 
the District's inability to track its children in foster care. 
In fact, data is not even available for 70 percent of the 
District's children in foster care. This is true even though 
the District has invested resources in a new automated 
information system that has been operational now for over 3 
years. How can we track these children and determine their 
well-being if they are not even entered into an automated 
system, or certainly not fully entered into that system?
    In addition, the chairman of the National Association of 
the Council for Children testified that children wait weeks or 
months before a foster care placement is available. Some more 
of the children are waiting at group homes or overnight at CFSA 
offices. They are often placed in whatever home has a vacancy, 
irrespective of the needs of that particular child or the 
preference of the family.
    With the findings from last month's hearing as our 
backdrop, I will now turn to today's panel. These witnesses 
will describe their experiences with CFSA and will provide 
ideas about ways that we can better protect our children. 
Tragically, most children in this system have been traumatized 
by neglect and/or abuse. Then add separation from their 
caregivers. We should see to it that they do not experience 
additional, and I might say avoidable traumas, because of a 
failed foster care system. I look forward to hearing our 
witnesses describe ways that we can work together to fix this 
system.
    Witnesses will be limited to 5 minutes for oral remarks; 
however, we do have your written statements in front of us, 
which will be made a part of the record. Let me just say that 
the 5-minute rule we have, but we will be a little lenient in 
regard to that, as we have some excellent witnesses and are 
very anxious to hear your testimony.
    Let me introduce the entire panel and then we will begin to 
hear from all of you. Judith Sandalow is executive director of 
the Children's Law Center. The Children's Law Center is a 
nonprofit organization that provides free legal services to 
children, their families, and foster and kinship caregivers in 
the District of Columbia. We welcome you and thank you very 
much for being with us.
    Marilyn Egerton is the deputy director of the Foster and 
Adoptive Parents Advocacy Center. This center assists foster, 
kinship, and adoptive parents in the District of Columbia 
secure supportive services. Thank you very much for being a 
witness.
    Sister Ann Patrick Conrad is an associate professor with 
the National Catholic School of Social Service at The Catholic 
University. NCSS is one of the top 20 schools of social service 
in the Nation. Currently, 3,500 NCSS alumni are serving in the 
fields of child welfare, mental health, social policy, social 
justice and social work education. Sister, thank you for 
joining us.
    Jacqueline Bowens is the vice president for Government and 
Public Affairs at Children's Hospital, and is also joined by 
Dr. Joseph Wright, who is the medical director for Advocacy and 
Community Affairs at the hospital. Children's is the only 
hospital in the area dedicated exclusively to children's 
health. The hospital currently runs the DC KIDS program, which 
provides comprehensive healthcare services for children in D.C. 
foster care. We thank both of you for joining us here this 
morning.
    Damian Miller is a 20-year-old student at Hampton 
University. He has been in and out of D.C. foster care most of 
his life, having lived in a total of, I believe, seven foster 
and group homes. Damian has accepted an internship at the State 
Department this summer. Damian, thank you very much for being 
with us today.
    In no particular order, we will start with--Sister, do you 
want to start first, and we will just go from right to left?
    Sister Conrad. Thank you.
    Senator DeWine and members of the subcommittee, I want to 
thank you for the opportunity to provide testimony about some 
options that I feel are available to the subcommittee to 
enhance services in the District. I speak as a former dean of 
the School of Social Service, as an experienced health and 
family service worker, as the chair of the board of Catholic 
Charities of the Archdiocese of Washington, and also as a board 
member of the Council on Accreditation of Child and Family 
Services in New York.
    I want to commend the members of the subcommittee for your 
interest in the children of the District. It can really be said 
that the mark of a truly compassionate civilization is the way 
we treat our least fortunate, and so clearly, the children of 
the District in need of substitute families through foster care 
and adoption are among the persons who should be considered as 
part of this group, whom we sometimes refer to as the real 
human resources for the future.
    Most recently, as I'm sure many have had the opportunity to 
speak and talk with persons who have been in foster care and 
adoption, I know we are going to have this opportunity today, 
but one of the things that I think we want to be very aware of 
is that the potential of persons who are in care is something 
that we want to capture as a society and to grow and to 
develop. I have had the opportunity to review the hearings of 
the April meeting and I find that certainly the road to change 
for the District has been a slow and arduous path, but one of 
the things that is a serious and grave concern today is that 
childhood is a very short experience, and it leaves a lasting 
imprint, and this is particularly true for disadvantaged 
children.
    So for this reason, it is urgent that the future path be 
directed toward quality service, and the point that I want to 
make strongly is sustainability of the services, lest any child 
be lost in the system.
    At the School of Social Service we have worked over the 
years to provide a sound curriculum in the field of child 
welfare, and many of our students do go into this field. We 
have also joined with our social work education colleagues in 
this metropolitan area in providing continuing education and 
ongoing training for social workers who are already in the 
field.
    A point that I want to make is that what our graduates and 
what our students often find is that although they come into 
child welfare with a real passion to meet the needs of children 
and their families they serve, and they are deeply interested 
in the clinical well-being of the children, very often what 
they experience is that the responsibilities sometimes of 
excessive documentation, support services, transportation, 
crisis intervention, leave them little time to engage in some 
of the really best practices that we attempt to teach them in 
the School of Social Service. So this makes a real tension for 
them.
    Some feel that there is actually minimal or no public 
recognition for a job well done, yet at the same time they have 
a tremendous fear of the sense of sensationalism in the public 
arena with little or no shared responsibility when deficiencies 
do arise. So a major point, I think a major recommendation that 
I think that we can do in the future is to truly affirm the 
positive examples of competent foster care and adoption 
services and to provide ways that there is public recognition 
for our child welfare workers. I think this is a very basic.
    At the same time, speaking from my experience with the 
Catholic Charities of the Archdiocese of Washington, we've sat 
down in the past couple of days and we have had telephone 
conferences as late as yesterday. As I'm sure you know, 
Catholic Charities in the Archdiocese is one of the largest 
nonprofit providers, service providers in the District, and the 
Charities contract with CFSA for foster homes for children, 
many of which become adoptive homes, and also for independent 
living services for young men and women, as well as for teenage 
mothers and their children.
    For the most part, the staff reports that their working 
relationship with CFSA has improved tremendously over the 
years. Now you have to remember that we're talking about people 
that remember the days when the District did not make its 
payments for foster care parents and when all of our budgets 
had such tremendous deficits that we began to say, can we 
really contract with the District. So with that perspective in 
mind and with the perspective in mind that staff had often 
tremendous problems in communication and in collaboration with 
CFSA, what they find now is that CFSA, they feel is very 
appropriately demanding an increased accountability. For 
example, with case plans that require identified goals, service 
plans for children and families, and timelines to be made 
available.
    But as was brought out in the earlier testimony, the data 
system, the basic data system is often down, or just not 
available to their use. And what they're finding is that it's 
only very recently that they've been able to get a real 
technological responsiveness in this regard. But I want to make 
the point that that responsiveness does seem to be coming.
    The other point that seemed to be very, very important in 
my talking with the staff is that in the amount of change that 
has taken place in CFSA, there are, as one would expect, 
infrastructure disruptions. But what has been happening more 
recently that they do find helpful is the strengthening in 
communications. There are now monthly meetings that allow CFSA 
to provide information, and also that allow the contractors to 
be able to ask questions as they need them.
    A point of major concern, and I know it was discussed 
before but I wanted to reiterate, the fact that it's taking as 
long as 90 days to complete the licensing of foster homes and 
this, the staff finds very, very difficult in them being able 
to move children into a care system.
    Based on all of this then, I think it's important that we 
recognize that foster care was initially developed in our 
country as a response to children who were orphaned either as a 
result of a mother's death, accident, a father's dying in the 
war, physical health problems. The children were generally, 
they were fairly healthy and well adjusted experiences, and 
they could fit into foster homes much more readily.
    However, the current situation is not the case. Children 
now come into foster care because of abuse, family violence, 
community violence, drug situations, substance abuse, many 
other problems. So the children who come are already 
traumatized. As was pointed out, what we find is that in many 
ways the health care, the mental health care in the District, 
all of the social workers described the mental health care, 
what we find is that the mental health services that really 
could deal with the trauma that the children experience are 
particularly overwhelmed in the District. And so a second 
recommendation that we feel, and I think much more work could 
be done on this to flush it out even more fully, is that the 
District really needs to develop specialized mental health 
services, staffed by professionals who are experienced in 
meeting the special and differential needs of young and older 
children who are in need of care.
    Many of the judges, as you know, order mental health 
evaluations, and yet, sometimes the staff available or the 
services available leave children on a waiting list, they tell 
me, for as long as a month. Now this is not acceptable in 
trauma situations.
    So in the older days of foster care, we had such things as 
the child guidance clinic or the child mental health clinic, 
that was truly tied in specifically with foster care and 
adoption, and understood those services in a special way. This 
seems to be very imperative for the District to move much more 
rapidly and strongly in this direction.
    The final area that I want to point out is that some gains 
have been made during the period from child welfare 
receivership and beyond. We can identify a number of directors 
who each have made their own contribution. Yet at the same 
time, we know for any system when there is frequent and rapid 
change, it's very possible to move to a burnout or what many of 
the social work professionals are calling today, the mental 
health professionals are referring to as compassion fatigue.
    What I would like to bring to our attention is the fact 
that it becomes very, very important to think about the future 
of the services and to begin to talk about the fact that across 
the country, many agencies have moved into the area of 
accreditation. I served and have been involved in the 
development of the Council on Accreditation of Family and Child 
Services for a number of years, and we have been very strong 
advocates that the D.C. metropolitan area move into this 
accreditation process.
    If you're not familiar with this particular process, it was 
formed in 1977 at a time when the Child Welfare League of 
America, the Family Services of America, and a number of the 
church-sponsored or faith-based organizations were really 
experiencing a tremendous desire to begin to set standards for 
child welfare organizations. At the current time, COA, the 
Council on Accreditation, accredits more than 1,400 public and 
private organizations that serve children and families. And the 
advantage of this is that this is a national organization that 
sets national goals, it readily updates the standards for child 
care, and they hold accountable in an objective way the staff 
from an administrative point of view, as well as from a 
services point of view.
    Most organizations that move into the process, it's a stage 
process, that requires first an application process, a self 
study and the self study in itself has the organizations look 
very carefully at their own processes, what needs to be done, 
how do they have strong quality assurance programs. And these 
are monitored, and there are standards set for how this can 
happen. My recommendation is that the District move into this 
accreditation process and that they contract with service 
providers who are also accredited. This is happening across the 
country. Many States and local jurisdictions are given a 
timeframe by which they require that the agencies that they 
work with have some form of accreditation, and have moved in 
that area.
    To the best of my knowledge, only three agencies in the 
District have been accredited by this process. These are the 
Family and Child Services of Washington, Lutheran Social 
Services of the National Capital Area, and Progressive Life 
Center. And currently, Catholic Charities is in this process 
and will move toward it.
    We feel that the advantage of an accreditation process for 
the District is that it will assure that all CFSA children and 
families receive confident and holistic care based on regularly 
updated standards regardless of who the service provider is. It 
would certify that CFSA and provider agencies adhere to highest 
standard of management practices regardless of administration 
or staff turnover.

                           PREPARED STATEMENT

    Several years ago at Catholic University, the National 
Association of Social Workers sponsored a conference on child 
welfare and at this time there was some of the early moves to 
move away from the formal receivership. At that time the 
receiver who was in office at that point in 1998 committed 
herself to moving toward an accreditation process and to 
contracting with accredited organizations. Unfortunately, it's 
my understanding----
    Senator DeWine. Excuse me, Sister. You are way over time. 
I'm liberal, but not that liberal.
    Sister Conrad. Thank you. Much more is in the written 
material.
    [The statement follows:]

              Prepared Statement of Sr. Ann Patrick Conrad

    Senator DeWine and Members of the Subcommittee, I thank you for the 
opportunity to provide testimony about the options available to the 
Subcommittee to enhance child and family services in the District of 
Columbia. I speak as an experienced child and family service social 
worker; as former Dean of the National Catholic School of Social 
Service (NCSSS), The Catholic University of America; as current 
Chairperson of the Board of Directors of Catholic Charities of the 
Archdiocese of Washington; and as a member of the Board of Directors of 
the Council on Accreditation of Child and Family Services, New York. I 
want to commend the members of the Subcommittee on your interest in and 
commitment to the children and families of the District of Columbia who 
are vulnerable and in need of our special support and concern. It can 
be said that the mark of a truly compassionate civilization is the way 
we treat those who are least fortunate. Clearly, the District children 
in need of substitute families through foster care and adoption are 
among the persons who should be considered as part of this group and 
whom we sometimes refer to as the human resources of the future.
    Most recently I had the opportunity to meet the family of a former 
Catholic Charities' foster child who was later adopted by his foster 
family. They reminisced over their experience of foster care and 
adoption, pointing out how very proud they are of their adopted son, 
now a married adult and father of a growing family. He completed his 
education, served in the Gulf War and currently serves as a career 
Federal civil servant. This family continues to sustain a close and 
supportive relationship with each other that benefits not only the 
immediate family members and their offspring but also the community in 
which they live. In many ways, this is an exemplar of the outcomes that 
quality professional child and family service can produce when a social 
service agency, foster families, and the community work together.
    I have had the opportunity to review former testimony provided to 
the Subcommittee in your April hearings and have followed the various 
transitions in the District of Columbia Child and Family Service Agency 
since the LaShawn Order. There is no question that the path to change 
over the subsequent years has been slow and arduous. However, the 
experience of childhood is short and leaves a lasting imprint--
particularly so for our Nation's poor and disadvantaged children. For 
this reason, it is urgent that the future path be directed toward 
quality service and sustainability, lest any child be lost in the 
system. Therefore, my comments are directed to these ends: quality 
service and sustainability.
    Our School of Social Service at Catholic University has had a 
continual interest in the welfare of children and have worked to 
provide a sound curriculum in child and family service that prepares 
social workers to pursue careers in the complex and changing field of 
Child Welfare. We have also joined with our social work education 
colleagues in the Washington Metropolitan area to provide training and 
continuing education for social workers in this field. It has been our 
experience that child abuse, family violence, and the drug culture are 
among the many social phenomena that require heroic efforts on the part 
of today's caseworkers and case managers. Many have a real passion to 
meet the needs of the children and families whom they serve and are 
deeply interested in the clinical well-being of the children. Yet the 
responsibilities of extensive documentation and support services such 
as transportation, crisis intervention and the like leave them hard 
pressed to find the time to engage in best practices. Some feel that 
there is minimal to no public recognition for a job well done, yet they 
fear extensive sensationalism in the public arena with little or no 
shared responsibility when there are deficiencies. As a start, we need 
to affirm positive examples of competent foster care and adoption 
services and to provide public recognition for our child welfare 
workers.
    As you most likely know, Catholic Charities of the Archdiocese of 
Washington is among the largest private non-profit social service 
providers in the District. Our financial audit shows that 85 cents of 
every dollar goes into client service. The agency contracts with the 
Child and Family Service Agency (CFSA) to provide Foster Home Care for 
children--many of which become Adoptive homes--and Independent Living 
Services for young men and women as well as teenage mothers and their 
children. For the most part, staff report that their working 
relationship with CFSA is good and mutually supportive and that 
increased accountability to CFSA is being appropriately demanded. An 
example is that case plans which contain identified goals, service 
plans for children and families, and time lines are to be made 
available in a timely manner through the automated FACES data base. 
Unfortunately, the system has been frequently ``down'' and it is only 
recently that workers are experiencing greater responsiveness to their 
difficulties in this regard. They describe other infrastructure 
disruptions such as lack of information about whom to contact for 
particular types of needs, but note that they are encouraged by CFSA to 
report these problems when they occur. To address the issues and 
strengthen communication, CFSA holds monthly provider meetings which 
allow agencies the opportunity to raise issues and concerns as well as 
to provide a vehicle for CFSA to transmit necessary information to the 
service agencies. Additionally, Charities staff find that the process 
of licensing of foster homes has been lengthy--taking as long as 90 
days to complete, because CFSA has been short of staff to carry out the 
review process. These concerns are not new and have been discussed in 
previous hearings. In summary, the Catholic Charities staff find that 
communication and coordination with CFSA are in transition from a 
crisis orientation to a more consistent working relationship.
    It is important to recognize that foster care was initially 
developed in an earlier century as a response to children who were 
orphaned as a result of a mother's death in childbirth, the father's 
death in a war, or caretaker deaths from pneumonia, tuberculosis, 
polio, accidents, etc. The children were generally healthy, adjusted 
children who fit easily into a family where the mother was at home and 
the father was the sole breadwinner. This is not the case today! 
Children of this century come into foster care as a result of physical 
or sexual abuse, domestic violence, community violence, substance 
abuse, severe neglect, abandonment, and other social problems. These 
children are frequently not healthy, happy children who simply need a 
home. They are traumatized children in need of many more supports. They 
are traumatized first by the neglect and/or abuse they have 
experienced; then by separation from the primary caretaker; again by 
placement with strangers; and yet again by re-placement for troubled 
behavior when the initial placement threatens to disrupt. Too often, 
our child care system ignores the initial mental health stresses and 
compounds them with further forms of trauma such as movement from one 
home to another, often more harmful than the initial trauma. Although 
judges frequently order psychiatric evaluations in emergencies, the 
services are described by social workers as ``overwhelmed'' and so 
backed-up that foster children can be a month or longer on the waiting 
list.
    Compliance with current Federal Law (the Adoption and Safe Families 
Act) requires that children be returned to families or placed for 
adoption within a year. While basically sound in terms of permanency 
planning, this requirement places intense psychological stress on 
children and on the child care system. We need to make the assumption, 
then, that long waiting periods for mental health care are unacceptable 
and need to be remediated. The District needs to develop a specialized 
mental health service staffed by professionals who are experienced in 
meeting the special and differential needs of young and older children 
who are in our care.
    Finally, and very importantly, there is the issue of strengthening 
and sustaining the gains that have been made. We need to recognize that 
during the period of the Child Welfare Receivership and beyond there 
have been at least five directors whom I can identify. At NCSSS, we 
reached out and collaborated with them all. Each brought important 
gifts and talents to the table and in his and her own way moved the 
system along. However, with each change there was ambiguity and 
disruption for the workers, the children, the families and the 
community as the environment and expectations changed. While a certain 
amount of challenge is useful for any system, continual transitions can 
lead to burnout and what is known today as ``compassion fatigue.'' Over 
the years, I and several of my colleagues have been involved in the 
development and work of the Council on Accreditation of Family and 
Child Services (COA) and have been strong advocates that the foster 
care and adoptions services in the Metropolitan area and the agencies 
with whom they contract engage in this process. We see this as a way of 
stabilizing the gains that have been made while at the same time 
placing the responsibility for long-term oversight in the hands of 
experienced professionals.
    The Council on Accreditation was founded in 1977 through the 
combined efforts of the Child Welfare League of America, the Family 
Service Association of America as well as Jewish Family Services, 
Catholic Charities U.S.A., Lutheran Family Services and other 
experienced family and child serving agencies. Their purpose was to 
promote standards of care based on best practices that could be used 
across the United States and Canada. Today, more than 1,400 public and 
private organizations serving over six million individuals, children 
and families are accredited. With its recent international thrust, 
family and child care agencies in the Philippines and other 
underdeveloped countries struggling for financial and human resources 
have become interested in the process. They see accreditation as a way 
of sustaining the transformative efforts they have undertaken. COA 
provides standards for agency administration as well as for service 
provision in 60 unique service areas. The process includes four basic 
phases: First, an application is submitted by the applying 
organization. Eligibility criteria require that the organization 
provide at least one of the services for which COA has accreditation 
standards; that it be in operation for at least one year at the time of 
the on-site review; that it hold all applicable licenses or 
certifications required to operate; and that it demonstrate sufficient 
autonomy and independence to permit review as a separate entity. 
Second, a self study is completed which addresses all areas of 
organizational management as well as service standards. During the self 
study, the agency undergoes a systematic quality improvement process 
and strives to demonstrate to COA and to the peer review team that it 
is in compliance with all standards. The self-study process takes 
between four and eight months and involves participatory self-study and 
change where needed. Next, a site visit is made by a team of peer 
reviewers knowledgeable and experienced in the accreditation process. 
In the final phase, an accreditation decision is made by the COA 
Accreditation Commission. Most organizations complete the entire 
accreditation process within 12 months but an organization facing an 
internally or externally imposed deadline may opt for an accelerated 
time line.
    To the best of my knowledge, only three agencies in the District 
have been accredited. These are Family and Child Services of 
Washington, Lutheran Social Services of the National Capital Area, and 
Progressive Life Center. Currently, Catholic Charities of the 
Archdiocese of Washington is in the final stages of the process. This 
means that although they may be in compliance with current legal 
requirements, neither CFSA nor many of its contractor agencies have 
been systematically evaluated against national standards of best 
practice.
    You may already be aware that at a conference on child welfare held 
at Catholic University in 1998 sponsored by the Metropolitan Chapter of 
the National Association of Social Workers and co-chaired by Dean 
Richard English of Howard University School of Social Work and myself, 
a former CFSA Receiver committed her administration to work toward 
accreditation. Some staff work in this regard was begun. Unfortunately, 
it has been my understanding that work toward compliance with the law 
eventually took precedence and I am not aware that accreditation has 
been pursued since that time.
    However, in light of the continual and increasingly complex 
challenges to competent and responsible child welfare today--the 
challenges of physical and sexual abuse, domestic and community 
violence, substance abuse, etc.--and in spite of the strides that have 
been made through receivership and beyond, it is imperative that an 
objective and experienced system of oversight such as that provided by 
the Council on Accreditation be required for the District of Columbia 
which holds CFSA and its contractors to clear and measurable national 
standards within a three to four year time line. This provision will 
serve the District of Columbia by:
  --Assuring that all CFSA children and families receive competent and 
        holistic care based on regularly updated standards, regardless 
        of service provider;
  --Certifying that CFSA and provider agencies adhere to high standards 
        of management practices regardless of administration and staff 
        turnover;
  --Providing a work environment that is safe and supportive of on-
        going professional development for all staff; and,
  --Ensuring that on-going oversight of the child and family services 
        of the District is carried out by an experienced and committed 
        professional organization, thus reducing the amount of time and 
        direct action needed by government officials such as Congress 
        and the Appropriations Committee.
    Failure of the Appropriations Committee to act in this regard and 
to provide the needed resources could compromise the future progress 
and sustainability needed to meet today's child welfare challenges. The 
District of Columbia needs and deserves to be on a par with national 
standards of foster care and adoption as well as other child and family 
services.
    Thank you for the opportunity to address this very important 
issue--the future of our vulnerable and neglected children in the 
District of Columbia. With appropriate resources and systems, they, 
like the former foster child I described earlier, can and will become 
an integral part of our human resources of the future.

    Senator DeWine. Thank you. Miss Egerton. You're next. We 
have been joined by Senator Landrieu.

STATEMENT OF MARILYN R. EGERTON, DEPUTY DIRECTOR, 
            FOSTER & ADOPTIVE PARENT ADVOCACY CENTER
    Ms. Egerton. Good morning, Senators. My name is Marilyn 
Egerton. I am a D.C. foster kinship and adoptive parent. In 
addition, I am the deputy director of the Foster and Adoptive 
Parent Advocacy Center, commonly known as FAPAC. We are very 
appreciative of your inclusion of foster parents' voices into 
these hearings and thank you for inviting us to participate and 
to share our experiences with the reform efforts of the D.C. 
child welfare system.
    In the 12 years that my husband and I have been foster 
parents, we have fostered over 25 children, had well over 50 
social workers, and I have been active as a member of foster 
parent leadership through three changes in administration.
    I would like to start my testimony by pointing out some of 
the positive changes that have happened during this 
administration. These changes include the successful closure of 
the respite center in the CFSA building. This was a place where 
children were living, often for days at a time, while placement 
workers tried to find a home for them. As additional success, 
the majority of these children are going into individual foster 
homes as opposed to congregate care facilities.
    Also at the insistence of the foster parent leadership, a 
CFSA mandate requiring all staff to give the name and number of 
their supervisor on their outgoing voice mail message enables 
us to immediately go up the chain of command when we cannot 
reach our social workers. This is a huge accomplishment for us. 
We've worked very hard and very long to get it.
    Third, the accessibility of upper level management to both 
the foster parent leadership and the individual foster parents 
has been extremely commendable.
    Fourth, the development of a new placement information 
packet through a joint effort of foster parents and staff to 
address a serious issue of the lack of information given when 
children are placed in their homes. The packet has been 
developed and when CFSA workers actually begin using them, this 
will be another major improvement.
    Fifth, the introduction of disruption conferences, which 
utilize clinical expertise to try to prevent disruptions.
    And sixth, principal deputy director Leticia Lacomba's 
creation of joint working groups of foster parents and staff to 
revise and impact policy and practice guidelines.
    Despite the good intentions and real improvement we have 
seen, the tasks ahead for CFSA regarding its foster parent 
community are still great. There are many areas in which the 
support and services we receive are inadequate to meet the 
needs of our children. These areas include, one, the need for 
the infrastructure of CFS to improve to accommodate the changes 
being made at the upper level. As a result of this process, 
problem resolution often goes around in circles. Hours that 
could be appropriately spent parenting are often spent in 
frustrating efforts to seek problem resolution.
    Second, the reliance on social workers for routine tests 
that could be accomplished by administrative support like 
looking up a Medicaid number or Social Security number. Quite 
frankly, I'm perplexed that the agency does not utilize 
administrative support for these clerical tasks within the 
social work unit, freeing the social workers to actually 
practice social work.
    Third, although the responsiveness and inclusiveness of the 
upper level has been real and significant, the attitudes of 
true partnership have not yet reached the front line. Workers 
often invalidate our experience and when it comes to the right 
to make a decision, they exclude, ignore and/or rebuff the 
foster parent's input.
    For all the children currently living in my home, I have 
been invited to participate in a total of one administrative 
review, at which parenting plans and progress are to be 
discussed. We have been assured very recently that the 
technological and logistical barriers to notification have been 
resolved and that consistent notification of administrative 
review will now be implemented. We hope to see evidence of this 
in the immediate future and we trust that our notification of 
court reviews will be next.
    Fourth, the inability of social workers to consistently 
access resources both within CFSA and from the community. We 
recommend that social workers receive training in this area.
    Fifth, the lack of sufficient numbers of infant daycare 
slots in the District of Columbia. It is an issue and it is a 
barrier to particularly working families fostering infants in 
the city.
    Sixth, the lack of quality and timely mental health 
services. Our children are wounded. Many have suffered 
emotional and sometimes physical abuse and all have suffered 
much loss by the mere fact that they have been torn away from 
everything that they are familiar with. It is outrageous that 
their mental health needs have been addressed in such an 
inadequate manner. We do not know the answer, I don't know what 
it is, but it is a problem that is so paramount that it cannot 
go unaddressed. And just to say that we understand that the 
mental health, Department of Mental Health has control over the 
mental health stuff, but we don't think it's enough for the 
agency to just say okay, that's their responsibility. And much 
like special ed, it may fall on the DCPS, but if our children 
are not getting what they need from those agencies, then we 
feel it is the responsibility of CFSA to find a way to get it 
for them.
    Seventh, the lack of adequate Medicaid numbers and cards, 
this creates barriers to health care for our children.
    Eighth, the lack of an operating medical consent to treat 
policy leaves us as well as the hospitals confused about who 
can sign for what treatments.
    And ninth, the lack of availability of and access to 
respite care. All parents need a break from their children at 
some time. Biological parents have the option of sending their 
children to spend a weekend with their relatives or family 
friends, or to visit a classmate for the weekend. As foster 
parents, we don't have that option unless those parents can 
meet many criteria, including obtaining all the clearances that 
we as foster parents have to obtain.
    This puts us in a very tough position. Not only are we 
asked to parent without significant breaks, we are parenting 
children who often have serious issues. And I can say that I 
know placements that have disrupted, I have experienced 
personally a placement disruption in my home because of a lack 
of respite care. And when I requested respite for a child who 
was having very severe emotional and mental health issues, I 
was told respite did not exist, but I know of foster parents 
who get it. But I was told it was unavailable and did not 
exist.
    And so, the crisis in my home escalated to a point where 
the placement disrupted and that child was moved to what is 
called a therapeutic home, where once a month--where in a 
therapeutic home they receive respite every other weekend, they 
get in-home counseling, they have a staff available around the 
clock. Needless to say, CFSA is paying exorbitant amounts of 
money to have this child parented in that home when all I asked 
for was respite once a month, and then he would not have been 
torn away from his brothers, who are still with me, and he 
would not have had the experience of yet another move and an 
introduction into yet another family.
    I believe that many seeds have been planted under this 
administration which can lead to very positive change for 
foster families at CFSA, but many have not yet blossomed into 
actual day-to-day improvement. Responsiveness, accessibility 
and inclusiveness of the upper level's response to foster 
parents have been real and beyond rhetoric. However, we have 
much further to go with the infrastructure in CFSA to implement 
the philosophy of the upper levels for the principles of best 
practice.

                           PREPARED STATEMENT

    In closing, we do think that the agency is on the right 
path. We believe that. However, we must acknowledge and support 
the necessity for them to develop an infrastructure that will 
facilitate the kinds of changes essential for our children to 
receive the care that they deserve. I appreciate the 
opportunity to speak to foster parent concerns at this hearing 
as an individual foster parent as well as the deputy director 
of FAPAC. I will continue to be available to assist in system 
reform in any way that I can, and to work with CFSA to develop 
its partnership with this foster parent community. Thank you, 
Senator.
    [The statement follows:]

                 Prepared Statement of Marilyn Egerton

    Good morning. My name is Marilyn Egerton, and I am a D.C. foster, 
kinship and adoptive parent. In addition, I am the Deputy Director of 
the Foster & Adoptive Parent Advocacy Center, commonly known as FAPAC, 
an organization that assists foster, kinship and adoptive parents of 
children in the D.C. child welfare system to secure services and help 
to create system change.
    We are very appreciative of your inclusion of foster parent voices 
into these hearings and thank you for inviting us to participate and to 
share our experiences with the reform efforts of the D.C. child welfare 
system.
    In the 12 years that my husband and I have been foster parents, we 
have fostered over 25 children, had well over 50 social workers, and I 
have been active as a member of the foster parent leadership through 3 
changes in administrations. Currently living in my home are my foster 
grandson, the infant son of one of my older boys who has ``aged out'' 
of the system, my foster teenage son and my three adopted school aged 
children. In addition, we continue to parent four young adults who we 
raised in foster care. They have aged out of the system and now live 
nearby and although they no longer live in our home they are still very 
much a part of the family. With this perspective of history, I feel 
qualified to discuss changes we are currently experiencing under the 
administration of the Director, Olivia Golden, and the Principal Deputy 
Director, Leticia Lacomba.
    Although everyone agrees that there is still a tremendous amount of 
work to be done at CFSA, I think it only fair to point out some of the 
positive changes that have happened during this administration which 
have brought, and have the potential to bring many more, significant 
changes in the lives of children in the D.C. child welfare system and 
their foster/kin/adoptive families.
    Over the last two years, this administration and staff in 
partnership with the foster parent community has been able to close 
down the respite center that was located on the first floor of the CFSA 
building. This was a place where children were living, often for days 
at a time, while placement workers tried to find a home for them. Can 
you imagine being a child who was just recently removed from all that 
is familiar to you--your family, your friends and your community? Only 
to spend those crucial first few days sleeping in an office building 
and not in the comfort and safety of the loving home and arms of foster 
parents trained and willing to help them through this most difficult 
time. This is a very personal issue for me. As a member of Foster 
Parents United for Support and Change, a local foster parent support 
group, I worked very hard to combat this situation. In previous years 
and during previous administrations, at the end of our monthly 
meetings, members who had vacancies in their homes would go down to the 
respite center to see if there were any children we could take home who 
were sleeping at the agency. It was tragic and poignant to see children 
of all ages who could not be placed anywhere else living for days in an 
office building. To have lessened the need for this center so much so, 
that it could be eliminated all together is quite an achievement. When 
we add to this the fact that not only are children being placed without 
having to spend the night at CFSA, but that most children are being 
placed in actual homes with loving foster and kinship families, and not 
in congregate care, it is clear to us that this in an amazing 
accomplishment.
    Another major problem we have had for years and years has been the 
lack of accessibility of our social workers, supervisors and 
administrators. In fact, it was so bad that many foster parents were 
convinced that once caller ID went into the agency, their calls were 
actually being screened out by workers. At the request of foster 
parents, CFSA has mandated that each staff member have an outgoing 
voice message that reflects the name and number of their supervisor so 
that if we cannot reach our worker we can immediately go up the chain 
of command. This may sound like a small innocuous change to many, but 
I, like most foster parents whom I know, have been in situations with 
my own children over the years when I have called and left many 
messages for my children's social worker(s) to request vital 
information like a Medicaid number, options for therapy for my 
child(ren), shot records or daycare requests. And, because I didn't 
know who the social worker's supervisor was, or I didn't know the 
supervisor's number, my only options were to sit and wait days and 
sometimes weeks for a social worker to get back to me or for my husband 
or me to take a day off of work and go down to CFSA and act ugly until 
someone helped us. Having this information readily available on the 
outgoing voicemail message has been very helpful for those situations 
in which accessing services are contingent upon the ability to reach 
our workers in an expedient fashion. In addition, the accessibility of 
upper level management's to both foster parent leadership and 
individual foster parents has been extremely commendable.
    Another extremely serious problem we have had absolutely forever 
has been the lack of information given to foster parents about the 
children we are taking into our homes. Children have historically been 
placed without our being told imperative medical, psychological, and 
behavioral information, because that information was not communicated 
intra-agency to the placement workers. Imagine being a foster parent 
who takes a child into your home and finds out that the child sets 
fires, but you were not told. Because of this, children were often 
placed into homes that were not prepared for them, and the placements 
broke apart, or as we say, ``disrupted.'' In the last few months foster 
parents and staff have worked together on the development of a new 
``Placement Information Package''. The agency has promised to uphold 
the expectation that all relevant information available to the agency 
will be passed onto foster parents through this package so they can 
make appropriate decisions about placements in their homes. When CFSA 
workers actually begin using them, this will be another major 
improvement.
    In these last years, as a member of the foster parent leadership, I 
have spent much time at CFSA. My current experience is that there is 
active and diligent work being done towards improvement and reform. 
Staff, administration and foster parent leadership have put in many 
hours working on systemic issues. Foster parents have experienced 
significantly improved appreciation and inclusion from the upper level 
and a more acute consciousness of what we need to care for our 
children. We have seen much more energy spent on trying to address the 
issues of multiple placements, such as the introduction of Disruption 
conferences, which utilize clinical expertise to try to prevent the 
disruption of placements. We hope that these clinical interventions 
will be increased to include wrap-around services that will permit a 
``traditional'' foster parent to maintain a child they love in their 
home instead of having to transfer them to a much more expensive higher 
end therapeutic home to get services, as has been the case. We 
specifically recognize Clinical Services Administration, under Dr. 
Roque Gerald, for work in these areas.
    One of the major issues for the District of Columbia's foster 
parents, and indeed nationwide, is the lack of inclusion in decision-
making. This decision-making exclusion is two-fold and includes 
decisions about the individual children in your home as well as 
decisions about agency policy, regulation and practice. Nationwide, 
this lack of inclusion is sited as one of the major reasons that foster 
parents quit fostering. When a system can not retain its foster 
parents, any recruitment efforts, no matter how successful, are like 
recruiting into a bucket that has a hole in the bottom.
    To address the concern about lack of inclusion into agency policy 
and practice, Ms. Leticia Lacomba, Principle Deputy Director, began to 
work directly with joint working groups of foster parents and staff to 
revise and impact policy and practice guidelines. Involving foster 
parents in true partnership with staff and administration in this way 
has been a tremendous step forward and we want to acknowledge her for 
this accomplishment.
    Unfortunately, inclusion into the professional team for the 
children in our home has not been yet achieved, and will be discussed 
as we move into the discussion of the many challenges still ahead.
    Despite the good intentions and real improvement we have seen, the 
tasks ahead for CFSA regarding its foster parent community are still 
great. There are many areas in which the support and services we 
receive are inadequate to meet the needs of our children.
    Although we applaud the accessibility of the upper level 
administration to its foster parent community, many of the issues 
brought up to that level should have been resolved at lower and middle 
levels. What we see is that the infrastructure of CFSA has not yet 
improved to accommodate the changes being made at the upper level. As a 
result, balls are still always dropping on the lower and middle levels, 
problem resolution often goes around in circles, and the person who 
needs help gets bounced from one staff or unit to another. In addition, 
units themselves are often out of alignment with each other in the 
information they give to our families and in the processes they create. 
This causes much confusion to anyone trying to access services. Hours 
more appropriately spent parenting is spent in frustrating efforts to 
seek problem resolution. It is our recommendation that communication 
between units as well as internal to units be acknowledged as important 
job functions of program administrators and time be allotted for this 
purpose.
    Another infrastructure issue I would like to comment on is the 
reliance on social workers for routine tasks that could be accomplished 
by administrative support staff. When foster parents have to call 
social workers for something as simple as a birth certificate number, 
they may have to call over and over to reach a worker. This in turn 
clogs up the worker's voice mail which may make them less accessible to 
others. I can not tell you the countless times that I have had to call 
a social worker to get a social security number for one of my children. 
Quite frankly I am perplexed that the agency does not utilize 
administrative support for these clerical tasks within the social work 
unit, freeing the social workers to actually practice social work. It 
is our recommendation that CFSA assign one administrative assistant per 
(X) number of social workers for this purpose.
    In addition, although the responsiveness and inclusiveness of the 
upper level has been real and significant, the attitudes of true 
partnership have not yet reached the front lines. Many of the District 
of Columbia's foster parents have been operating as caseworkers 
themselves for years, handling all on their own the daunting tasks of 
finding resources for their children. Many have had no regular visits 
from workers, no phone calls, no help, no after hours support at all, 
and as such stand alone. Despite that, workers often invalidate that 
experience and when it comes to the right to make decisions, exclude, 
ignore and/or rebuff the foster parent's input.
    It is this inclusiveness into case planning for the children in our 
homes that is seriously lacking. In my own experience, for all the 
children currently living in my home, I have been invited to 
participate in a total of ONE administrative review, at which 
permanency plans and progress are to be discussed. Since these reviews 
are supposed to be happening every six months, either they are not 
happening at all or they are happening without my presence, input or 
feedback. In my ENTIRE experience as a foster parent, I have never been 
informed about a court hearing from my social workers, although I 
regularly attend due to notification from our children's GAL's. The 
agency is out of compliance with The Adoption and Safe Families Act 
(ASFA) on both of these forms of notification. We have been assured 
very recently that the technological and logistical barriers to 
notification have been resolved and that consistent notification of 
Administrative Reviews will now be implemented. We hope to report back 
to you on the successful intervention of this assurance. We trust that 
our notifications of court reviews will be next.
    There is much work ahead to address the complicated issues of real 
partnership between line workers and foster parents. We acknowledge 
that the agency has taken a first step by inviting us to participate in 
the training that new workers receive. I am personally very excited 
about the possibility of participating in these trainings. I think it 
is vital to a successful working relationship that the worker have a 
real understanding of how what s/he does or says may effect the foster 
parent's ability to open up to them and trust them, thus impacting the 
quality of care our children receive. It is imperative that social 
workers understand that they must give foster parents the same respect 
that they give the other professionals involved in the care and 
treatment of our children. We are the ones who are caring for these 
children day in and day out. Although I am very excited about these 
trainings, it is my hope that this is just the beginning. It is my hope 
that we will get to the point where we can expand this training to 
allow us to work also with those social workers who have been around 
for a while. After all, it was a veteran social worker with many years 
of experience who told my husband and me that we were too strict with 
my 17-year-old son when we put him on restriction for constantly acting 
out in school and having multiple suspensions. She recommended that he 
go into independent living. When we objected, saying that we had been 
parenting him since he was 11 years old and that we were 100 percent 
sure that he was not mature enough to handle the freedom that comes 
with an independent living program, she pushed for it and got it 
anyway. From the moment he entered the program my son went on a 
downward spiral that landed him in a psychiatric facility. There it was 
determined that he needed a more structured environment and we were 
asked if he could come back home to us. Although this particular 
incident occurred under a previous administration, lack of input into 
decisions about our children still continues. I feel this is a good 
example of the danger that can happen to our children when decisions 
are made by people who see them at the most once a month, and often 
much less, without taking into serious consideration the input of those 
of us who are parenting them every day.
    I think that it would be beneficial if we also recommend that 
social workers be given more training on how to access resources, both 
within CFSA itself and from the community. Access to resources remains 
a big problem for us. There is a lot of inconsistency in this area. 
Securing resources often depends upon the knowledge, workload and 
sometimes even personal feelings of your workers. A strong example of 
this lack of resource consistency is day care. Foster parents who live 
in the District of Columbia are entitled to day care services through 
the Office of Early Childhood Development. However, some workers can 
access it fast, some have to be taught by their foster parents or GAL's 
how to access it at all, and in fact one private agency has told their 
families that day care is not even available! Again this is a personal 
issue for me. My foster grandson was placed with us at the ripe old age 
of two months old and in spite of many, many phone calls and inquiries 
from both my husband and me, our little Jay was seventeen months old 
before daycare was secured. Had it not been for the untiring help of 
family and friends, as well as compassion and flexibility of my 
husband's and my employers we would not have been able to continue to 
parent this child who has known us as his grandparents since the day he 
was born.
    One resource is so very absent from the fabric of this city that it 
demands separate mention of its own. That resource is quality and 
timely mental health services. Our children are wounded; many have 
suffered emotional and sometimes physical abuse and all have suffered 
much loss. It is outrageous that their mental health needs have been 
addressed in such an inadequate manner. We do not know the answer, 
however, this problem is so paramount that it cannot go unaddressed.
    Another huge issue for us is Medicaid. Medicaid numbers may not be 
given to us until our child has been in our home for weeks or months. 
This creates a very serious situation when we need prescriptions 
filled. In addition, our numbers often become inactive, creating the 
inability to access services. Many of us have been at doctor's offices 
or pharmacies when the numbers have become inactive and we have had to 
leave without the services we need for our children. In addition, the 
lack of an operating Medical Consent to Treat Policy leaves us as well 
as the hospitals confused about who needs to sign for what treatments. 
We have been trying to get the agency to develop and implement a 
medical consent policy for over a year and a half, but to our knowledge 
there has been no significant progress made. This is of utmost urgency 
to us, because sooner or later a child will die because of the 
confusion surrounding what foster parents can or cannot consent to.
    Another issue for foster parents is the lack of availability of 
respite care. All parents need a break from parenting sometimes. 
Biological parents have the option of sending to their child(ren) to 
spend the weekend with a relative or family friend, or to visit with a 
classmate at his/her home. As foster parents, we don't have that option 
unless those persons can meet many criteria, including obtaining all 
the clearances that foster parents are required. This puts us in a very 
tough position. Not only are we asked to parent without significant 
breaks, we are parenting children who often have serious issues. Can 
you imagine all of a sudden the number of children in your family 
increasing by four? It happened to me three years ago. I got a call 
about a sibling group of four boys, ages 6, 8, 10, and 12. This was 
quite an undertaking as I am sure you can imagine. As delightful as the 
boys were, we began to notice almost immediately that one of our 
children had some pretty severe emotional problems and we began to seek 
out help for him. When it was all said and done he was diagnosed with 
severe depression and intermittent explosive disorder. It took about a 
year and a half for him to be diagnosed and for the doctors to 
determine the proper medications in the proper doses to help stabilize 
him. During that time our home was in constant turmoil with crisis 
after crisis involving him, while we were still trying to effectively 
parent his three siblings and my adopted daughter. When we asked for 
respite once a month so that we could regroup and be better able to 
parent our children we were told that respite was not available. The 
situation escalated to the point that the placement disrupted and he 
was placed in a ``Therapeutic'' home where the city not only pays 
significantly more for his care, but the therapeutic foster parents get 
respite every other weekend. This was very traumatic for all of us. He 
was not only separated from us, but also from his siblings who had been 
the only constant in his life. Mine is not the only story. Many foster 
parents can tell of situations where they feel access to respite would 
have enabled them to continue fostering a child rather than having the 
placement disrupt. I really believe that respite can be a big part of 
decreasing the number of disruptions as well as increasing foster 
parent retention. And a foster parent who is happy and wants to remain 
a foster parent is more likely to actively recruit other potential 
foster parents for the agency. Providing respite for foster parents is 
a win/win situation for all involved.
    In conclusion, I believe that we are seeing many seeds which have 
been planted under this administration which will lead to very positive 
change for foster families at CFSA, but many of those seeds have not 
yet blossomed into actual day-to-day improvement. There is still a 
great deal of work to do. Responsiveness, accessibility and 
inclusiveness of the upper level to its foster parents have been real 
and beyond rhetoric, as demonstrated by the cutting edge partnership 
lead by Ms. Lacomba. We have come very far in these ways. However, we 
have much farther to go before the infrastructure of CFSA supports and 
implement the philosophy of the upper level or the principles of best 
practice. To summarize, some specific areas we need to see improvement 
in are:
  --After hours crisis intervention for foster families outside of the 
        general hotline;
  --Quality and timely mental health evaluations and therapy;
  --Consistently active Medicaid numbers and cards;
  --Easily and consistently accessible emergency and planned respite 
        care for foster parents;
  --Timely day care;
  --Operating Medical consent to treat policy;
  --Increased team building efforts between social workers and foster 
        parents as well as between birth parents and foster parents;
  --Training of all social work staff on resource availability;
  --Strengthening communication between units so that information given 
        to families is both accurate and consistent;
  --Clear and consistent systems for problem resolution which free up 
        foster parents to spend our time and energy parenting our 
        children instead of going around in circles fighting for 
        services.
    Again, in closing we do believe that the agency is on the right 
path, but we must acknowledge the great need for them to develop an 
infrastructure that will allow for the kinds of changes necessary to 
give our children the care they deserve. I appreciate the opportunity 
to speak to foster parent concerns at this hearing. As an individual 
foster parent as well as the Deputy Director of FAPAC I will continue 
to be available to assist in system reform in any way I can, and to 
work with CFSA to develop its path of partnership with its foster 
parent community.

    Senator DeWine. Thank you very much. Ms. Sandalow.

STATEMENT OF JUDITH SANDALOW, EXECUTIVE DIRECTOR, 
            CHILDREN'S LAW CENTER
    Ms. Sandalow. Good morning, Senator DeWine, Senator 
Landrieu. Thank you for giving me the opportunity to speak 
today about the solutions to problems facing abused and 
neglected children in the District of Columbia.
    As you know, the Children's Law Center helps at-risk 
children in the District of Columbia find safe and permanent 
homes, and the education, health and social services they need 
to flourish, and provides comprehensive legal services to 
children, their families and foster, kinship and adoptive 
parents. My testimony today is focused on remedies that involve 
the Child and Family Services Agency, and that can be 
accomplished with targeted and specific Federal funding.
    The first days in foster care often determine the outcome 
of a child's life. When a child is injured in a car accident, 
an ambulance rushes the child to a hospital where a team of 
doctors and nurses drop everything to save that child's life. 
We all recognize that without this extraordinary effort, a 
child could die or be permanently disabled. That same urgency 
and those same resources should attend to the removal of 
adduced and neglected children from their homes.
    In fact, every day in the District of Columbia, children 
are permanently scarred because we don't treat these first days 
in foster care as an emergency. What is right for children is 
also right for the D.C. budget. Early and intensive 
intervention on behalf of children will speed reunification and 
it will speed adoption and it will prevent the financial and 
human costs of increased homelessness, incarceration and 
welfare dependence that is found among adults who spend their 
childhoods in foster care.
    I propose that Congress fund a pilot project within CFSA to 
provide early and intensive intervention for children as soon 
as abuse or neglect is reported. What you might ask, should 
such an emergency team do? On the first day that a child is 
removed from her home, an emergency team of social workers 
should be interviewing the child, their siblings, their 
parents, their neighbors, to find the nearest relative, a 
person who is appropriate to be a temporary caregiver while 
that family is restored. The emergency team should have access 
to a flexible fund to buy beds, clothes and if necessary, food, 
to ensure their relative can bring a child into their home 
immediately.
    One of our clients, a grandmother, has been waiting 45 days 
for benefits, while CFSA will not provide emergency funding for 
her to feed the grandchildren who she has taken into her home 
on an emergency case basis. The emergency team should provide 
drug treatment, homemaker services, parenting classes 
immediately for children and families so they can be reunified. 
All of these tasks and many more that I highlight in my written 
testimony, must be done within the very first few days that a 
child is removed from her home.
    Just as we staff the emergency room 24 hours a day and we 
would never consider closing it after business hours, we must 
have a child welfare emergency team 24 hours a day. Where a 
child is removed from her family, she needs an opportunity to 
visit her brothers and sisters and her parents in order to 
enhance the chance of reunification, but also to help her with 
that transition as she moves away from her birth family. But 
last week, a social worker said in open court at the District 
of Columbia's Family Court to a mother who was begging to see 
her children, that she and her children could only visit 
together 1 hour a week, and the reason that she gave was 
because CFSA didn't have the resources to staff a visitation 
center for longer hours that would provide more frequent 
visits.
    Can we really tell a child that she can't see her brothers, 
sisters and parents more than 1 hour a week because she has to 
give other little children the chance to see their families? 
Get in line, little girl, behind all the other children who 
need to see their families. I urge the committee to appropriate 
funds to CFSA to build and staff visitation centers in the 
community.
    Each center should be staffed by a social worker trained to 
work with parents on their parenting skills. And most important 
of all, the center should be open in the evenings and on 
weekends so that children don't have to miss school to see 
their families, and that parents can maintain employment so 
that they can bring the children back to live with them.
    Forty percent of all foster children in the District of 
Columbia are teenagers. Despite this staggering figure, 
unfortunately, CFSA has a woefully inadequate program to help 
teenagers prepare for adulthood. Today I would like to focus on 
one particular issue, which is helping teenagers find jobs, and 
that may be important to me because I am the parent of teenage 
boys who came to me out of the foster care system when they 
were in their preteen years, and I know how important it is for 
their development that they be able to find jobs. In part, they 
will have me as a safety net but other foster children won't 
have that kind of safety net.
    How is it that CFSA can help teenagers find jobs and give 
them the jobs skills necessary to make them productive 
citizens? One very simple option is to partner with local 
businesses to provide a job coach just like they do for 
developmentally disabled adults, to ease that new foster child 
into a job. I am confident that there are corporations in this 
city that would partner with CFSA. I understand that in 
California they reserve a certain number of government jobs for 
foster children entering the system to help them meet that 
transition. Well, they're part of our government family, so 
they save some jobs for them. Those are both very simple 
solutions, I think.
    But no matter how many programs are available or what 
philosophy there is in the child welfare system, the quality of 
the individual social worker is successful to the successful 
system.
    Senator DeWine has introduced legislation to provide loan 
forgiveness for lawyers and social workers who serve children. 
The Children's Law Center strongly supports this legislation 
and believes that it will increase the pool of highly qualified 
lawyers and social workers.
    Talented well-trained social workers, frequent family 
visits and early intervention won't help children if there are 
no services to help children heal, to rehabilitate parents and 
to support families. The District of Columbia has an extremely 
limited number of mental health providers. There are very few 
drug treatment beds. Homemaker and intensive in-home services 
are almost nonexistent. CFSA should be clamoring at your door 
asking for the funding to provide these services. They should 
have a comprehensive plan for developing and funding service 
providers.
    Although I applaud their recent efforts to evaluate the 
quality of service providers, and I understand that they are 
vigorously evaluating the outcomes of the service providers 
that they do have, I am disturbed by their silence regarding 
increasing the availability of services.

                           PREPARED STATEMENT

    A foster child is by law in the legal custody of the 
government. The government therefore has the right and the 
responsibility to parent that foster child, to meet the needs 
of every child as if she were our own child. I thank each of 
you in particular for taking that responsibility seriously, and 
for calling for supporting measures that will give every foster 
child the promise of a safe and loving home.
    [The statement follows:]

                 Prepared Statement of Judith Sandalow

    Good morning, Chairperson DeWine, Senator Landrieu and members of 
the Committee. My name is Judith Sandalow, and I am the Executive 
Director of The Children's Law Center here in Washington, DC. The 
Children's Law Center helps at-risk children in the District of 
Columbia find safe, permanent homes and the education, health and 
social services they need to flourish by providing comprehensive legal 
services to children, their families and foster, kinship and adoptive 
parents.
    Thank you for the opportunity to speak with you today about 
solutions to the problems facing abused and neglected children in the 
District of Columbia. At The Children's Law Center, we serve as the 
voice for many children. They share their fears and their hopes with 
us. Because the solutions I propose today are informed by these 
children and their experiences, I would like to start by sharing with 
you some of their stories.
    Sam, Tony and Terry were removed from their mother's home on a 
Friday evening and placed in a temporary group home. The very next day 
their aunt came to court and offered to have them live with her. 
Understandably, she did not have three beds in her home, nor did she 
have the money to pay for them. The CFSA social worker told the judge 
it would take three weeks to buy beds for the aunt and, until then, 
suggested that the boys stay in a group home. Only because The 
Children's Law Center purchased beds for the boys that afternoon were 
they able to be with their family and avoid spending three weeks in a 
group home.
    Seven-year-old DeMarco and nine-year-old Shawn were taken from 
their mother's home by the D.C. Child and Family Services Agency when 
it was discovered that their mother physically abused them. Despite the 
fact that Shawn and DeMarco have a loving and capable grandmother, CFSA 
put Shawn and DeMarco in a foster home. Only after their grandmother 
contacted The Children's Law Center were the children allowed to see 
their grandmother and, with more advocacy by The Children's Law Center, 
were the children allowed to live with her. The CFSA social worker 
admitted that she had not interviewed the children to find out if they 
had relatives nearby. DeMarco and Shawn spent a month living with 
strangers during the most traumatic moment of their lives, when they 
could have been with the grandmother they had known and loved all their 
lives.
    Federal assistance can have an important, direct and measurable 
impact on the District of Columbia's abused and neglected children. My 
testimony is focused on remedies involving the Child and Family 
Services Agency that will make a difference to Shawn, DeMarco, Sam, 
Tony and Terry and that can be accomplished with targeted and specific 
funding.

                    EARLY AND INTENSIVE INTERVENTION

    When a child is injured in a car accident, medical personnel have 
no qualms about stopping traffic to get an ambulance to the scene. A 
helicopter or an ambulance rushes the child to the hospital where a 
team of doctors and nurses drop everything to save a child's life or 
prevent permanent disability. A social worker contacts the parents, 
provides counseling and helps the family plan for the child's 
convalescence. We all recognize that without this extraordinary effort, 
a child will die or be permanently disabled.
    The same urgency and the same resources should attend the removal 
of abused and neglected children from their homes. In fact, every day 
in the District of Columbia children are permanently scarred and 
irrevocably deprived of their childhoods, their emotional well-being 
and their chance to become productive citizens because we do not treat 
these first moments, these first days in foster care as an emergency.
    What is right for children is also right for the D.C. budget. Early 
and intensive intervention on behalf of children will speed 
reunification and adoption, will reduce the number of children who 
languish in foster care at great cost to our city and will prevent the 
financial and human cost of increased homelessness, incarceration and 
welfare dependence that are found among adults who spent their 
childhoods in foster care.
    I propose that Congress fund a pilot project within CFSA to provide 
early and intensive intervention for children as soon as abuse or 
neglect is reported.
    What would such an emergency team do? There are three things that 
must be accomplished quickly: (1) find the best home for the child as 
fast as possible; (2) provide services and support to the child to 
repair the damage caused by abuse and to reduce the trauma of being 
separated from her family; and (3) provide the entire family with the 
services necessary to reunify them.
    How would an emergency team accomplish these goals?
  --On the day a child is removed from her home, social workers should 
        interview the child, his or her siblings, neighbors and 
        relatives to find an appropriate temporary caregiver for the 
        child. Frequently, grandparents, aunts, uncles and cousins 
        don't learn that a child is in foster care for weeks or months.
  --Quickly conduct criminal records checks, review the child abuse 
        registry and do a home study of the caregiver's home so that 
        the child can move in immediately.
  --Have access to a flexible fund to buy beds, clothes and if 
        necessary food to ensure that a relative can bring a child into 
        her home immediately, without forcing the child to stay--scared 
        and alone--in a group home or foster home while the relative 
        finds the money to prepare her home.
  --Convene a meeting of the child's family within 24 or 48 after 
        removal to see what resources the extended family can provide. 
        Often, family members can step in to assist an overwhelmed 
        parent, can arrange visits in their home for the child or can 
        even bring a child to live with them while the parent is in 
        recovery.
  --Provide transportation to the child's home school, so that she is 
        not further traumatized by having to adjust to a new school and 
        a new home at the same time.
  --Gather medical records from the child's pediatrician and area 
        hospitals to ensure that medical treatment and medication are 
        not disrupted.
  --Provide drug treatment, homemaker services, parenting classes and 
        other services a birth parent needs so that a child can be 
        safely reunited with her parents.
  --Do thorough medical and mental health assessments of children and 
        provide mental health services to assist children during this 
        traumatic time.
  --Arrange for a child to talk on the phone with brothers, sisters and 
        other family members during the initial, traumatic hours and 
        days after removal.
  --Provide transportation for frequent visits between children, their 
        siblings and important family members to reduce the trauma of 
        removal and maintain the familial bonds in preparation for 
        reunification.
    All of these tasks must be done within the first few days after a 
child is removed from her home. Just as we staff an emergency room 
around the clock and not only during business hours, we must staff a 
child welfare emergency team 24 hours a day.

               MAINTAINING FAMILY TIES THROUGH VISITATION

    In 1989, when the ACLU was preparing to file a class action lawsuit 
against the District of Columbia to address the needs of abused and 
neglected children, they interviewed local child advocates. One of 
these advocates who had worked with neglected children for years and 
was a founding member of The Children's Law Center, asked for only one 
thing. She said, ``if you can get family visits for foster children so 
that they can visit their brothers and sisters and their parents and if 
you can get those visits to happen on weekends and in the evenings so 
that children don't have to miss school to visit their families, then I 
will believe that your lawsuit made a difference.''
    Fourteen years later, this simple wish has not been granted. 
Fourteen years later--in fact just last week--a social worker said in 
open court to a mother who was begging to see her children that she and 
her children could only visit together one hour each week because CFSA 
didn't have the resources or the staff to have longer or more frequent 
visits.
    Can we really tell a child that she can't see her brothers, sister 
and parents more than one hour a week because she has to give other 
children the chance to see their families?
    I urge the committee to appropriate funds to the Child and Family 
Services Agency to build and staff visitation centers in the community 
so that children can see their brothers, sisters and parents as often 
as is necessary for them to maintain their family bonds.
    Today, just like 14 years ago, foster children visit with their 
parents in partially furnished offices--artificial environments that 
are a far cry from the apartments and houses in which families usually 
interact.
    I envision visitation centers that feel like a real apartment, with 
a living room that has games, books, a television and a radio. I 
picture a kitchen or at least a microwave oven, so that parents could 
show their love the way most parents do--by cooking a meal for their 
children. I imagine children playing in the center's backyard, a 
backyard that has a swing set and a basketball hoop. With an 
opportunity to visit in this home-like setting, parents could work on 
parenting skills and children could enjoy their brothers and sisters.
    Each center should be staffed by a social worker trained to work 
with parents on their parenting skills. Most important of all, the 
centers should be open in the evenings and on weekends so that children 
do not have to miss school and parents can maintain their employment.

              PREPARING TEEN FOSTER CHILDREN FOR ADULTHOOD

    Forty percent of all foster children in the District of Columbia 
are teenagers. Despite this staggering figure and the additional 
Federal funding that has been made available by the Chafee Act, CFSA 
has a woefully inadequate program to help teenagers prepare for 
adulthood. Today, I would like to focus on addressing one particularly 
important issue--helping teenagers find and hold jobs.
    CFSA social workers do not help teen find work, they do not help 
teens fill out job applications and they certainly do not create job 
opportunities for teenagers.
    How can CFSA help teenagers learn the basic job skills necessary to 
make them productive citizens? CFSA need look no further than their 
back door for a solution. The See Forever Foundation, started by David 
Domenici, son of Senator Pete Domenici, and by James Forman, Jr., owns 
several businesses that are run by teenagers, including a catering 
business and a print shop. The teenagers handle all aspects of the 
business, from marketing, to accounting to preparing and delivering the 
product.
    A business run by foster children would give these young people the 
training they need to become successful and independent adults.
    A simpler option that might help more teens more quickly would be 
for CFSA to partner with local businesses to guarantee that there were 
jobs available to teen foster children. If CFSA hired a job coach who 
worked with teens during their first weeks on the job--in a manner 
similar to job coaches for developmentally disabled adults--I believe 
that many employers would commit to hiring foster children.
    There are many other areas in which CFSA fails teen foster 
children. I am pleased to announce that beginning this Fall, The 
Children's Law Center will be able to devote more of its resources to 
advocating for teens. Because of the generosity of the Equal Justice 
Works Foundation and the Public Welfare Foundation, we have hired a 
lawyer who will help to train social workers and other child advocates 
about strategies for helping teen foster children make the transition 
to independence and adulthood.

             RETAINING AND TRAINING CAPABLE SOCIAL WORKERS

    No matter how many programs are available or what philosophy 
governs a child welfare agency, the quality of the individual social 
workers is critical to a successful system. The April 2003 report by 
the GAO on the challenges confronting child welfare workers supports 
the observations of The Children's Law Center's staff. Repeatedly, the 
best social workers tell us that they are leaving CFSA because they 
have extraordinary administrative burdens with no secretarial support, 
that their caseloads are so high that they are worried about making 
mistakes that will jeopardize children's safety and health and that the 
quality of supervision they receive is extremely poor.
    CFSA Director Olivia Golden testified before this committee just 
last month that she was working to reduce caseloads for social workers. 
Reducing caseloads by hiring high quality social workers must continue 
to be a top priority for Ms. Golden. She must also focus on retaining 
and training social workers. This committee may be able to assist Ms. 
Golden by proposing legislation and targeting funding toward 
initiatives that will increase social worker retention.
    Senator DeWine has introduced legislation to provide loan 
forgiveness to lawyers who represent children. The Children's Law 
Center strongly supports this legislation and believes it will increase 
the pool of highly qualified lawyers who serve children. Similar 
legislation to provide loan forgiveness to child welfare workers would 
help ease the financial burden on these dedicated individuals.
    I also urge the Committee to consider providing funds to CFSA 
targeted toward providing administrative support to the social workers 
who work directly with children and families. Social workers spend a 
tremendous amount of time completing paperwork. As recently as last 
Fall, social workers were required to fill out requests in triplicate 
to renew each child's Medicaid eligibility. In addition, social workers 
have little assistance in transporting foster children to evaluations, 
doctors' appointments, family visits and therapy.

                   SERVICES FOR CHILDREN AND FAMILIES

    Talented, well-trained social workers, frequent family visits and 
early intervention won't help children if there are no services to help 
children heal, to rehabilitate parents and to support families. The 
District of Columbia has an extremely limited number of mental health 
providers. There are very few drug treatment beds. Homemaker and 
intensive in-home services are almost non-existent. CFSA should be 
clamoring at your door, asking for more funding to provide these 
services. They should have a comprehensive plan for developing and 
funding service providers. Although I applaud their recent efforts to 
evaluate the quality of service providers, I am disturbed by their 
silence regarding increasing the availability of services.
    The short-term cost of providing services may be great, but the 
long-term benefit in personal and financial savings is extraordinary. 
For one D.C. family, it made all the difference. After the death of his 
wife, a father of three children was extremely depressed. He managed to 
hold down a full-time job, get dinner on the table and was available to 
his children every evening after work. For some reason, however, he 
couldn't manage to get the children dressed and ready for school in the 
morning and so the children missed school frequently. Rather than 
provide limited early morning homemaker services, CFSA sought to remove 
the children from his home. Only after the father's lawyer intervened 
did CFSA agree to provide services to the family. Obviously, the 
emotional and financial cost of splitting up this family pales in 
comparison to the short-term cost of helping them through this crisis.
    The Children's Law Center receives dozens of calls each year from 
relative caregivers and foster parents who want to keep a child in 
their home, but cannot handle the extreme behavioral and emotional 
needs of their child without assistance that CFSA refuses to provide. 
One foster mother called The Children's Law Center distraught because 
she had been trying to get services for her foster children for months. 
At the end of her rope, she had asked the social worker to remove the 
children unless CFSA gave her some in-home support and respite care. 
Three days later, she couldn't bear to hear them crying on the phone. 
The children had been with her for a year, called her Mommy, and were 
begging to come back to her. She wanted them home, but needed in-home 
mental health services to address their extreme behavioral problems. 
Only after intervention by The Children's Law Center were the services 
provided and the children returned to the foster mother they had come 
to love.

                               CONCLUSION

    A foster child is, by law, in the legal custody of the government. 
The government, therefore, has the legal right and responsibility to 
parent that foster child. To me, this means that we must treat every 
foster child as if she or he is our own child.
    Thank you for taking that responsibility seriously and for calling 
for and supporting measures that will give every foster child the 
promise of a safe, permanent and loving home.

    Senator DeWine. Thank you very much, very helpful. Miss 
Bowens.

STATEMENTS OF:
        JACQUELINE BOWENS, VICE PRESIDENT FOR GOVERNMENT AND PUBLIC 
            AFFAIRS, CHILDREN'S NATIONAL MEDICAL CENTER
        DR. JOSEPH WRIGHT, MEDICAL DIRECTOR FOR ADVOCACY AND COMMUNITY 
            AFFAIRS, CHILDREN'S NATIONAL MEDICAL CENTER
    Ms. Bowens. Good morning, Senator DeWine and Senator 
Landrieu. Thank you very much for providing us with this 
opportunity to address the committee today about our role in 
caring for children in Washington, DC's foster care system. I'm 
Jacqueline Bowens, Vice President of Government and Public 
Affairs at Children's Hospital, and joining me this morning is 
Dr. Joseph Wright, who is the medical director of Advocacy and 
Community Affairs, as well as the medical director of the DC 
KIDS program. I'm going to spend a quick few moments giving you 
some background on the DC KIDS program, and turn it over to Dr. 
Wright to speak to some of the challenges we face in our vision 
for the future.
    The District of Columbia Kids Integrated Delivery System, 
DC KIDS, is a collaborative effort between CFSA and Children's 
Hospital to provide comprehensive health care services to the 
children in foster care in the District of Columbia. The 
arrangement allows for this vulnerable population of children 
to be evaluated and treated in a child-friendly pediatrics 
specific environment and provides for support, information and 
navigation of the complex systems of care for foster parents 
and their foster children. There is no paper work to complete 
and no cost to the foster parents of child. All children under 
the age of 21 and under the care of CFSA living with a foster 
family or in a group home are eligible for enrollment in the 
program.
    The agreement between CFSA and Children's Hospital provides 
coordination of ongoing healthcare services for children in 
foster care. First a child is brought to Children's DC KIDS 
assessment center for an initial screening before their first 
foster family placement. This initial screening is done by 
dedicated staff who complete a medical portfolio on each child 
before certifying that they are healthy enough for placement to 
a foster home. In addition, each time that a child's placement 
is disrupted, they return to Children's for a new assessment 
before being sent to their new placement.
    The child is enrolled in DC KIDS at the time of the initial 
assessment. Within 10 days, the DC KIDS program arranges for a 
comprehensive physical examination and a mental health 
evaluation to identify necessary services for the child and 
family. These may include early and periodic screening, 
diagnosis and treatment of illnesses, inpatient specialty care, 
and prescription services. From that point forward, the DC KIDS 
staff assists the foster families in navigating the complex 
health care system to provide for ongoing treatment for their 
foster child, everything from scheduling and confirming 
appointments to arrangement of transportation for specialty and 
follow-up services. The DC KIDS outreach coordinators are 
available to educate foster parents, social workers, in-service 
providers.
    We are again, very proud of the relationship that we've had 
in the DC KIDS program, and I'd like to just quickly talk about 
some of our successes since taking on the program. We each feel 
that we've come a long way since our first days on the job with 
DC KIDS. We have increased enrollment by over 400 percent. When 
we first assumed the program, there were less than 1,000 
children actively enrolled in the program; now we care for over 
4,000. Since May 2001, we have had 3,053 children come through 
our assessment center, and 1,870 children have returned for 
visits due to a disruption in their placement.
    We're also proud of the new technology we've developed to 
make the process easier for social workers. We provide computer 
terminals for the social workers on-site with all their 
required forms online and readily accessible to them. This way 
they can make productive use of their time while waiting for 
their child's medical assessment to be completed. And we get 
the information we need to accurately enroll the children in 
the program. We work very hard to minimize the time that the 
social worker spends on this process, reaching our goal of 90 
percent or more of the cases triaged in less than 2 hours by 
July 2002.
    Also, upon our assumption of the program, Children's also 
requested the creation of a new system to provide foster 
families with the prescriptions and other pharmaceutical items 
they needed in order to care for their children once they left 
our care. Working with CFSA, we developed a new electronic 
prescription pad that creates a voucher that is now accepted at 
a network of pharmacies throughout the city, allowing families 
to have 24-hour access to prescription services.
    These are just a few of our achievements with the program. 
At this point I would like to turn it over to Dr. Wright, who 
can address some of the challenges and our vision for the 
future.

                     STATEMENT OF DR. JOSEPH WRIGHT

    Dr. Wright. Again, Senator, we would like to thank you for 
allowing us to testify this morning. Jackie has already told 
you about some of the successes that we have achieved in the 
first almost 2 years of involvement with this program and I 
will address some of the specific challenges that we face.
    One that you have heard repeatedly this morning is in the 
area of mental health. This is a struggle citywide due to the 
lack of capacity for mental health services. There are simply 
not enough providers, beds and programs to adequately serve the 
children in this region, and not just the kids enrolled in DC 
KIDS, but for all children. As you might imagine, the DC KIDS 
population is especially vulnerable in this area. More than 50 
percent of these children require some type of mental or 
behavioral health intervention, and most on a ongoing basis.
    Children's Hospital has a 12-bed inpatient psychiatric unit 
which cannot absorb all the needs of this population. Further, 
our facilities are not equipped with the quiet rooms and 
restraints necessary to primarily treat severely mentally ill 
and out of control patients. As a result, we have tried to 
establish partnerships and collaborations with other community 
providers to whom we can refer DC KIDS when we are unable to 
primarily provide services. In this regard we serve as the 
coordination point, managing the care that these children 
require.
    The same situation exists with dental services. There is a 
nationwide shortage of pediatric dentists and we feel the 
shortage in the District as well. Many of the DC KIDS requiring 
dental care are children with special health care needs and 
must be seen by dentists who are appropriately trained. In 
order to address this problem, Children's has purchased half 
the time of two pediatric dentists who work at Sharpe and Mamie 
D. Lee, the District's two public schools dedicated to the 
special needs population. These dentists are dedicated to 
provide dental services to our DC KIDS population. While this 
arrangement has helped, it is insufficient.
    Let me address briefly court-ordered mental treatment. 
Children's works hand-in-hand with the judges in the Family 
Court to ensure appropriate health care services are provided 
to this vulnerable population. However, there are no better 
advocates for these children than the judges. Their 
sensitivities to these children's needs demand their strict 
attention, which they provide. However, a growing concern for 
our institution and the DC KIDS program is the amount and 
nature of court-ordered medical treatment that we are 
experiencing.
    As cases are adjudicated, specific medical treatment or 
therapy is frequently ordered without any physician 
consultation. As the medical provider for these children, we 
are forced to comply with the court order even if it is 
medically inappropriate. Unfortunately, such court-ordered 
referrals are continuing to grow. From October 2002 to April 
2003, the number of court-ordered outpatient referrals grew 
from 10 percent of our referrals to nearly 20 percent. We have 
begun to educate the judges about the difficulty of these very 
specific orders for medical care, but we have a long ways to 
go.
    Now, I want to make it very clear. We realize that the 
judges are passionate advocates for these children. In the best 
interests of these most vulnerable kids in our population, we 
simply feel that it is our obligation to help educate all 
involved in their care, including the Family Court, about the 
best ways to work together.
    Lastly, an internal challenge that we face is the 
appointment no-show rate. In some areas, this is as high as 50 
percent. Even though we coordinate transportation services for 
these families, it does not help. This results in a negative 
domino effect. Children are not getting necessary care, 
frustrated physicians who block out sessions to treat DC KIDS 
only to have none of them show. The problem is then compounded 
by other needy children in the community who may be waiting 
several weeks for an appointment.
    Now at Children's Hospital we continuously strive to make 
things better, and I would be remiss if we didn't offer some 
ideas and potential solutions for the problems that I have 
identified. Jackie has already alluded to our ideas in the area 
of information technology and we envision an assessment program 
that will be a model for the rest of the country. This 
assessment process will build on the foundation already 
established.
    The first step will be complete integration of the CFSA 
computer system with our system in the DC KIDS program. 
Currently, as we enroll children at the time of their initial 
assessment, this often occurs before CFSA has confirmed 
placement. As a result, it requires a DC KIDS staff member to 
contact the social worker or CFSA to locate the child in order 
to make their follow-up appointments. This causes a tremendous 
bottleneck in waiting for the address and contact information. 
If we were fully integrated with the CFSA system, we could 
simply log on to the child's file and see the placement 
immediately after it is entered into the system by the social 
worker. This would save immeasurable time.
    We also envision a program that makes health care for 
foster children as accessible as possible to the foster family. 
Transportation is one of the biggest barriers for our foster 
families, and we know that it contributes substantially to the 
aforementioned no-show rate. We believe that if we owned a DC 
KIDS shuttle and driver that were dedicated solely to providing 
transportation to foster families and children for their 
appointments, more foster children would receive their care in 
a timely manner.
    I have already mentioned our dental facilities. Currently 
we do not have the facilities or space to cover all the needs 
of children at Children's Hospital. We are land-locked and do 
not have room for expansion. Our vision for the future, 
however, includes a system of community-based partners to 
provide all services needed by the DC KIDS children. We are 
making strides towards that goal with the recent awarding of a 
State innovations grant from the Department of Health and Human 
Services that we will be implementing in conjunction with the 
D.C. Department of Health to develop state-of-the-art 
community-based dental programs at the District's two special 
needs schools.
    Lastly and clearly the most difficult clinical element in 
managing the DC KIDS program is the mental health capacity 
issue. The number of patients seeking acute care for mental 
health problems has exploded at our institution over the past 2 
years. The volume for such crisis has more than tripled since 
the closure of the emergency psychiatric facility on the campus 
of D.C. General in 2001.
    Because of the aforementioned physical limitations at our 
institution, we know that we must develop partnerships with 
other community providers, but there are some things that can 
be done immediately as well. For example, we are planning new 
programs to operate a mental health urgent care center at 
Children's Hospital in the evenings and on the weekends. We 
believe this will help alleviate some of the strain that is 
being felt by our emergency department. We believe this mental 
health urgent care center will help to redirect patients 
currently occupying beds in the ER that are needed for children 
with medical and surgical emergencies.
    Our proposal is currently being considered by the D.C. 
Department of Mental Health and they have agreed to provide 
funding for a psychiatric social worker. However, ideally, 
funding is needed to support three social workers, a security 
guard, a disposition staff, and one full-time position in order 
to properly support such a program. Above all, the DC KIDS 
population needs stability. What is best for these children is 
a comprehensive health system that addresses their emotional, 
medical and educational needs.

                           PREPARED STATEMENT

    It is critical that they involve stable foster families and 
consistency among providers when they seek this treatment. 
Children that face disruption in placement as well as 
fragmented medical care will have their baseline problems 
further compromised.
    I would like to thank you for the opportunity to testify 
and will be happy to answer questions at the end of the panel.
    [The statement follows:]

    Prepared Statement of Jacqueline D. Bowens and Dr. Joseph Wright

    Mr. Chairman, thank you very much for the opportunity to address 
the committee today about our role in caring for the children in 
Washington, DC's foster care system. I am Jacqueline D. Bowens, Vice 
President of Government and Public Affairs at Children's Hospital. 
Joining me today is Dr. Joseph Wright, who is the Medical Director of 
Advocacy and Community Affairs, as well as the Medical Director of the 
DC KIDS program.

                   BACKGROUND ON CHILDREN'S HOSPITAL

    Children's Hospital is a 279-bed pediatric inpatient facility 
located in the District of Columbia. For over 130 years, we have served 
as the only provider dedicated exclusively to the care of infants, 
children, and adolescents in this region. It is our mission to be 
preeminent in providing health care services that enhance the well-
being of children regionally, nationally, and internationally.
    The Children's system includes a network of five primary care 
health centers located throughout the city, and a number of 
pediatrician practices throughout the region, providing stable medical 
homes for thousands of children. We also operate numerous regional 
outpatient specialty centers in Maryland and Virginia, providing access 
to high quality specialty care right in the communities that we serve. 
We are proud to be the region's only Level I pediatric trauma center.
    Children's Hospital serves as the Department of Pediatrics for 
George Washington University medical school, and runs a highly-
respected pediatric residency program, providing education and 
experience to the next generation of pediatricians, pediatric 
specialists, and pediatric researchers. We also conduct significant 
research within Children's Research Institute, with funds from the 
National Institutes of Health, the Health Resources Services 
Administration, the Department of Defense, and countless private 
funders. Our researchers have received national recognition for recent 
breakthroughs including identification of the gene associated with 
matasticizing brain tumors, and discoveries related to muscle 
development for muscular dystrophy patients.
    Recently Children's Hospital was named as one of the nation's ``Top 
Ten'' pediatric institutions in the country by Child Magazine, based on 
stringent quality and outcomes measures. Our Hemotology/Oncology 
program was ranked fourth in the nation. We are the only such facility 
in the region to receive this honor.
    Locally, we also work in collaboration with the District of 
Columbia Department of Health to operate the District's School Health 
program, employing all the school nurses in the public schools, 
including 21 charter schools. And we are very proud of our affiliation 
with the District's Child and Family Services Agency (CFSA), in which 
we work in conjunction to operate the medical program for children in 
foster care called DC KIDS.

                   BACKGROUND ON THE DC KIDS PROGRAM

    The District of Columbia Kids Integrated Delivery System (DC KIDS), 
is a collaborative effort between CFSA and Children's Hospital to 
provide comprehensive health care services to the children in foster 
care in the District of Columbia.
    The DC KIDS program was first established by CFSA as a medical 
management model. The initial contract went to the former Public 
Benefits Corporation and DC General Hospital. Prior to the closure of 
DC General Hospital and the PBC in early 2001, CFSA approached 
Children's to absorb the program on an emergency basis ``as is,'' with 
the intent of eventually establishing a more formal long-term 
relationship--which we did. Children's assumed the DC KIDS program on 
May 1, 2001 after a rapid transition. Our current agreement runs 
through December 31, 2003.
    The arrangement allows for this vulnerable population of children 
to be evaluated and treated in a child friendly, pediatric-specific 
environment. It provides each child with a continuous and coordinated 
system of services. DC KIDS supports, informs and navigates the complex 
systems of care for foster parents and their foster children. There is 
no paperwork to complete, and no cost to the foster parent or child. 
All children under 21 years of age and under the care of CFSA, living 
with a foster family or in a group home, are eligible for enrollment in 
the program.
    The agreement between CFSA and Children's Hospital provides 
coordination of ongoing health care services for children in foster 
care. First, a child is brought to the Children's DC KIDS assessment 
center for an initial assessment, before their first foster family 
placement. This initial screening is done by dedicated staff who 
complete a medical protocol on each child before certifying that they 
are healthy enough for placement into a foster home. In addition, each 
time that a child's placement is disrupted, they return to the 
Children's for a new assessment before being sent to their new 
placement.
    The child is enrolled in DC KIDS at the time of the initial 
assessment. Within 10 days, the DC KIDS program will arrange for a 
comprehensive and thorough physical examination and a behavioral/mental 
health evaluation. Once completed, necessary services for the child and 
family are identifed, such as:
  --early and periodic screening
  --diagnosis and treatment of illnesses
  --dental services
  --immunizations
  --eye care
  --hearing services
  --mental health services
  --substance abuse services
  --developmental services
  --in-home services
  --inpatient and specialty care
  --prescription services
    From that point forward, DC KIDS assists the foster families in 
navigating the complex health care system to provide for ongoing 
treatment for their foster child. The DC KIDS team schedules and 
confirms appointments, and arranges for families to receive care at the 
Children's Health Center and therapists located in close proximity to 
their neighborhoods. When that is not possible, the staff arranges for 
transportation--this occurs most often for specialty and follow-up 
services. DC KIDS outreach coordinators are available to educate foster 
parents, social workers and service providers by answering questions 
about enrollment and eligibility.

                             OUR SUCCESSES

Increased Enrollment
    We at Children's Hospital feel that we have come a long way since 
our first days on the job with DC KIDS. We have increased enrollment by 
over 400 percent. When we first assumed the program, there were less 
than 1,000 children actively enrolled in the program--we now care for 
over 4,000. Since May 2001 we have had 3,053 children come through our 
assessment center, and 1,870 children have returned for visits due to a 
disruption in their placement.

Enhanced Technology
    We are proud of the new technology we have developed to make the 
process easier for the social workers. We provide a computer terminal 
for the social workers on site, with all their required forms on line. 
This way they can make productive use of their time while waiting for 
the child's medical assessment to be completed, and we get the 
information we need to accurately enroll the children in the program. 
We have worked very hard to minimize the time that the social worker 
spends in this process, reaching our goal of 90 percent or more of the 
cases triaged in less than 2 hours by July, 2002.

Pharmacy Vouchers
    Upon our assumption of the program, Children's also requested the 
creation of a new system to provide foster families with the 
prescriptions and other pharmaceutical items they needed in order to 
care for these children once they left our care. Working with CFSA, we 
created a new electronic prescription pad that creates a ``voucher'' 
that is now accepted at a network of pharmacies throughout the city--
allowing our foster families to receive both prescription and over-the-
counter products for their new foster child.

                           DC KIDS CHALLENGES

    While we are very proud of these achievements, we acknowledge that 
there is so much more that needs to be done to overcome the challenges 
that Children's, CFSA, and the entire system faces.

Mental Health
    One challenge that is a struggle city-wide is the lack of capacity 
for mental health services. There simply are not enough providers, 
beds, services and programs to adequately serve the children of this 
region--not just children enrolled in DC KIDS, but for all children.
    The DC KIDS population is a very vulnerable one. More than 50 
percent of these children require some type of mental or behavioral 
health service, most on an ongoing basis. Children's Hospital has a 12 
bed inpatient psychiatric unit, which cannot absorb all of the needs of 
this population. Children's Hospital does not have the facilities such 
as quiet rooms and restraints that are needed to treat the severely 
mentally ill; patients needing that type of care must be treated 
elsewhere. As a result, we have tried to establish partnerships and 
collaborations with other community providers to refer our DC KIDS 
population when we are unable. We serve as the coordination point, 
because we simply cannot provide all of the services needed. More of 
this collaboration needs to be done.

Dental Services
    The same situation exists with dental services. There is a nation-
wide shortage of pediatric dentists, and we feel that shortage in the 
District as well. Many of the DC KIDS that need specialized dental care 
are ``special needs'' children, and must be seen by a dentist that is 
appropriately trained. In order to address this problem, Children's has 
purchased half the time of two pediatric dentists who work at two of 
the District's special needs schools. These dentists are dedicated to 
provide dental services to our DC KIDS population. While this 
arrangement has helped, it is insufficient.
    One recent strategy has developed with the award of $450,000 in 
funding from the Department of HHS, through a State Innovations Grant 
to the District of Columbia. The District was one of five states to 
receive this grant, which is intended to spur states into finding new 
and innovative ways to improve access to health care. Children's 
partnered with the DC Department of Health to create a program with two 
state-of-the-art dental clinics in schools for children with special 
health care needs. The centers will use telemedicine tools to link 
patients with pediatric dentists and hygienists. This will allow us to 
focus on the provision of dental services to the most vulnerable 
children, a population which includes many foster children. It is one 
step towards a comprehensive ongoing strategy in this area.

Focus on Young Children
    Another challenge that Children's faces with this population is the 
orientation of our facility primarily on younger children, as the only 
acute care facility solely dedicated to pediatrics in this region. 
Although we are licensed to treat patients up to age 21, and do so, we 
have met challenges in providing for the unique needs of the older DC 
KIDS population. As with mental health, to meet this challenge, we have 
had to build partnerships and collaborations with outside community 
providers, serving as the coordinator of those services instead of the 
primary provider.

Court-ordered Medical Treatment
    Children's works hand-in-hand with the judges and the Family Court 
to assure appropriate health care services are provided to this 
vulnerable population. There are no better advocates for these children 
than the judges. Their sensitivities to these children's needs demand 
their strict attention, which they provide. But a growing concern for 
our institution and the DC KIDS program is the amount and nature of 
court-ordered medical treatment. As these cases get adjudicated, often 
times a specific medical treatment or therapy will be ordered without 
any physician consultation. As the medical provider for these children, 
we are forced to comply with a court order, even if it is medically 
inappropriate for the child. Our physicians have great difficulty in 
treating a child in a manner they feel in unnecessary, regardless of 
whether the court has ordered it or not. For example:
  --It is common to receive an order to admit child for an inpatient 
        psychiatric stay for a specified number of days. The child may 
        not need to be admitted for that period of time--they may be 
        appropriately released in half the time. But because of the 
        order, the child may be required to remain in the inpatient 
        psychiatric unit for the full number of days prescribed in the 
        court order. These types of social admissions are not always in 
        the best interest of the child.
  --Another example is a court order for occupational therapy within 14 
        days. But an occupational therapist cannot treat a child 
        without a physician's order. So DC KIDS must first arrange a 
        visit with a physician for an evaluation before an appropriate 
        occupational therapist can be scheduled. It is usually 
        extremely difficult to accomplish this within the short time 
        frame usually ordered by the courts.
    Unfortunately, such court-ordered referrals are continuing to grow. 
From October, 2002 to April, 2003, the number of court-ordered 
outpatient referrals grew from about 10 percent of our load to nearly 
20 percent. We have begun to educate the judges about the difficulty of 
these very specific orders for medical care, but we have a long way to 
go.
    We want to make it very clear--the judges are passionate advocates 
for these children. They demand the very best of service and care, with 
the children as their number one priority. Our task is to educate CFSA, 
the judges and the Family Court, social workers and families about the 
best ways to work together.

Transportation Problems
    Another internal challenge we have with this population is the high 
rate of ``no-shows'' we encounter. We make every effort to expedite and 
facilitate appropriate medical care for these very vulnerable and needy 
children--but it is to no avail if the foster family does not bring 
them to their appointments. Even though we coordinate transportation 
services for them, it often does not help. The result is a negative 
domino effect: children, who are not getting necessary medical care; 
frustrated physicians, who block out entire days or afternoons to treat 
this population, only to have none of their appointments show up; and 
other needy children in the community who may be waiting several weeks 
for an appointment. We've got to find a better way.

                       OUR VISION FOR THE FUTURE

    At Children's Hospital we continually strive to make things better. 
We have ideas and solutions for which we are searching for ways to 
implement.

Information Integration
    We envision an assessment program that could be a model for the 
rest of the country. This assessment process would build on the 
foundation we have created. The first step would be complete 
integration with the CFSA computer system.
    Right now, when we enroll the children at the time of their initial 
assessment, often this is before CFSA has confirmed their family 
placement. This requires a DC KIDS staff member to contact the social 
worker or CFSA to locate the child in order to make their follow-up 
appointments and comply with the 10-day window to complete the physical 
and mental health assessment. Waiting for address and contact 
information creates a major bottleneck in the system. If we were fully 
integrated with the CFSA system, we could simply log into the child's 
file and see the placement immediately after it is entered into the 
system by the social worker. It would save immeasurable time.
    In addition, integration would eliminate duplication of effort. 
Right now, we keep the medical records and CFSA keeps the complete 
record. The medical information gets entered in at Children's, and then 
has to be manually re-entered into the CFSA system. Placement 
information gets entered into the CFSA file, and then has to be 
manually re-entered into the medical record. There is a lot of 
exchanging of information and data that could be completely eliminated 
if the two systems were integrated.

Dedicated Transportation Service
    We also can envision a program that makes health care for foster 
children as easy and convenient as possible for the foster family. 
Transportation is one of the biggest barriers for our foster families, 
and we know that it contributes substantially to our ``no-show'' rate. 
If a foster parent is unable to get the foster child to a scheduled 
appointment, it is a delay in care for that child. Although the DC KIDS 
program helps make transportation arrangements, it is an ongoing 
problem. We believe that if we owned a DC KIDS shuttle and driver that 
was dedicated solely to providing free transportation for foster 
families and children to their medical appointments, more foster 
children would receive their care in a more timely manner.

Education and Training
    We also believe there would be great benefit and improvement of the 
system if there were opportunities for outreach and education--to 
families, to judges, to social workers, and other partners who touch 
the lives of these children. Annual training for all these groups, we 
are certain, would go a long way.

Mental Health Models
    One of the most difficult pieces of this is the mental health 
capacity issue. Because of our physical limitations at our institution, 
we know that we must develop partnerships with other community 
providers. But there are some things that could be done immediately as 
well. For example, we are planning to pilot a new program to operate a 
mental health urgent care center at Children's Hospital for nights and 
weekends. It would be housed in the outpatient psychiatric department 
as a mental health urgent care center in the off hours. We believe this 
will help alleviate some of the strain that is being felt by our 
emergency room. When St. Elizabeth's closed, we were told to anticipate 
an increase of about 10 percent in our emergency room. Instead, 
emergency room visits for mental health crisis have tripled in the last 
ten months. We believe this mental health urgent care center will help 
to redirect patients that are currently occupying medical/surgical beds 
in the emergency room that are needed for children with physical 
issues. Our proposal is currently being considered by the DC Department 
of Mental Health, and they have agreed to provide funding for one 
social worker. But the rest we are scraping together for this pilot, to 
see whether or not it would be beneficial for the patients and for the 
facility. Ideally we need funding for three social workers, a security 
officer, a disposition staffer, and one full-time physician to operate 
an ideal program.
    We also would support the expansion of the DC Department of Mental 
Health 24-hour access help line and mobile teams. This would allow 
patients to contact DMH directly, and receive care right in their 
community. Not every child needs to come to the hospital--they do now 
because that is the only place they know to get services. But expansion 
of community services like the mobile teams could be very helpful.
    Another component that is lacking for the DC KIDS population is a 
day treatment program. Often a child is not in need of hospitalization, 
but they also need more structure and care than weekly therapy. A day 
treatment program is a structured ``in-between'' step that could be 
very valuable for those children who are in between hospitalization and 
less rigorous treatment they can receive in the community.
    Above all, the DC KIDS population needs stability. They come to us 
with developmental issues, and problems with attachment and trust. What 
is best for this kind of vulnerable population is a comprehensive 
mental health system that addresses their emotional, medical, and 
educational needs. It is critical to have the involvement of stable 
foster families, and consistency with the providers that they see for 
treatment. Those children that face disruption in their placement, 
coupled with fragmented care that shuffles them from provider to 
provider, only worsens their problems with attachment and trust. 
Stability is key.
    Children's hopes to utilize current research that suggests more 
targeted cognitive behavior psychotherapy, carefully re-evaluated every 
3-4 months, will lead to better outcomes--better resilience, better 
social skills, and better adjustment in the future.

Dental Care
    Our current facilities will not cover all the dental needs of the 
children. We are land-locked, and have no room for expansion. Our 
vision of the future of dental services includes a system of community 
based partnerships to provide all the services needed by DC KIDS 
children.
    Thank you very much for the opportunity to testify before you 
today. We are very proud of our efforts in caring for this vulnerable 
population, and look forward to even greater successes with the DC KIDS 
program in the future.
    We would be happy to answer any questions you may have.

    Senator DeWine. Doctor, thank you very much. Mr. Miller.

STATEMENT OF DAMIAN MILLER, STUDENT, HAMPTON UNIVERSITY
    Mr. Miller. Good morning, Senator Landrieu and Senator 
DeWine, and distinguished guests, for the privilege of allowing 
me to address the committee on concerns that I have and things 
that need to be improved, as well as the positives of the D.C. 
foster care program. First, let me say, my name is Damian 
Miller. I am a rising senior at Hampton University. I have been 
part of the D.C. foster care program since the age of 7 on and 
off. I have had a very unique experience, to say the least, 
with some positives and some negative things.
    First, let me focus on the areas that I feel need 
improvement, starting, I would like to say that I think the 
training for many parents should be more intense and with this 
training, I think that there should be an emphasis on treating 
the kids like they are part of the family. I know in many homes 
that I have been in, I found that things like family picnics, 
we were not included in. Also, other youths of my age were not 
included in things like that, simple things like allowing the 
kids to play with other kids in the house and use the 
refrigerator, and just do things that are part of the family. I 
think that is definitely essential and a part of making them 
feel like they are in the family and that you really care about 
them.
    Also, I think that the training should encourage the 
parents to attend PTA meetings and reward you for good behavior 
and, you know, academic achievement. I feel that I was always 
punished when I did bad, but when I came home with good grades, 
I wasn't rewarded, and I think that with any child, you should 
definitely reward them, you know, not just always hound them, 
and I think that should be an important part of the training.
    Also, I think it's important that we rid the system of 
parents that are in it for the money. I think that there are 
many parents that I have been with that I feel are definitely 
in the system, you know, for a check. And even good foster 
parents, I remember being in good foster homes, and I would 
have good parents, but the fact that the agency would allow 
them to bring in three or four extra kids, they were doing a 
good job with me but when you brought in three or four other 
kids, I mean, can they really handle that? And it definitely, 
you know, played a negative effect on my placement with them.
    I think that workers should make sure that the funds are 
actually used for the kids. A lot of the clothing allowances 
and things of that nature, I missed out on, and other youth 
that were in the home with me, they didn't receive adequate 
funds to go clothing shopping, an allowance, you know, and 
teaching them good economics, that wasn't something that was 
taught to me in these homes. And I think social workers should 
really go out of their way to make sure that these funds are 
really being used to better the youth and not just for the 
parents.
    And part of that, I think that there should be a limit on 
how many kids that a person can get, and not just based upon 
home size. Just because they have four bedrooms, you know, 
doesn't mean that they should have four or five or six kids. It 
should be based upon, you know, are they working well with two 
kids, you know, should you put this third kid in. I think that 
that's something that should be looked at and not just the size 
of the house.
    Also, I think that recordkeeping is something that's very 
important, and I know one of the panelists touched on that. 
Social Security cards, birth certificates and things of that 
nature, I cannot tell the committee how many times I have tried 
to apply for summer jobs and things of that nature, and a 
simple copy of my Social Security card could not be found or a 
birth certificate or things of that nature. I think vital 
recordkeeping is essential and definitely something that needs 
to be improved within CFSA.
    I think that one thing that should be expanded is family 
visitation time. Agencies like For Love of Children provide 
once-a-month time when foster kids are allowed to see their 
parents. I think that that's a very positive thing and I think 
that should be expanded to all agencies, because as Senator 
Hillary Clinton's book says, it takes a village to raise a 
child, and I think their families should be included in that 
village.
    I think that helping better the relationship with the 
families is definitely a must. I think that these sessions were 
always great to me because I would meet uncles and cousins that 
were coming, encouraging me with better grades, and like I 
said, I think the visitation thing is very important and should 
be expanded.
    The positive areas that I think should be expanded and the 
great improvement I have seen, programs like CFSA's Keys for 
Life has been extremely positive for me. In this program youth 
are encouraged to excel academically and given money to pursue 
a higher education. Like I said, it has been a very positive 
experience, and in fact I would call it the most positive out 
of my years in the D.C. foster care system. It has given me an 
unbelievable opportunity to attend college and definitely 
encouraged me along with many other youths to better ourselves 
and our future.
    The first semester at Hampton University during my freshman 
year I didn't do so well, and Keys for Life really stayed on me 
and kept me focused to better myself, and since then, I'm a 
rising senior now and I have been on the dean's list ever 
since. So programs like Keys for Life are definitely essential 
and a great way to help youth.
    I think that one thing I have seen improvement in over the 
years is that social workers today are not as swamped with 
caseloads like they used to be when I first came into the 
system. It was very hard to even talk to my social worker, but 
now that's something that has improved and I think that it's 
critical that it improves even more, because when you have a 
social worker that's not swamped with caseload, they can give 
the youth individualized attention which definitely is always a 
positive.
    And I think something that's also important is mentors. I 
have had mentors over my years in CFSA and they have helped me 
a great deal, and I think that should be something that should 
be mandatory for all youth if possible, that they be given a 
mentor or someone to look up to and provide guidance to them.
    And also, lastly, I would like to mention programs like the 
Orphan Foundation. Providing internships on Capitol Hill for 
youth this summer, CFSA will be providing internships because 
of the Orphan Foundation, and programs like that are positive.
    Thank you for allowing me to come and testify.
    Senator Landrieu [presiding]. Thanks to all the panelists 
today for coming here and presenting well-put-together 
presentations, and for concentrating on some of the positive 
efforts that are being made, and still being forthright in 
pointing out some of the weaknesses that still need to be 
addressed.
    Senator DeWine will be back with us. He had to make a 
quorum for another committee, but he does have questions, so I 
will take the first round and he will be back shortly.
    Damian, just start with you. For the record, if you can 
remember, how many foster care placements and social workers 
have you had since the age of 7?
    Mr. Miller. Sure. Approximately nine placements and maybe 
eight to nine social workers also.
    Senator Landrieu. Okay. I wanted to get it on the record 
and I want to thank Damian for being here and sharing his 
experience and his commitment to advocate for the 9,000 
children or so that are within the universe of this discussion 
this morning, and as well as the 500,000 children in the 
country today that are in the foster care system. Without 
leaders like Damian, we would have an even harder time trying 
to figure out some of the solutions. Obviously one of the goals 
of our work is to try to achieve one placement, at the most two 
per child and one social worker for each child, to give him or 
her the consistency over time. There will be turnover, so one 
is not always going to be possible, but that ideally would be 
our goal, one case worker, one placement, one judge, one 
permanency plan, and that is what I would like us to keep in 
mind as we think about Damian's future and how hard he has 
worked and how much he has achieved under these difficult 
circumstances.
    Senator DeWine and I are very pleased to be part of the 
agencies and offices that will be offering internships. Damian, 
I might specifically request you, since I have met you now, but 
we are not supposed to pick our young people for the summer. 
But both Senator DeWine and I look forward, given our 
experience this last summer, of having these interns come into 
our office.
    Let me ask just a couple of questions. One, there are so 
many, but one I would like to pursue is this seemingly model 
that's developing here with Children's Hospital. Ms. Sandalow, 
I think the car accident analogy that you referred to is an 
excellent one. We would not leave a family involved in a car 
wreck on the highway and not give them immediate attention. 
This is exactly the same kind of thing that happens when there 
is basically a breakdown or a wreck in a family, and that 
emergency care, the first 24 to 48 hours is crucial for the 
health and development of either that group of individuals or 
one individual that has been the victim of such an accident. It 
seems as though we're developing a fairly good model here with 
Children's Hospital and with DC KIDS to do that early 
evaluation.
    My question is, you were saying that you have seen 4,000 
children. I think there are 9,000 in the universe. Am I looking 
at the right number? What is preventing, or what is stopping 
the system or slowing it down for all the children that are 
removed from the home to get to this evaluation center where a 
lot of wonderfully good things could be done in the first 24 or 
48 hours? Medical records could be compiled, an evaluation 
could be conducted, a social worker or case worker could make a 
fairly quick assessment of the appropriate temporary placement, 
preferably a kinship placement, which is what we always like to 
reach to, a kinship placement or a neighbor, until an 
appropriate maybe interim placement can be made, and then the 
work begins to try to move that child either back to 
reunification with the family, or on to a permanent adoption. 
In the new Federal law it refers to temporary foster care of no 
more than 18 months.
    So let's talk about what might be a barrier for setting 
that as a model, maybe Miss Bowens and all of you could 
comment. Is that the model we're trying to achieve, and what 
are the barriers?
    Dr. Wright. Let me just start by saying the point of entry 
for children into the DC KIDS program is either an initial or a 
change of placement, so that the universe of children who are 
in stable homes and represent perhaps the 5,000 that represents 
the gap between the 4,000 that we have enrolled and the 
universe of children, are not accessible to us through the DC 
KIDS model. However, let me also say that the full universe of 
children in foster care is a population in which we are very 
interested and would very much like to access those children 
for the purposes of some of the things that Damian has 
validated for us, which is very encouraging to see, to hear, 
that we're interested in education, we're very much interested 
in mentorship and working with the families in the foster care 
system, the entire foster care system and not just the ones 
that enter into the DC KIDS program because there has been a 
change in placement.
    And one of the barriers that I alluded to in my testimony 
was from the standpoint of information technology, we have 
access only to the kids in the DC KIDS database, and there is 
not an interface there.
    Senator Landrieu. Thank you for your clarification. Did I 
understand you correctly that after the initial placement that 
every child that has come into the D.C. system has to be 
evaluated at your center?
    Ms. Bowens. No. We only have access to the children since 
we assumed the program, and that would only be under the 
assumption that they were still in the homes that they were in 
when they first came into our care. Any children that have been 
enrolled prior to, we don't have access. The bottom line is 
that we don't have the information on the foster care family. 
What would be great is actually to have the list of all the 
foster care families, so that we could outreach to them and 
provide them with information and education about DC KIDS. For 
example, issues about Medicaid numbers and things like that, 
many of the families are not even aware that the program 
exists. So if we had access to them and were able to educate 
them, some of the things that were mentioned earlier probably 
could be minimized.
    Senator Landrieu. I may be misunderstanding, maybe I heard 
the testimony wrong, but I'm trying to determine when the car 
accident occurs, are the children in the car accident brought 
to you?
    Ms. Bowens. No.
    Senator Landrieu. That's what I'm trying to figure out. I 
thought you testified that was an early initial evaluation.
    Ms. Bowens. No. When children first go to CFSA, then CFSA 
will bring, the social worker will bring children to Children's 
Hospital for an initial assessment.
    Senator Landrieu. Right, an initial assessment sometime 
after that car accident.
    Ms. Bowens. Yes, exactly. I'm sorry. Very, very quickly, 
within 24 hours, those children will come in for an initial 
assessment. We don't have any idea of where they're going, it's 
just kind of the social worker is there with them, we'll do an 
initial assessment just to make sure that they are healthy 
enough to be placed. We then work diligently to work with CFSA 
to find out where those families are then located, so that we 
can provide their follow-up primary care visit and a mental 
health evaluation.
    Senator Landrieu. But in that stop, do you do a 
comprehensive evaluation of the child's general situation so 
that you could provide foster parents with some meaningful 
information about a general initial evaluation of their 
physical health, maybe some of their initial experiences, the 
reasons they were--you know, a packet that would be helpful to 
what Mrs. Egerton said about having some information as a child 
comes into a foster care home, do you provide this information?
    Ms. Bowens. We don't, we would love to. I mean, we have 
actually reached out to the agency, because many of our 
physicians get extremely frustrated because the children come 
in, we have no medical record information, no background 
information, so we are not poised right now to be able to do 
that, because like many of the other panelists have said, we're 
chasing after information to be able to make those appropriate 
assessments. But our initial assessments when they first come 
in, again under that label of assessment, are to just make sure 
that the child is healthy enough to be placed, and then we 
provide the follow-up comprehensive evaluation. But then the 
struggle there is, we don't have the requisite information.
    Senator Landrieu. It's a very limited evaluation of the 
child.
    Ms. Bowens. The initial, that's correct.
    Senator Landrieu. Ms. Sandalow, would you like to comment, 
or Miss Egerton, if we could help develop this system, would 
that be helpful? We want to create systems that are simple, 
streamlined and work, and not add any other bureaucratic 
layers. Can you comment on that system as it exists today and 
what you would like to see?
    Ms. Egerton. Well, that actually happens prior to the child 
being placed with me. It would be divine, and we have been 
fighting for a very long time to get adequate information on 
our children when they come to us. The realities though, in all 
fairness to CFSA, is that they're chasing down the information 
as well. When they go into a home to take a child out in the 
middle of the night and the parent is in opposition, the parent 
isn't standing there saying, well, wait a minute, let me get 
you the Social Security card and Medicaid card. That doesn't 
happen, and so CFSA is chasing the information down also.
    The evaluation happens before the child is placed with me, 
so I really can't speak to the evaluation itself, but we would 
like a situation where they go to that evaluation and from that 
evaluation come to us with a full medical screening, with a 
mental health evaluation, with all of the pertinent medical and 
mental health information available to us, absolutely. And if 
we can figure out a way to do that, that would be beautiful.
    Ms. Sandalow. But we need the combination of the medical/
mental health screening. We need adequate social worker 
resources at the very beginning to pull that together. The 
Foster and Adoptive Parents Advocacy Center, which I'm proud to 
be on the board of, has done an extraordinary job in their 
efforts to put together the concept of a placement passport, 
which would carry that information. If a child comes to your 
home who is HIV-positive, we want to know so we can give 
adequate medication. That has been a struggle.
    So there is a medical and mental health piece that comes, 
but there are also things as simple as has the child been in 
the system before. It is common for a child to be returned home 
and then he will come to you 2 years later and you are not told 
that. My own children have been in and out of care twice. It 
took 2 years for me to figure that out, until they were 
emotionally able to unlock that. I didn't learn it from CFSA. 
Those kinds of records could be pulled in.
    And I think most important is to focus CFSA on adequate 
social worker resources in the first few days, to pull together 
family. We had a case recently where we represented a child who 
had been living half-time with her father in a normal split 
custody situation and CFSA did not know that there was a father 
involved. And we figured it out and we had to tell them. So 
here's a child who could have moved straight to her father, and 
it took an outsider to tell. So that kind of intensive 
interview of the family members and the neighbors, and a family 
caucus, it is a model being used around the country.
    Senator Landrieu. I would like to follow that up for a 
minute. I know Senator DeWine has questions, but I think this 
is a very important component to obtain this initial placement 
assessment by getting the general information from family and 
neighbors, so an accurate assessment can be made. The hospitals 
need this, the foster care parents need this, and the judges 
need this information eventually so that they can make good 
determinations for the children.
    Could we comment about what exists now? Is there any model 
in the District of that group social worker intensive 
evaluation? If so, where is it working? If not, how could this 
committee help to get that initial assessment, which I think, 
that and the technology piece are the two things that we 
perhaps could be most helpful with.
    Ms. Sandalow. I think that the funding assets should go to 
CFSA as a targeted type of project. I shared my testimony with 
a few people who--yesterday, who said this emergency team, 
shouldn't that be true for every child? And you'd think that 
the goal would be for CFSA to be given some pilot money to 
develop it internally, because obviously our hope is, if it 
works, if they can make it work and they have the funds to do 
it, that they can expand that even more for all the kids.
    I don't think it's happening in any of the private agencies 
right now. Our structure is that when a child comes into the 
system, it is CFSA who touches them first. So I think that they 
need to be focused on that job.
    Senator Landrieu. Let's take one minute, if you would, to 
describe in 30 seconds what this team would look like. How many 
people would be on it, would there be a team leader? Does 
anybody have a comment?
    Ms. Sandalow. I'm a lawyer, so I don't think I'm the expert 
you want, but it is--I can tell you what we do. In essence, we 
step in and act like what we call the SWAT team that we're 
hoping to, and we do it ourselves. And we have one lawyer 
working tirelessly around the clock. I think two or three 
social workers. The important thing is passing the information 
on. That needs to happen. And you can go to hospitals after 
hours and get medical records, we can coordinate that. What 
we're talking about is a team of social workers who have the 
time as well as, and I think this is very important, flexible 
funding.
    I think you mentioned, Senator, we should try to place 
children with relatives. Most of the relatives are not well 
off, they can't absorb extra children in their home without 
some assistance. Grandmothers who may be on SSI are wonderful 
caregivers, but they need some flexible funds to ease the 
transition. So it needs to be social workers with access to 
some flexible funds, access to the resources of Children's 
Hospital.
    Senator Landrieu. Mr. Chairman, could I ask one more 
question, and I want each of you to comment for the record. Do 
you think it would be a wise policy for us to try to put these 
evaluation teams together for the first initial assessment with 
the medical evaluation coming as close to an assessment as 
possible, more comprehensive than just the physical well-being 
of the child to, if we could identify a relative or neighbor, 
to make an emergency 30-day placement based on the 
recommendation of at least two certified social workers, if 
that would be the best, for at least 30 days until we can find 
a more--not to say more appropriate, that may have been a very 
appropriate placement, but a certified foster home, assuming 
none of these relatives have been certified for foster care, 
most of the neighbors are not certified for foster care. But 
yet, they may be the best short-term placement for these 
children until a more--and I want an answer yes or no, a short 
comment, because this is a big issue in trying to loosen up, if 
you want to use the word loosen up, but make a greater pool of 
placement opportunities that would help to ease this traumatic 
time for a child. Or should we stick to the policy of you can't 
place a child unless they're a certified family? Sister.
    Sister Conrad. I would certainly support the idea of as 
much flexibility as possible. The one area that strikes me 
immediately in your question is the notion of neighbor, and in 
many cases this would seem to be appropriate. However, if the 
child is being removed from a dangerous situation, if we're 
talking about the neighbor next door or down the street, we may 
simply be endangering the neighbor as well as the child 
themselves. And so in a very broad sense, yes, but with that 
notion, that our concern is safety in care, that perhaps a 
neighbor would be much further away than down the street.
    Senator Landrieu. Miss Egerton?
    Ms. Egerton. I actually have to agree with that. I think 
that's a real concern for--that's a real concern for foster 
parents. Even trying to keep children in their same 
neighborhood, if the child or children have been pulled out of 
very dangerous situations, and those parents can see that child 
going back and forth to that particular home, it can be an 
issue.
    I think that there needs to be some room left for 
flexibility. It sounds wonderful, right off the top it sounds 
like a wonderful thing, but you would put the agency in a 
position of monitoring unlicensed homes if you do that, which 
brings in a whole other dynamic. And as a foster parent, I 
would say it isn't always a bad thing for that emergency 
placement to come to me. The reality is, I raised six kids to 
adulthood who came to me as emergency placements who were only 
supposed to stay with me 4 weeks, and they stayed with me from 
11 or 12 years old to adulthood. I have one who came in at 17 
and was only supposed to stay a month, who stayed until he aged 
out.
    So, they called me not specifically because I could, you 
know, everything matched up or this was the child I wanted, or 
I matched the needs of the child, or because I would be able to 
answer the phone in the middle of the night. So it's not always 
a horrible thing either. I just think there definitely needs to 
be some room for flexibility.
    Ms. Sandalow. Unequivocally yes, with the additional 
problem that the District of Columbia has, which is a lot of 
those people live in Maryland, so anything that we can do to 
address the problem, because many of our extended families are 
in Maryland.
    Ms. Bowens. Not to be redundant, but I agree. I think that 
that would be great, but I think we do have to retain the 
flexibility because emergencies will happen and we don't want 
to have a situation where we again have a backlog of children 
waiting while we search out neighborhoods and families, and so 
there will be that ongoing need for emergency placement. So I 
think what ultimately the other panelists have said as well, 
but again, we need flexibility.
    Dr. Wright. Just to echo the flexibility mantra, but I 
would also like to address your question about the composition. 
I think that you have alluded to the fact that any such team 
would need to be multidisciplinary, because these children and 
families present with a multitude of issues, and the model that 
I alluded to in regard to emergency or urgent mental health 
assessment is one that suggests the need for several 
disciplines to be involved and a point of contact.
    Mr. Miller. I do agree with the rest of the panelists. I 
feel that if you can place a child in an emergency placement 
with a relative, that would be great, but that relative should 
not be in that community, and they should be--like you talked 
to about the economic burden, maybe grandparents are not able 
to support an extra child and things of that nature. So I think 
that if it's possible and reasonable, I think we should work to 
do that, because that would ease the transition.
    Senator Landrieu. Was there a relative you could have been 
placed with?
    Mr. Miller. I think that with economic help, I think that 
that would have been definitely possible, and it would have 
eased my transition to be with relatives.
    Senator Landrieu. Would you have liked that?
    Mr. Miller. Yes, I would have, Senator. I very definitely 
would have.
    Senator Landrieu. Thank you, Mr. Chairman.
    Senator DeWine [presiding]. Let me apologize to all of you. 
I had to attend another hearing actually, we call it a Senate 
markup, we were moving a poison control bill that we passed out 
of committee just a few minutes ago. So that's where I was and 
now I'm back, so I may ask some of the same questions that 
Senator Landrieu asked, because I obviously did not hear some 
of your answers.
    I would like to get into an area that I know has been 
covered a little bit, and that is the question of Children's 
Hospital contract between, a medical contract between 
Children's Hospital and CFSA, and make sure I understand the 
nature of that contract.
    How do you deal with a child that has a chronic medical 
problem such as, let's say asthma, and how do you know that kid 
has asthma, for example? How does that child get in to you? In 
other words, you know, we know that asthma is a preventable 
problem, and unless that child ends up in your emergency room, 
asthma is something that you try to keep he or she out of your 
emergency room, and if it's something that's severe enough, 
you're dealing with every day, that child is taking medication 
every day. How do you know that child who maybe has been in the 
system for a long time, how do you reach out and get that kid 
in so that kid is being seen by your specialists or whoever he 
needs to be seen by?
    Dr. Wright. Well again, I will reiterate that the point of 
entry into our system only occurs with initial placement or 
change of placement. So provided that that has occurred, we as 
part of our screening do inquire about the presentation of 
chronic illness. And actually as we speak, we are developing a 
pilot program for the DC KIDS program within which we have 
identified a physician who would specifically work with those 
children who have complex medical conditions. In other words, 
this individual would be the primary physician for that cohort 
of children who have asthma as an example, or who might have 
any host of medical conditions that are actually more 
predominant in this population than in the population at large. 
This individual, as I said, we are piloting this right now, and 
this individual would be identified as the follow-up physician 
from the point of assessment, and then be involved in the care 
of--the ongoing care of that child through specialty care or 
whatever care the child needs. But we are sensitive and 
recognize that that is an issue and a problem that we want to 
identify as early on as possible, and that's the reason why we 
are instituting this pilot program right now.
    Senator DeWine. But the big picture is that you have--how 
many children do you currently have, what I would call open 
case files?
    Dr. Wright. Four thousand, five hundred that are enrolled 
in the DC KIDS program.
    Senator DeWine. Those are foster children.
    Dr. Wright. That's right.
    Senator DeWine. And that's out of a total of how many kids 
that are in the foster care program?
    Dr. Wright. I believe we heard this morning that the 
universe is somewhere between 8,000 and 9,000.
    Senator DeWine. Okay. So instantly we know that we have a 
problem, right? I know I'm repeating what has been said, but to 
me this is a real problem.
    Ms. Goode. No.
    Senator DeWine. Okay. We do have a problem or we don't have 
a problem. Who's saying we don't have a problem?
    Senator Landrieu. They're saying they don't have that 
number.
    Senator DeWine. Okay, step up to the microphone and 
identify yourself for the record please.
    Ms. Goode. Good morning, Senator.
    Senator DeWine. Good morning.
    Ms. Goode. I am Brenda Goode, Public Information Officer 
for Child and Family Services. Let's help get these numbers 
straight. There are 3,200 paid placements in foster care.
    Ms. Sandalow. But many more children under the supervision 
of the Court.
    Ms. Goode. That's correct, but 3,200 paid foster care 
placements and about 8,000 children in the system total. So, a 
number of those children are being monitored in their homes 
with their parents.
    Senator DeWine. Well now, what does all that mean?
    Ms. Goode. Eight thousand children in the system, of which 
3,200 are paid foster care placements. And then we have the 
remainder of the kids who are being monitored at home with 
their parents.
    Ms. Sandalow. But other kids are placed with kinship 
caregivers.
    Senator Landrieu. It would be very helpful if you all could 
give us for the record today, I would appreciate this, 
literally just a record of the universe, okay? Because we need 
to have those numbers.
    Senator DeWine. Well, I'm getting apples and oranges now. 
The point is, the public policy issue is how many, as a matter 
of public policy, should we be providing medical care for. 
Isn't that the public policy issue?
    Ms. Bowens. All of them.
    Senator DeWine. All of what universe? I'm getting an 8,000 
number or a 3,200 number?
    Ms. Goode. Right, the 8,000 is the entire universe of 
children that we have cases open on at the current time, but 
3,200 is the number who are placed in foster care. So right 
now, DC KIDS only serves our children who are in foster care.
    Ms. Bowens. But we also serve the children who are under 
the jurisdiction of child protection as well, so we serve both.
    Ms. Goode. All right. So you serve all the court-involved 
kids.
    Ms. Bowens. Correct.
    Ms. Goode. We have a number of kids in the system for other 
cases in court.
    Ms. Sandalow. I understand from the Family Court that it's 
slightly over 5,000 children who are court involved.
    Senator DeWine. That includes the foster kids?
    Ms. Sandalow. That includes children in foster care and it 
includes children who are still, there's an open court case but 
they may have returned home to their parents or whatever but 
they didn't close the Court's involvement, and the children who 
are with relative caregivers who are not licensed paid 
providers.
    Senator DeWine. So, are we all agreeing that that's the 
universe, that as a matter of public policy, the District of 
Columbia has agreed that we want to take care of their health 
needs?
    Ms. Sandalow. Most of the children----
    Senator DeWine. Hold on. I want to get her. Since you 
represent the CFSA, would you like to answer that?
    Ms. Goode. What was the question?
    Senator DeWine. My question is, do we agree as a matter of 
public policy, CFSA had said that that is the number that you 
want to provide medical care for, and that is 5,000, whatever 
the figure was.
    Ms. Goode. Yes. But we also provide Medicaid services for 
other kids, so that if you're not part of DC KIDS or not court-
involved, we still provide medical services for the families 
who are involved with us.
    Senator DeWine. But if I have a 5,000 figure, and what's 
the figure, 5,000 what?
    Ms. Goode. Five thousand court-involved kids.
    Senator DeWine. Five thousand court-involved kids, and 
you've got, the hospital has open files for how many?
    Ms. Bowens. About 4,000 children year to date, we have been 
tracking and following.
    Senator DeWine. All right. So we are missing a thousand. Do 
you agree with that?
    Senator Landrieu. One of the issues, Mr. Chairman, is that 
they only have files for kids that have had a change in their 
placement.
    Ms. Bowens. And since we took over the program, there are 
many more children----
    Senator Landrieu. They're not really lost, it's just that 
they didn't come into the system because they are in a stable 
place now, but I understand that your enrollment in DC KIDS is 
about 4,000; is that correct?
    Ms. Bowens. That is correct. We only track those children 
who have had an initial placement or a change since 2001 
basically, so any children who may have been in a home for 
many, many years and did not have to come for an initial 
assessment through us would not necessarily be in the program. 
Now we've done some significant outreach working with the 
agency to bring more in, but there is obviously a large group 
of folks we do not have access to.
    Senator DeWine. And I'm not finding fault with Children's.
    Ms. Bowens. I understand that.
    Senator DeWine. All I'm simply saying is, does that mean 
that those children are not getting medical care?
    Ms. Bowens. No, it does not mean that.
    Senator DeWine. What does it mean?
    Ms. Bowens. It means that we are not coordinating all of 
their health care services and they then are left to kind of 
navigate on their own. So the foster family may have to work to 
get the Medicaid card, to schedule appointments. We are able to 
kind of fully manage the care for these children.
    Senator DeWine. Let me ask it this way then.
    Ms. Bowens. Okay.
    Senator DeWine. Would we all agree as a matter of public 
policy that it would be better if those thousand were picked 
up?
    Ms. Bowens. Yes, and I think the agency would agree with 
that as well.
    Senator DeWine. Well, let me ask the agency. Does the 
agency agree with that?
    Ms. Goode. Yes.
    Senator DeWine. Okay. Then why can't we get it done?
    Ms. Goode. You're asking me--you started out by saying that 
you didn't understand the contract between CFSA----
    Senator DeWine. Yeah, and now I'm asking a different 
question. Can you answer that question?
    Ms. Goode. I know that's a contracting issue, and I don't 
know the answer off the top of my head.
    Senator DeWine. I'm not sure it is a contracting issue.
    Ms. Bowens. No, it's not a contracting issue. Part of the 
issue is that we need to do a better job of outreaching and 
accessing the families, and being able to educate them that the 
service is available to them. I mean, that is the largest 
obstacle.
    Senator DeWine. Well, my only point is, if we have decided, 
you have decided that this is a good way to provide medical 
care and you're doing it for four-fifths of these kids, why 
don't you figure out a way to do it for the other fifth of 
these kids? That's all I'm saying. I didn't devise the system, 
I didn't say it was the best system, but it seems to me as an 
outside lay person, you as the experts decide it is the best 
system, and it seems to me it is the best system, it looks like 
we have the experts here who are doing it, and why do you just 
say we've got a fifth of these kids and we're just not going to 
worry about them? And it seems to me, I worry about them. I 
don't get it, why don't you worry about them?
    Ms. Goode. And I simply don't know the answer off the top 
of my head.
    Senator DeWine. My only point is why?
    Ms. Goode. I will be happy to take that message back.
    Senator DeWine. Thank you. If these are the best folks that 
we've got, and I think it's good you have a contract with them, 
and I just think if we get the rest of these kids in the system 
so they can get kind of the holistic approach to health care, 
and we know it's good and it's particularly good with kids, and 
we can get prevention in there and get somebody paying 
attention to them, that's the way we want to treat these kids, 
and if we're missing some of them, we want to get them into the 
system. That's all.
    Let me turn to Miss Egerton, if I could, and you made some 
interesting comments, and I appreciate the fact that you said 
that things are getting better. And I think that was, you put 
it in perspective and I think those of us who can be critical 
up here need to understand that, so I appreciate you saying 
that.
    But I am intrigued by some of the things you said, and I 
want to read from your written testimony. You say, social 
workers often invalidate our experience, and when it comes to 
the right to make decisions, exclude, ignore and/or rebuff the 
foster parent's input. I wonder given your vast experience, if 
you can give me an example. And obviously, don't use names, and 
obviously don't use anything that we could tie them to any one 
person, but could you give me an example?
    Ms. Egerton. I could give you some examples. One major 
example is the fact that there is supposed to be these 
administrative reviews that happen every 6 months, and in my 
history of fostering, I think I have been to 2 or 3, in 12 
years. And even, you know, as much as things have gotten better 
over time, even recently, I have not been invited to an 
administrative review.
    Senator DeWine. Why is that, do you think? You know the 
system as well as anybody.
    Ms. Egerton. I know the system pretty well and I am not 
sure if that is because they are not happening or if that is 
because they are happening without me; either way it's a 
travesty.
    Another example, a very personal example would be, I have a 
son who at 17 was having some very serious behavioral issues in 
school, and we were putting him on restriction. And so his 
social worker came in, and this is a child who I have been 
parenting since he was 11 years old, who had been in 8 homes in 
the 18 months prior to coming to me and was only supposed to be 
there for a couple of days while they got a residential 
placement for him, and he ended up there. And he's my baby 
today, and he's aged out.
    But he at 17 years old went through some serious stuff, and 
his social worker just came in and said we were too strict, and 
that he should be in an independent living program, he didn't 
need the kind of restrictions we were putting on him. And I 
said you cannot do that, he is not mature enough to cope with 
the independent living programs that we have out there. And she 
fought me, she won, she got him into the independent living 
program. The moment he went in there, he went on a downward 
spiral, he ended up in a psychiatric facility for an extended 
amount of time. And when they did release him from that 
facility, they would not release him back into an independent 
living program. They called us and asked us if he could be 
released back to us, and we would not take him back because of 
the structure--or if we would not take him back, then they 
weren't going to release him until they found a setting with 
the kind of structure that he needed.
    Senator DeWine. Well, at least they learned.
    Ms. Egerton. But the fight was put up by the social worker 
who did not see my son even once a month, okay? And I was 
parenting him every single day.
    Senator DeWine. So you had all your years of experience.
    Ms. Egerton. And my husband and I were saying you cannot do 
this, you cannot do this. We asked them for certain supports 
for him. My son went down to his social worker, sat at her desk 
and asked for certain support and said okay, I have some real 
problems and I know it, and I have to get it together, and the 
solution that they came up with was to put him in independent 
living in spite of our protests.
    And I think that that example, though I will point out that 
that particular example did not happen under this 
administration, it is a classic example of how absolutely 
dangerous it can be to ignore the input of the person who is 
parenting these children every day all day.
    Senator DeWine. I think that's a great summary. I mean, 
it's a scary thing. You also tell us that although this 
incident occurred under a previous administration, the lack of 
input in decisions about our children still continues.
    Ms. Egerton. Absolutely.
    Senator DeWine. And that's even more frightening. Why do 
you think that is?
    Ms. Egerton. In my position as an employee of FAPAC, and 
also as an active member of a local foster parent support 
group, I interact with a lot of foster parents going through a 
lot of issues and they are brought to me constantly. Foster 
parents will tell me that a particular child is therapeutic and 
they need more services for this child, and they have a social 
worker telling them that child is not therapeutic, you don't 
know what you're talking about, we're just going to take the 
child away from you. I can't tell you how many foster parents I 
have had call me with that issue where the social worker just 
absolutely rebuffs what they say their child needs, and they 
feel that very often the social worker's personal feelings are 
involved and that the social workers sometimes make judgments 
about the underlying motivation for a foster parent requesting 
more services for their child, yet you know, ultimately that 
foster parent is just working toward a larger check.
    And let me say that I have worked with some fabulous social 
workers, so this is not a blanket statement to say that all 
CFSA social workers are lousy, it's not that at all. I have had 
some social workers use some of their skills to get me calmed 
down in some situations, so my hat's off to them, there are 
some wonderful ones. But there are still some social workers 
out there who are not accepting the fact that we do know what 
we're talking about and that when we say our children need 
certain services, the answer is not to decide that you just 
want to put yourself in a position to get more money for that 
child. The answer is to hear what I have to say and to act on 
getting those services for those children.
    Senator DeWine. Do you think that sometimes the problem is 
that they don't have those services?
    Ms. Egerton. I think absolutely, I think sometimes the 
problem is the services are not available, but I also think 
that sometimes the problem is that the social worker doesn't 
know that the services are available or have access to those 
services for my child. I have been in situations where I have 
known about services that would help my child and the social 
worker did not, and I had to school that social worker. And I 
know lots of foster parents, particularly those who have been 
it a long time, who have been in that situation.
    Senator DeWine. Mary?
    Senator Landrieu. Is there an annual evaluation of foster 
parents that is conducted by CFSA?
    Ms. Egerton. We have to get recertified every year and we 
have a support group that used to be called monitors, the 
terminology for a support worker assigned to us who visits us 
periodically throughout the year and regularly at yearly 
intervals takes us through the motions of getting recertified, 
so we go through all the clearances again and the medical 
evaluations, we go through a stack of paper work discussing 
what we can and cannot do.
    Senator Landrieu. You have been through this evaluation 
now, and as one of our outstanding foster parents, what would 
you recommend to either streamline that process and make 
everybody, save everybody a lot of time, but also get the job 
accomplished? Because what we want, I think, the purpose is to 
identify the foster parents who are doing a very good job and 
recommend that they be continued, and then to eliminate those 
that are not doing a good job. So, I don't know if you would 
know how many foster parents are eliminated each year.
    Ms. Egerton. I don't know.
    Senator Landrieu. If anybody in the audience knows, I would 
like to know, if possible, how many foster families are 
eliminated every year through that evaluation process. And Ms. 
Egerton, what would you recommend, one or two or three things 
that could be done differently that would make that process 
work better for you, better for the system, that you would like 
to share with us?
    Ms. Egerton. Wow, that's a good question. I think that for 
one, if there were more consistent and regular interaction 
between the social workers or the support workers and the 
foster parents, it may be a lot easier for the workers to know 
what kind of job we're doing. I think that maybe, you know--I'm 
not really sure, honestly I'm not sure. I think that it would 
probably be a good thing if we had some kind of evaluation 
where they talk to us about our strengths and weaknesses, and 
we talk to them about our strengths and weaknesses.
    As it stands, we do, we are required to do a certain amount 
of training all year, 15 hours of training throughout the year, 
but what does not happen is nobody sits down with me and says 
okay, here is what we see as your strengths, here are what we 
see as your weaknesses, what do you think about that, what 
training can we get.
    Senator Landrieu. In all of your years of foster care, no 
one has sat down and done that?
    Ms. Egerton. No.
    Senator Landrieu. And when they evaluate you as a foster 
parent, do they focus on your parenting skills, your 
relationship with the children, or do you find that their 
evaluation is concerned more about, you know, the home, the 
physical environment, or your recordkeeping capabilities, and 
what kind of records you are required to show them year after 
year after year?
    Ms. Egerton. They very seldom come to my house, truthfully. 
When I was trained I was told that I was required to keep a 
list of the children who come into my home who are placed with 
me, when they are placed, and their social worker. We are 
encouraged to give social workers copies of children's report 
cards, copies of health evaluations, although we don't get 
written copies of health evaluations, just so you all know. And 
any, you know, any other printed information we get, we are 
encouraged to give our children's social workers copies of 
that. I keep copies of it all. I keep a file on my children. I 
don't know that I have ever been told beyond that list that I'm 
supposed to.
    Senator Landrieu. Have you had the same monitor every year?
    Ms. Egerton. I had the same monitor for a very long time 
and I recently, I think the last 2 years, I got a different 
one.
    Senator Landrieu. Can somebody in the audience tell me how 
many monitors we have? We have 3,000 foster homes; how many 
monitors do we have?
    Ms. Sandalow. But I think it's important, Senator, that 
CFSA does not monitor Maryland homes, that Maryland monitors 
Maryland homes, and I think 60 percent of our children are in 
Maryland homes.
    Senator Landrieu. Of these 3,000 homes, for just homes 
where D.C. children reside, how many of them are in the 
District?
    A Voice From Audience. About 250 homes.
    Senator Landrieu. Only 250 homes are in the District of 
Columbia, and the rest of the homes of those 3,000 are either 
in Maryland or Virginia?
    A Voice From Audience. No, we don't have 3,000 homes. I 
will have to get back to you with accurate numbers.
    Senator Landrieu. Mr. Chairman, I'm going to have to have 
these numbers to do any of this work.
    Senator DeWine. You will.
    Senator Landrieu. Mr. Chairman, before this meeting is 
over, someone has to take responsibility to provide at least to 
me and to my staff an accurate accounting of the universe of 
what children we're talking about. We would really like to 
help, but we're having a very difficult time, and I don't want 
to take the time in a public meeting, but in 24 hours I have to 
have on my desk what the universe of the 8,000 children under 
the jurisdiction of CFSA is, and I'm going to ask them to give 
me this universe. How many children are under the jurisdiction 
of the courts, how many do you have that aren't under the 
jurisdiction of the courts? How many that are under the 
jurisdiction of the courts are living in traditional homes, how 
many are living in group homes, how many are living in 
therapeutic homes, I think those are the three categories, and 
if there's a fourth one, please add that. And of those homes, 
where are the homes? Are they in the District of Columbia, are 
they in Maryland, are they in Virginia?
    And we need these numbers before we can sign off on--the 
chairman and I agree that we spend--at least I spend half of my 
time trying to figure out that's not the number, that's not the 
number, and I'm tired of doing that. I want to focus on the 
solutions to the problems. So being able to provide an accurate 
list of that would be very illuminating to me, to begin with, 
and I'm getting very different information. So with that said, 
I have to have that in 24 hours, but this has been very 
helpful.
    One of the things we want to do is recruit more foster 
parents in the District of Columbia. This is a major problem 
that has been identified, and while I, and I think the chairman 
believes that we have want to have regional cooperation, if 
there are children who can be well placed in Maryland, we don't 
want to deprive them of the opportunities to have placements 
with relatives or good parenting homes just because they happen 
to live outside the concentrated and very artificial district 
that was created for totally other purposes, for the benefit of 
the Nation, so we should not hold children responsible for 
that, but to improve foster care to what some experienced 
foster care parents do, and we could recruit more, do better 
evaluations, et cetera, et cetera.
    Ms. Egerton. I think that, if I can just say this, that if 
we could retain more of our foster parents, your recruitment 
efforts would be----
    Senator Landrieu. Less than a third.
    Ms. Egerton. Absolutely, because we would actively recruit. 
Right now today, I have to say, I'm a little more willing to 
recruit today than I have been in years. And I for a long time 
absolutely refused to, and not only absolutely refused to 
recruit, but had made up in my mind, when the children I was 
fostering aged out, I was quitting, because the system was so 
horrible and because I felt so unsupported and unappreciated. 
As we see CFSA begin to give us the tools to do the things that 
we need to quality parent our children, we will recruit for 
you. I am a District of Columbia resident, have been my entire 
life, I'm one of those few native Washingtonians, and I would 
recruit. And I would guarantee that the people I bring in would 
be just like me and would be great foster parents.
    Senator Landrieu. That's what we want to hear.
    Ms. Egerton. But you have to take care of some of the 
issues that we are fighting. We must have care for our kids, we 
must have adequate healthcare for our children, we must be at 
the decisionmaking table for our children, and when those 
things happen, we will go out and recruit.

                    ADDITIONAL SUBMITTED STATEMENTS

    [Clerk's Note.--Additional submitted statements were 
received by the subcommittee and are included here as part of 
the formal hearing record. The statements follow:]

               Prepared Statement of Senator Paul Strauss

    Chairman DeWine, Senator Landrieu, and others on this subcommittee, 
as the United States Senator for the District of Columbia I wish to 
express my support for this Committee's examination of the D.C. Foster 
Care System. The foster children of the District of Columbia deserve 
quality care and service, services that can only be provided with your 
support.
    I respect the positions of all of the witnesses that are here today 
and acknowledge the testimony they have given. When faced with the 
challenge of reforming the Child and Family Services Agency not only 
did they step up to make the changes necessary, they did so to the best 
of their ability. However, it is the continuing need for change that 
brings us here today.
    Though we are all United States citizens, the residents of the 
District of Columbia are not afforded the same rights as their 
neighboring States. Therefore, we must rely on Congress to provide 
needed support to the D.C. Foster Care System. Ideally, the District of 
Columbia should not have to look to Congress for supervision. This is 
just another example of the injustice the American citizens residing in 
the District must suffer. While we will continue to fight to achieve 
full rights as celebrated by those in surrounding areas, I urge you to 
consider the needs of our D.C. Foster Care System as you would any 
issue that affects your own constituents, including respect for local 
sovereignty.
    All Americans must care about all American children. However, we 
must acknowledge the fact that to Ohio and Louisiana constituents the 
D.C. Foster Care system is not a high priority. For that reason I 
appreciate this committee taking the time to hear the needs of the 
District of Columbia's Child and Family Services Agency. We must come 
together and make effective judgments based on the needs of this 
community, and despite the inconvenience of having to go through 
Congress to make decisions about District spending, we welcome your 
input on matters that affect the interests of our children.
    Over the months since the end of Federal Court Receivership, the 
District has made substantial progress in reforming Child welfare and 
meeting the Federal Courts expectations. The witnesses who testified 
here today, not only provided suggestions for improvement but also 
justification to those suggestions. Several key issues must be taken 
into consideration. The development of a team of social workers whose 
primary goal is assessment and placement and an in-depth focus on 
permanent one-time placements are essential. Additionally an extension 
of the DC KIDS program as well as increased communication between 
foster parents and social workers are resources that should not be 
denied to the children of the foster care system.
    In many foster care cases, the Child and Family Services Agency has 
to make quick emergency placements. Often these placements are 
disruptive to the child and the foster family. At times placements are 
not available which can result in the child staying in group or intake 
homes. Ideally, the Child and Family Services Agency would have the 
funding available to create a team of social workers whose primary goal 
is assessment and placement. This team of social workers would be able 
to investigate different placements quickly in order to find the one 
most suited to the child's needs. Kinship or extended family placements 
can be more readily taken advantage of. In order to ease the transition 
into a new home flexible funding would also be available for emergency 
supplies such as beds, food, and clothes. These resources are 
fundamental in ensuring that the foster child receives the best care 
within the first few days of transitioning from the biological home to 
the foster home.
    Furthermore, the Child and Family Services Agency has a commitment 
to ensuring that children grow up in permanent homes. These homes are a 
necessary step in encouraging a healthy and normal lifestyle. They 
should have the means to devote more time in keeping siblings together 
and placing foster children with family members. Attention should be 
focused on one permanent placement rather than moving children from 
home to home. Foster children are taken from a traumatic home-life and 
have to work to build trusting relationships with a new family only to 
have to start all over again. The focus should be on finding the best 
placement, not just on placement as quickly as possible.
    The Children's National Medical Center already has a strong 
foundation for quality health care being providing to the District's 
foster children. With its DC KIDS program, foster children who have 
recently been placed in foster homes are given premium health care. 
However, the DC KIDS program does not help those kids who were placed 
in foster care prior to 2001. The need to be able to reach those 
children is great. With the development of the FACES program, a 
computerized database of all foster children, medical records and 
medical histories can be easily accessible to health professionals and 
social workers. Often foster parents, social workers and medical staff 
do not have adequate records that are needed for the care of the child. 
The DC KIDS program should be more integrated with the FACES database. 
This would not only enhance the DC KIDS program but would increase the 
reliability of the Child and Family Services Agency. The foster 
children of the District would receive quality care and there would be 
accurate medical histories and data on record for the children in the 
system.
    The Child and Family Services Agency's commitment to bringing up 
the services standard for all children can be met if the communication 
between its social workers and foster parents was at a more productive 
level. Currently social workers are overloaded with cases and are not 
able to visit the children on a regular basis. They can not provide 
important information, such as programs and opportunities, that the 
foster parent and child can take advantage of because there is no time. 
An increase in staff would not only solve administrative headaches but 
could also lessen the workload on current social workers. Face-to-face 
meetings should be arranged between social workers and foster parents 
so that some sort of feedback session can be accomplished. Policy 
changes frequently are not told to foster parents or even social 
workers. These administrative hiccups need to end. Only with the 
available resources can the Child and Family Services Agency become a 
valuable asset to our community.
    Senator Landrieu as you stated we would not leave a child involved 
in a car wreck stranded without emergency care. So why do we continue 
to leave the District's foster children stranded in this equally 
critical time? The answer is a lack of resources. The District Foster 
Care Services Agency must be given the resources it needs to take care 
of foster children. Most children are taken from a hostile environment, 
homes that can be both physically and mentally abusive. We need to do 
all we can to ensure the next home is one that will promote a healthy 
lifestyle so children of the next generation will not go through the 
same vicious cycle. The Child and Family Services Agency has a deep 
commitment to strong management and maximization of the quality of 
care. They have dealt with strained relations among agencies, 
increasing permanency placements, and have built a foundation of an 
improving organization. Adequate resources are a critical part of 
maintaining this momentum. The Child and Family Services Agency is on 
the right path and as long as we continue to improve, the organization 
will become a better place. Again I would like to thank Chairman 
DeWine, Senator Landrieu, members of the subcommittee for listening to 
the needs of the Child and Family Services Agency. I would also like to 
thank the witnesses who gave testimony effectively expressing the 
requirements necessary to care for the District's foster children. I 
trust the members of this subcommittee will go out of their way to 
ensure they have all the information that is required for this tough 
decision. I look forward to further hearings on this topic and am happy 
answer any questions. In closing, let me thank Ms. Adrianne Goffigan of 
my staff, for her valuable assistance in preparing this testimony.

                                 ______
                                 
         Prepared Statement of CASA of the District of Columbia

    Children being abused, neglected or not receiving mandated services 
while under court ordered supervision is an unacceptable crisis. When 
children become lost in the system that was put in place to protect 
them, the abuse of these children becomes an overwhelming tragedy. CASA 
of DC, Court Appointed Special Advocates of the District of Columbia is 
a nationally accredited program to ensure that no child gets lost in 
the system. CASA of DC's mission is to recruit, train and supervise 
volunteers from diverse cultural and ethnic backgrounds to assist the 
court in protecting the best interests of abused and neglected children 
by advocating for a safe and permanent home for every child. Our 
mission is to provide stability and hope to abused and neglected 
children by being a powerful voice in their lives. By matching trained 
community volunteers with children under court supervision, we can 
ensure that the needs and best interests of the foster children in the 
District of Columbia are met and can improve the decision-making 
ability of judges in the Family Court system by providing an 
independent evaluation that is geared to the best interest of the 
child.
    CASA of DC, Court Appointed Special Advocates for children of the 
District of Columbia is the ONLY accredited CASA program operating in 
the District of Columbia. Not only is the program the only program 
recognized and supported by the National CASA Association, the program 
receives technical and financial support from National CASA. In order 
to make CASA of DC the showcase program for the Nation, the program was 
designed from the bottom-up to ensure strict compliance with the 
National Standards established by Judge David Soukup in 1977. In 1990 
with the inclusion of the CASA Program in the Victims of Child Abuse 
Act, Congress affirmed the use of volunteers in the otherwise closed 
juvenile court systems and made provisions for the growth of the CASA 
volunteer movement nationwide. CASA of DC is also recognized and 
supported by foundations such as the Freddie Mac Foundation, the Gannet 
Foundation and Microsoft.
    Because the Metro D.C. area is unique, CASA of DC is working in 
collaboration with CASA programs both in Maryland and Virginia and have 
formed a working group entitled ``METRO DC CASA COLLABORATIVE''. The 
purpose of the group is to work together to address the problems of the 
Metropolitan area in the areas of abuse and neglect. In addressing the 
regional issues of child abuse and neglect, the Metro DC CASA 
Collaborative is working to ensure that no child falls between the 
cracks because of jurisdictional issues.
    In the District of Columbia, the Child and Family Services Agency, 
[CFSA] was removed from six years of Federal receivership established 
by the U.S. District Court in 1995 under the LaShawn A. v. Williams 
decree. However, social workers continue to carry large case loads and 
do not have time to provide the detailed, one-on-one attention that 
every child in the dependency system deserves. The office remains 
understaffed and children are not receiving the much needed services 
once they enter the system. Children continue to have multiple 
placements, few visits from the social worker and even fewer sibling 
visitations. Additionally, court orders are often times not 
implemented. Children in the system spend a median of 3\1/2\ years in 
foster care. Thirty-two percent of the children spend from 4-9 years in 
foster care.
    Under a court ordered plan by Federal Court under the LaShawn 
decree, CFSA must meet specific performance measures including:
  --Compliance with ASFA ( Adoption and Safe Families Act).
  --Increased visitation: Increase the number of visits children 
        receive from their social worker. (As of 2/2003, children in 
        foster care were only visited monthly by their social worker in 
        one-third of the cases).
  --Reduce the numbers of placements.
  --Children should be placed in the least restrictive environment.
    CASA programs fill the void left by an overburdened system. Social 
workers and attorneys carrying large caseloads. In this jurisdiction 
there remains a high staff turnover rate, so caseworker effectiveness 
remains low. Because of budget cuts and low salaries, many 
jurisdictions face serious difficulties in recruiting qualified 
motivated caseworkers. We continue to see child welfare workers who are 
overworked, have less time, and are doing a less effective job for 
children.
    A CASA advocate will only carry one case at a time and advocate for 
all children in that family.
    The CASA program, historically has proven to be able to:
  --Reduce the number of children in foster care.
  --Reduce the amount of time a children remain in foster care.
  --Ensures that court orders are implemented so that the child 
        receives medical, mental and educational services.
    In the District of Columbia, approximately 1,500 new abuse and 
neglect cases are brought before the Family Court each year. This 
compounds the number of children already in the system which is 
approximately 4,000. The goal of the CASA of DC program is to have a 
trained CASA advocate for every child in the system. Each volunteer 
advocate represents one family representing approximately 1-3 children 
per family ranging from birth to 18 years of age.
    Why volunteers? CASA of DC trained and certified volunteers act as 
a multiplier for professional program supervisors. Volunteers work on 
only one case at a time. This one on one ability provides closer 
monitoring than can be cost effectively provided directly by 
professional staff. CASA volunteers focus gives them the ability to see 
and do more on behalf of the children that they represent. CASA of DC 
volunteers receive extensive, ongoing training and close supervision 
from the professional program staff. By the very nature of their 
``volunteerism'' they empower themselves through their commitment of 
time and energy. They stay with the case from beginning to end and 
serve the program an average of 30 months.
    Volunteers are also independent of bureaucratic constraints that 
often keep those employed by our local institutions playing by rules 
that frequently are too rigid or outdated to serve the best interest of 
the children in foster care. Certainly CASA volunteers do not work in a 
vacuum. It takes the strong support and guidance of local program staff 
to facilitate their work. Careful screening, training, supervision, and 
retention are essential to assure high quality volunteer advocacy. 
Although paid staff play an integral role in the coordination and 
management of the program, the traditional role of staff does not 
include routinely working cases. The CASA Advocate will have closer and 
more consistent contact with the children than the social worker or the 
attorney. Another reason to have CASA advocates is its cost-
effectiveness. It is certainly more cost-effective to have one staff 
person coordinating 30 volunteers serving 75 children as opposed to one 
staff person carrying 25 cases with 60 children. Still, cost-
effectiveness is only a small component of our commitment to the use of 
volunteers.
    Volunteers bring a much needed outside perspective to our court and 
child welfare systems. Their lack of past experience in the system not 
only brings a fresh perspective to what we do, it opens our doors to 
the community and helps raise public awareness of the plight of our 
community's abused and neglected children.
    To a child, having a volunteer working for them can make all the 
difference. Hundreds of children across the country have been moved 
when understanding the notion, ``you don't get paid to do this?'' It 
shows to them the level of concern and commitment being made by the 
volunteer. No, it's not part of their ``job.'' Volunteers are ordinary 
citizens, doing extraordinary work for children, and along the way 
bringing such passion, dedication, and effort to their work. In the 
period from January, 2003-March, 2003, over 463 volunteer hours were 
given to the children of our community. The significant achievements by 
the advocates for the children represented includes but is not limited 
to:
  --Finding and retaining proper school assignment,
  --Obtaining clothing,
  --Obtaining school supplies,
  --Locating tutoring services,
  --Requesting child support and follow up with court and family,
  --Ensuring dental appointment completed,
  --Helping with housing,
  --Monitoring the appropriate placements,
  --Helping parents locate substance abuse program,
  --Requesting an IEP in compliance with court orders,
  --Assisting in locating summer camps,
  --Ensuring medical and dental appointments are kept,
  --Assisting in preventing the expulsion of a child,
  --Locating therapy for the children,
  --Informing the court regarding improper group home facility,
  --Locating Saturday classes,
  --Locating dance school,
  --Locating GED classes,
  --Locating independent living skills programs,
  --Locating vocational training programs,
  --Locating summer programs,
  --Locating mentoring programs,
  --Locating after school care, and
  --Locating a more compatible foster placement.
    In 1988, CSR, Inc., under contract with the U.S. Department of 
Health and Human Services, published the results of a study entitled, 
National Evaluation of Guardians Ad Litem [CASA] in Child Abuse or 
Neglect Judicial Proceedings. After analyzing five types of CASA models 
the study found that:

    ``CASA volunteers are excellent investigators and mediators, remain 
involved in the case and fight for what they think is right for the 
child.'' The study concluded, ``We give the CASA models our highest 
recommendation.''

    As advocates for children, there are no phrases such as ``it cannot 
be done'' because when it is in the best interest of that child, our 
volunteers will zealously advocate for those interests no matter what 
barriers come before them. There is a story about a man who was walking 
on the beach and saw hundreds of starfishes dying on the sand so he 
began to throw them into the sea one starfish at a time. Another man 
was walking and saw the man's futile attempts to save the starfish when 
he said to the man, ``You will never save them all.'' The man replied, 
``Oh, but it does matter even if I save one starfish.'' And so, the 
CASA program will continue to make a difference, one child at a time.
    We thank the committee for allowing us to submit this written 
testimony.

                                 ______
                                 
         Prepared Statement of the Council for Court Excellence

    The Council for Court Excellence (``CCE'') is an independent, 
nonprofit, nonpartisan organization dedicated to improving the 
administration of justice in the local and Federal courts and related 
agencies in the Washington metropolitan area. While the Council for 
Court Excellence is proud to have a number of judges among its active 
and dedicated board members, it is important to note that no judicial 
members of the Council participated in the preparation of this 
testimony.
    For more than 3 years, CCE has been privileged to work with the key 
public agencies in the D.C. child welfare system--the Family Court of 
the D.C. Superior Court, the Child and Family Services Agency 
(``CFSA''), the Office of Corporation Counsel (``OCC'')--and others, to 
reform the city's child welfare system so that every abused or 
neglected child in the District of Columbia has a safe and permanent 
home within the time frame established by the Federal and D.C. Adoption 
and Safe Families Acts (``ASFA''). To assist the agencies in meeting 
these goals, CCE has been tracking and measuring progress in child 
abuse and neglect cases filed since February 1, 2000, the date the city 
began implementing ASFA. In October 2002, we were pleased to issue a 
public report summarizing the many early successes of the D.C. child 
welfare system reform effort. This statement is intended to explain how 
far the system reform effort has come and how much further there is to 
go.

                             WHERE WE WERE

    When CCE began its work with the agency leaders in late 1999, CFSA 
was under Federal court receivership, relations among the agencies were 
strained, and there was little awareness of ASFA's permanency 
requirements. As reported on July 15, 1999, by the Federal court-
appointed Monitor of CFSA:

    ``Significant interagency issues remain unresolved . . . 
Relationships between CFSA, the Office of Corporation Counsel, and the 
Superior Court also remain problematic; each agency is highly critical 
of the other's failings. OCC currently is understaffed to meet the need 
for timely processing of abuse and neglect and termination of parental 
rights petitions and CFSA's staffing and practice problems contribute 
to friction between the agencies. The structure and resources available 
in the Family division of the Superior Court make it difficult for the 
court to provide timely legal action for children and families. (1998 
Assessment of the Process of the District of Columbia's Child and 
Family Services Agency in Meeting the Requirements of LaShawn A. v. 
Williams, Center for the Study of Social Policy, July 15, 1999).''

                              WHERE WE ARE

Structural Improvements
    There has been dramatic improvement since those early days. Perhaps 
the most dramatic of improvements is CFSA's emergence from receivership 
and establishment as a cabinet-level agency of the District of 
Columbia. Other important structural reforms are: 1) the selection of a 
new agency director, Dr. Olivia Golden, and a new management team; 2) 
the agency's assumption of responsibility for child abuse cases in 
addition to child neglect cases; 3) the publication of licensing 
regulations for foster and group homes; and 4) the increased used and 
usefulness of the agency's FACES data system.

Improvement in Agency Relations
    There also is a new spirit of collaboration and cooperation among 
agency leaders. CCE facilitates monthly ``Child Welfare Leadership Team 
Meetings'' among the agency leaders, i.e., Dr. Olivia Golden, CFSA 
director; Judge Lee Satterfield, Presiding Judge of the Family Court; 
and Arabella Teal, Interim Corporation Counsel; and many others 
including the leaders of the Department of Mental Health, the 
Department of Human Services, D.C. Public Schools, etc. As trust and 
communication among these leaders has grown, these meetings have become 
more and more productive with team members identifying multi-agency 
issues and setting-up work groups to address them.
    For example, the enormous task of transferring to the Family Court 
over 3,500 child abuse and neglect cases that were pending before 
judges assigned to divisions outside the Family Court was accomplished 
by a work group consisting of CFSA, the Family Court, the Department of 
Mental Health, and OCC. Together they identified cases appropriate for 
transfer and closure, and they prioritized the sequence for transfers. 
In addition, CFSA is a member of several of the Family Court's multi-
agency committees on Family Court Act implementation. CFSA also is a 
member of the Family Court's Training Committee which is organizing 
monthly and annual interdisciplinary training sessions for judges, 
social workers, and lawyers. It also is one of several agencies with an 
on-site service representative in the Family Court's Service Center.
    In addition to the monthly Child Welfare Leadership Team Meetings, 
Judge Satterfield and CFSA director Dr. Golden meet on a regular basis 
to discuss issues affecting both agencies. Together they worked out a 
schedule that would allow social workers to spend more time with their 
clients and less time in court. Relations between CFSA and the Family 
Court are perhaps the best they have ever been.
    Relations between CFSA and OCC have improved significantly. OCC 
attorneys and CFSA social workers are now co-located at the offices of 
the agency so that they may work more closely together in preparing 
child abuse and neglect cases for court. What is more, OCC attorneys 
are providing CFSA with legal representation in cases from filing of 
the abuse/neglect petition through the permanency hearing stage. Before 
the city made the commitment to increase OCC staffing, CFSA social 
workers were represented only through the trial and disposition stages 
of a child abuse and neglect case.

      IMPROVEMENT IN ASFA COMPLIANCE AND MEASURING ASFA COMPLIANCE

    The agency leaders have made steady measurable progress in 
complying with ASFA and they are keenly aware of the need to track case 
data to measure ASFA compliance. One of ASFA's most important 
requirements is that a permanency hearing be held within 14 months (425 
days) of a child's removal from home to decide the child's permanency 
goal, i.e., reunification with family, adoption, or guardianship, and 
set a timetable for achieving it. Data collected by CCE for cases filed 
since 2000, shows significant and growing improvement with ASFA's 
permanency hearing requirement:

         COMPLIANCE WITH 425-DAY PERMANENCY HEARING DEADLINE \1\
                [For Children Removed from the Home] \2\
------------------------------------------------------------------------
                                                     Compliance Rate
               Year Cases Filed                         (percent)
------------------------------------------------------------------------
2000..........................................                       32
2001..........................................                       43
2002..........................................                  \3\ [54]
------------------------------------------------------------------------
\1\ CCE's data is calculated through the third quarter of 2002 only. The
  Court took over the responsibility of data tracking from CCE in the
  fourth quarter of 2002.
\2\ 80 percent of children in abuse and neglect cases filed in the past
  three years were removed from their homes. Thus, this data reflects
  approximately 80 percent of child abuse and neglect cases filed in
  each of these years.
\3\ We obtained this 2002 figure from the Family Court's first annual
  report filed with Congress on March 31, 2003. The Court's permanency
  hearing compliance rates for 2000 and 2001 were significantly higher
  than CCE's. This 2002 compliance rate appears reasonable and more
  reliable.

    Data from the past three years also shows that the length of time 
from filing of the abuse/neglect petition to trial or a stipulation has 
decreased consistently. Indeed, data reported by the Court in its 
Annual Report shows that the city is now in compliance with the trial 
deadline established by D.C. ASFA, i.e., 105 days from filing of the 
petition. The city also has made consistent progress in reducing the 
amount of time from filing to disposition--the court proceeding focused 
on remedying the conditions of abuse or neglect determined by trial or 
stipulation to be true.
    Through its FACES automated data system, CFSA has been successful 
at compiling additional types of information that are relevant to 
permanency. It tracks the number of entries into and exits out of 
foster care, the reasons for exiting care, and the permanency goals of 
children in care. It also tracks information on legal action toward 
adoption and finalized adoptions. In an effort to improve communication 
with the Family Court, CFSA has developed a function within FACES to 
access information on the dates, times, and locations of court hearings 
on child abuse and neglect cases. CFSA also is able to scan abuse and 
neglect court orders into its FACES system. In addition, CFSA is one of 
the most frequent users of JUSTIS, the District of Columbia's criminal 
justice information system, which can be used, among other things, to 
locate missing parents.

                          WHERE WE ARE HEADED

    Much additional information is needed to properly monitor 
compliance with ASFA. Because cases filed prior to 2000 are a large 
part of the child abuse and neglect caseload, the city must obtain 
permanency hearing information for these cases as it has done for cases 
filed since 2000. Also, the city needs information on how many children 
actually achieve permanency each year and how long it takes them to 
achieve it. Indeed, the city should know how long it takes children to 
achieve permanency for each permanency goal, i.e., reunification with 
family, adoption, or guardianship. In addition, it will need 
information on the rate of children re-entering the child welfare 
system after the original petition is closed. This information is 
essential to understanding and resolving the problems that delay 
permanency.
    Both CFSA and the Family Court are working to improve their 
individual automated information systems so that they can access 
information that will enable them to implement as well as monitor 
compliance with ASFA. The Court's new automated system is expected to 
be in place by July 2003. CFSA is revising its monthly data monitoring 
as part of is plan to implement the final order in the LaShawn lawsuit. 
In addition, the D.C. Mayor is working to create an automated system 
that will integrate the individual systems of the Family Court, CFSA, 
and the other child welfare agencies.

                               CONCLUSION

    While there is much more work to be done, the D.C. child welfare 
system is on the road to reform. It is headed in the right direction 
and is moving at a quick pace. We have witnessed extraordinary 
commitment of the city's child welfare system leaders, including Dr. 
Golden, over the more than three years we have been involved in their 
work. We can now document improving performance trends, which make us 
optimistic that in the future the city's abused and neglected children 
will be better protected, better served, and will spend less time in 
foster care.
    We have attached a copy of the Council for Court Excellence's 
District of Columbia Child Welfare System Reform Progress Report to 
this statement.
                                 ______
                                 
Prepared Statement of Kate Deshler Gould, Esq., National Association of 
              Counsel for Children, Washington, DC Chapter
    My name is Kate Gould. I am an attorney and a mediator. I am one of 
about 250 attorneys who are appointed by D.C. Superior Court to 
represent children, parents and caretakers in child welfare cases. I 
have been doing this work since 1994 and have represented many children 
in the foster care system over the years. In my work I interact daily 
with the Child and Family Services Agency and advocate regularly for 
children in the foster care system.

                       SUGGESTION FOR IMPROVEMENT

    I would like to share my perspective and some ideas for a plan that 
could help to shorten the length of time children are in care and cut 
down on multiple placements and failed adoptive placements. My 
organization, the local chapter of the National Association of Counsel 
for Children, is proposing the formation of a new type of mental health 
clinic dedicated to the needs of foster children. It would serve the 
children from the point of the traumatic removal through the closure of 
the case, if necessary. It would be a resource for the child to work 
together therapeutically to support reunification with the biological 
family, as well as to promote stabilization of foster and adoptive 
placements. It would save money in the long run by helping to stabilize 
children and families sooner, enabling successful case closure at an 
earlier date. Such a program is needed to replace the existing 
patchwork system of delay, insufficient services and poor quality 
services.

                      PROBLEMS WITH CURRENT SYSTEM

    In order to present the proposed solutions, I first need to 
describe the problems with the current system. The Child and Family 
Services Agency uses a program called DC KIDS for all its medical 
referrals, including mental health referrals. I have heard few 
complaints about the medical functions of DC KIDS. The mental health 
services provided by DC KIDS are another story.
    Referrals for mental health services do not run smoothly. I have 
cases where there are very long delays before a therapist is 
identified. In one case, it took two months to identify a therapist. 
After another two months had passed, I learned that therapy had not 
begun because the therapist had met once with the children to do an 
assessment, had to write a report, which then had to be reviewed by DC 
KIDS in order for services to be set up. In this case, not only had 
therapy been court ordered months before, but had also been recommended 
in psychiatric and psychological assessment reports. I was calling and 
threatening court action. The requirement for the therapist to assess 
and report only served to delay the onset of badly needed services. I 
worry about what the time frame would have been like without my 
advocacy.
    In another recent instance, a child for whom I serve as Guardian ad 
Litem told me that in order to reschedule her therapy appointment, she 
would have to contact DC KIDS. I checked with the social worker and was 
informed that DC KIDS does indeed do the scheduling for psychotherapy. 
This is an unnecessary encumbrance.

        TRAUMATIZED CHILDREN BENEFIT FROM MENTAL HEALTH SERVICES

    Psychotherapeutic services are not routinely offered as part of the 
services to the children removed, and yet, are universally needed. As 
the Guardian ad Litem, I routinely ask for court orders to provide 
these services. I have even been in the position of having to file a 
motion in order for therapy to be provided to a very needy child. These 
are not services that should have to be court-ordered in order to 
occur.
    Children who are in foster care or placed with relatives frequently 
exhibit many signs of emotional disturbance. They may be aggressive, 
oppositional, anxious, very needy, and they frequently have low self-
esteem. The reasons are obvious. They have been removed from their 
parent and their home. They may have been traumatized by physical, 
sexual or mental abuse or neglect that has precipitated the removal. 
Next, they are nearly always traumatized by the removal itself. I have 
never had a child removed from his or her parent, no matter how 
deplorable the abuse or the conditions of the home, who did not 
desperately want to return to the parent. Further, because of their own 
behaviors as a result of all this trauma, these children can be hard to 
live with and frequently do things such as steal or damage property 
which make them unwelcome in the foster home. Consequently, we see the 
additional trauma of multiple placements. Sadly, some children never 
recover from this trauma and spiral down into a life of residential 
treatment or juvenile delinquency.

           MENTAL HEALTH SERVICES REDUCE PLACEMENT DISRUPTION

    If a child removed from his or her parent were guaranteed the 
services of a licensed psychotherapist as soon as the case comes in, we 
would have a better prognosis for adjustment to the foster home or 
relative's home, making placement disruption less likely.
    There are other critical points when availability of good mental 
health services is crucial. Many children come into the system with a 
background that suggests the possibility of developmental delays or 
educational problems. The patchwork of services that now exists 
provides uneven quality of psychiatric, psychological and psycho 
educational reports. These almost routinely have to be court ordered in 
order to occur, and very often there is delay in obtaining these 
services and the necessary reports. This information is essential to 
getting the help that these children need in order to address the 
problems that may be identified.
    Good mental health services are particularly needed upon removal 
from the home and for the adjustment period of about the first 90 days. 
In order to effectuate reunification of the child with the biological 
parent, family therapy may play an important role. If efforts toward 
reunification with the biological family are exhausted and the goal is 
made adoption, the child will need support and therapy to help to 
process feelings of grief and loss. Another critical point is when a 
pre-adoptive family is identified, and the child and family need help 
to establish trust, and to bond.

      MENTAL HEALTH SERVICES EASE ADJUSTMENT IN ADOPTION PLACEMENT

    I have had several cases where a pre-adoptive placement failed. It 
is very sad to see a child removed from the home that all had hoped 
would be that child's permanent family at last. In these cases, as 
Guardian ad Litem, I have advocated for family therapy and supportive 
services that simply did not exist. Child and Family Services certainly 
does not have a program that routinely provides the kind of support a 
family would truly need to adopt an emotionally fragile child from 
foster care. In these sad cases of mine, the families have told me they 
felt that they were left hanging with very little support to face this 
enormous adjustment.

   A CLINIC MODEL WOULD IMPROVE QUALITY AND AVAILABILITY OF SERVICES

    Even if DC KIDS were to improve its service model, another problem 
exists. Well-qualified psychotherapists are not now widely available 
for foster children in the District of Columbia. There is frequent 
turnover among therapists, just as with social workers. I have had 
instances in my cases of therapists not showing up for scheduled 
appointments, dropping out of sight without a final session to give 
closure for the child, and failing to return telephone messages from 
the Guardian ad Litem or social worker. While in some of my cases, I 
have had excellent therapists who helped the child tremendously, in 
general the agencies which currently provide mental health services to 
foster children in the District of Columbia are doing an inadequate 
job.
    The Agency's position is that they are limited for the most part to 
providers who will accept what D.C. Medical Assistance pays. D.C. 
Medical Assistance pays a very low rate, and as a result, we find rapid 
turnover, and poorly qualified therapists. Licensed psychotherapists 
who will accept payment from D.C. Medicaid are very hard to find. 
Frequently after long waits for identification of a therapist, a child 
is assigned an intern. The problem with interns is that they are on the 
job for a short term, usually only a period of three or four months. 
Part of the therapeutic process involves trusting and building a 
relationship with the therapist. Children with behavioral difficulties 
resulting from neglect, removal and multiple placements frequently are 
diagnosed with attachment disorder, or at least have issues with 
attachment. This means that they reject others so they will not suffer 
rejection, which leads to huge behavioral problems in the foster home, 
at school, and with peers. The last thing most foster children need is 
a therapist who will leave after a short period of time.

         SEPARATE MEDICAL SERVICES FROM MENTAL HEALTH SERVICES

    DC KIDS should separate out the mental health function from the 
provision of medical services to the foster children, and a new agency 
should be formed or contracted with to provide comprehensive mental 
health services to the foster children of the District of Columbia. It 
should have psychotherapists on staff who are licensed and well-trained 
to work with children and families. Funds should be allocated to cover 
salaries that are reasonable, which means significantly more than the 
amount paid by D.C. Medicaid.

       CONCLUSION: A MENTAL HEALTH CLINIC WOULD BE COST-EFFECTIVE

    If funds for this purpose were reallocated from another function, 
it would be cost-effective. A comprehensive mental health program for 
foster children would save money by reducing the length of time spent 
in foster care, and reducing the need for expensive services such as 
residential treatment.
    I appreciate your consideration of my suggestions.

                          SUBCOMMITTEE RECESS

    Senator DeWine. We'll end on that very positive note. Thank 
you very much for your commitment to the children, and we thank 
all of you for what you do for kids. We will continue to hold 
hearings on our foster care system, this was the second and we 
will have more in the future. Thank you.
    [Whereupon, at 11:27 a.m., Wednesday, May 14, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


        DISTRICT OF COLUMBIA APPROPRIATIONS FOR FISCAL YEAR 2004

                              ----------                              


                        WEDNESDAY, JUNE 11, 2003

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:07 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Mike DeWine (chairman) presiding.
    Present: Senators DeWine and Landrieu.

                          DISTRICT OF COLUMBIA

STATEMENTS OF:
        HON. ANTHONY A. WILLIAMS, MAYOR
        LINDA W. CROPP, CHAIRMAN, COUNCIL OF THE DISTRICT OF COLUMBIA
        NATWAR M. GANDHI, CHIEF FINANCIAL OFFICER

                OPENING STATEMENT OF SENATOR MIKE DEWINE

    Senator DeWine. Good morning. This hearing will come to 
order. Today we will hear testimony regarding the District of 
Columbia's fiscal year 2004 local budget request. Mayor 
Williams, Council Chairman Cropp, and Chief Financial Officer 
Gandhi will present the city's budget and will discuss the 
District's requests for Federal resources.
    I want to first note that this past Friday, the General 
Accounting Office released the results of its 18-month long 
review of the financial health of the District. This important 
study presents a troubling picture of the long-term structural 
imbalance of the District's economy. This imbalance represents 
a gap between the District's ability to raise revenue at 
reasonable tax rates and its ability to provide services of 
reasonable quality to its residents.
    I recognize that the structural imbalance is driven by 
expenditure requirements and revenue restrictions which are 
beyond the control of the District's leadership. Clearly, the 
city's revenue capacity would be larger without constraints on 
its taxing authority, such as its inability to tax Federal 
property or the income of nonresidents.
    I agree that the city faces a troubling problem in the long 
term. This report is the catalyst for serious discussions here 
on Capitol Hill about how the Federal Government should protect 
the financial health of our Nation's capital. Indeed, many of 
the problems facing the city result from it being the seat of 
the Federal Government. Therefore, to do nothing is not 
acceptable. As chairman of this subcommittee, I will work hard 
to ensure that we start exploring ways to avoid a financial 
catastrophe for the District.
    Now, let me turn to the District's fiscal year 2004 budget. 
Before introducing our distinguished panel, I want to discuss 
some of my priorities for this bill. First, I hope to provide 
resources to improve the city's foster care system so that more 
children have the opportunity to enjoy safe, permanent, and 
loving homes. The hearings we have held this year on the foster 
care problem have highlighted ways that we can help improve the 
situation. I know that the Mayor and Ranking Member Landrieu 
share this desire and I look forward to partnering with them on 
this initiative.
    Also, I would like to continue a Federal investment in the 
city's Combined Sewer Overflow project. This multi-year project 
will revamp a system that was constructed at the end of the 
19th Century and which overflows 50 to 60 times every year, 
dumping raw sewage into the Anacostia River. Given the demands 
the Federal Government places on this system, we clearly have a 
responsibility to contribute to its much-needed renovations. By 
cleaning up the Anacostia River, we will expedite the Mayor's 
proposed Anacostia waterfront development initiative, which I 
wholeheartedly support. This development will ultimately 
provide recreational and commercial opportunities for D.C. 
residents and visitors.
    I also want to ensure that efforts to construct 
biodecontamination and quarantine facilities at Children's 
Hospital and Washington Hospital Center continue to proceed.
    These are a few of my priorities for this bill. Now I look 
forward to hearing what the District's priorities are for 
Federal funding and how the city has used the funds we recently 
provided in the fiscal year 2003 appropriations bill.
    Clearly, there are many worthy activities which will place 
demands on the always-limited resources in the D.C. 
Appropriations Bill. But I look forward to working with these 
city leaders to continue to make life better for all who live, 
work, and visit this capitol city.
    Witnesses will be limited to 5 minutes for their oral 
remarks. Copies of your written statements will be placed in 
the record in their entirety.
    Senator Landrieu, would you like to make an opening 
statement?

                 STATEMENT OF SENATOR MARY L. LANDRIEU

    Senator Landrieu. Thank you, Mr. Chairman. I would like to 
welcome our witnesses, and thank Chairman DeWine for calling 
the annual hearing on the District's local funds budget. I look 
forward to hearing from the city on the status of the 
District's economy, current Federal funding priorities, and a 
summary of the fiscal year 2004 local funds budget.
    At this time, almost every city in the country is 
struggling to maintain a balanced budget, much less deliver 
adequate or even good services to their citizens. I am pleased 
to see that the District has been careful to look ahead and 
address looming budget pressures while maintaining priority 
services. The city is in good fiscal standing, and I trust that 
this environment will continue. However, long-term outstanding 
economic pressures on the city and continued service challenges 
in such areas as public education and child welfare will 
require a new partnership with the District.
    Under the temporary State fiscal relief package included in 
the tax cut passed last month, the District will receive $94 
million over 2 years. Considering current spending pressures of 
approximately $50 million, I would be interested to learn how 
the city is planning to spend these new funds.
    In addition, substantial Federal funding was provided to 
the District in fiscal year 2002 and fiscal year 2003 ($122 
million in direct response to requests made by the Mayor, out 
of a total $512 million in the D.C. appropriations bill for 
Federal responsibilities). The last 2 years have been 
unprecedented in the amount of discretionary Federal dollars 
that have gone to the city, as well as an increase in 
congressional confidence in local leadership, resulting in 
increased autonomy for the District of Columbia. Fiscal year 
2004 has a much more conservative outlook as the committee 
attempts to reconcile a weak economy, few proposed increases 
for Federal discretionary programs and growing needs across the 
Nation, as well as in the District. Chairman DeWine and I share 
a commitment to the restoration of the Anacostia Waterfront, 
assistance for charter schools, and enhanced security this 
year. In this hearing, I hope we can identify the city's main 
priorities and how best to address them with very limited 
funding.
    A more broad challenge was confirmed last week when the 
General Accounting Office released a landmark report finding 
that the city faces an annual deficit of $400 million to $1 
billion between their revenue capacity and cost of providing 
average services. The report, requested by Congresswoman Norton 
and myself, found the underlying reason for the structural 
imbalance in the city's budget is due to the high cost of 
providing services in the District of Columbia.
    The District is uniquely situated and requires a unique 
relationship with the Federal Government; however, right now, I 
am not convinced that more money is the answer. Many options 
for funding have been discussed: a renewed Federal payment, 
changing the tax collection ability of the District, or funding 
directed to specific infrastructure in the District of 
Columbia.
    In this hearing I would like to discuss how to maximize the 
benefit of existing Federal funding, such as Medicaid and 
education. As I stated last week, we need to create a new 
partnership with the District. We must examine the underlying 
issues that create an imbalance and take a multifaceted 
approach to addressing it, before the District goes back to 
years of deficit.
    One major benefit for the District, with no budgetary 
impact, endorsed by President Bush, is to release the local 
budget from annual Congressional approval. The concept of 
budget autonomy for the District's local budget is building 
momentum on the Hill and I hope it will be approved this year. 
These are funds derived from locally generated tax dollars. The 
last word on how the city's budget is expended should be made 
by locally elected leaders, just like any other city. I urge my 
colleagues to examine the benefits of this proposal as 
legislation makes its way through Congress.
    I would like for the Mayor and Council Chairman to comment 
on how current and future general provisions--limitations on 
spending local and Federal funds--will be addressed under 
budget autonomy. I respect the city leaders' diligence in 
implementing and upholding these ``social riders'' through the 
years, against local pressure. I expect this same degree of 
respect for the law will be maintained in the future. There are 
legitimate means for Congress to provide guidance to the city; 
however, it is my hope that at some point in the future 
congressional interest in imposing riders will wane.
    The committee has also held hearings this year on child 
welfare in the District and discovered disturbing gaps in 
service and care. Through Chairman DeWine's leadership I hope 
we can discuss options for addressing this area as well. I 
appreciate your attendance today and look forward to continuing 
our partnership for growth and success of the city. The General 
Accounting Office released a landmark report finding the city 
faces an annual deficit, a structural imbalance, of $400 
million to $1 billion. This amount is the difference between 
the city's revenue capacity and the cost of producing average 
services. The GAO report outlines definitively that there is, 
in fact, a structural imbalance of the management and 
efficiencies of the District. They are still constraints beyond 
what is in your control to solve it, so I want to support the 
chairman's concepts that he outlined this morning, whether we 
have an internal study group or an external group, to come up 
with some specific solutions. There are some ideas that have 
been presented, but I hope that in your testimony this morning 
perhaps you all would have some suggestions, and then we could 
follow the chairman's lead in establishing a more specific 
commission to come up with some solutions that Congress could 
indeed take up.
    I also want to support the chairman's efforts as we work 
together to enhance and strengthen the foster care system. As 
Mr. Mayor, you know, are I think painfully aware that the 
District of Columbia is not the only entity by far in the 
Nation that is struggling with this tremendous challenge. Just 
yesterday there was a front page article in the New York Times 
about the deplorable conditions of the New Jersey child welfare 
system. I have to say that in Louisiana this is a tremendous 
challenge for our State Government to keep the finances and the 
management of a foster care system in a way that temporarily 
removes children from homes so that they can be safe and 
secure, and then re-engage or place them back with those 
families or to move them to a permanent home through adoption 
or through a foster family that looks as much like a real 
family as possible, and that is something that the chairman and 
I are firmly committed to working with you all, and we have had 
several good hearings.
    The only other two things I would mention briefly, I am 
very interested in how we proceed in the future to provide 
every child in this District with an excellent education. There 
are any number of ideas that have come forward, work that is 
underway, progress that has been made, but challenges that 
remain. It is going to be a key focus of mine, Mr. Chairman, as 
we move forward to see what the options are in providing an 
excellent education system for every child, and to have the 
Federal Government live up and stand up and step up to its 
responsibilities in that regard. Again, the District of 
Columbia is not in many instances that different from other 
cities and States struggling to do the same, but I want to stay 
focused on that.
    And finally, parks and recreation does not always receive 
the attention, and perhaps in some people's minds, in the 
scheme of things relative to economic development and education 
and health care it does not always take the priority that I 
think it should deserve, because we have got to give our young 
people something to say yes to, and it really underlines the 
quality of life issue for the District, and while we have more 
green space here than in many cities, and we are fortunate 
because of the Federal Government, we still, I think, lack some 
recreational opportunities for children, for young people, and 
for adults that the suburbs in this area seem to have in 
abundance, and I think that is a real problem when it comes to 
economic development, attracting people back to the city, 
keeping children and families engaged and productive in 
positive expenditures of their time, so I want to continue--I 
am glad the chairman agreed with me, and we invested some 
direct Federal dollars to work with your local dollars in that 
regard, but it is not just throwing more money, it is the 
management and the way that the parks system will provide 
recreational opportunities for children.
    So I thank you, Mr. Chairman, and I am going to give you 
your seat back and go find----
    Senator DeWine. You can stay there if you want to.
    Senator Landrieu. All right. Well, I will stay here then.
    Senator DeWine. Just don't get too----
    Senator Landrieu. I won't get too--well, look, it's so 
comfortable, I mean----
    Senator DeWine. Don't get too comfortable there or too 
accustomed to that.
    I am glad I got the gavel back.
    Senator Landrieu. You got the gavel back, and the chair. 
Thank you.
    Senator DeWine. Let me introduce our panel. Anthony 
Williams was inaugurated as the fourth Mayor of the District of 
Columbia on January 4, 1999. This past January, of course, 
Mayor Williams began serving his second term in office.
    Linda Cropp was sworn in on August 8, 1997 as the first 
woman to chair the Council of the District of Columbia after 
serving on the council for 7 years.
    Dr. Gandhi is the Chief Financial Officer for the District 
of Columbia, and is responsible for the city's finances, 
including his $5.4 billion operating budget and bond 
obligations.
    Mayor, why don't you start off.

                 STATEMENT OF HON. ANTHONY A. WILLIAMS

    Mr. Williams. First of all, I want to thank you, Mr. 
Chairman, and thank the Ranking Minority Member Landrieu, and 
thank the other members of the committee for this opportunity 
to testify on the District's 2004 budget and financial plan, 
and wherever possible I will try to abbreviate my remarks, 
recognizing that they have been submitted in whole in the 
record.
    This subcommittee has been a partner in our city's 
revitalization over the last few years, and as Mayor, I think I 
represent all of our citizens in saying that we are gratified 
for the support and encouragement offered by the previous chair 
and other Members, and certainly are pleased now to be working 
with you, Mr. Chairman. Your support and encouragement for our 
efforts to make our city shine are deeply appreciated and, in 
particular, your devotion to our children at risk has been both 
a consistent and long feature of your service, and it's a 
welcome signal of Congress' joint bipartisan commitment in this 
important area, recognizing Senator Landrieu's commitment in 
this area as well.
    In fact, this committee's members bring very valuable 
experience in State-level management, and that gives you all a 
unique appreciation for the challenges and constraints under 
which the District must operate. I think we can rest assured of 
a strong and vibrant relationship with you.
    As you know, many cities and States across the Nation are 
facing their worst budgetary challenge of the last 60 years, 
and the District is no exception. Due to the economic downturn, 
we experienced a decline in revenues of almost $370 million in 
the first half of fiscal year 2003. This decline equates to a 
10 percent loss in our local operating budget. Because the 
economy has not yet recovered, these challenges have continued, 
as you know, into the 2004 fiscal year, and we began 
formulation of the budget with a projected gap of $114 million.
    In facing these challenges, we not only continued our 
record of sound fiscal management, we achieved, I think, a 
level of responsible and conservative budgeting found only 
among the most fiscally prudent governments in our country. As 
a result, the fiscal year 2004 budget transmitted today is 
balanced in current and future years. I am not saying it is 
pretty, but it is balanced, and we can talk about that.
    More notably, the District's leaders balanced this budget 
entirely through budget reductions. No tax increases were 
adopted, and not one dollar of the $250 million in cash 
reserves, one of the strongest ratios of cash reserves in the 
country, was used. In many instances, we were able to reduce 
spending by using existing funds more wisely. In many other 
areas, however, significant sacrifices were required. Most 
notable among these is a deferral of key infrastructure 
investments.
    In making these sacrifices, we preserved existing funding 
for existing schools and libraries, but could allocate no new 
funding for the next phase of modernization. As a result, 
current 10-year plans for renovating neglected schools and 
libraries must be scaled back dramatically, leaving major 
challenges in the education of our children. This sacrifice, 
coupled with even greater reductions in roads, bridges, and 
other buildings to me presents one of the greatest challenges 
that we face today, and have not addressed, as you have 
mentioned in your opening remarks, Mr. Chairman, in the 
foreseeable future. In short, we have a significant problem.
    Now, the Federal Government requires that the District 
provide services like a State, but unlike every other State in 
the Nation, we are prohibited by Congress from collecting a 
nonresident income tax. This takes a tremendous percentage of 
our potential tax base offline. As a result, the District must 
fund expenditures far greater than the revenues provided 
through a reasonable level of taxation. As you put it, it is 
very, very difficult to maintain a reasonable level of service 
at a reasonable rate of taxation.
    Faced with this clash between needs and revenue capacity, 
we have maintained a balanced budget through overtaxing of our 
citizens and a deferral of critical investments which continues 
to damage the viability of the District as a place to live and 
operate a business, and I might add by way of operating a 
business, the disproportionate taxation of our businesses is 
actually far larger than the disproportionate rate of taxation 
of our citizens, not to say that that is acceptable, either, 
but for businesses it is particularly stark.
    In specific terms, the amount of the structural imbalance 
is between $400 million and $1.1 billion per year. This 
estimate has been thoroughly analyzed and documented by the 
Rivlin Commission, the Brookings Institution, and McKinsey & 
Company. To independently assess this matter, the Members of 
Congress, including Ranking Member Landrieu of this 
subcommittee, requested that GAO conduct a full-scale analysis. 
I would like to quote as Mayor several key findings that are 
particularly significant to me.
    1. The District faces a substantial structural deficit in 
that the cost of providing an average level of public services 
exceeds the amount of revenue we could devise by average tax 
rates.
    2. The District's per capita total revenue capacity is 
higher than all State fiscal systems, but not to the same 
extent that costs are higher. In addition, our revenue capacity 
would be larger without the constraints on our taxing 
authority, such as the inability to tax Federal property or the 
income of nonresidents.
    3. Addressing management problems, which we are committed 
to doing, would not offset the District's underlying structural 
imbalance, because this imbalance, as the Ranking Member has 
said and you have said, Mr. Chairman, is determined by factors 
beyond our direct control.
    And finally, again as you have mentioned, if this imbalance 
is to be addressed in the next term, it may be necessary to 
change Federal policies to expand the District's tax base or to 
provide additional financial support or some combination 
thereof.
    Through these findings that the independent--I want to 
stress, independent--GAO has confirmed that the District cannot 
compete, or--well, we cannot compete in the long term, and we 
certainly cannot complete our financial recovery under our own 
power. Instead, we must somehow address the Federal policies 
that could force the District back into insolvency, which I 
think would be a tragedy of just overwhelming proportions.
    Congresswoman Eleanor Holmes Norton has introduced the 
Federal Fair Compensation Act, which I believe would go a 
long--well, which I believe would address the situation, and I 
believe that, as Congress moves through this study, it ought to 
look first to the Federal Fair Compensation Act as a way to 
address the problem.
    Now, of course, the city must do its part in terms of 
better management of existing resources. Special education and 
Medicaid present two areas that need concentrated attention. 
The subcommittee I think should be pleased to know that we are 
making some headway, along with city councilman and chair of 
the Education Committee on the Council Kevin Chavous, I am 
chairing a Special Education Task Force that brought together 
all the Government entities that have a role in special 
education.
    After intensive meetings over several months, we were able 
to agree on a cost-reduction plan that the CFO certifies will 
yield $20 million in savings in fiscal year 2004, while at the 
same time improving the educational experience offered to 
children in special ed.
    Last month, I appointed the first Government-wide Medicaid 
czar who will bring similar direction and unity of purpose on 
how we draw down Medicaid funds. In addition to this matter of 
finances, we also face a procedural barrier in the Federal 
appropriations process. I will not go into a long list of 
details, but I would urge this committee's support for budget 
autonomy legislation that is now emerging in the Congress. We 
certainly welcome the partnership with this committee. We 
certainly welcome and certainly endorse wholeheartedly the 
oversight by this committee of Federal funds, but we believe 
that, like every other State and city in the country, we should 
have the autonomy and have the discretion to use our own funds 
as they are developed and derived from local sources.
    There are specific funding requests in the fiscal 2004 
budget before the committee. As I have shared with you, Mr. 
Chairman, and also with the Ranking Member, I am alarmed that 
the President's overall request for the D.C. appropriations 
bill in 2004 is 17 percent below the 2003 level. A cut of this 
magnitude jeopardizes ongoing projects already funded by the 
subcommittee, many of which both of you have mentioned. In 
particular, Congress allocated $50 million for the CSO, 
Combined Sewage Overflow Project, which was matched with local 
funds. This was a very welcome down payment on a billion-
dollar-plus multi-year project for an antiquated, outdated 
system, as you have mentioned.
    Updating this system, which was built originally by the 
Federal Government, pollution of which is--I think a majority 
of which is from the Federal Government, is an integral part of 
our Waterfront Initiative. Therefore, we are seeking that 
additional $50 million. The President's budget includes $15 
million for this purpose and another $10 million for the bike 
trail. I strongly urge this subcommittee to accept the 
President's proposal, but add the additional dollars to match 
last year's commitment.
    In 2003, Congress provided $4 million for a family literacy 
program. Since receiving this payment just 3 months ago, we 
have an ambitious program underway that will soon have at least 
20 literacy leaders dispatched around the city to help 
community-based providers, Government agencies, the faith-based 
community expand the network of adult learners.
    We also have a training symposium this summer to begin to 
train the trainers. With an additional $4 million in fiscal 
year 2004, this subcommittee can sustain this effort. This is 
in a city where 40 percent of our city has a learning challenge 
and is reading at below adequate level.
    Because education for our children is so critical, I 
strongly urge the Congress to add new funding beyond last 
year's level to support our public schools and expand 
opportunities for parents to consider nonpublic education 
settings. We believe that this three-sector approach will allow 
the city to leverage its best assets among the public schools, 
the public charter schools, and the private parochial schools. 
We are strongly committed to expanding the menu of school 
settings for our children both within the public system and 
outside of that system, but all as part of a coordinated 
effort.
    And on a related matter, I want to acknowledge the concerns 
that have been raised by this subcommittee regarding Child and 
Family Services in the District. As a former child in foster 
care, this is important to me, and I know it is important to 
both of you and the members of this committee. Historically, 
this whole Child Welfare System has been extremely troubled and 
although I believe substantial progress has been made, 
including the creation of the family court and the newly 
unified agency, there still remain, undoubtedly, challenges 
that we must continue to address. The CSA Director and I are 
redoubling our efforts to complete the reform process in 
serving our most vulnerable youth, including a more seamless 
approach in how we relate to children at risk.
    The subcommittee's ongoing interest in supporting efforts 
to recruit social workers, promote early intervention in case 
work for children and families, support foster parents, is all 
part of this effort.

                           PREPARED STATEMENT

    I might add, Mr. Chairman, that my appointment of a Senate 
nomination to the council, of a new corporation counsel, one of 
the key factors in my mind in sending the nomination to the 
Council of Robert Spagnoletti was his experience in the U.S. 
Attorney's Office in bringing together and getting on the right 
track domestic abuse in the U.S. Attorney's Office, and he 
evinced a strong interest in doing the same thing as it relates 
to child support and core council support for all these family 
matters, and I believe that he will help us accelerate and 
promote the efforts that I know you want to see, and we are 
committed to.
    In short, we welcome this committee's partnership and 
oversight, and look forward to working with you in the days and 
months ahead in the challenges facing our city.
    [The statement follows:]

               Prepared Statement of Anthony A. Williams

    Thank you Chairman DeWine, Ranking Minority Member Landrieu, 
Senator Hutchison, Senator Brownback, and Senator Durbin for this 
opportunity to testify on the District's fiscal year 2004 budget and 
financial plan. This subcommittee has been a partner in our city's 
renaissance over the last few years. As Mayor, I am grateful for the 
support and encouragement offered by the previous chair and others 
members, and I am pleased to now be working even more closely with 
Senator DeWine. His support and encouragement for our efforts to make 
our city shine are deeply appreciated. In particular, his devotion to 
our children at-risk has been both consistent and strong, and is a 
welcome signal of the Congress' commitment in this area.
    This committee's members bring very valuable experience in State-
level management, and that gives you a unique appreciation for the 
challenges and the constraints under which the District must operate. 
The citizens of our national capital can rest assured that the city's 
relationship with this subcommittee continues to be strong and will 
serve us well as we strive together to address the pressing needs of 
the District.
    Specifically, this session of Congress could be pivotal in the 
evolution of the Federal-District relationship:
  --fiscal challenges posed by the serious structural imbalance are 
        becoming more acute, and there are a number of proposals to 
        help address the issue;
  --the disruption of service delivery caused by problems with the 
        congressional approval process can hopefully come to an end 
        through proposed legislation;
  --the education of our children can be enhanced through new 
        partnerships between the District and Federal Governments; and
  --important infrastructure projects are at critical junctures that 
        require additional Federal support. These include the Combined 
        Sewer Overflow system, the Unified Communications Center, and 
        the Forensics Laboratory.
    With all these advances hopefully in our grasp, it is indeed a time 
of great opportunities and great challenges. As you know, cities and 
States across the Nation are facing the worst budgetary challenge of 
the last 60 years, and the District is no exception. Due to the 
national economic downturn, the District experienced a decline in 
revenues of approximately $370 million in the first half of fiscal year 
2003. This decline equates to a 10 percent loss in our local operating 
budget. Because the economy has not yet recovered, these challenges 
continued into fiscal year 2004, and the District began formulation of 
that budget with a projected gap of $114 million.
    In facing these challenges, however, the District not only 
continued its record of sound fiscal management, we achieved a level of 
responsible and conservative budgeting found only among the most 
financially prudent governments. As a result, the fiscal year 2004 
budget transmitted today is balanced in the current and future years. 
More notably, the District's leaders balanced this budget entirely 
through budget reductions. No tax increases were adopted, and not one 
dollar of the $250 million in cash reserves was used.
    Just as significant is the fact that this budget protects core 
services. In times of tight resources, some would set their goals aside 
in order to weather the storm, but I believe the opposite must be done: 
in these difficult times we must focus on our goals more than ever so 
that we may protect them and continue making forward progress.
    The proposed fiscal year 2004 budget reflects this approach by 
focusing resources in the areas of highest priorities for our 
residents. These are (1) education programs, including early childhood 
education, school choice, and adult literacy; (2) public safety, which 
includes providing greater police presence in neighborhoods and a 
vastly improved 911 emergency communications system; and (3) 
opportunity for all, which includes the housing, job-readiness, and 
health care needed for all residents to become productive and healthy 
members of the community and economy.
    In order to protect these priorities, however, some reductions had 
to be made in other areas of the budget.

             SACRIFICES MADE TO PRESERVE BUDGETARY BALANCE

    In many instances the District was able to reduce spending by using 
existing funds more wisely. In many other areas, however, significant 
sacrifices were required. Most notable among these is the deferral of 
key infrastructure investments. In fiscal year 2003 the District 
eliminated funding for $250 million in approved capital construction, 
including transportation investments, recreation facilities, and 
important technology investments. An additional $87 million of funding 
for such projects was eliminated in fiscal year 2004.
    In making these sacrifices the District preserved existing funding 
for schools and libraries, but could allocate no new funding for the 
next phase of modernization. As a result, current 10-year plans for 
renovating neglected schools and libraries must be scaled back 
dramatically, leaving a major challenge for the education of our 
children. This sacrifice, coupled with even greater reductions in 
roads, bridges, and buildings, present one of the greatest challenges 
that the District faces today and, if not addressed, into the 
foreseeable future.
    Is this challenge purely the result of our national economic woes? 
In fact, it is not. Even during times of economic growth, the 
District's can not support the level of investment required to 
compensate for the many decades of neglect from which our 
infrastructure has suffered. This is true not because of any factor 
under the District's control, however, but because of the uniquely 
unfair constraints placed on the District's tax base by the Federal 
Government.

   FEDERAL CONSTRAINTS ON REVENUE COLLECTION RESULTING IN STRUCTURAL 
                               IMBALANCE

    The Federal Government requires that the District provide services 
like a State, but unlike every other State in the Nation, the District 
is prohibited by the Congress from collecting a non-resident income 
tax. As a result, the District must fund expenditures far greater than 
the revenues provided through a reasonable level of taxation. Faced 
with this clash between expenditure needs and revenue capacity, the 
District has maintained a balanced budget through several strategies 
that have provided solvency in the short term, but cannot be 
maintained. These strategies are:
  --Producing service improvements within existing constraints.--The 
        District has aggressively improved service delivery through 
        more focused use of existing resources. Having capitalized on 
        the major opportunities for such efficiencies, however, the 
        District cannot expect to solve its structural imbalance 
        through this strategy.
  --Taxing local residents and businesses at high levels.--With a 
        severely limited tax base, the District has had no choice but 
        to rely on local residents and businesses to provide revenues 
        for government services, resulting in many tax rates that far 
        exceed those of surrounding jurisdictions. This translates into 
        additional hurdles to attracting and retaining residents and 
        businesses that could help stabilize our fragile economic base.
  --Deferring spending on critical infrastructure and services.--At 
        present, the District is deferring each year hundreds of 
        millions of dollars in critical investments. These include 
        funding for school buildings, transportation systems, water and 
        sewer projects, economic development, and social services.
    Although these strategies have temporarily addressed the imbalance 
between expenditures and revenues, they cannot be employed much longer. 
The overtaxing of our citizens and deferral of critical investments 
continue to damage the viability of the District as a place to live and 
operate a business. As a result, the financial and operational recovery 
underway will falter and the District will lose the important ground 
that it and its Federal partners have worked to gain.
    In specific terms, the amount of the structural imbalance is 
between $400 million and $1.1 billion per year. This estimate has been 
thoroughly analyzed and documented by the Rivlin Commission, the 
Brookings Institute, and McKinsey and Co. To independently assess this 
matter, the members of Congress, including Senator Landrieu of this 
committee, requested that the U.S. General Accounting Office (GAO) 
conduct a full-scale analysis, which was released just last week.
    I would like to quote several key findings from this report:
    1. ``The District faces a substantial structural deficit in that 
the cost of providing an average level of public services exceeds the 
amount of revenue it could raise by applying average tax rates.''
    2. ``The District's per capital total revenue capacity is higher 
than all state fiscal systems, but not to the same extent that its 
costs are higher. In addition, its revenue capacity would be larger 
without constraints on its taxing authority, such as its inability to 
tax federal property or the income of nonresidents.''
    3. ``Addressing management problems would not offset the District's 
underlying structural imbalance because this imbalance is determined by 
factors beyond the District's direct control.''
    4. ``If this imbalance is to be addressed, in the near term, it may 
be necessary to change federal policies to expand the District's tax 
base or to provide additional financial support.''
    Through these findings, the independent GAO has confirmed that the 
District can not complete its financial recovery alone. Instead, we 
must somehow address the Federal policies that could force the District 
into insolvency. Congresswoman Eleanor Holmes Norton will shortly 
introduce the ``Federal Fair Compensation Act'' which would go a long 
way to addressing the situation. Congress ought to move this 
legislation or an alternative quickly.
    Of course, the city must do its part in terms of better management 
of existing resources. Special Education and Medicaid represent two 
areas that need concentrated attention. The subcommittee should be 
pleased to know that we are making some headway. Along with the City 
Council, I am chairing a special education task force that brought 
together all the government entities who have a role in special 
education. After intensive meetings over several months, we were able 
to agree on a cost reduction plan that the Chief Financial Officer 
(CFO) certifies will yield $20 million savings in fiscal year 2004, 
while at the same time improving the educational experience offered to 
children in special education. Last month I appointed the first 
government-wide ``Medicaid Czar'' who will bring similar direction and 
unity of purpose to how we draw down Medicaid dollars.
    In addition to this matter of finances, the District also faces a 
procedural barrier in the Federal appropriations process.
   disruptions resulting from federal review of the district's budget
    Unlike any other State or local jurisdiction in the Nation, the 
District must have its locally-raised revenues appropriated to it 
through an act of Congress. Aside from the obvious issues related to 
government by consent of the governed, this process creates major 
disruptions in the delivery and improvement of basic government 
services. Specifically, there are several key reasons why the President 
and Congress should change the current process:
  --The current system denies the District the capacity to adapt 
        quickly to changing needs for front line services. The Federal 
        Government requires the District to formulate its budget a year 
        in advance in order to accommodate the Federal review process.
  --Congressional delays disrupt critical new improvements.--Virtually 
        every year, Congress fails to approve the District's budget by 
        the beginning of the fiscal year, most recently more than 3 
        months later.
  --Mid-year budget reallocations require an act of Congress, and 
        disrupt service delivery.--As discussed, local governments need 
        the flexibility to respond to rapid changes in their needs.
  --The city must ``use or lose'' funding at the end of each year.--
        Congressional approval for spending expires at the end of the 
        year, which punishes program managers who save funds by not 
        allowing the city to carry them over for one-time uses.
    Last January, the President's statement in favor of budget autonomy 
for the District was transmitted to the Congress, and is greatly 
appreciated by the District. At present, the House and Senate oversight 
committees on the District of Columbia are developing legislation that 
would begin reforming the Federal approval process for the District's 
budget. Of course, the process for Federal funds for the city and 
relevant oversight would be unchanged. As Congress pursues passage of 
this legislation, the District looks to you for leadership in affecting 
this change that will relieve the impediments to the District's 
continued financial and operational recovery.

                   CRITICAL FEDERAL FINANCIAL SUPPORT

    There are several specific funding requests in the fiscal year 2004 
budget before this committee. I am alarmed that the President's overall 
fiscal year 2004 request for the DC appropriations bill is 17 percent 
below the fiscal year 2003 level. A cut of this magnitude jeopardizes 
ongoing projects already funded by this subcommittee. In particular, 
last year Congress allocated $50 million for the Combined Sewer 
Overflow (CSO) project, which was matched with local funds. This was a 
very welcomed down payment on a billion-dollar-plus multi-year project. 
Updating our antiquated sewer system, which was built originally by the 
Federal Government, is an integral part of our Anacostia Waterfront 
Initiative. Therefore we are seeking an additional $50 million in 
fiscal year 2004. The President's budget includes $15 million for this 
purpose and another $10 million for the Anacostia Bike Trail. I 
strongly urge the subcommittee to accept the President's proposal, and 
add $35 million to the sewer project to match last year's commitment.
    The President has also included $15 million for the Public Safety 
Event Fund, which reimburses the city for various security costs of 
demonstrations and other events related to our status as the Nation's 
capital. This fund helps shift the unfair burden of covering these 
costs from District taxpayers and allows the District to better balance 
our duties to protect residential neighborhoods and the Nation's 
capital. I strongly urge the subcommittee to provide these important 
resources.
    In addition, thanks to the generosity of this subcommittee, the 
Tuition Assistance Grant Program has provided thousands of District 
residents with tremendously expanded options for post-secondary 
education. Indeed, many of these people might not have otherwise 
attended college. In fiscal year 2003, the program will use all its 
allotted funding and will require an additional $17 million in fiscal 
year 2004.
    In fiscal year 2003 Congress provided $4 million for a family 
literacy program. Since receiving this payment just 3 months ago, we 
have an ambitious program underway that will soon have at least 20 
Literacy Leaders dispatched around the city to help community-based 
providers, government agencies, and the faith-based community expand 
the network of adult learners. We will also have a training symposium 
this summer to ``train the trainers''. My goal is to reverse the city's 
destiny in this area by transforming ourselves from a city with a 
shockingly high rate of adult literacy challenges to a city where the 
right to read is sacred. Adults will have a harder time fulfilling 
opportunities for health care, employment, and stable family life as 
long as they lack basic reading skills. It is time that the stigma 
associated with adult learning challenges be eradicated and all of 
Washington make this a priority. With an additional $4 million in 
fiscal year 2004 the subcommittee can sustain our efforts.

                  SUPPORTING CHILDREN IN THE DISTRICT

    Because quality education for our children is a critical priority 
for the city, I strongly urge the Congress to add new funding beyond 
last year's levels to support our public schools and expand 
opportunities for parents to consider nonpublic educational settings. 
This 3-sector approach will allow the city to leverage its best assets 
among public schools, public charter schools, and private/parochial 
schools.
    The District of Columbia Public School system is making headway in 
reform, including the very promising Transformation initiative for 15 
low-performing schools. It also has a liberal out-of-boundary program 
that affords parents opportunities to consider public schools across 
the city. Our robust charter school system is a national model for 
public school choice whose expansion is limited largely by a lack of 
adequate facilities. In addition, dozens of private and parochial 
schools are assets for our children. Consequently, I want to reiterate 
my support for school choice--both within the public system and between 
public and private schools. I urge the Congress to be both bold in 
supporting school choice in DC through a 3-sector approach.
    On a related matter, I want to acknowledge the concerns that have 
been raised by this subcommittee regarding child and family services in 
the District. Historically, the whole child welfare service system has 
been extremely troubled, and although major progress has been made, 
including creation of the Family Court and a newly unified Child and 
Family Services Agency, there still remain challenges that we must 
continue to address. Our capable CFSA director and I are redoubling our 
efforts to complete the reform process in serving our most vulnerable 
youth, including a more seamless approach in how government agencies 
relate to children at risk. The subcommittee's ongoing interest in 
supporting efforts to recruit social workers, promote early 
intervention in case work for children and families, and support foster 
parents who take on this difficult work is very encouraging.
    And finally, before I conclude this testimony there are several 
specific points that must be made clear for the record. First, I ask 
that the District's appropriation be passed without the undemocratic 
``riders'' that are sometimes included. These non-budgetary provisions 
subvert the will of District citizens and their only elected 
representatives. If the elected leadership of the city has decided to 
use local funds for various purposes, we ask only for you to grant us 
the same prerogatives and liberties that cities in your own districts 
enjoy.
    In addition, I would also like to note for the committee that the 
city continues to be vigilant in its emergency preparedness 
responsibilities and is expeditiously drawing down on Federal funds 
provided for this purpose. We are making great progress working with 
surrounding jurisdictions and Federal agencies in developing effective 
regional responses. Similarly, working with local hospitals, our 
capacities in the areas of preventing and responding to bioterrorism 
are greatly expanded. Through partnership with the Federal Government, 
the District is rapidly becoming one of the best prepared jurisdictions 
in the Nation.
    And finally, no discussion of District-Federal partnership is 
complete without a discussion of voting representation in Congress. The 
District is the capital of the world's greatest democracy, and it is 
the ultimate hypocrisy that its citizens suffer from the exact 
disenfranchisement this Nation was founded to end. Like all of us in 
this hearing room, I was filled with great pride and gratitude watching 
the young men and women of our armed forces help bring democracy closer 
to the people of Iraq. At the same time, however, I was struck with the 
irony that those among them who hail from our great city do not enjoy 
full democracy here.
    Again, Senator DeWine and members of the subcommittee, I thank you 
for your support of the District and I thank you for this opportunity 
to testify before you today. After the testimony of Chairman Cropp and 
Dr. Gandhi, I will gladly answer any questions you may have.

    Senator DeWine. Mr. Mayor, thank you very much.
    Ms. Cropp.

                    STATEMENT OF HON. LINDA W. CROPP

    Ms. Cropp. Good morning, Chairman DeWine and Ranking 
Minority Member Landrieu. It is a pleasure to be before you 
today to testify on behalf of the District of Columbia. Let me 
thank you, Mr. Chairman and Senator Landrieu, for your comments 
with regard to the GAO report, and there is a nexus between the 
structural imbalance and our ability to serve the needs of our 
young people, comments that you also made.
    The fiscal year 2004 budget, another in a series of 
fiscally sound and responsible budgets, marks another important 
stride in our city's home rule. It fully illustrates that the 
Mayor and the council can work together and put together a good 
spending plan that continues to make the District a better 
place to live, to work, to raise a family, and to visit. It 
also is a reflection of our resolve to stand as one good 
government that will remain fiscally prudent and, most 
importantly, responsible.
    Fiscal discipline. This has always been and will be a top 
priority on our legislative agenda. We not only demand it of 
the executive branch, we practice it. The various forms of 
fiscal discipline, from rainy day funds to financial 
safeguards, insurance and investment policies, economic 
triggers to pay-as-you-go funds that we have demanded of and 
imposed on ourselves in the past several years have yielded 
significant returns for the District of Columbia.
    Case in point, the council insisted that the Government 
limit the growth of our spending in fiscal year 2004 while 
ensuring that all basic municipal needs were met. Instead of 
increasing taxes to address declining revenues for fiscal year 
2004, the council, with the mayor, limited the rate of growth 
in our spending to under 5 percent. Again, this was done 
without any detriment to the District of Columbia residents who 
receive services and benefits from important programs.
    The $323 million-plus revenue shortfall in fiscal year 2003 
budget on the very first day of our new fiscal year, October 1, 
2002, was dealt with very quickly by the Mayor and the council. 
On April 1, 6 months into the fiscal year, the council took 
emergency action, as recommended by the mayor, on another $134 
million that was a hole in this year's budget. Our counterparts 
in Maryland and Virginia and all across the country, of course, 
face similar challenges because of the economy in our Nation, 
although we think that the District has acted more quickly, 
effectively, and responsibly to take the actions necessary to 
bring our budget in balance.
    Finally, it is important to note that, due to the city's 
fiscal discipline and our hard work, we have a positive image 
fostered by the partnership of locally elected leadership in 
our business community. We have finally been recognized and 
rewarded on Wall Street, where the District Government bond 
rating has been upgraded from stable to positive. Moreover, the 
city's bond rating is expected to be further upgraded while 
other jurisdictions' ratings are being downgraded during this 
economic period.
    As the council continues its work during the fiscal year 
2003 and 2004 legislative session, we will remain vigilant 
about maintaining fiscal discipline that we have imposed on the 
executive branch and ourselves, and we will also focus on other 
important goals set forth in our legislative agenda. These 
goals include the revitalization of our neighborhoods, 
investment in our youth, protection of our vulnerable 
residents, oversight of executive performance and service 
delivery, promotion of continued economic stability and growth, 
and expansion of home rule and democracy, our priorities, put 
together with a fiscally sound and responsible spending plan, 
is good for the District.
    The operating budget funds basic city services and 
programs. The capital budget, as a result of stringent 
oversight, was realigned. Funds were redirected and targeted 
for projects with higher priorities and critical needs such as 
schools for children, improving blighted properties in our 
neighborhoods, and enhancing existing facilities, better 
public-council interaction.
    I have provided copies of the committee reports from all of 
our council's committees for the record, and I believe that it 
will be good reading and will also provide you good information 
with regard to the status of many things in the District of 
Columbia.
    Senator DeWine. Those will be made a part of the record. 
Thank you very much.
    Ms. Cropp. Thank you. An integral part of the council's 
budget process is public input. As such, many hearings on the 
fiscal 2004 budget were held. This gives the council and the 
Mayor an opportunity to hear from our citizens. The process 
gave citizens and our workforce the opportunity to comment and 
critique programmatic and funding needs and agency performance 
and their impact. The feedback is invaluable, because it 
contributed and culminated in decisions and recommendations of 
each committee in the mark-up process.
    At the end of this public process--translated into 54 
public hearings or about 289 hours--we incorporated the 
findings from that public hearing process, from our residents 
and our employees, into the budget. On May 6, the council 
approved the $6.6 billion spending plan that provides adequate 
funding for basic city services, in keeping with the seven 
goals of our legislative agenda. All of this was done, 
including full funding of our police department, without a tax 
increase. In fact, we are continuing with the portions of the 
tax reduction associated with the Tax Parity Act as passed by 
the council in 1999, which were already in place. The council 
action will bring our taxes more in line with our neighbors' 
over a 5-year period. We believe this has contributed to the 
economic renaissance that our city is experiencing.
    Historically, the relationship between the District and the 
Federal Government has been a unique political and financial 
arrangement. Between 1879 and 1920, the Federal Government 
provided assistance by paying half of all of the District's 
expenditures. Subsequently, given the various Federal 
prohibitions on taxing nonresidents' incomes, Federal 
properties, Federal purchase of goods and services, the 
District would receive a direct payment. This payment was 
stopped in 1997, when the Federal Government expropriated the 
cost of the contributions for the police, firefighters, 
teachers, and retirement plans, and various court services.
    It is worth recalling that in 1997 the Revitalization Act 
was passed. One recommendation was that since the District no 
longer receives the Federal payment, that the District should 
not have its local budget portion come before Congress, just 
like other States. I join with the Mayor in asking that you 
support budget autonomy for the District of Columbia. Although 
the District may be solely responsible for its local spending, 
it's not responsible for the structural imbalance that exists 
in its spending needs and its revenue generation capacity.
    The District, not unlike any other major urban city in this 
country, has a population that is older, sicker, and poorer. 
The big difference, and it is a major and important difference 
with the District and other large urban cities, is, we help 
support Baltimore and Richmond, because most of our income 
leaves the city and goes out to help support our suburban 
economies, totally a reversal from where it is in the rest of 
the country, where in most instances, the suburban 
jurisdictions help to offset the high cost of what is going on 
in the district. That is a huge structural imbalance unlike 
anything else. The GAO report is very clear, the imbalance 
ranges between $470 million and $1.1 billion a year. The cost 
of providing public services is just much higher in the 
District than in other areas.
    Mr. Chairman, you had asked if we had some suggestions. The 
Mayor certainly outlined the Federal Fair Compensation Act that 
our Congresswoman has introduced that we would hope that we 
could start discussions around that. I would like to also call 
your attention to the fact that in 1997, Congress recognized 
that the District paid an inordinate amount of Medicaid funds. 
We were the only city in the country, in this entire United 
States, that paid 50 percent of the cost of Medicaid. You 
recognized that that was an imbalance, and we changed the 
payment to 70 percent Federal and 30 percent District of 
Columbia. That is another area where you can look.
    The Federal Government pays a higher proportion of Medicaid 
than many other jurisdictions. It seems only fair and just, and 
a way to deal with the structural imbalance, that we at least 
get the same rate as other States may get for just the city, 
when no other city has to pay a Medicaid cost.
    Another area is our whole Metro payment. That certainly is 
a benefit to us, as we serve, as the capital city, our suburban 
jurisdictions. While we have Metro and we have our suburban 
areas that sit on the Metro board, their States pay the cost of 
Metro, so Montgomery County and Fairfax, Arlington, Prince 
George's, they do not even have to pay part of their Medicaid 
cost, while the District of Columbia once again, in a highly 
structurally imbalanced way, must bear the brunt of our Metro 
cost, so that is another area where we could look.
    Finally, as you consider our appropriations request, we ask 
that you support and pass the budget in time for the start of a 
new fiscal year and before adjournment of the 108th Congress. 
It really is telling that while our budget period started in 
October we did not have an approved budget until January. In 
some instances, we needed to reduce the cost of our Government 
to deal with our economy. It is important to remember that at 
the end of the budget process, both the Mayor and the council 
found themselves in sync and approved a budget that invests in 
service delivery and basic programs. We urge you to pass the 
budget as is without any riders.
    This much-anticipated 2004 budget is important, because it 
shows again that the Mayor and the council coexist and 
underscores our commitment to make Washington, D.C. one of the 
best-governed cities in the world. The council will continue to 
oversee our operations and expenditures, sometimes to the 
chagrin of the Mayor, but I think both of us agree that it is 
for the good of the city as a whole.

                           PREPARED STATEMENT

    We will be responsive to our constituents who call the 
District their home. We will work with the Mayor, with you and 
Congress and our surrounding Governments to achieve mutually 
shared goals. Together with the Mayor, we will produce good, 
responsible budgets that invest dollars for the District and 
leave a legacy for our future generations. Granted, we do not 
always agree, but we are always at the table to assert 
ourselves as an institution and work for the betterment and the 
future of our citizens.
    Thank you very much for this opportunity.
    [The statement follows:]

                  Prepared Statement of Linda W. Cropp

    Good morning, Chairman DeWine and Ranking Minority Member Landrieu, 
and members of the Senate Appropriations Subcommittee on the District 
of Columbia. I am pleased to be here with my colleagues to testify on 
the District's budget for fiscal year 2004.

                              INTRODUCTION

    The fiscal year 2004 budget--another in a series of fiscally sound 
and responsible budgets--marks another important stride in our city's 
history of home rule. This is the second budget that the locally 
elected leaders have crafted entirely within the Home Rule process. It 
fully illustrates that the Council and the Mayor can work together and 
put together a good spending plan that continues to make the District a 
better place in which to live, to work, to raise a family, and to 
visit. It is also a reflection of our resolve to stand as one good 
government that will remain fiscally prudent and most importantly 
responsible.
    This past February, the Mayor and Council received the annual 
Comprehensive Annual Financial Report, which certified that the 
District's fiscal year 2002 budget that ended on September 30, 2002 was 
our sixth consecutive balanced or surplus budget.
    Fiscal Discipline.--This has always been and will always be a TOP 
PRIORITY on our legislative agenda. We not only demand it of the 
executive branch, we practice it. The various forms of fiscal 
discipline--from rainy day savings, financial safeguards, insurance and 
investment policies, economic triggers to PAY-AS-YOU-GO funds--that we 
have demanded of, and imposed on ourselves in the past several years, 
have yielded significant returns to the District of Columbia.
    Case in point . . . The Council insisted that the government limit 
the growth of spending in fiscal year 2004, while ensuring that all 
basic municipal needs were met. Instead of increasing taxes to address 
declining revenues for fiscal year 2004, the Council resolved to limit 
the rate of spending to under 5 percent. Again, this was done without 
detriment to the District residents who receive services and benefits 
from important programs.
    This reflects a continuation of the same fiscal discipline 
strategies that the Council applied to the budget shortfalls that have 
occurred during fiscal year 2003. The Council took the lead and made 
tough decisions with the Mayor in closing a $323-million-dollar-plus 
revenue shortfall in this year's fiscal year 2003 budget on the very 
first day of the fiscal year--October 1, 2002. On April 1st, 6 months 
into the fiscal year, the Council took emergency action to close 
another $134 million hole in this year's budget. Our counterparts in 
Maryland and Virginia and all across the country of course face similar 
challenges, although we think that the District has acted more quickly, 
effectively and responsibly to take the actions necessary to keep our 
budget in balance.
    Finally, it is important to note that due to the city's fiscal 
discipline, our Congressional counterparts, as well as the hard work 
and positive image fostered by the partnerships of the locally elected 
leadership and our business community, we have finally been recognized 
and rewarded on Wall Street, where the DC government's bond rating has 
been upgraded from ``stable'' to ``positive.'' Moreover, the city's 
bond rating is expected to be further upgraded, while other 
jurisdictions ratings are being downgraded at this time.

                           COUNCIL PERIOD XV

    As the Council continues its work during the fiscal year 2003 and 
fiscal year 2004 legislative sessions, we will remain vigilant about 
maintaining the fiscal discipline that we have imposed on the Executive 
Branch, and ourselves. Also, we will focus on other important goals set 
forth in our legislative agenda. These include:
  --Revitalization of our Neighborhoods;
  --Investment in our Youth;
  --Protection of our Vulnerable Residents;
  --Oversight of Executive Performance and Service Delivery;
  --Promotion of Continued Economic Stability and Growth; and
  --Expansion of Home Rule and Democracy.

                    THE COUNCIL/MAYOR BUDGET PROCESS

    In December of last year, the Council passed the fiscal year 2004 
Budget Submission Requirements Resolution of 2002. It established March 
17 as the date by which the Mayor shall submit to the Council the 
proposed budget. The Mayor transmitted his budget on March 17 and the 
Council acted on it within the 50 days as required by the Home Rule 
Charter. During this 50-day period, the Council worked diligently with 
the Mayor in aligning both sets of priorities and, put together a 
fiscally sound and responsible spending plan. The operating budget 
funds basic city services and programs. The capital budget, as a result 
of stringent oversight by the Council, was realigned. For example, 
funds were redirected and targeted for projects with higher priority 
and critical needs, such as schools for the children, improving 
blighted properties in the neighborhoods, and enhancing existing 
facilities for better public/Council interaction.
    I have provided copies of the Council's committee reports and the 
fiscal year 2004 Budget and I would ask that they be made part of the 
record.
    When the Mayor submitted the budget to us on March 17, he had 
proposed a local budget of $3.8 billion, an increase of $195.5 million 
or 5.4 percent above the revised fiscal year 2003 budget, as amended by 
the fiscal year 2003 Amendment Act of 2002 and later approved by the 
Congress.

               THE COUNCIL/PUBLIC CITIZEN BUDGET PROCESS

    An integral part of the Council budget process is public input and, 
as such, many hearings on the fiscal year 2004 budget were held. The 
process gave the citizens and our workforce an opportunity to comment 
and critique programmatic and funding needs and agency performances 
that impact them. This feedback is invaluable because it contributed 
and culminated in the decisions and recommendations of each committee 
in the mark-up of the budgets. Following a review of the committee 
marks, the Committee of the Whole made additional recommendations in 
order to bring the budget into balance. At the end of this public 
process--which translated into 54 public hearings or about 289.15 
hours--we incorporated findings from our residents and employees into 
the budget.

               HIGHLIGHTS OF THE FISCAL YEAR 2004 BUDGET

    On May 6, the Council approved the $6.6 billion spending plan that 
provides adequate funding for basic city services and programs. In 
keeping up with the seven goals on our legislative agenda, schools 
continue to receive full funding. To protect our vulnerable residents, 
the Council found $4 million to fund the Interim Disability Assistance 
program for disabled adults. In the area of public safety, the Council 
provided the funding needed to increase the number of active policemen 
in the Metropolitan Police Department (MPD) to 3,800 by the end of 
fiscal year 2004. The Council accomplished this by separating the 
dollars needed to fund this initiative from the rest of the MPD budget 
by placing the dollars into Pay Go funding. To invest for future 
generations, capital and operating dollars were added for our young 
children to improve their studying environments and broaden their 
academic and vocational skills. We continued the District's effort to 
collect Medicaid reimbursement for local expenditures that are eligible 
for such Federal reimbursement.
    All of this was done without any general tax increase. In fact, we 
are continuing with the portions of tax reductions associated with the 
Tax Parity Act passed by the Council in 1999, which are already in 
place. This Council action will bring our taxes more in-line with our 
neighbors over a 5-year period. We believe this has contributed to the 
economic renaissance that our city is experiencing.

                          FEDERAL CONTRIBUTION

    Historically, the relationship between the District and the Federal 
Government has been a unique political and financial arrangement. 
Between 1879 and 1920, the Federal Government would provide assistance 
by paying half of all District expenditures. Subsequently, given the 
various Federal prohibitions on taxing nonresident incomes, Federal 
properties, Federal purchase of goods and services, the District would 
receive a direct payment. This payment was stopped in 1997 when the 
Federal Government expropriated the cost of the contributions for the 
police, firefighters, and teachers retirement plans and various Court 
services.
    It is worth recalling that when the 1997 Revitalization Act was 
passed, one recommendation was that since the District no longer 
receives any Federal payments, Congress would not need to review or 
approve its budget. At a minimum, Congress should no longer approve the 
local portion of the District's budget. Just like the other 50 States, 
the District would be solely responsible for approving its own local 
spending.
    Although the District government may be solely responsible for its 
local spending, it is not responsible for ``the structural imbalance'' 
that exists between its spending needs and its revenue generation 
capacity. Just recently, the General Accounting Office (GAO) released a 
report regarding this imbalance. Some of the significant conclusions of 
this report include:
  --The imbalance ranges between $470 million and $1.1 billion per 
        year;
  --The cost of providing public services is much higher in the 
        District than it is in the average State due to a relatively 
        large poverty population, poor health indicators, high crime, 
        and the high cost of living;
  --Although the District has a very high revenue capacity, we are 
        already taxing toward the upper limit of our revenue capacity, 
        thereby creating a punitive tax structure.
    In order to solve the problem of structural imbalance, the General 
Accounting Office suggests that the Congress consider one of the 
following: (1) Relax current taxing restrictions on the District; or 
(2) Compensate the District for its special status as a capital city.

                               CONCLUSION

    Finally, as you consider our appropriations request, we ask that 
you support and pass the budget in time for the start of the new fiscal 
year and before the adjournment of the 108th Congress. It is important 
to remember that at the end of the budget process, both the Council and 
the Mayor found themselves in sync and approved a budget that invests 
in service delivery and basic programs. Furthermore, we urge you to 
pass the budget as is, without any extraneous riders. This much 
anticipated fiscal year 2004 budget is important because it shows that 
the Mayor and the Council can co-exist together and underscores our 
commitment to make Washington, DC one of the best governed cities in 
the world.
    Nonetheless, the Council will continue to oversee executive 
operations and expenditures. We will be responsive to our constituents 
who call the District their home. We will work with the Mayor, 
Congress, and the surrounding governments to achieve mutually shared 
goals. Together with the Mayor, we will produce good responsible 
budgets that invest dollars for the District and leave a legacy for 
future generations. Granted we do not always agree from time to time, 
but we will be at the table to assert ourselves as an institution and 
work for the betterment and future of our citizens.

    Senator DeWine. Thank you very much. Doctor.

                     STATEMENT OF DR. NATWAR GANDHI

    Dr. Gandhi. Good morning, Mr. Chairman, Senator Landrieu, 
Congresswoman Norton. As the Chief Financial Officer, my 
primary responsibility is to ensure the overall financial 
viability of the District at all times. In the past year, we 
have enjoyed some notable successes, including the sixth 
consecutive balanced budget. Overall, the city ended fiscal 
year 2002 with a general fund surplus of $27.4 million, and a 
positive general fund balance of $865 million. In fiscal 1996, 
there was a negative fund balance of $518 million, so we have 
witnessed a turnaround of over $1.3 billion since then. This in 
itself is clear evidence the District is qualified for Home 
Rule and ready for budget autonomy.
    I believe we are in a good position to continue this 
progress. We instituted several changes in financial systems 
that will give us a much better picture of our financial 
posture as we go through the year.
    During fiscal year 2003, we began to implement standardized 
spending plans and to report actual performance against those 
plans, using a new online financial management tool for 
controlling agency budgets. At the end of fiscal year 2001, we 
had $100 million in cash reserves. This amount grew to about 
$248.7 million by the end of fiscal year 2002, and will 
increase to nearly $254 million by the end of fiscal year 2003, 
to remain at 7 percent of total local expenditures. These 
reserves were fully funded 5 years before the designated 
deadline.
    Along with the fund balance noted earlier, these steps 
solidified the District's bond rating and led Moody's to 
upgrade their outlook on the District's $3 billion in general 
obligation bonds from ``stable'' to ``positive''. This is 
particularly significant at a time when rating agencies are 
downgrading or looking negatively at numerous States and 
localities. We hope our positive outlook will lead to a ratings 
upgrade later this year, as Chairman Cropp expected, which will 
contribute to even lower borrowing costs in the future.
    For the fiscal year 2003 financial outlook, through the 
leadership and cooperation of our elected officials, the 
District made the necessary tough decisions to assure a 
balanced budget for fiscal year 2003. As of early June, the 
remaining spending pressure for fiscal year 2003 is estimated 
at about $50 million, primarily driven by the high utilization 
cost for the health care safety net. These amounts will be 
addressed. I am confident that we will end the year with a 
balanced budget.
    For the fiscal year 2004 budget request, in local funds, 
which comprise about two-thirds of the total budget, the 2004 
budget request is about $3.8 billion, an increase of about $230 
million over the approved 2003 level. The total number of 
positions funded with the local fund is about $26,245, a 
decrease of 150 positions, or less than 1 percent.
    As you will see, the budget projects positive net operating 
margins through fiscal year 2007. This projection shows a 
positive financial picture, and is based on revenue forecasts 
that use realistic economic and demographic assumptions 
generally accepted by the forecasting community and the Federal 
Government. However, a close examination of the data suggests 
that the District is operating on a slim financial margin 
indeed. Fortunately, we expect local revenues to begin to grow 
in fiscal year 2004, after the decline and stagnation of the 
past 2 fiscal years, but the growth that can be expected is 
nothing like the 7 percent annual change between fiscal year 
1999 and fiscal year 2001.
    The District now faces a more slowly rising revenue curve, 
as financial and real estate markets return to more normal 
patterns, generating revenues that are expected to grow at 
around 4\1/2\ percent per year. We believe that it will be 
challenging for this revenue to sustain our current level of 
services, and there is no room for consideration of additional 
program initiatives, significant infrastructure investment, or 
tax cuts. For these reasons, the city and its elected 
leadership will face difficult program and financial decisions 
in the years to come.
    One of the reasons for the difficulty is the structural 
imbalance in the District's budget that needs to be addressed. 
Chairman Cropp and the Mayor already have talked about the 
structural imbalance issue, so I will not dwell on that any 
further. I appreciate your leadership and Senator Landrieu's 
leadership in our appropriations, and it is my hope that the 
current GAO report would help Congress and the District move 
beyond the questions of whether there is a structural imbalance 
to questions of how the Federal Government and District 
Government can work together to address this problem. This 
problem must be addressed with urgency to ensure the long-term 
financial viability of the Nation's capital city.

                           PREPARED STATEMENT

    Mr. Chairman, this concludes my prepared remarks. I request 
that this testimony be made part of the record. I will be 
pleased to answer any questions you may have. Thank you.
    [The statement follows:]

                 Prepared Statement of Natwar M. Gandhi

    Good morning, Mr. Chairman, Senator Landrieu, and members of the 
subcommittee. I am Natwar M. Gandhi, Chief Financial Officer for the 
District of Columbia, and I am here today to testify on the District's 
fiscal year 2004 budget request to the Congress. My remarks will 
briefly touch on the fiscal year 2003 financial outlook, the fiscal 
year 2004 request, and the structural imbalance that threatens the 
District's long-term financial viability.

                                OVERVIEW

    As the Chief Financial Officer, my responsibility is to ensure the 
overall financial viability of the District of Columbia in the short-, 
mid-, and long-term. In the past year, we have enjoyed some notable 
successes, including the sixth consecutive ``unqualified'' (or clean) 
opinion from the city's independent auditors, with the fiscal year 2002 
Comprehensive Annual Financial Report (CAFR) completed ahead of time 
and with a balanced budget. Overall, the city ended fiscal year 2002 
with a general fund surplus of $27.4 million, and a positive general 
fund balance of $865.3 million. In fiscal year 1996, there was a 
negative fund balance of $518 million, so we have witnessed a 
turnaround of over $1.3 billion since then. Even allowing for the 
restatements necessary to conform our financial reporting to the new 
requirements of Governmental Accounting Standards Board (GASB) 
Statement Number 34, this result is clear evidence that the District is 
qualified for Home Rule.
    I believe we are in a good position to continue this progress. We 
instituted several changes in financial systems that will give us a 
much better picture of our financial posture as we go through the year. 
We successfully implemented GASB 34 on time with minimal outside 
assistance. During fiscal year 2003, we began to implement standardized 
spending plans and to report actual performance against those plans 
using CFO$ource, a new online financial management tool for controlling 
agency budgets. At the end of fiscal year 2001, we had $100.9 million 
in cash reserves; this amount grew to $248.7 million by the end of 
fiscal year 2002, and will increase to nearly $254 million by the end 
of fiscal year 2003 to remain at 7 percent of total local expenditures. 
These reserves were fully funded 5 years before the legislative 
deadline. Along with the fund balance noted earlier, these steps 
solidified the District's bond ratings and led Moody's to upgrade their 
outlook on the District's $3 billion in general obligation bonds from 
``stable'' to ``positive''. This is particularly significant at a time 
when rating agencies are downgrading or looking negatively at numerous 
States and localities. We hope our positive outlook will lead to a 
ratings upgrade later this year, which would contribute to even lower 
borrowing costs in the future.
    We have made progress on other fronts as well. This year, for the 
second time, the District of Columbia's ``Comprehensive Financial 
Management Policy'' appears as an appendix of the budget submission. 
This policy, required annually by the fiscal year 2001 District of 
Columbia Appropriations Act, Public Law 106-522, is actually a 
compilation of policies in key areas and a financial management tool 
that codifies current policies and procedures. It is updated annually.
    Effective with the fiscal year 2003 budget development process, we 
began the transition to performance-based budgeting. With the active 
support of the Office of the City Administrator, seven large operating 
agencies, including the OCFO, submitted performance-based budgets based 
on agency strategic business plans aligned with the mayor's citywide 
strategic plan. For the fiscal year 2004 budget process, we worked with 
another 27 agencies (the remainder of the Mayor's cabinet) to convert 
them to performance-based budgeting.
    A long-term replacement strategy for the District's payroll systems 
and their integration with other administrative systems has been 
developed as part of the Administrative Services Modernization Program 
(ASMP), spearheaded by the Office of the Chief Technology Officer. Over 
the next 2 to 3 years, all of the District's administrative systems--
personnel, payroll, procurement, property management, and budget--will 
be upgraded and integrated with the System of Accounting and Reporting 
(SOAR). For the first time, this will give the District a top quality, 
integrated information system with which to manage District operations. 
Now that we have 3 years of operating experience with SOAR, we are 
utilizing more of its capabilities. We already have an Integrated Tax 
System, rated as among the best in the country by the Federation of Tax 
Administrators, and the District is the first city to offer free online 
tax filing and the only city to provide account balances via the Web.

                   FISCAL YEAR 2003 FINANCIAL OUTLOOK

    Through the leadership and cooperation of our elected officials, 
the District made the necessary tough decisions to assure a balanced 
budget for fiscal year 2003.
    As of early June, remaining spending pressures for fiscal year 2003 
are estimated at $50 million, primarily driven by higher utilization 
costs for the Health Care Safety Net. This amount will be addressed. I 
am confident we will end the year with a balanced budget.
    I want to thank you, Mr. Chairman, and you, Senator Landrieu, and 
the subcommittee members and staff for your leadership and support on 
the District's portion of the fiscal year 2003 budget supplemental that 
was enacted in April of this year.

                    FISCAL YEAR 2004 BUDGET REQUEST

    The Council of the District of Columbia voted to approve the 
consensus fiscal year 2004 budget request on May 6. Copies of the 
budget documents have been distributed, and CD-ROMs will be made 
available shortly. I would like to briefly summarize some of the key 
points in the request.
    In total, the District's gross fund operating request for fiscal 
year 2004 is $5.69 billion, which represents an increase of about $119 
million, or 2.1 percent, over approved fiscal year 2003 levels. The 
total number of positions in fiscal year 2004 from all funding sources 
is 33,867, which represents an increase of 233 positions, or less than 
1 percent.
    In local funds, which comprise about two-thirds of the total 
budget, the fiscal year 2004 budget request is about $3.83 billion, an 
increase of about $230 million, or 6.4 percent, over approved fiscal 
year 2003 levels. The total number of positions funded with local funds 
is 26,245, a decrease of 150 positions, or less than 1 percent.
    Over the 4-year period from fiscal year 1998 to fiscal year 2002, 
the District's local fund expenditures increased by 6.1 percent 
annually, or a total of $741 million over this period, from $2.768 
billion in fiscal year 1998 to $3.509 billion in fiscal year 2002. Of 
this $741 million increase, $621 million (nearly 84 percent) came in 
two areas: $316 million in the D.C. Public Schools and the Public 
Charter Schools, and $305 million in the Departments of Human Services, 
Mental Health, and Health, and the Child and Family Services Agency 
(all of which were part of the Department of Human Services in 1997). 
At these six agencies, expenditures increased at a rate of 11.1 percent 
annually over the past 4 years. Expenditures in all other District 
agencies combined increased by $120 million, or 1.8 percent annually, 
over the same period.
    As you will see, the budget projects positive net operating margins 
through fiscal year 2007. This projection shows a positive financial 
picture and is based on revenue forecasts that use realistic economic 
and demographic assumptions generally accepted by the forecasting 
community and the Federal Government.
    However, a close examination of the data suggests that the District 
is operating on a slim financial margin. Fortunately, we expect local 
revenues to begin to grow in fiscal year 2004, after the decline and 
stagnation of the past 2 fiscal years. But the growth that can be 
expected is nothing like the 7.4 percent annual change between fiscal 
year 1999 and fiscal year 2001. The District now faces a more slowly 
rising revenue curve, as financial and real estate markets return to 
more normal patterns, generating revenues that are expected to grow 
around 4.5 percent per year. We believe that it will be challenging for 
this revenue to sustain our current level of service, and there is no 
room for consideration of additional program initiatives, significant 
infrastructure investments, or tax cuts. For these reasons, the city 
and its elected leadership will face difficult program and financial 
decisions in the years to come. One of the reasons for the difficulty 
is a structural imbalance in the District's budget that needs to be 
addressed.

             STRUCTURAL IMBALANCE IN THE DISTRICT'S BUDGET

    Over the past several years, the District has submitted balanced 
and responsible budgets during periods of increasing as well as 
stagnating and declining revenues. Our restrained budgeting in the good 
years helped us work through some of the hard times in fiscal year 2002 
and fiscal year 2003. For fiscal year 2004, the District is submitting 
a balanced budget in a particularly challenging economic environment, a 
testament to the ability of the District's elected leaders to manage 
through difficult times. However, despite this balanced budget, and 
despite the surpluses the District has generated over the past 6 years, 
the District has a serious long-term financial problem--a structural 
imbalance that transcends short-term challenges and cyclical revenue 
fluctuations. This structural imbalance is a long-term gap between the 
District's ability to raise revenue at reasonable tax rates and the 
District's ability to provide services of reasonable quality to its 
residents. It is driven by expenditure requirements and revenue 
restrictions that are beyond the control of District leadership.
    Several outside assessments of the District's financial condition 
have affirmed the presence of this imbalance. In March 2002, a McKinsey 
& Company report funded by the Federal City Council stated, among other 
things, that Federal constraints impose an annual opportunity cost of 
at least $500 to $600 million. In October 2002, Alice Rivlin and Carol 
O'Cleireacain of the Brookings Institution assessed the District's 
relationship with the Federal Government and concluded that a strong 
rationale exists for additional Federal financial assistance to the 
District. And just last week, the General Accounting Office (GAO) 
released its final report, thoroughly assessing the District's 
financial structure and corroborating the existence of a structural 
deficit in the District's finances.
    Economic changes have lead other jurisdictions to begin identifying 
structural issues as well, and the District shares in the breadth and 
depth of problems facing most States and localities. In addition, 
however, the District's structural imbalance is more extreme, driven by 
the unique set of services provided by the District and the unique set 
of restrictions that limit the District's revenue raising capacity. I 
have testified to these requirements and restrictions on several 
occasions. In the District, we provide city services, State services, 
county services and even the services of a school district; we provide 
public safety and public works services to the Federal Government 
itself. We do all this with an artificially constrained tax base. We 
cannot tax the income of people working in the District and living 
elsewhere, a restriction faced by no State. We cannot tax 42 percent of 
the property value within the city because it is owned by the Federal 
Government. We cannot count on high-density property to make up for our 
limited taxable property because of the height restrictions on District 
buildings.
    The cumulative effect of these requirements and restrictions is 
that the District faces a long-term structural imbalance, whereby it is 
unlikely that we can provide a standard quality and range of services 
to our citizens, even with tax burdens that exceed those elsewhere. 
This imbalance manifests itself in many ways:
  --The District's per capita expenditure requirements are very high. 
        We face high per capita expenditure requirements because we 
        provide public services in a market with high labor costs; we 
        provide services to a large commuter population; and we have 
        many residents with high service needs. On top of these cost 
        drivers, the District provides about $500 million in services 
        of a State-like nature, and we provide millions of dollars of 
        services as host to the Nation's capital. Although the District 
        certainly has the potential to improve the efficiency of 
        operations, the District's higher costs are determined by 
        factors beyond our control and cannot be offset entirely by 
        improved service delivery.
  --The District compensates for its very high expenditure requirements 
        with taxes that are very high. The District's tax effort is 
        among the highest, if not the highest, in the Nation. The need 
        for high taxes is driven further by restrictions on the 
        District's ability to tax income earned in the District and a 
        significant portion of the property within the District.
  --The structural imbalance is not just a reality facing the 
        District's operating budget. The imbalance contributes to a 
        significant capital budget and infrastructure problem as well. 
        The District faces an accumulated infrastructure backlog of 
        $2.5 billion, which has not been funded in recent capital 
        improvement plans. The District continues to defer capital 
        investment to avert the operating costs associated with debt 
        service. The problem is acute because additional borrowing 
        could raise outstanding debt to levels that adversely affect 
        the District's credit rating.
    When it comes to addressing the structural imbalance, we have few 
options. Increasing the tax burden on District businesses and residents 
even further could have an adverse impact on total receipts, because it 
could influence potential and current residents or businesses to locate 
in adjacent, lower-tax States. Given the structural imbalance, the 
District must choose between tax levels that are even higher than the 
national average, service levels that are lower than the national 
average, or combinations of both.
    An alternative solution is Federal compensation for the District's 
unique relationship with the Federal Government. Not only does the 
District provide unreimbursed services to the Federal Government and 
fund itself with a federally restricted tax base, but the Federal 
Government has a strong interest in a fiscally secure District of 
Columbia. Ultimately, the long-term solution to the structural 
imbalance is a matter to be addressed by District and congressional 
policy-makers. A dialogue must continue that revisits the Federal/local 
partnership and arrives at a long-term solution for equitable support 
of District services.
    It is my hope that the GAO report helps Congress and the District 
move beyond questions of whether there is a structural imbalance to 
questions of how the Federal Government and District government can 
work together to address this problem. And this problem must be 
addressed with urgency to ensure the long-term financial viability of 
the Nation's capital city.

                               CONCLUSION

    Mr. Chairman, this concludes my prepared remarks. I request that 
this testimony be made part of the record. I will be pleased to answer 
any questions you or the other members may have.

    Senator DeWine. Good, thank you very much.
    Senator Landrieu.
    Senator Landrieu. Thank you, Mr. Chairman. I really 
appreciate the overview provided by each one of you, and 
particularly the points of your focus.

                               EDUCATION

    Mr. Mayor, maybe I should start with an issue that has been 
in the news a great deal, an issue that probably needs some 
clarifying, and we are going to spend some time working on this 
issue here, and that is the issue of education and choices and 
opportunities that we have to improve the educational 
opportunities for children not just here in the District. As 
you know, it has been a major focus of Congress with the 
passage of ``Leave No Child Behind'' as well as other efforts 
of funding and reforming special education.
    It has been a real focus of Congress to try to figure a new 
way to work in partnership with local Governments and State 
Governments to enhance the quality of education for all 
children, and it is a contentious debate at times, because 
there are a variety of different approaches. There seems to be 
some consensus emerging at least on the subject of providing 
more options than what exist now, but as you know, there is not 
tremendous support, and I agree with that, for abandoning the 
public school system, even though I know that people would 
contend that this is not what some people are attempting to do. 
Some evidence would suggest that some people have maybe 
completely given up on the public school system and want to go 
elsewhere. I am not one of those.
    So given this debate, could you just express to us, as 
clearly as you can, about what your views are. You have talked 
about a three-sector approach when this subject comes up, could 
you just clarify that issue for us? I realize that the school 
budget is not part of the District's Federal budget--though the 
school board is not here, I would like your views, Mr. Mayor. 
Many Mayors are now stepping up to try to help their cities 
navigate this issue of school choice, and your voice is one 
that we listen to a great deal, could you clarify what some of 
your thoughts are about that issue, and then I will come back 
to some others that you outlined.
    Mr. Williams. Well, I think, Senator Landrieu, that 
education is really critical to the future of the city. It is 
critical to have any kind of workforce and talent pool that our 
businesses need. It is critical in terms of having in the 
future the civic leadership that any city needs, let alone our 
Nation's capital, and if you look at a lot of literature about 
cities right now, people will tell you that more and more 
employers are looking to come to cities for the sense of energy 
and creativity, energy that a city is about.
    Well, clearly you are not going to have that energy and 
creativity if a good part of your city is really not fully part 
of the mainstream educationally, in terms of literacy and 
otherwise, so education is vitally important, and what we have 
tried to do is certainly in the first instance put a major 
emphasis on education over, if you look at the budgets over the 
last 4 or 5 years that I have introduced to the council, you 
know, major increases have really gone to either human services 
or they have gone to education. Everything else has pretty much 
been flat--education, some 42 percent increase in education.
    As we face this looming structural, well, present and 
looming structural imbalance in the capital budget, we have had 
to basically cut out of the capital budget $250 million in 
order to preserve capital dollars for school programs, so 
schools have been, are, and will continue to be, the public 
schools, a major part of our emphasis, because they are clearly 
the major part of the lifting and the delivery system for our 
children, and in that regard, the program that I have 
supported, calling for additional dollars for a choice program, 
or additional dollars above and beyond the dollars that we are 
investing in our schools.
    To the extent that children leave our regular public 
schools under this program, we would hold our regular public 
schools harmless, so in any event, regular public schools would 
have additional dollars to devote to better class sizes, other 
kinds of initiatives.
    Above and beyond that, we are proposing as part of this 
three-sector strategy provision of dollars, I would like to see 
in the order of magnitude of $50 million ongoing funding to 
relieve the funds of State costs that they can then invest, 
State costs borne by our District, no other State, or not other 
city, certainly, that can go into teachers, learning, and other 
kinds of enrichment.
    The second part of this program, in addition to these 
ongoing dollars for the public schools, would involve $50 
million matched by the private sector for school modernization 
for our charter schools. Right now, the demand far outstrips 
the supply for our charter schools. One of the big issues, as 
you know, is facilities in our charter schools. This will go a 
long way toward helping our charter schools meet and satisfy 
that gap.
    And then finally, certainly there is a choice component 
here for the third sector. We believe that it ought to be 
devoted to children who are right now trapped in our low-
performing schools, our lowest-income children, their ability 
to go to schools in the District, schools that would agree to 
accept nondiscriminatory policies, and certainly--and I am 
pleased that the Cardinal has already evinced support for this, 
certainly one leader in the private parochial area--that there 
be a common accountability mechanism, so that--you know, one of 
the things I am seeing right now as we enter into this debate 
is there is so much fury, inflammatory rhetoric about what can 
or will happen if we do this, but not a lot of it is based on 
real, empirical data.
    What we are talking about here is a pilot. We are talking 
about experimenting, and we are talking about doing a study 
under the Department of Education, Federal Department of 
Education, so that 4 or 5 years from now, we can look and say, 
okay, the outcomes were better, or maybe the outcomes are the 
same, or maybe they are no different, in which case we ought to 
try something new. And that is what I am proposing, and that is 
what I strongly support.
    I think we have tried one model for a long, long time. We 
are not abandoning that model, but if we can help 2,000 or 
3,000 children as part of a multisector approach, I think we 
ought to do it.

                             SCHOOL CHOICE

    Senator Landrieu. Well, just to conclude, and then I have 
got a couple of questions on different subjects. Regarding 
school choice, perhaps an approach would be a limited pilot, as 
you have described, but that would include not just the 
District, but several other cities, but quite limited, and the 
parameters quite secure. One of the reasons that I hesitate to 
even be more supportive at this point is because of the 
experience we just went through with ``Leave No Child Behind'', 
where funding was promised, but it was not forthcoming, and so 
I guess that there are many Members of Congress on both the 
Democratic and I would say some on the Republican side, that 
are wondering how we even move forward from here. There were 
commitments of funding levels made to schools across the 
country, and in my position the chairman may disagree, but 
those levels were not--whoever's fault it was, we could argue--
but those levels were not maintained, and so entering into any 
kind of arrangement without some security of the funding that 
follows whatever arrangements is something I think we should be 
very careful about, and again, having an approach that might 
include other regions of the country as well, if we were going 
to pursue it.
    But finally, I do want to, Mr. Mayor, commend you for being 
at least open. I think in this debate we have to be open to new 
approaches, but your efforts and the council's efforts 
particularly on expanding charter school options and choices in 
the District is very commendable. There are not many cities, 
Mr. Chairman--and I think now almost 17 percent of the students 
have a choice for charter schools. There are many cities that 
have much more limited choices, so the District has made a lot 
of progress in their charter school movement, and now having 
quality charter schools and accountability.
    But when you move into other areas beyond that, this issue 
of what children will be tested, what tests they will agree to, 
the private sector, as you know, holds very dearly their 
freedom to either not have tests, have whatever kinds of tests 
they want--of course, they do not have public funds involved, 
so they have that freedom, but adopting a new system would 
require private and independent schools to maybe adopt certain 
criteria that they might not feel is appropriate.
    So we are not going to resolve it today, but I just want to 
commend you for being open, but I guess caution that we proceed 
very slowly because of some of the things that I outlined.
    Go ahead.
    Ms. Cropp. If I may just for a moment add to that, the 
council shares in your concern with regard to funding for 
unfunded mandates. With ``No Child Left Behind'', the District 
is looking right now for millions of dollars to try to pay for 
that. We have the issue of our transformation schools that we 
are still dealing with.
    I would just like to put on the record for discussion not 
only in the District, but I think nationally, the real issue 
and concern with education is with the hard-core child who is 
having problems. The District has probably the largest charter 
school population of any city, any State in the country almost, 
or we are probably up there in the highest rank. Normally, 
those who go to charter schools, it is a certain culture, or a 
certain belief from the parents starting out with the children, 
but we still are not really tapping into that hard-core, 
uneducated child, and no matter what of the pilots that we are 
talking about now, until we touch into this hard-core group of 
those who are undereducated, I do not think we are going to 
achieve what we want to achieve.
    And the District of Columbia has really done exceptionally 
well, I think, over the past several years, but the area, if I 
had to select an area where I think we have the greatest need 
in growth it is with education and with our young people, and I 
would hope, as everyone, the District, nationally, other 
jurisdictions, as we look at it, we do not just look at those 
individuals who are going to make it. You know, with the 
charter schools, the parents obviously have a care for 
education. With school of choice, the parents obviously are 
trying to seek a higher level of education for their children, 
but it is that hard core that is in the public schools around 
this country, that if we do not address them, we are not going 
to resolve the problem at all.
    Senator Landrieu. Well, I thank the councilwoman, and I am 
not going to take any more time, but only to say that many of 
those hard-core children, as you are describing them, and 
perhaps that is a good term, are special needs children, and 
the Federal Government said they would pick up 40 percent of 
the tab of special needs, and the Federal Government is only 
picking up 8 percent for jurisdictions all over the country, so 
that would have to be addressed as one of the founding building 
blocks of this new proposal, that discrepancy in funding, 
before we would proceed.
    Mr. Chairman.

                              BOND RATING

    Senator DeWine. Dr. Gandhi, what is the outlook on Wall 
Street for the city's bond rating, and do you think that the 
recent GAO report will affect the bond rating?
    Dr. Gandhi. Sir, let's say my hope is that next time we go 
to Wall Street--which will be another month or two--that we 
would see an upgrade. That is my hope.
    Senator DeWine. An upgrade?
    Dr. Gandhi. Upgrade, sir, but let me say there are two 
fundamental issues here. The people on Wall Street are looking 
at, first, how well the city is managing its fiscal affairs, 
and I think the elected leaders have proved that, in the 2003 
and 2004 budgets, they have done heavy lifting and have done 
monumental work in terms of making sure that our budget is 
balanced. It is balanced without raising any taxes. They were 
able to provide realistic remedies to solving problems without 
using any tricks--no one-time revenues, no accounting mechanism 
that others have used. We have not done that.
    The second issue here is that they do look at our 
structural problem. There is no way of going around that. That 
does affect us, and they look at our long-term economic 
viability. Unless the Congress resolves this fundamental issue, 
we do have some problem, but as far as the city's fiscal 
credibility, I think we have proved on Wall Street that we can 
manage the city, and manage in a very fiscally prudent and 
financially responsible manner.
    The last thing I would say, sir, is that we now have 
roughly 25 percent of our fund balance, and until the year 
2007, every year we will have more than half, up to 60 percent 
of our fund balance, in cash. No other State, except perhaps 
Mississippi, that has a requirement of putting 7 percent of 
fund expenditure in general fund cash reserve. We have that.
    Further, and I will end with this, the replenishment 
requirement that we have is rather--how shall I put this?--very 
strict; so basically, that fund is untouchable, and that gives 
a lot of assurance to the people on Wall Street that that money 
is always there, and there in cash, so I am very hopeful.
    Mr. Williams. If I could add, Mr. Chairman----
    Senator DeWine. Good. Mr. Mayor, go ahead.
    Mr. Williams. Because of my experience as CFO, I think that 
it actually helps, because when we go up and talk to them, one 
of their major issues is this issue of the imbalance, and the 
Federal relationship, and to the extent that a recognized 
authority like GAO has pointed this out, and that there are 
statements from you as Chairman and the Ranking Member on this, 
and certainly our Congresswoman, I think that that actually--I 
think Wall Street sees that as supportive, as opposed to 
counterproductive.
    Another thing, as I just said, I am proud of the fact that 
from the time of our fiscal insolvency until now--and you are 
talking about a swing probably of, what, around $1 billion?
    Dr. Gandhi. $1.3 billion, yes, sir.
    Mr. Williams. Right, in liability, to now a fund balance, 
we never financed our debt. So we basically worked that debt 
down year by year, managing--you know, like the family managing 
the MasterCard, we just managed it down the very, very old-
fashioned, hard way. And I think that is to our credit, over 
these last 7, 8 years.
    Dr. Gandhi. And Mr. Chairman I would add, just to 
supplement the Mayor's point, that when the tobacco money came 
to us, we securitized that, and that substantially lowered our 
debt by $1/2 billion.
    Senator DeWine. You did what, Doctor?
    Dr. Gandhi. Securitized our tobacco debt, and consequently 
we do not have to now rely upon lower tobacco consumption and 
lower tobacco input into the fund. We are basically free of 
that obligation, so I think it was a very wise fiscal move on 
the part of the elected leadership, and it established our 
credibility on Wall Street even further.

                COMBINED SEWER OVERFLOW PROJECT UPGRADES

    Senator DeWine. Mr. Mayor, in fiscal year 2003, our 
subcommittee provided $50 million to begin these urgently 
needed upgrades to the city's Combined Sewer Overflow Project. 
Do you want to give us an update on the status of the project?
    And also, with Federal cost-sharing, how will you be able 
to reduce the time for the project completion, and also maybe 
tell us a little bit about, if the funding level goes down? In 
other words, if the numbers we are able to give you will go 
down to, say, $10-15 million, what does that mean to you?
    Mr. Williams. Right. Well, Mr. Chair, first of all the 
project, as you know, has three phases. There is the Anacostia 
phase, the Potomac phase, and the Rock Creek phase. All of 
them, particularly the Anacostia and Rock Creek, are 
particularly polluted.
    The most urgent and complicated of these is the Anacostia 
River phase, which as you have mentioned is $1 billion. The 
contribution of $50 million so far has been matched by a $90 
million contribution from WASA, which will go to completing 
early work. There remains, however, a need of $800 million for 
this Anacostia phase. There are several projects that are 
already underway, pumping capacity, targeted separation, an 
initiative to maximize storage in the existing system. Were we 
to receive reliable funding--in other words, if we were to know 
we were going to receive reliable funding over a period of 
years, we would then be able to finance the project properly 
and start the project in all of its phases and get it done over 
a reasonable period of time.
    Senator DeWine. Reliable means what?
    Mr. Williams. Pardon me?
    Senator Landrieu. Dedicated.
    Mr. Williams. Dedicated, reliable, recurring funding.
    Senator DeWine. At what level, though? It means at a 
certain level, I assume.
    Mr. Williams. Well, I do not want to--I could get you the 
exact number, but I would believe that if we were able to 
receive the level of funding we have already received on a 
reliable basis, recurring basis, we could then take that to the 
markets and package the project and get it done in a timely 
fashion.
    Senator DeWine. Sure.
    Mr. Williams. Were we not to receive this, I do not see a 
way that we can rely on our taxpayers and our businesses to 
shoulder the total cost of doing this project, and I think the 
results are just tragic, because it would grossly undermine the 
overall effort to revitalize the river, revitalize the city's 
waterfront here in our Nation's capital, what is it, ten blocks 
from the U.S. Capitol.
    And I might mention that the sewage system is antiquated. 
It was built in the last century. The major issue is, as you 
know, storm separation. This is the old, quote-unquote old 
city, south of Florida, here in Washington, D.C. The Federal 
Government probably has got about a 60 percent share of that 
old city, so it really is--it is not just a Federal issue 
because we are the Nation's capital. It is a Federal issue 
because our largest employer or major corporate partner here 
has got to do its share.

                            METRO COMMITMENT

    Senator DeWine. Let me move to another area. You are 
requesting Federal support to help the District meet its 
commitment to Metro. Do you want to explain why you feel this 
Federal commitment is so important?
    Mr. Williams. Well, Metro is certainly important to our 
city's economic livelihood, because our city has probably the 
second-largest in the country, I believe it is, ingress-egress 
of commuters of any city in the country. We have--like many 
cities in the country, we are in the top tier in terms of 
transportation congestion. This has been exacerbated by Federal 
actions, however well-intentioned, whether they are up here at 
the Capitol, but certainly down with the executive agencies, 
and most prominently, the White House. We have got Pennsylvania 
Avenue closed.
    I do applaud the effort to begin work on studying a tunnel, 
but we are way behind in getting the circulator moving, which 
will help free up traffic, so here you are trying to revitalize 
the city. We have seen $27 billion of investment in the city, 
and yet we have got this transportation congestion, 
coagulation, which is really hampering that effort to bring in 
additional business. The tractor man was a great example of how 
one little hiccup in the system can ricochet all over the 
region.
    Another example, if the Pentagon decides they are going to 
change how they register employees as they come in, or change 
how they do business--I remember this happened shortly after 9/
11. We had traffic backed up for miles all over the place, so 
we really need Metro.
    Now, Metro, the District's share of Metro is 
disproportionately higher than the surrounding jurisdictions, 
even though we do not have the tax base to support it, so our 
share is disproportionately higher, and we are paying that 
share, as Chairman Cropp has mentioned, unlike our partners in 
Montgomery County, Fairfax County, and the like.
    Dr. Gandhi. If I may supplement the Mayor----
    Ms. Cropp. If I may add to that?
    Senator DeWine. Sure.
    Ms. Cropp. What the mayor just articulated, with the share 
that we are paying, our capital dollars are being spent, and we 
are almost at a very high level. The infrastructure of the city 
as a whole needs to be repaired. The Mayor, the council, we 
have aggressively been trying to do that, fix our streets and 
do other things. With limited capital dollars, and with such a 
large share having to go to Metro, at some point the city is 
going to have to make a decision.
    Remember, we are talking about our taxpayers' dollars, and 
our taxpayers are saying, we want our parks and recreation that 
you are talking about, and the fact that we cannot even keep 
our parks, our recreation facilities, but we are going to help 
to pay and offset a disproportionate share of Metro for people 
outside of the District of Columbia, once again, a structural 
imbalance where the people who are paying for it are not even 
getting their dollars' worth.
    Mr. Williams. That is an excellent point. In 2005, I 
believe, the Metro share climbs up to $200 million, so you are 
already cutting the capital budget tremendously in order to 
meet the kind of per capita debt ratio that is going to satisfy 
Wall Street, and you have to cut it tremendously in order to 
just maintain ground with the schools, yet we have got to face 
this $200 million of Metro that is going to further crowd out, 
as the chairman is saying, needed investments.
    Senator DeWine. Doctor.
    Dr. Gandhi. If I may just supplement by some numbers here 
the Council Chairman and the Mayor's point--if you really look 
at this formula, which is really antiquated, we are now paying 
around 39 percent of the subsidies, while we hold only about 6 
percent of the real property valuation in the region, and only 
about 20 percent of the workforce is the riders who are on 
Metro. Any working day, the majority of the people riding Metro 
are basically regional people, and any working hour, especially 
in rush hours, the majority of the riders are Federal workers.
    Senator DeWine. Senator Landrieu.
    Senator Landrieu. Let me ask--and I really appreciate the 
discussion on Metro, because I think there might be some 
opportunities there for us to pursue some of the suggestions 
that all of you have made, Dr. Gandhi, some of us debated 
within this recent tax relief an opportunity, although it never 
came to fruition, to allow our cities to save through 
refinancing, because there are some Federal restrictions right 
now on refinancing. We did not opt to do that, which I think we 
should have, because we could have, at no cost to the taxpayer, 
saved our city some money.
    Would that be applicable to you in terms of, if we allowed 
some refinancing options, and I am not talking about 
reamortizing the debt, stretching it out, I am just talking 
about a refinancing to take advantage of potentially lower 
rates. Have you looked at that to see----
    Dr. Gandhi. I appreciate your concern, Senator Landrieu, 
and I think currently we are exploring every available 
opportunity to refinance our debt. We want to be absolutely 
sure that as we refinance, that roughly 15 percent of the total 
current outstanding debt should be the limit by which we have 
new issue of additional general obligation. We also want to 
make sure that our debt services do not rise above the limits 
that we have imposed upon ourselves in terms of the overall 
revenues.
    But our fundamental problem, as the Mayor and Mrs. Cropp 
have pointed out, is that our per capita debt now is among the 
highest in the country, and we are neck and neck with New York.
    Senator Landrieu. And what is that? What is your per capita 
debt?
    Dr. Gandhi. That is around, roughly in 2004 it is likely to 
be around $5,000 per capita. That is a lot of per capita debt, 
because we are carrying the debt of the municipality, county, 
and the State.
    Senator Landrieu. Correct. It is a combined debt that you 
are carrying.
    Dr. Gandhi. Senator, the chairman had asked me a question 
about the viability of having an upgrade in the bond rating, 
but this is one of the things they look at, what is your per 
capita debt. In per capita debt, we are very high.
    Senator Landrieu. Well, explore--and if you have any 
Federal restrictions that are not allowing you to refinance to 
take advantage of lower rates, let us know, because it may be 
something that our committee could help you with, because some 
of us had that idea to allow all the cities to do it in the tax 
package. It did not make it in the final package.
    And finally--I know we have a vote--Mr. Mayor, we are 
committed, as the chairman, under his leadership, to help on 
this Anacostia piece. I think it is very important, to find out 
what the surrounding areas are contributing, because as I think 
about it, even if we would redo the sewer system here in the 
District, there are lots of other States or counties that drain 
into this basin. I should be more clear as to what Maryland and 
some of the other jurisdictions are doing in terms of their 
nonpoint pollution source and revitalization of their 
infrastructure, or is their infrastructure already where it 
needs to be?
    Mr. Williams. Well, certainly I would say that--and I 
applaud Senator Sarbanes, the former Governor, the current 
Governor, county executives, Prince George's and Montgomery 
County have all pledged their support to the Anacostia 
Waterfront Initiative, and indeed some steps have been taken 
certainly on a cosmetic level, although that is important, too, 
just the trash traps on some on the tributaries up in Maryland, 
so we at least do not have just huge amounts of floating debris 
on the top of the river, but above and beyond that, a firm 
commitment on real dollars to the water clean-up is still 
forthcoming.
    But I think that, you know, were there to be the kind of 
commitment by this Congress, I think--and certainly there is a 
commitment here at the local level--we are able to leverage 
that and get that commitment up there as well.
    Senator Landrieu. So to do this project, you would need 
Maryland, primarily, participating. Any other State?
    Mr. Williams. Well, you are talking about three rivers 
again. You are talking about Potomac, Anacostia, and Rock 
Creek.
    Senator Landrieu. So you would need Virginia, Maryland----
    Mr. Williams. The two most polluted, Rock Creek and 
Anacostia River, you are talking primarily Maryland. When you 
get into the Potomac, obviously you are talking about 
ultimately up into West Virginia and Virginia, in the 
watershed.
    Senator Landrieu. Okay. Thank you.

               PREPARED STATEMENT OF SENATOR PAUL STRAUSS

    Senator DeWine. Senator Strauss has prepared a statement 
for the record, which will be included.
    [The statement follows:]

               Prepared Statement of Senator Paul Strauss

    Chairman DeWine, Senator Laundrieu and distinguished members of the 
Senate Subcommittee. I am Paul Strauss, the Shadow United States 
Senator elected by the voters of the District of Columbia.
    I appreciate the opportunity to provide this statement on behalf of 
my constituents in the District of Columbia. Today I would like to 
address the District's fiscal year 2004 local budget request to 
Congress. I would like to state for the record that the locally raised 
portion District of Columbia budget should not have to go through this 
process. The fact that there is a congressional hearing devoted to our 
budget is fundamentally wrong. These hearings have been held in the 
D.C. Council and the District should not have to submit this purely 
local portion of the budget to Congress at all.
    It is essential to the District of Columbia that Congress pass this 
budget in time for the new fiscal year 2003. You must avoid getting the 
local District of Columbia budget held up in Continuing Resolutions. 
The consequences are severe enough when the Federal Budgets get held up 
in Continuing Resolutions but the consequences are far worse when 
applied to the budget of the District of Columbia. When the District of 
Columbia's budget is held up, needed spending adjustments increases are 
not allowed to be implemented and the cost of debt services increases. 
Our local govermental services suffer greatly every new day that our 
budget is held up.
    An easy solution to the dilemma of our budget being held up every 
year is budget autonomy. The budget autonomy bill in the House of 
Representatives allows the District Budget to be separated from the 
Federal Appropriations Process. That is a good step in the right 
direction but it does not go far enough. Our local budget should have 
nothing to do with Congress. Since fiscal year 1996, the District of 
Columbia has continuously provided Congress with a balanced budget. The 
District of Columbia has demonstrated itself as a competent, governing 
body, which should allow the District right to reject all policy 
interference and social riders attempting to regulate the government 
within the District. It should be the privilege and priority of the 
government of the District of Columbia, not Congress, to make the 
District's economic decisions. Although it is a present constitutional 
prerogative of Congress to exercise oversight of the District and its 
budgetary needs, it is not always appropriate.
    The District of Columbia has submitted a budget that calls for 
serious investments in education and public services. Mayor Williams, 
Chair Cropp, and Chief Financial Officer Gandhi have explained the 
specifics in great detail and I support their efforts in the budgetary 
requests of the District of Columbia.
    I do not mean to suggest that there is no role for Congress in the 
D.C. Budget process. This committee should focus on resolving the 
structural imbalance faced by the District of Columbia. The structural 
imbalance faced by the District of Columbia is one of the major 
problems concerning the budget. The gap between the District's ability 
to raise revenue at reasonable tax rates and the District's ability to 
provide services of reasonable quality to its residents jeopardizes the 
District's ability to retain residents. Instead of being penalized for 
residing in the District, they should receive the same constitutional 
rights as all American citizens.
    The government of the District of Columbia needs to be fairly 
compensated by Congress for the services it provides to Federal 
agencies. This compensation would provide a solution to the structural 
imbalance within the District's budget. The District's government 
represents the citizens of the most unique city in the Nation. The 
District has repeatedly provided Congress with a budget that has proved 
to be both sensible and attainable. The outlook for the current fiscal 
year 2003 budget is being projected as balanced with a surplus. The 
government of the District has proven itself to be the best determiner 
of the expenditures within the District itself. This reoccurring record 
of balanced and responsible budget management during times of economic 
hardships and declining revenues is yet another fact that proves the 
District's elected officials can govern the District. Not allowing the 
District to have complete control over its spending only increases the 
structural imbalance in the District which continues to discourage its 
citizens.
    The elected officials of the District work hard to ensure the 
District is able to attain the locally raised revenue needed to fund 
various local interests such as public service and education. The city 
should be able to utilize its tax dollars in a more flexible manner. 
Allowing the District's government flexibility with its tax dollars 
would give them an opportunity to provide the community grater benefit 
from that revenue. Flexible use of locally raised revenue within the 
District of Columbia would provide the proper funding would ensure the 
community's public service departments remain secure and stable 
entities within the city. My constituents have the right to receive 
needed revenue to meet their children's educational needs. I urge you 
to approve the proposed budget, as it will be necessary in aiding the 
improvement of our District's schools. The District submitted a timely 
budget so Congress has appropriate time to approve it. I again ask that 
Congress pass this budget before the beginning of the fiscal year. It 
is unfair the District and its constituents suffer Congressional delays 
that often disrupt critical improvements such as these within the local 
government.
    I would like to thank you, Chairperson DeWine for the opportunity 
to present this statement. This budget was carefully drafted in order 
to benefit the citizens of the District of Columbia. I support this 
prompt passage without amendment. In closing, let me that two members 
of my legislative staff, Matt Helfant and Tricia Torok, for their 
assistance in preparing my testimony this morning.

                          SUBCOMMITTEE RECESS

    Senator DeWine. Well, we thank you very much.
    Mr. Williams. Thank you, Mr. Chairman.
    Senator DeWine. I think it has been a very helpful hearing.
    Mr. Williams. Thank you.
    Senator DeWine. Thank you.
    [Whereupon, at 11:23 a.m., Wednesday, June 11, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page
Ashby, Cornelia M., Director of Education, Workforce, and Income 
  Security Issues, General Accounting Office.....................    76
    Prepared Statement of........................................    78

Bowens, Jacqueline, Vice President for Government and Public 
  Affairs, Children's National Medical Center....................   174
    Prepared Statement of........................................   178

CASA of the District of Columbia, Prepared Statement of..........   201
Conrad, Sister Ann Patrick, Associate Professor, National 
  Catholic School of Social Service, The Catholic University of 
  America........................................................   153
    Prepared Statement of........................................   158
Council for Court Excellence, Prepared Statement of the..........   203
Cropp, Linda W., Chairman, Council of the District of Columbia...   209
    Prepared Statement of........................................   225
    Statement of.................................................   221

Davis, Hon. Tom, U.S. Representative from Virginia:
    Prepared Statement of........................................    62
    Statement of.................................................    60
DeWine, Senator Mike, U.S. Senator from Ohio:
    Opening Statements of..........................1, 53, 133, 153, 209
    Prepared Statement of........................................    57
    Questions Submitted by.......................................47, 48

Egerton, Marilyn R., Deputy Director, Foster & Adoptive Parent 
  Advocacy Center................................................   161
    Prepared Statement of........................................   164

Gandhi, Natwar M., Chief Financial Officer, District of Columbia.   209
    Prepared Statement of........................................   229
    Statement of.................................................   227
Golden, Dr. Olivia A., Director, Child and Family Services 
  Agency, District of Columbia...................................    64
    Prepared Statement of........................................    66
Gould, Kate Deshler, Esq., National Association of Counsel for 
  Children, Washington, DC Chapter, Prepared Statement of........   206

King, Rufus, III, Chief Judge, Superior Court of the District of 
  Columbia, and Member, Joint Committee on Judicial 
  Administration in the District of Columbia....................13, 133
    Prepared Statement of........................................    14

Landrieu, Senator Mary L., U.S. Senator from Louisiana:
    Prepared Statements of....................................... 5, 59
    Questions Submitted by.......................................47, 48
    Statements of............................................3, 59, 210

Meltzer, Judith W., Deputy Director, Center for the Study of 
  Social Policy, and Court-Appointed Monitor, Child and Family 
  Services Agency, District of Columbia..........................    93
    Prepared Statement of........................................    95
Miller, Damian, Student, Hampton University, Statement of........   183

Nelson, Doug, Director, Property Development Division, Public 
  Buildings Service, National Capital Region, General Services 
  Administration.................................................   133
    Prepared Statement of........................................   137
    Statement of.................................................   136

Quander, Paul A., Jr., Director, Court Services and Offender 
  Supervision Agency, District of Columbia.......................    27
    Prepared Statement of........................................    29

Sandalow, Judith, Executive Director, Children's Law Center......   168
    Prepared Statement of........................................   171
Satterfield, Lee, Presiding Judge, Family Court of the District 
  of Columbia....................................................    13
Schneiders, Anne E., Chair and Founder, Washington Chapter, The 
  National Association of Counsel for Children...................    86
    Prepared Statement of........................................    89
Strauss, Senator Paul, U.S. Senator from the District of 
  Columbia, Prepared Statements of....................45, 134, 200, 241
Sullivan, Ronald S., Jr., Director, Public Defender Services, 
  District of Columbia...........................................    32
    Prepared Statement of........................................    33

Wagner, Annice M., Chief Judge, District of Columbia Court of 
  Appeals and Chairman, Joint Committee on Judicial 
  Administration, District of Columbia Courts....................1, 133
    Prepared Statements of.......................................9, 143
    Statements of................................................7, 140
Wicks, Anne, Executive Officer, D.C. Courts and Secretary, Joint 
  Committee on Judicial Administration in the District of 
  Columbia.......................................................1, 133
Williams, Hon. Anthony A., Mayor, District of Columbia...........   209
    Prepared Statement of........................................   217
    Statement of.................................................   213
Wright, Dr. Joseph, Medical Director for Advocacy and Community 
  Affairs, Children's National Medical Center....................   174
    Prepared Statement of........................................   178
    Statement of.................................................   176


                             SUBJECT INDEX

                              ----------                              

                          DISTRICT OF COLUMBIA

                                                                   Page

Bond Rating......................................................   236
Combined Sewer Overflow Project Upgrades.........................   237
Council Period XV................................................   226
Critical Federal Financial Support...............................   220
Disruptions Resulting from Federal Review of the District's 
  Budget.........................................................   219
Education........................................................   232
Federal:
    Constraints on Revenue Collection Resulting in Structural 
      Imbalance..................................................   218
    Contribution.................................................   227
Fiscal Year:
    2003 Financial Outlook.......................................   230
    2004 Budget Request..........................................   230
Highlights of the Fiscal Year 2004 Budget........................   226
Metro Commitment.................................................   238
Sacrifices Made to Preserve Budgetary Balance....................   218
School Choice....................................................   234
Structural Imbalance in the District's Budget....................   231
Supporting Children in the District..............................   221
The Council/Mayor Budget Process.................................   226
The Council/Public Citizen Budget Process........................   226

             Court Services and Offender Supervision Agency

Faith-Based Initiative...........................................    45
Offenders........................................................    40
Questions Submitted to the.......................................    48
Supervisor/Pretrial Defendants Ratio.............................    42

                                 Courts

Appropriations Language Changes..................................    12
Capital Questions................................................    47
Capital Funding in Fiscal Year 2004..............................   146
Comparison of Courthouse Construction Plans......................   151
Critical Fiscal Year 2004 Budget Priorities......................    10
Enhancing Security and Emergency Preparedness....................     5
Facilities Overview..............................................   143
Fact Sheet--D.C. Courts:
    Building ``B'' Interior Renovations..........................   138
    Moultrie Courthouse Expansion................................   139
    Old D.C. Courthouse and Parking Garage.......................   138
Family Court in the Master Plan..................................   145
Fiscal Year 2005 Funding Requirements............................   148
Master Plan for Facilities.......................................   145
Phasing of Construction Funds....................................   151
Questions Submitted to the.......................................    47
Revitalization of Neighborhoods..................................     6
Strengthening Schools and Education Standards....................     5
Supporting the Family Court in the District and Reforming Child 
  Welfare........................................................     6

                          D.C. Superior Court

Capital Expenditure..............................................    16
Children Adoptions...............................................    22
Community Court for Minor Misdemeanors and Traffic Cases.........    15
Domestic Violence................................................    25
Family Court Implementation......................................    15
The 6D Community Court...........................................    15
    Intake Center................................................    15

                        Public Defender Services

Administrative Accomplishments...................................    39
Community Re-entry Initiative....................................    36
Criminal Justice Collaboration Project...........................    38
DNA Sample Collection Response Initiative........................    35
Fiscal Year:
    2003:
        Accomplishments..........................................    35
        Initiatives..............................................    35
    2004 Request.................................................    34
General Program Accomplishments..................................    37
Other Program Accomplishments....................................    38
Parole Revocation Defense Initiative.............................    36


</pre></body></html>
